<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-543]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-543
 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2005

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 4755/S. 2666

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2005, AND FOR OTHER PURPOSES

                               __________

             Architect of the Capitol (except House items)
                          Capitol Police Board
                      Congressional Budget Office
                       General Accounting Office
                       Government Printing Office
                          Library of Congress
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________

                 U.S. GOVERNMENT PRINTING OFFICE

92-158                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800: 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001















                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman
ROBERT F. BENNETT, Utah              RICHARD J. DURBIN, Illinois
TED STEVENS, Alaska                  TIM JOHNSON, South Dakota
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                          Carolyn E. Apostolou
                     Terrence E. Sauvain (Minority)
                        Drew Willison (Minority)

                         Administrative Support

                              Erin McHale
                       Nancy Olkewicz (Minority)













                            C O N T E N T S

                              ----------                              

                        Thursday, March 4, 2004

                                                                   Page
General Accounting Office........................................     1
Government Printing Office.......................................    31
Congressional Budget Office......................................    41

                        Thursday, March 11, 2004

Library of Congress..............................................    47

                       Wednesday, March 31, 2004

U.S. Senate: Office of the Sergeant at Arms and Doorkeeper.......    81
Capitol Police Board.............................................   113

                        Thursday, April 8, 2004

U.S. Senate: Office of the Secretary.............................   135
Architect of the Capitol.........................................   207















         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        THURSDAY, MARCH 4, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:58 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Stevens, and Durbin.

                       GENERAL ACCOUNTING OFFICE

STATEMENT OF DAVID M. WALKER, COMPTROLLER GENERAL
ACCOMPANIED BY:
        GENE L. DODARO, CHIEF OPERATING OFFICER
        SALLYANNE HARPER, CHIEF ADMINISTRATIVE OFFICER
        STANLEY J. CZERWINSKI, CONTROLLER


          opening statement of senator ben nighthorse campbell


    Senator Campbell. The subcommittee will come to order. 
Senator Durbin is running a little late and will be here in 
just a few minutes.
    Today's hearing is the first of four hearings we plan to 
have to review the fiscal year 2005 legislative branch budget 
request which totals roughly $4 billion.
    Overall, legislative branch agencies have requested a 12 
percent increase over the current fiscal year level. Clearly 
this total level of spending will be very difficult, if not 
impossible, to accommodate in view of the overall budget 
constraints we face. We will be asking all agencies to have 
another look at their budgets to ensure that there have been no 
items requested which are not truly needed next year, and we 
will also be exploring the impact of cutting budgets back to 
current levels, if that is necessary, which it appears to be at 
this point.
    This morning we will take testimony from three agencies: 
the General Accounting Office, the Government Printing Office, 
and the Congressional Budget Office.
    We will hear first from Mr. David Walker, Comptroller 
General. Mr. Walker will be accompanied by Deputy Chief Gene 
Dodaro. Welcome, Gene. And Mr. Stan Czerwinski, GAO's budget 
officer. GAO's budget request of $486 million is a steady-state 
budget, with the exception of the request for a permanent new 
technology assessment capability.
    The GAO will be followed by the Government Printing Office: 
Mr. Bruce James, the Public Printer; accompanied by Mr. William 
Turri, the Deputy Printer; and Steve Shedd, the Chief Financial 
Officer. The GPO has many initiatives underway at this time to 
restructure their agency, including the possible relocation of 
their facility from its present North Capitol Street location. 
The budget request of $151 million includes $25 million for 
transformation efforts, but we do not have a delineation of 
what those transformation efforts involve. It might be very 
difficult to provide the funds without a detailed spending 
plan.
    And finally, we will hear from Mr. Douglas Holtz-Eakin, the 
Director of the Congressional Budget Office, accompanied by Dr. 
Elizabeth Robinson, CBO's new Deputy Director. CBO's budget 
request of $35 million is a 5.5 percent increase over the 
current fiscal year and would support the current staffing 
level of 235 FTE.
    So we welcome everyone this morning. Mr. Walker, if you 
would like to proceed. If you would like to abbreviate your 
comments, we will put your complete testimony in the record.


                    opening remarks of david walker


    Mr. Walker. Thank you, Mr. Chairman. It is a pleasure to be 
here again. On my far right is Stan Czerwinski, who is our 
Controller. To my immediate right is Sallyanne Harper, who is 
our Chief Administrative Officer and Chief Financial Officer, 
and on my immediate left is Gene Dodaro, who is our Chief 
Operating Officer.
    Mr. Chairman, we believe that our fiscal year 2005 budget 
request is both reasonable and responsible. We have asked for a 
4.9 percent increase, primarily to cover automatic pay 
increases and related costs, as well as price level increases. 
This requested level will allow us to maintain our base 
authorized FTEs, maintain operational support at fiscal year 
2004 levels, and continue to meet the needs of the Congress at 
present service levels.
    Our requested budget reflects an offset of almost $5 
million from nonrecurring fiscal year 2004 estimates, and it 
represents a baseline review approach.
    In times of tight budgets and fiscal pressures, I believe 
it is especially important for GAO to lead by example in 
connection with our budget request. We have done so as noted by 
the fact that we are requesting the smallest percentage 
increase of any legislative branch agency. In addition, we have 
helped this subcommittee in your initial efforts to assure that 
other legislative branch agencies ultimately employ a baseline 
review approach in their budget submissions.
    In the years ahead, our support to the Congress will likely 
prove even more critical because of pressures created on our 
Nation caused by large and growing fiscal imbalances. I believe 
that GAO's help will prove to be invaluable as the Congress 
seeks to review, reprioritize, and re-engineer existing 
mandatory and discretionary spending programs and tax policies.
    Maintaining a strong and adequately resourced GAO will also 
help ensure that we can continue to provide an excellent return 
on investment to the Congress and the country. Last year we 
returned $78 for every dollar invested in GAO, number one in 
the world. Nobody is even close.
    Mr. Chairman and members of the subcommittee, I 
respectfully request that you consider the modest nature of our 
request and the unparalleled return on investment the Congress 
and the country receives from your investment in GAO's work. I 
would also respectfully request you consider the fact that many 
independent sources have noted that we at GAO are leading in 
the transformation of how the Government does business, and in 
order to continue to do that, we will need your help and 
reasonable resource levels.


                           prepared statement


    Thank you, Mr. Chairman, Senator Durbin. I would be happy 
to answer any questions you might have.
    [The statement follows:]
                 Prepared Statement of David M. Walker
    Mr. Chairman and Members of the Subcommittee: I am pleased to 
appear before the subcommittee today, having recently completed my 
fifth year as the Comptroller General of the United States and head of 
the U.S. General Accounting Office. GAO exists to support the Congress 
in meeting its constitutional responsibilities and to help improve the 
performance and ensure the accountability of the federal government for 
the benefit of the American people. In the years ahead, our support to 
the Congress will likely prove even more critical because of the 
pressures created by our nation's large and growing long-term fiscal 
imbalance, which is driven primarily by known demographic and rising 
health care trends. These pressures will require the Congress to make 
tough choices regarding what the government does, how it does business, 
and who will do the government's business in the future. GAO's work 
covers virtually every area in which the federal government is or may 
become involved, anywhere in the world. Perhaps just as importantly, 
our work sometimes leads us to sound the alarm over problems looming 
just beyond the horizon--such as our nation's enormous long-term fiscal 
challenges--and help policymakers address these challenges in a timely 
and informed manner.
    My testimony today will focus on GAO's progress during my first 
five years as Comptroller General. I will highlight our (1) fiscal year 
2003 performance and results; (2) efforts to maximize our 
effectiveness, responsiveness, and value; and (3) budget request for 
fiscal year 2005 to support the Congress and serve the American people. 
Following is a summary:
  --The funding we received in fiscal year 2003 allowed us to conduct 
        work that addressed many of the difficult issues confronting 
        the nation, including diverse and diffuse security threats, 
        selected government transformation challenges, and the nation's 
        long-term fiscal imbalance. Perhaps the foremost challenge 
        facing government decision makers this year was ensuring the 
        security of the American people. By providing professional, 
        objective, and nonpartisan information and analyses, we helped 
        inform the Congress and the executive branch agencies on key 
        security issues, such as the nature and scope of threats 
        confronting the nation's nuclear weapons facilities, its 
        information systems, and all areas of its transportation 
        infrastructure, as well as the challenges involved in creating 
        the Department of Homeland Security. Our work was also driven 
        by changing demographic trends, which led us to focus on such 
        areas as the quality of care in the nation's nursing homes and 
        the risks to the government's single-employer pension insurance 
        program. Our work in these and other areas covered programs 
        that involve billions of dollars and touch millions of lives. 
        Importantly, in fiscal year 2003, GAO generated a $78 return 
        for each $1 appropriated to our agency.
  --With the Congress's support, we have demonstrated that becoming 
        world class does not require a substantial increase in the 
        number of staff authorized, but rather maximizing the efficient 
        and effective use of the resources available to us. We have 
        worked with you to obtain targeted funding for areas critical 
        to GAO such as information technology, security, and human 
        capital management. We are grateful to the Congress for 
        supporting our efforts through pending legislation that, if 
        passed, would give us additional human capital flexibilities. 
        During tight budget times, these flexibilities would allow us, 
        among other things, more options to deal with mandatory pay and 
        related costs.
  --In keeping with my belief that the federal government needs to 
        exercise a greater degree of fiscal discipline, we have kept 
        our request to $486 million, an increase of only 4.9 percent 
        over fiscal year 2004. I also applaud the Congress's request 
        that all legislative branch agencies examine how they could 
        work toward a more transparent budget presentation. In keeping 
        with the Congress's intent, we are continuing our efforts to 
        revamp our budget presentation to make the linkages between 
        funding and program areas more clear. I hope that in the future 
        the Congress will be able to use such performance information 
        to make tough choices on funding, thereby enabling it to avoid 
        across-the-board reductions that penalize agencies that 
        exercise fiscal discipline and generate high returns on 
        investment and real results.
                fiscal year 2003 performance and results
    GAO is a key source of professional and objective information and 
analysis and, as such, plays a crucial role in supporting congressional 
decision making. For example, in fiscal year 2003, as in other years, 
the challenges that most urgently engaged the attention of the Congress 
helped define our priorities. Our work on issues such as the nation's 
ongoing battle against terrorism, Social Security and Medicare reform, 
the implementation of major education legislation, human capital 
transformations at selected federal agencies, and the security of key 
government information systems all helped congressional members and 
their staffs to develop new federal policies and programs and oversee 
ongoing ones. Moreover, the Congress and the executive agencies took a 
wide range of actions in fiscal year 2003 to improve government 
operations, reduce costs, or better target budget authority based on 
GAO's analyses and recommendations. In fiscal year 2003, GAO served the 
Congress and the American people by helping to identify steps to reduce 
improper payments and credit card fraud in government programs; 
restructure government and improve its processes and systems to 
maximize homeland security; prepare the financial markets to continue 
operations if terrorism recurs; update and strengthen government 
auditing standards; improve the administration of Medicare as it 
undergoes reform; encourage and help guide federal agency 
transformations; contribute to congressional oversight of the federal 
income tax system; identify human capital reforms needed at the 
Department of Defense, the Department of Homeland Security, and other 
federal agencies; raise the visibility of long-term financial 
commitments and imbalances in the federal budget; reduce security risks 
to information systems supporting the nation's critical 
infrastructures; oversee programs to protect the health and safety of 
today's workers; ensure the accountability of federal agencies through 
audits and performance evaluations; and serve as a model for other 
federal agencies by modernizing our approaches to managing and 
compensating our people.
    To ensure that we are well positioned to meet the Congress's future 
needs, we update our 6-year strategic plan every 2 years, consulting 
extensively during the update with our clients in the Congress and with 
other experts (see app. I for our strategic plan framework).
    The following table summarizes selected performance measures and 
targets for fiscal years 1999 through 2005. Highlights of our fiscal 
year 2003 accomplishments and their impact on the American public are 
shown in the following sections.

                    TABLE 1.--SELECTED ANNUAL MEASURES AND TARGETS FOR FISCAL YEARS 1999-2005
                                              [Dollars in billions]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal year--
                                         -----------------------------------------------------------------------
           Performance measure              1999     2000     2001     2002     2003     2003     2004     2005
                                           Actual   Actual   Actual   Actual   Target   Actual   Target   Target
----------------------------------------------------------------------------------------------------------------
Financial benefits......................    $20.1    $23.2    $26.4  \1\ $37    $32.5    $35.4    $35.0    $36.0
                                                                          .7
Other benefits..........................      607      788      799      906      800    1,043  \2\ 900      900
Past recommendations implemented               70       78       79       79       77       82   \2\ 79       79
 (percent)..............................
New recommendations made................      940    1,224    1,563    1,950    1,250    2,175  \2\ 1,5    1,500
                                                                                                     00
Testimonies.............................      229      263      151      216      180      189  \2\ 190      180
Timeliness (percent)....................       96       96       95       96       98       97       98       98
----------------------------------------------------------------------------------------------------------------
\1\ Changes GAO made to its methodology for tabulating financial benefits in part caused our results to increase
  beginning with the fiscal year 2002 results.
\2\ On the basis of past performance and expected future work, we revised these targets after we issued our
  fiscal year 2004 performance plan. The original targets were 820 for other benefits, 77 percent for past
  recommendations implemented, 1,250 for new recommendations made, and 200 for testimonies.
 Source: GAO.

Benefits Reported
    Many of the benefits produced by our work can be quantified as 
dollar savings for the federal government (financial benefits), while 
others cannot (other benefits). Both types of benefits resulted from 
our efforts to provide information to the Congress that helped (1) 
improve services to the public, (2) provide information that resulted 
in statutory or regulatory changes, and (3) improve core business 
processes and advance governmentwide management reforms.
    In fiscal year 2003, our work generated $35.4 billion in financial 
benefits--a $78 return on every dollar appropriated to GAO. The funds 
made available in response to our work may be used to reduce government 
expenditures or reallocated by the Congress to other priority areas. 
Nine accomplishments accounted for nearly $27.4 billion, or 77 percent, 
of our total financial benefits for fiscal year 2003. Six of these 
accomplishments totaled $25.1 billion. Table 2 lists selected major 
financial benefits in fiscal year 2003 and describes the work 
contributing to financial benefits over $500 million.

 TABLE 2.--GAO'S SELECTED MAJOR FINANCIAL BENEFITS FOR FISCAL YEAR 2003
                        [In millions of dollars]
------------------------------------------------------------------------
                        Description                             Amount
------------------------------------------------------------------------
Financial benefits exceeding $1 billion:
    Updated the Consumer Price Index (CPI): Recommended            9,200
     that the Bureau of Labor Statistics periodically
     update the expenditure weights of its market basket of
     goods and services used to calculate the CPI to make
     it more timely and representative of consumer
     expenditures. The Bureau agreed to do this every 2
     years, and the CPI for January 2002 reflected the new
     weights. The adjustments have resulted in, among other
     things, lower federal expenditures on programs like
     Social Security that use the CPI to calculate benefits
    Eliminated Medicaid's upper payment limit loophole:            5,900
     Identified a weakness in Medicaid's upper payment
     limit methodology that allowed states to make
     excessive payments to local, government-owned nursing
     facilities and then have the facilities return the
     payments to the states, creating the illusion that
     they made large Medicaid payments in order to generate
     federal matching payments. Closing the loophole
     prevented the federal government from making
     significant federal matching payments to states above
     those intended by Medicaid............................
    Made funds available for lighter-weight weapons                3,900
     systems: Identified the Crusader artillery system as a
     duplicative weapons system that was inconsistent with
     the Department of the Army's plans to transform itself
     into a lightweight combat force. The Department of
     Defense (DOD) terminated the Crusader program,
     resulting in costs avoided............................
    Reduced the cost of federal housing programs: Improved         3,400
     management of the Department of Housing and Urban
     Development's unexpended balances resulting in the
     recapture of unobligated funds........................
    Reduced the cost of DOD's services acquisition process:        1,700
     Examined the acquisition practices of leading
     commercial companies and recommended a more strategic
     approach for acquiring services at DOD, which was
     implemented...........................................
    Avoided costs associated with an increase in the               1,000
     skilled nursing facilities rate: Determined that the
     Congress's increase in the nursing component of
     Medicare's daily rate for skilled nursing facilities
     had little effect on increasing the ratios of nursing
     staff to patients in these facilities. The nursing
     component increase expired on October 1, 2002, and
     despite arguments from the nursing facility industry,
     the nursing component increase has not been reinstated
Selected financial benefits between $500 million and $1
 billion:
    Recovered Supplemental Security Income (SSI)                     990
     overpayments: Identified weaknesses in the Social
     Security Administration's (SSA) efforts to recover SSI
     overpayments that led to the development of SSA's
     automated reconciliation process......................
    Reduced DOD's implementation risks and purchase costs            780
     for the Navy-Marine Corps intranet: Highlighted the
     need for various management controls related to the
     acquisition and implementation of the Navy-Marine
     Corps intranet. As a result, DOD modified the Navy-
     Marine Corps intranet contract and reduced contract
     amounts in fiscal year 2002 and fiscal year 2003,
     reduced program risks, and increased the likelihood
     that the program will be acquired and implemented
     successfully..........................................
    Ensured Defense Emergency Response funds are better              517
     targeted: Identified millions of dollars in
     unobligated DOD Emergency Response funding, a portion
     of which the Congress rescinded or directed DOD to
     reallocate for other fund purposes....................
------------------------------------------------------------------------
Source: GAO.

    Many of the benefits that flow to the American people from our work 
cannot be measured in dollar terms. During fiscal year 2003, we 
recorded a total of 1,043 other benefits--up from 607 in fiscal year 
1999. As shown in appendix II, we documented instances where 
information we provided to the Congress resulted in statutory or 
regulatory changes, where federal agencies improved services to the 
public and where agencies improved core business processes or 
governmentwide reforms were advanced.
    These actions spanned the full spectrum of national issues, from 
securing information technology systems to improving the performance of 
state child welfare agencies. We helped improve services to the public 
by
  --Strengthening the U.S. visa process as an antiterrorism tool.--Our 
        analysis of the U.S. visa-issuing process showed that the 
        Department of State's visa operations were more focused on 
        preventing illegal immigrants from obtaining nonimmigrant visas 
        than on detecting potential terrorists. We recommended that 
        State reassess its policies, consular staffing procedures, and 
        training program. State has taken steps to adjust its policies 
        and regulations concerning the screening of visa applicants and 
        its staffing and training for consular officers.
  --Enhancing quality of care in nursing homes.--In a series of reports 
        and testimonies since 1998, we found that, too often, residents 
        of nursing homes were being harmed and that programs to oversee 
        nursing home quality of care at the Centers for Medicare and 
        Medicaid Services were not fully effective in identifying and 
        reducing such problems. In 2003, we found a decline in the 
        proportion of nursing homes that harmed residents but made 
        additional recommendations to further improve care.
  --Making key contributions to homeland security.--Drawing on an 
        extensive body of completed and ongoing work, we identified 
        specific vulnerabilities and areas for improvement to protect 
        aviation and surface transportation, chemical facilities, sea 
        and land ports, financial markets, and radioactive sealed 
        sources. In response to our recommendations, the Congress and 
        cognizant agencies have undertaken specific steps to improve 
        infrastructure security and improve the assessment of 
        vulnerabilities.
  --Improving compliance with seafood safety regulations.--We reported 
        that when Food and Drug Administration (FDA) inspectors 
        identified serious violations at seafood processing firms, it 
        took FDA 73 days on average, well above its 15-day target. 
        Based on our recommendations, FDA now issues warning letters in 
        about 20 days.
    We helped to change laws in the following ways:
  --We highlighted the National Smallpox Vaccination program 
        volunteers' concerns about losing income if they sustained 
        injuries from an inoculation. As a result, the Smallpox 
        Emergency Personnel Protection Act of 2003 (Public Law No. 108-
        20) provides benefits and other compensation to covered 
        individuals injured in this way.
  --We performed analyses that culminated in the enactment of the 
        Postal Civil Service Retirement System Funding Reform Act of 
        2003 (Public Law No. 108-18), which reduced USPS's pension 
        costs by an average of $3 billion per year over the next 5 
        years. The Congress directed that the first 3 years of savings 
        be used to reduce USPS's debt and hold postage rates steady 
        until fiscal 2006.
    We also helped to promote sound agency and governmentwide 
management by
  --Encouraging and helping guide agency transformations.--We 
        highlighted federal entities whose missions and ways of doing 
        business require modernized approaches, including the Postal 
        Service and the Coast Guard. Among congressional actions taken 
        to deal with modernization issues, the House Committee on 
        Government Reform established a special panel on postal reform 
        and oversight to work with the President's Commission on the 
        Postal Service on recommendations for comprehensive postal 
        reform. Our recommendations to the Coast Guard led to better 
        reporting by the Coast Guard and laid the foundation for key 
        revisions the agency intended to make to its strategic plan.
  --Helping to advance major information technology modernizations.--
        Our work has helped to strengthen the management of the complex 
        multibillion-dollar information technology modernization 
        program at the Internal Revenue Service (IRS) to improve 
        operations, promote better service, and reduce costs. For 
        example, IRS implemented several of our recommendations to 
        improve software acquisition, enterprise architecture 
        definition and implementation, and risk management and to 
        better balance the pace and scope of the program with IRS's 
        capacity to effectively manage it.
  --Supporting controls over DOD's credit cards.--In a series of 
        reports and testimonies beginning in 2001, we highlighted 
        pervasive weaknesses in DOD's overall credit card control 
        environment, including the proliferation of credit cards and 
        the lack of specific controls over its multibillion-dollar 
        purchase and travel card programs. DOD has taken many actions 
        to reduce its vulnerabilities in this area.
Benefits to State and Local Governments
    While our primary focus is on improving government operations at 
the federal level, sometimes our work has an impact at the state and 
local levels. To the extent feasible, in conducting our audits and 
evaluations, we cooperate with state and local officials. At times, our 
work results will have local applications, and local officials will 
take advantage of our efforts. We are conducting a pilot to determine 
the feasibility of measuring the impact of our work on state and local 
governments. The following are examples we have collected during our 
pilot where our work is relevant for state and local government 
operations:
  --Identity theft.--Effective October 30, 1998, the Congress enacted 
        the ``Identity Theft and Assumption Deterrence Act of 1998'' 
        prohibiting the unlawful use of personal identifying 
        information, such as names, Social Security numbers, and credit 
        card numbers. GAO report GGD-98-100BR is mentioned prominently 
        in the act's legislative history. Subsequently, a majority of 
        states have enacted identity theft laws. Sponsors of some of 
        these state enactments--Alaska, Florida, Illinois, Michigan, 
        Pennsylvania, and Texas--mentioned the federal law and/or our 
        report. For example, in 1999, Texas enacted SB 46, which is 
        modeled after the federal law. Justice officials said that 
        enactment of state identity theft laws has multijurisdictional 
        benefits to all levels of law enforcement--federal, state, and 
        local.
  --Pipeline safety.--Our report GAO-RCED-00-128, Pipeline Safety: The 
        Office of Pipeline Safety Is Changing How It Oversees the 
        Pipeline Industry, found that the Department of 
        Transportation's Office of Pipeline Safety was reducing its 
        reliance on states to help oversee the safety of interstate 
        pipelines. The report stated that allowing states to 
        participate in this oversight could improve pipeline safety. As 
        a result, the Office of Pipeline Safety modified its Interstate 
        Pipeline Oversight Program for 2001-2002 to allow greater 
        opportunities for state participation.
  --Temporary Assistance for Needy Families Grant Program.--We reported 
        on key national and state labor market statistics and changes 
        in the levels of cash assistance and employment activities in 
        five selected states. We also highlighted the fact that the 
        five states had faced severe fiscal challenges and had used 
        reserve funds to augment their spending above the amount of 
        their annual Temporary Assistance for Needy Families block 
        grant from the federal government.
GAO's High-Risk Program
    Issued to coincide with the start of each new Congress, our high-
risk update lists government programs and functions in need of special 
attention or transformation to ensure that the federal government 
functions in the most economical, efficient, and effective manner 
possible. This is especially important in light of the nation's large 
and growing long-term fiscal imbalance. Our latest report, released in 
January 2003, spotlights more than 20 troubled areas across 
government.\1\ Many of these areas involve essential government 
services, such as Medicare, housing programs, and postal service 
operations that directly affect the lives and well-being of the 
American people.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, High Risk Series: An Update, 
GAO-03-119 (Washington, D.C.: January 2003).
---------------------------------------------------------------------------
    Our high-risk program, which we began in 1990, includes five high-
risk areas added in 2003: implementing and transforming the new 
Department of Homeland Security; modernizing federal disability 
programs; federal real property, Medicaid program; and Pension Benefit 
Guaranty Corporation's (PBGC) single-employer pension insurance 
program.\2\
---------------------------------------------------------------------------
    \2\ We added this issue in July 2003 after we published the January 
2003 update.
---------------------------------------------------------------------------
    In fiscal year 2003, we also removed the high-risk designation from 
two programs: the Social Security Administration's Supplemental 
Security Income program, and Asset Forfeiture programs administered by 
the U.S. Departments of Justice and the Treasury.
    In fiscal 2003, we issued 208 reports and delivered 112 testimonies 
related to high-risk areas, and our related work resulted in financial 
benefits totaling almost $21 billion. Our sustained focus on high-risk 
problems also has helped the Congress enact a series of governmentwide 
reforms to strengthen financial management, improve information 
technology, and create a more results-oriented and accountable federal 
government. The President's Management Agenda for reforming the federal 
government mirrors many of the management challenges and program risks 
that we have reported on in our performance and accountability series 
and high-risk updates, including a governmentwide initiative to focus 
on strategic management of human capital.
    Following GAO's designation of federal real property as a high-risk 
issue, the Office of Management and Budget (OMB) has indicated its 
plans to add federal real property as a new program initiative under 
the President's Management Agenda. OMB recently issued an executive 
order on federal real property that addresses many of GAO's concerns, 
including the need to better emphasize the importance of government 
property to effective management. We have an ongoing dialog with OMB 
regarding the high-risk areas, and OMB is working with agency officials 
to address many of our high-risk areas. Some of these high-risk areas 
may require additional authorizing legislation as one element of 
addressing the problems.
    Our fiscal year 2003 high-risk list is shown in table 3.

                   TABLE 3.--GAO'S 2003 HIGH-RISK LIST
------------------------------------------------------------------------
                                                               Year
                     High-risk area                         designated
                                                             high-risk
------------------------------------------------------------------------
Addressing challenges in broad-based transformations:
    Strategic human capital management \1\..............            2001
    U.S. Postal Service transformation efforts and long-            2001
     term outlook \1\...................................
    Protecting information systems supporting the                   1997
     federal government and the nation's critical
     infrastructures....................................
    Implementing and transforming the new Department of             2003
     Homeland Security..................................
    Modernizing federal disability programs \1\.........            2003
    Federal real property \1\...........................            2003
Ensuring major technology investments improve services:
    Federal Aviation Administration (FAA) air traffic               1995
     control modernization..............................
    IRS business systems modernization..................            1995
    DOD systems modernization...........................            1995
Providing basic financial accountability:
    DOD financial management............................            1995
    Forest Service financial management.................            1999
    FAA financial management............................            1999
    IRS financial management............................            1995
Reducing inordinate program management risks:
    Medicare program \1\................................            1990
    Medicaid program \1\................................            2003
    Earned income credit noncompliance..................            1995
    Collection of unpaid taxes..........................            1990
    DOD support infrastructure management...............            1997
    DOD inventory management............................            1990
    HUD single-family mortgage insurance and rental                 1994
     assistance programs................................
    Student financial aid programs......................            1990
    Pension Benefit Guaranty Corporation's (PBGC) single-           2003
     employer pension insurance program.................
Managing large procurement operations more efficiently:
    DOD weapon systems acquisition......................            1990
    DOD contract management.............................            1992
    Department of Energy contract management............            1990
    NASA contract management............................            1990
------------------------------------------------------------------------
\1\ Additional authorizing legislation is likely to be required as one
  element of addressing this high-risk area.
 Source: GAO.

Testimonies
    During fiscal year 2003 GAO executives testified at 189 
congressional hearings--sometimes with very short notice--covering a 
wide range of complex issues. Testimony is one of our most important 
forms of communication with the Congress; the number of hearings at 
which we testify reflects, in part, the importance and value of our 
expertise and experience in various program areas and our assistance 
with congressional decision making. The following figure highlights, by 
GAO's three external strategic goals for serving the Congress, examples 
of issues on which we testified during fiscal year 2003.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While the vast majority of our products--97 percent--were completed 
on time for our congressional clients and customers in fiscal year 
2003, we slightly missed our target of providing 98 percent of them on 
the promised day. We track the percentage of our products that are 
delivered on the day we agreed to with our clients because it is 
critical that our work be done on time for it to be used by 
policymakers. Though our 97 percent timeliness rate was a percentage 
point improvement over our fiscal year 2002 result, it was still a 
percentage point below our goal. As a result, we are taking steps to 
improve our performance in the future by encouraging matrix management 
practices among the teams supporting various strategic goals and 
identifying early those teams that need additional resources to ensure 
the timely delivery of their products to our clients.
       maximizing gao's effectiveness, responsiveness, and value
    The results of our work were possible, in part, because of the 
changes we have made to maximize the value of GAO. With the Congress's 
support, we have demonstrated that becoming world class does not 
require substantial staffing increases, but rather maximizing the 
efficient and effective use of the resources available to us. Since I 
came to GAO, we have developed a strategic plan, realigned our 
organizational structure and resources, and increased our outreach and 
service to our congressional clients. We have developed and revised a 
set of congressional protocols, developed agency and international 
protocols, and better refined our strategic and annual planning and 
reporting processes. We have worked with you to make changes in areas 
where we were facing longer-term challenges when I came to GAO, such as 
in the critical human capital, information technology, and physical 
security areas. We are grateful to the Congress for supporting our 
efforts through pending legislation that, if passed, would give us 
additional human capital flexibilities that will allow us, among other 
things, to move to an even more performance-based compensation system 
and help to better position GAO for the future. As part of our ongoing 
effort to ensure the quality of our work, this year a team of 
international auditors will perform a peer review of GAO's performance 
audit work issued in calendar year 2004.
Making GAO's Work Accessible to the American People
    We continued our policy of proactive outreach to our congressional 
clients, the press, and the public to enhance the visibility of our 
products. On a daily basis we compile and publish a list of our current 
reports. This feature has more than 18,000 subscribers, up 3,000 from 
last year. We also produced an update of our video on GAO, ``Impact 
2003.'' Our external Web site continues to grow in popularity, having 
increased the number of hits in fiscal year 2003 to an average of 3.4 
million per month, 1 million more per month than in fiscal year 2002. 
In addition, visitors to the site are downloading an average of 1.1 
million files per month. As a result, demand for printed copies of our 
reports has dramatically declined, allowing us to phase out our 
internal printing capability.
Promoting Sound Financial Management and Improving Strategic Management
    For the 17th consecutive year, GAO's financial statements have 
received an unqualified opinion from our independent auditors. We 
prepared our financial statements for fiscal year 2003 and the audit 
was completed a month earlier than last year and a year ahead of the 
accelerated schedule mandated by OMB. For a second year in a row, the 
Association of Government Accountants awarded us a certificate of 
excellence; this year the award was for the fiscal year 2002 annual 
performance and accountability report.
Aligning GAO's Workforce and Mission Needs
    Given our role as a key provider of information and analyses to the 
Congress, maintaining the right mix of technical knowledge and 
expertise as well as general analytical skills is vital to achieving 
our mission. Because we spend about 80 percent of our resources on our 
people, we need excellent human capital management to meet the 
expectations of the Congress and the nation. Accordingly, in the past 
few years, we have expanded our college recruiting and hiring program 
and focused our overall hiring efforts on selected skill needs 
identified during our workforce planning effort and to meet succession 
planning needs. For example, we identified and reached prospective 
graduates with the required skill sets and focused our intern program 
on attracting those students with the skill sets needed for our analyst 
positions. Our efforts in this area were recognized by Washingtonian 
magazine, which listed GAO as one of the ``Great Places to Work'' in 
its November 2003 issue. Continuing our efforts to promote the 
retention of staff with critical skills, we offered qualifying 
employees in their early years at GAO student loan repayments in 
exchange for their signed agreements to continue working at GAO for 3 
years.
    We also have begun to better link compensation, performance, and 
results. In fiscal year 2002 and 2003, we implemented a new performance 
appraisal system for our analyst, attorney, and specialist staff that 
links performance to established competencies and results. We evaluated 
this system in fiscal year 2003 and identified and implemented several 
improvements, including conducting mandatory training for staff and 
managers on how to better understand and apply the performance 
standards, and determining appropriate compensation. We will implement 
a new competency based appraisal system, pay banding and a pay for 
performance system for our administrative professional and support 
services staff this fiscal year.
    To train our staff to meet the new competencies, we developed an 
outline for a new competency-based and role- and task-driven learning 
and development curriculum that identified needed core and elective 
courses and other learning resources. We also completed several key 
steps to improve the structure of our learning organization, including 
hiring a Chief Learning Officer and establishing a GAO Learning Board 
to guide our learning policy, to set specific learning priorities, and 
to oversee the implementation of a new training and development 
curriculum.
    We also drafted our first formal and comprehensive strategic plan 
for human capital to communicate both internally and externally our 
strategy for enhancing our standing as a model professional services 
organization, including how we plan to attract, retain, motivate, and 
reward a high-performing and top-quality workforce. We expect to 
publish the final plan this fiscal year. Our Employee Advisory Council 
is now a fully democratically elected body that advises GAO's senior 
executives on matters of interest to our staff. We also established a 
Human Capital Partnership Board to gather opinions of a cross section 
of our employees about upcoming initiatives and ongoing programs. The 
15-member board will assist our Human Capital Office in hearing and 
understanding the perspectives of its customers--our staff.
    In addition, we will continue efforts to be ready to implement the 
new human capital authorities included in legislation currently pending 
before the Senate. This legislation, if passed, would give us more 
flexibility to deal with mandatory pay and related costs during tight 
budgetary times.
Managing Our Information Technology Resources
    Our resourceful management of information technology was recognized 
when we were named one of the ``CIO (Chief Information Officer) 100'' 
by CIO Magazine, recognizing excellence in managing our information 
technology (IT) resources through ``creativity combined with a 
commitment to wring the most value from every IT dollar.'' We were one 
of three federal agencies named, selected from over 400 applicants, 
largely representing private sector firms. In particular, we were cited 
for excellence in asset management, staffing and sourcing, and building 
partnerships, and for implementing a ``best practice''--staffing new 
projects through internal ``help wanted'' ads.
    We have expanded and enhanced the IT Enterprise Architecture 
program we began in fiscal year 2002. We formally established an 
Enterprise Architecture oversight group and steering committee to 
prioritize our IT business needs, provide strategic direction, and 
ensure linkage between our IT Enterprise Architecture and our capital 
investment process. We implemented a number of user friendly Web-based 
systems to improve our ability to obtain feedback from our 
congressional clients, facilitate access to our information for the 
external customer, and enhance productivity for the internal customer. 
Among the new and enhanced Web-based systems were an application to 
track and access General Counsel work by goal, team, and attorney; a 
Web site on emerging trends and issues to provide information for our 
teams and offices as they consult with the Congress; and an automated 
tracking application for our staff to monitor the status of products to 
be published.
    In addition, we developed and released a system to automate an 
existing data collection and analysis process, greatly expanding our 
annual capacity to review DOD weapons systems programs. As a result, we 
were able to increase staff productivity and efficiency and enhance the 
information and services provided to the Congress. In the past, we were 
able to complete a review annually of eight DOD weapons systems 
programs. In fiscal year 2003 we reviewed 30 programs and reported on 
26. Within the next year, that number will grow to 80 per year.
Increasing Information Security
    We recognize the ongoing, ever present threat to our shared IT 
systems and information assets and continue to promote awareness of 
this threat, maintain vigilance, and develop practices that protect 
information assets, systems, and services. As part of our continuing 
emergency preparedness plan, we upgraded the level of 
telecommunications services between our disaster recovery site and 
headquarters, expanded our remote connectivity capability, and improved 
our response time and transmission speed. To further protect our data 
and resources, we drafted an update to our information systems security 
policy, issued network user policy statements, hardened our internal 
network security, expanded our intrusion detection capability, and 
addressed concerns raised during the most recent network vulnerability 
assessment.
    We plan to continue initiatives to ensure a secure environment, 
detect intruders in our systems, and recover in the event of a 
disaster. We are also continuing to make the investments necessary to 
enhance the safety and security of our staff, facilities, and other 
assets for the mutual benefit of GAO and the Congress. In addition, we 
plan to continue initiatives designed to further increase employees' 
productivity, facilitate knowledge sharing, and maximize the use of 
technology through tools available at the desktop and by reengineering 
the systems that support our business processes.
Providing a Safe and Secure Workplace
    On the basis of recommendations resulting from our physical 
security evaluation and threat assessment, we continue to implement 
initiatives to improve the security and safety of our building and 
personnel. In terms of the physical plant improvements, we upgraded the 
headquarters fire alarm system and installed a parallel emergency 
notification system. We completed a study of personal protective 
equipment, and based on the resulting decision paper, we have 
distributed escape hoods to GAO staff. We have also made a concerted 
effort to secure the perimeter and access to our building. Several 
security enhancements will be installed in fiscal year 2004, such as 
vehicle restraints at the garage ramps; ballistic-rated security guard 
booths; vehicle surveillance equipment at the garage entrances; and 
state-of-the-art electronic security comprising intrusion detection, 
access control, and closed-circuit surveillance systems.
Preparing for Peer Review
    A team of international auditors, led by the Office of the Auditor 
General of Canada, will conduct a peer review for calendar year 2004 of 
our performance audit work. This entails reviewing our policies and 
internal controls to assess the compliance of GAO's work with 
government audit standards. The review team will provide GAO with 
management suggestions to improve our quality control systems and 
procedures. Peer reviews will be conducted every 3 years.
         gao's fiscal year 2005 request to support the congress
    GAO is requesting budget authority of $486 million for fiscal year 
2005. The requested funding level will allow us to maintain our base 
authorized level of 3,269 full-time equivalent (FTE) staff to serve the 
Congress, maintain operational support at fiscal year 2004 levels, and 
continue efforts to enhance our business processes and systems. This 
fiscal year 2005 budget request represents a modest increase of 4.9 
percent over our fiscal year 2004 projected operating level, primarily 
to fund mandatory pay and related costs and estimated inflationary 
increases. The requested increase reflects an offset of almost $5 
million from nonrecurring fiscal year 2004 initiatives, including 
closure of our internal print plant, and $1 million in anticipated 
reimbursements from a planned audit of the Securities and Exchange 
Commission's (SEC) financial statements. Our requested fiscal year 2005 
budget authority includes about $480 million in direct appropriations 
and authority to use $6 million in estimated revenue from reimbursable 
audit work and rental income.
    To achieve our strategic goals and objectives for serving the 
Congress, we must ensure that we have the appropriate human capital, 
fiscal, and other resources to carry out our responsibilities. Our 
fiscal year 2005 request would enable us to sustain needed investments 
to maximize the productivity of our workforce and to continue 
addressing key management challenges: human capital, and information 
and physical security. We will continue to take steps to ``lead by 
example'' within the federal government in these and other critical 
management areas.
    If the Congress wishes for GAO to conduct technology assessments, 
we are also requesting $545,000 to obtain four additional FTEs and 
contract assistance and expertise to establish a baseline technology 
assessment capability. This funding level would allow us to conduct one 
assessment annually and avoid an adverse impact on other high priority 
congressional work.
    A summary of the requested changes between our fiscal year 2004 and 
2005 budget is reflected in table 4:

                       TABLE 4.--SUMMARY OF REQUESTED CHANGES FOR FISCAL YEAR 2005 BUDGET
----------------------------------------------------------------------------------------------------------------
                                                                                                    Cumulative
                        Budget category                               FTEs            Amount        percentage
                                                                                                      change
----------------------------------------------------------------------------------------------------------------
Fiscal year 2004 resources: \1\
    Appropriation..............................................  ..............        $457,606   ..............
    Estimated revenue (offsetting collections).................  ..............          $5,971   ..............
                                                                ------------------------------------------------
      Total fiscal year 2004 resources.........................           3,269        $463,577   ..............
                                                                ================================================
Fiscal year 2005 requested changes:
    Mandatory pay and related costs............................  ..............         $21,821              4.7
    Costs to maintain current operating levels.................  ..............          $4,007              5.5
    Nonrecurring fiscal year 2004 costs........................  ..............         ($4,499)  ..............
    New financial audit responsibility for SEC.................  ..............         ($1,000)  ..............
    Continuing improvements/new initiatives....................  ..............          $2,203   ..............
                                                                ------------------------------------------------
      Subtotal increased funding required to support GAO         ..............         $22,532              4.9
       operations..............................................
                                                                ================================================
Fiscal year 2005 budget authority required to support GAO opera-          3,269        $486,109   ..............
   tions.......................................................
Less: Estimated revenue (offsetting collections)...............           3,269         ($6,119)  ..............
                                                                ------------------------------------------------
      Fiscal year 2005 appropriation...........................  ..............        $479,990   ..............
Establish a baseline technology assessment capability..........               4            $545   ..............
                                                                ------------------------------------------------
      Total fiscal year 2005 appropriation.....................           3,273        $480,535   ..............
----------------------------------------------------------------------------------------------------------------
\1\ Includes rescission of 0.59 percent ($2,751).
 Source: GAO.

                           concluding remarks
    We are grateful to the Congress for providing support and resources 
that have helped us in our quest to be a world class professional 
services organization. The funding we received in fiscal year 2004 is 
allowing us to conduct work that addressed many difficult issues 
confronting the nation. By providing professional, objective, and 
nonpartisan information and analyses, we help inform the Congress and 
executive branch agencies on key issues, and covered programs that 
continue to involve billions of dollars and touch millions of lives.
    I am proud of the outstanding contributions made by GAO employees 
as they work to serve the Congress and the American people. In keeping 
with my strong belief that the federal government needs to exercise 
fiscal discipline, our budget request for fiscal year 2005 is modest, 
but would maintain our ability to provide first class, effective, and 
efficient support to the Congress and the nation to meet 21st century 
challenges in these critical times.
    This concludes my statement. I would be pleased to answer any 
questions the Members of the Subcommittee may have.
    Appendix I: Serving the Congress--GAO's Strategic Plan Framework

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Appendix II: GAO Accomplishments That Helped Change Laws, Improve 
                 Services, or Promote Sound Management
GAO Efforts That Helped to Change Laws and/or Regulations
    Consolidated Appropriations Resolution, 2003, Public Law 108-7.--
The law includes GAO's recommended language that the administration's 
competitive sourcing targets be based on considered research and sound 
analysis.
    Smallpox Emergency Personnel Protection Act of 2003, Public Law 
108-20.--GAO's report on the National Smallpox Vaccination program 
highlighted volunteers' concerns about losing income if they sustained 
injuries from an inoculation. This statute provides benefits and other 
compensation to covered individuals injured in this way.
    Postal Civil Service Retirement System Funding Reform Act of 2003, 
Public Law 108-18.--Analyses performed by GAO and OPM culminated in the 
enactment of this law that reduces USPS's pension costs by an average 
of $3 billion per year over the next 5 years. The Congress directed 
that the first 3 years of savings be used to reduce USPS's debt and 
hold postage rates steady until fiscal 2006.
    Accountability of Tax Dollars Act of 2002, Public Law 107-289.--A 
GAO survey of selected non-CFO Act agencies demonstrated the 
significance of audited financial statements in that community. GAO 
provided legislative language that requires 70 additional executive 
branch agencies to prepare and submit audited annual financial 
statements.
    Emergency Wartime Supplemental Appropriations Act, 2003, Public Law 
108-11.--GAO assisted congressional staff with drafting a provision 
that made available up to $64 million to the Corporation for National 
and Community Service to liquidate previously incurred obligations, 
provided that the Corporation reports overobligations in accordance 
with the requirements of the Antideficiency Act.
    Intelligence Authorization Act for Fiscal Year 2003, Public Law 
107-306.--GAO recommended that the Director of Central Intelligence 
report annually on foreign entities that may be using U.S. capital 
markets to finance the proliferation of weapons, including weapons of 
mass destruction, and this statute instituted a requirement to produce 
the report.
GAO Efforts That Helped to Improve Services to the Public
    Strengthening the U.S. Visa Process as an Antiterrorism Tool.--Our 
analysis of the U.S. visa-issuing process showed that the Department of 
State's visa operations were more focused on preventing illegal 
immigrants from obtaining nonimmigrant visas than on detecting 
potential terrorists. We recommended that State reassess its policies, 
consular staffing procedures, and training program. State has taken 
steps to adjust its policies and regulations concerning the screening 
of visa applicants and its staffing and training for consular officers.
    Enhancing Quality of Care in Nursing Homes.--In a series of reports 
and testimonies since 1998, we found that, too often, residents of 
nursing homes were being harmed and that programs to oversee nursing 
home quality of care at the Centers for Medicare and Medicaid Services 
were not fully effective in identifying and reducing such problems. In 
2003, we found a decline in the proportion of nursing homes that harmed 
residents but made additional recommendations to further improve care.
    Making Key Contributions to Homeland Security.--Drawing upon an 
extensive body of completed and ongoing work, we identified specific 
vulnerabilities and areas for improvement to protect aviation and 
surface transportation, chemical facilities, sea and land ports, 
financial markets, and radioactive sealed sources. In response to our 
recommendations, the Congress and cognizant agencies have undertaken 
specific steps to improve infrastructure security and improve the 
assessment of vulnerabilities.
    Improving Compliance with Seafood Safety Regulations.--We reported 
that when Food and Drug Administration (FDA) inspectors identified 
serious violations at seafood processing firms, it took FDA 73 days on 
average, well above its 15-day target. Based on our recommendations, 
FDA now issues warning letters in about 20 days.
    Strengthening Labor's Management of the Special Minimum Wage 
Program.--Our review of this program resulted in more accurate 
measurement of program participation and noncompliance by employees and 
prevented inappropriate payment of wages below the minimum wage to 
workers with disabilities.
    Reducing National Security Risks Related to Sales of Excess DOD 
Property.--We reported that DOD did not have systems and procedures in 
place to maintain visibility and control over 1.2 million chemical and 
biological protective suits and certain equipment that could be used to 
produce crude forms of anthrax. Unused suits (some of which were 
defective) and equipment were declared excess and sold over the 
Internet. DOD has taken steps to notify state and local responders who 
may have purchased defective suits. Also, DOD has taken action to 
restrict chemical-biological suits to DOD use only--an action that 
should eliminate the national security risk associated with sales of 
these sensitive military items. Lastly, DOD has suspended sales of the 
equipment in question pending the results of a risk assessment.
    Protecting the Retirement Security of Workers.--We alerted the 
Congress to potential dangers threatening the pensions of millions of 
American workers and retirees. The pension insurance program's ability 
to protect workers' benefits is increasingly being threatened by long-
term, structural weaknesses in the private-defined, pension benefit 
system. A comprehensive approach is needed to mitigate or eliminate the 
risks.
    Improving Mutual Fund Disclosures.--To improve investor awareness 
of mutual fund fees and to increase price competition among funds, we 
identified alternatives for regulators to increase the usefulness of 
fee information disclosed to investors. Early in fiscal year 2003, the 
Securities and Exchange Commission issued proposed rules to enhance 
mutual fund fee disclosures using one of our recommended alternatives.
GAO Efforts That Helped to Promote Sound Agency and Governmentwide 
        Management
    Encouraging and Helping Guide Agency Transformations.--We 
highlighted federal entities whose missions and ways of doing business 
require modernized approaches, including the Postal Service, and the 
Coast Guard. Among congressional actions taken to deal with 
modernization issues, the House Committee on Government Reform 
established a special panel on postal reform and oversight to work with 
the President's Commission on the Postal Service on recommendations for 
comprehensive postal reform. We also reported this year on the Coast 
Guard's ability to effectively carry out critical elements of its 
mission, including its homeland security responsibilities. We 
recommended that the Coast Guard develop a blueprint for targeting its 
resources to its various mission responsibilities and a better 
reporting mechanism for informing the Congress on its effectiveness. 
Our recommendations led to better reporting by the Coast Guard and laid 
the foundation for key revisions the agency intended to make to its 
strategic plan.
    Helping DOD Recognize and Address Business Modernization 
Challenges.--Several times we have reported and testified on the 
challenges DOD faces in trying to successfully modernize about 2,300 
business systems, and we made a series of recommendations aimed at 
establishing the modernization management capabilities needed to be 
successful in transforming the department. DOD has implemented some key 
architecture management capabilities, such as assigning a chief 
architect and creating a program office, as well as issuing the first 
version of its business enterprise architecture in May 2003. In 
addition, DOD has revised its system acquisition guidance. By 
implementing our recommendations, DOD is increasing the likelihood that 
its systems investments will support effective and efficient business 
operations and provide for timely and reliable information for decision 
making.
    Helping to Advance Major Information Technology Modernizations.--
Our work has helped to strengthen the management of the complex, 
multibillion-dollar information technology modernization program at the 
Internal Revenue Service (IRS) to improve operations, promote better 
service, and reduce costs. For example, IRS implemented several of our 
recommendations to improve software acquisition, enterprise 
architecture definition and implementation, and risk management and to 
better balance the pace and scope of the program with its capacity to 
effectively manage it.
    Improving Internal Controls and Accountability over Agency 
Purchases.--Our work examining purchasing and property management 
practices at FAA identified several weaknesses in the specific controls 
and overall control environment that allowed millions of dollars of 
improper and wasteful purchases to occur. Such weaknesses also 
contributed to many instances of property items not being recorded in 
FAA's property management system, which allowed hundreds of lost or 
missing property items to go undetected. Acting on our findings, FAA 
established key positions to improve management oversight of certain 
purchasing and monitoring functions, revised its guidance to strengthen 
areas of weakness and to limit the allowability of certain 
expenditures, and recorded assets into its property management system 
that we identified as unrecorded.
    Strengthening Government Auditing Standards.--Our publication of 
the Government Auditing Standards in June 2003 provides a framework for 
audits of federal programs and monies. This comes at a time of urgent 
need for integrity in the auditing profession and for transparency and 
accountability in the management of scarce resources in the government 
sector. The new revision of the standards strengthens audit 
requirements for identifying fraud, illegal acts, and noncompliance, 
and gives clear guidance to auditors as they contribute to a government 
that is efficient, effective, and accountable to the people.
    Supporting Controls over DOD's Credit Cards.--In a series of 
reports and testimonies beginning in 2001, we highlighted pervasive 
weaknesses in DOD's overall credit card control environment, including 
the proliferation of credit cards and the lack of specific controls 
over its multibillion dollar purchase and travel card programs. We 
identified numerous cases of fraud, waste, and abuse and made 174 
recommendations to improve DOD's credit card operations. DOD has taken 
many actions to reduce its vulnerabilities in this area.

    Senator Campbell. Do any of your colleagues have any 
comments or they are just resources?
    Mr. Walker. They are here to answer questions.
    Senator Campbell. Senator Durbin, do you have an opening 
statement?
    Senator Durbin. Yes, I do. Thank you, Mr. Chairman.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, thank you for scheduling today's hearing, the 
first of four budget oversight hearings to be held by the 
Legislative Branch Subcommittee this year. I'm glad we're all 
here and ready to begin working on this year's budget. Based on 
the events of last week, this is obviously going to be a very 
challenging year. I'm very happy to see that we are moving 
ahead with the hearing over on this side of the Capitol.
    Mr. Chairman, I am happy to be working with you on this 
important bill again this year. I think we did a good job 
working together last year and finishing the bill in a timely 
manner. With any luck, we can do so again this year.
    This is an important Subcommittee. There are 12 other 
Appropriations Subcommittees that fund all of the Executive 
Branch Agencies and Departments. The Legislative Branch has 
this one Subcommittee in which we need to fund all of the tools 
and resources required of a co-equal branch of government.
    Today we are going to hear from three important Legislative 
Branch agencies, the General Accounting Office, the Government 
Printing Office, and the Congressional Budget Office. I join 
Chairman Campbell in welcoming David Walker, the Comptroller 
General of the United States, Bruce James, the U.S. Public 
Printer, and Douglas Holtz-Eakin, the Director of the 
Congressional Budget Office to today's hearing.
    Gentlemen, I know I don't have to tell you that this is 
going to be a very challenging year for this Committee. The 
budget constraints under which we are expected to work seem 
unrealistic to say the least.
    However, it is important to the Members of this 
Subcommittee that you have the resources you need to do your 
jobs effectively and efficiently.
    To the extent that any of your budget requests have holes 
in them which could negatively impact your performance during 
fiscal year 2005, I hope you will share those concerns with us.
    First, Mr. Walker, I want you to know how much I appreciate 
everything you do for us here in the Senate. I particularly 
appreciate the guidance I have received from you and your staff 
on matters relating to the Capitol Visitor Center. I know this 
has been a tremendous task, but I think it is extremely 
important for Members to have access to your external oversight 
of this project as we make decisions about how to move forward 
on the CVC. I hope you will spend several minutes today 
discussing the GAO Human Capital Reform Act, which was approved 
in the House last week and will now be voted on in the Senate. 
This legislation will certainly give you broader flexibility in 
constructing your workforce. I look forward to hearing how this 
works for you and if you think it is worth pursuing in other 
federal agencies.
    Mr. James, you are doing a tremendous job as Public 
Printer. I am looking forward to hearing your testimony about 
your plans to relocate the Government Printing Office. You 
certainly have a vision for the future of the GPO and I hope 
you will walk us through it. I would also like to hear a little 
about your voluntary separation incentive program. The 10 
percent staff reduction and savings of $21.7 million was very 
impressive, and I understand that you are about to undergo 
another voluntary separation incentive program in April.
    Mr. Holtz-Eakin, I see you have a relatively flat budget, 
consisting mainly of increases in salaries and benefits. The 
Congressional Budget Office does great work in providing 
important information to the Congress. Over the years I have 
had concerns about your experiment with the dynamic 
scorekeeping initiative and I would appreciate it if you would 
provide the subcommittee with an update on where this 
experiment stands.
    Mr. Chairman, I will conclude here and request that my 
entire statement, as well as a series of questions, be made a 
part of the record.

                   STRATEGIC HUMAN CAPITAL MANAGEMENT

    Senator Campbell. We will go to a couple of questions.
    In looking at your testimony, Mr. Walker, the GAO listed 
strategic human capital management as among its top high risk 
issues for the Federal Government. Can you tell me what that 
involves in laymen's terms?
    Mr. Walker. What it involves is making sure that we have 
the right number of people with the right skills and knowledge 
in the right agencies doing the right things. It also means 
modernizing Federal management practices for how we treat 
people. It also means civil service reforms in order to provide 
management with reasonable flexibility to make decisions while 
incorporating adequate safeguards to prevent abuse of employees 
and also making sure that we have certain principles that are 
timeless in nature that apply across Government so we do not 
have the balkanization of the civil service, among other 
things, Mr. Chairman.

                          PAY-FOR-PERFORMANCE

    Senator Campbell. That sounds commendable.
    Under your current pay-for-performance system, how do you 
determine how many people will be given pay raises, and who 
makes that decision? Are the increases all tied to performance?
    Mr. Walker. Well, first, we have several categories of 
employees at GAO.
    Senator Campbell. How many employees are there at GAO?
    Mr. Walker. About 3,260. With regard to our categories, we 
have our auditors, analysts, and investigators. That is one 
category. That comprises over 70 percent of our employees. We 
have attorneys, which is another category, and then we have our 
administrative, professional and support staff. The auditors, 
investigators, and analysts have been involved in pay-for-
performance since the late 1980's. The attorneys have also been 
involved in pay-for-performance since the late 1980's. The 
administrative, professional and support staff are moving to a 
pay-for-performance (PFP) system. Right now they are under the 
current GS system, which provides for periodic and optional 
quality step increases. We have designed a new competency-based 
performance appraisal system for them as well as a pay-for-
performance system. So, for next fiscal year, almost all of our 
employees will be under a pay-for-performance system. Those not 
in PFP are our wage grade individuals.
    We have a modern, effective, and credible competency-based 
performance appraisal system, which provides for a meaningful 
distinction in performance among all individuals, and is tied 
to our strategic plan. It is focused on the results that we 
want to deliver for the Congress and the country.

                           RATING PERFORMANCE

    Senator Campbell. Does the immediate supervisor do the 
rating of the performance?
    Mr. Walker. Yes, Mr. Chairman. There is a designated 
performance manager. That designated performance manager will 
come up with a proposed rating, but then there are a number of 
review processes that take place in order to provide reasonable 
assurance that there is consistency, equity and 
nondiscrimination in how we go about completing the process. 
There is reporting all the way up to the Executive Committee, 
which involves myself, my two colleagues on my immediate right 
and left, as well as our general counsel. There is also 
transparency with regard to results. We post the results, 
maintaining privacy, but the overall results, so that all of 
our employees can see what the results are.
    We are clearly leading the Government in this regard, Mr. 
Chairman. There is no doubt about it.

                    GAO HUMAN CAPITAL FLEXIBILITIES

    Now, the last thing I would mention is we do have 
legislation that has already passed the House. It has passed 
the Senate once. It is coming back to the Senate because the 
House version was slightly different. That bill would give us 
the ability to improve our pay-for-performance system. It has 
broad-based bipartisan and bicameral support. We are hoping 
that the Senate will pass it via unanimous consent in the near 
future.

                         TRAINING GAO EMPLOYEES

    Senator Campbell. Tell the committee a little bit about the 
training for fiscal year 2005, which is about a 4 percent 
increase over 2004. What does that training include? What kind 
of training is it and do you have a strategic plan for the 
training? And how much of that is directly related to 
maintaining technical skills? Just give us a little information 
about it.
    Mr. Walker. Well, as you know, Mr. Chairman, we are a 
professional services and knowledge-based organization. We are 
only as good as our people, and therefore, we have to do 
everything that we can to attract, retain, and train our 
people.
    During this past year, we hired Carol Willett, who is our 
Chief Learning Officer and who formerly was a top training 
official at the CIA. She has been working with the Executive 
Committee and all of our employees and others to modernize our 
training and learning curriculum.
    Four percent is, I think, a modest increase, but it is only 
the hard dollars. In other words, that is only the dollars that 
we actually spend on consultants or outside activities. We 
obviously invest a lot more in the way of time in helping to 
execute our training program.
    We are basically training on professional standards. We are 
training on technical matters, including subject matter 
expertise. We are training on leadership skills. We are 
training on changed management experience. So it is a very 
comprehensive curriculum. Our objective is to be world-class in 
this regard, and I think we are headed there.
    Mr. Dodaro. Senator, one additional comment on the training 
at GAO. One-third of our employees right now have been with GAO 
less than 5 years because of changing demographics and bringing 
in new people. So training this next generation of people is 
very important to build our institutional knowledge for the 
Congress. It is very important to keep that up.

                        EFFECT OF FUNDING FREEZE

    Senator Campbell. We understand about fast turnovers. We 
have them here too.
    Well, let me ask you, as I am going to ask all three 
panels. You heard me say we are going to have some limited 
funds and we might not be able to increase the amount that you 
need. What happens if we cannot? How is this going to impact 
your budget if we have to have a freeze in spending at the 
current level?
    Mr. Walker. Well, Mr. Chairman, to a great extent it 
depends upon what other actions Congress takes. For example, if 
you look at our proposed increase, which is the smallest of any 
legislative branch entity, 4.9 percent, most of that is 
mandatory increases. For example, we were told to include in 
our request a 3.5 percent increase in compensation for all of 
our employees. So if Congress ends up mandating that we have to 
give an automatic pay increase to all of our employees and 
since 81 percent of our costs represent payroll costs, then it 
is going to be extremely difficult for us to deal with a flat-
line budget.
    There are things that we have started to look at as to what 
we might be able to defer or cancel, but the fact of the matter 
is that when 81 percent of our costs represent people costs, we 
do not have a whole lot of flexibility. We have to start 
talking about how many people we can have.
    Senator Campbell. So if we have a freeze in the budget, you 
are going to have to reduce your manpower.
    Mr. Walker. We may have to reduce our manpower. We would 
obviously only do that as a last resort, but I think it could 
be possible. If Congress mandates pay increases and does not 
fund those pay increases, it is going to make it that much 
worse.
    But I will also reinforce that our human capital 
legislation that is pending before the Senate at the present 
point in time is of critical importance not only to keep us in 
the lead in human capital reform, but to give us additional 
flexibility to deal with the difficult budget situation next 
year. It is critically important.

                          GAO TRAVEL PATTERNS

    Senator Campbell. Okay, thank you. That was my last 
question, but I would like you to provide for the record 
something about your travel which, as I understand, seems to be 
relatively high for the number of people that are employed. If 
you would send it over to us. I would like to know the number 
of people who traveled, the average cost of the trip, the 
average duration of the trip, and the number of people that 
went on each trip, and how much travel was spent on training, 
the number of trips that were made overseas and why they went 
overseas, and a number of other things.
    Mr. Walker. I will be happy to provide it, Mr. Chairman. I 
would note for the record on a preliminary basis it is my 
understanding that our per capita travel costs are actually 
down compared with where they were 10 years ago, but I will be 
happy to provide all that information and any explanations.
    [The information follows:]

    Question. It seems as though GAO's travel budget is very 
high considering the number of people employed by the agency. 
Your request for fiscal 2005 looks like it would average over 
$3,500 per person. Why is travel so high?
    Answer. Our congressional mandates and requests require us 
to follow the federal dollar no matter where it goes--across 
our expansive country or across the globe. As a world-class 
professional services organization, we rely on travel to (1) 
meet our professional standards, including generally accepted 
governmental auditing standards; (2) conduct our work in 
supporting the Congress; and (3) provide staff technical 
training needed to comply with minimum annual continuing 
professional education requirements. We collect original 
information, directly observe program activities first hand, 
and have high standards in the conduct of our work that require 
adequate standards of evidence. Travel provides the means to 
conduct first-hand research that contributes to effective 
oversight of federal programs. We conduct our work in an 
unbiased manner that usually means we take responsibility for 
gathering the relevant data, rather than relying on material 
provided by others. Our credibility is enhanced by what we 
learn on travel. The ability to ``be on the ground'' increases 
the value and credibility of our work. Also, we are often able 
to obtain various types of evidence, e.g., access to internal 
agency databases that would not be available at a distance. 
First-hand observation and data gathering also helps us make 
decisions about data reliability when we observe or talk to 
those persons who are responsible for entering the data. Also, 
travel provides developmental opportunities for inexperienced 
analysts that can only be gained from on-site work.
    GAO is committed to gaining as much as possible from 
travel. We weigh many factors before approving engagement 
travel. We strive to be as knowledgeable as possible on the 
issues before conducting fieldwork. We assess the overall cost 
of each trip, including staff time, as well as travel dollars. 
We also judiciously prioritize the use of funds and assess 
possible alternatives to travel. We actively focus on reducing 
costs by limiting the number of travelers; minimizing time 
spent on per diem; using alternative, more cost-effective 
airports and indirect flights to reduce transportation costs; 
and consolidating purposes to avoid multiple trips.
    GAO drastically reduced travel spending in the mid-1990s 
due to budget constraints. Travel spending, as a percentage of 
our total budget, has remained relatively flat since then at 
less than 3 percent. In fiscal year 1995, our travel per capita 
cost averaged $3,632 in 2004 dollars--slightly higher than our 
estimated fiscal year 2004 travel per capita cost of $3,482.
    Recently, we convened a task force of senior managers to 
further review our travel practices and identify ways to 
improve our effectiveness and efficiency. The task force will 
be making recommendations to the Comptroller General and the 
Executive Committee later this year.
    Question. For the record, can you give the committee a 
detailed analysis showing the following? The number of people 
who traveled in fiscal year 2003.
    Answer. In fiscal year 2003, 2,324 staff traveled--over 70 
percent of our staff on board at the end of the fiscal year. 
Staff that conduct fieldwork and gather data conduct the 
majority of our travel. Typically, they are recurring 
travelers.
    Question. What was the average duration of each trip?
    Answer. The average duration per trip in fiscal year 2003 
was 4 days.
    Question. What was the average number of people that went 
on each trip?
    Answer. In fiscal year 2002, the average number of staff 
per trip was 2. Generally, most engagement related trips 
require a minimum of 2 staff to ensure data integrity and the 
reliability of interview write-ups. Other travel may only 
involve 1 GAO employee.
    Question. What was the average cost per trip?
    Answer. The average cost per trip was $1,014 in fiscal year 
2003.
    Question. How much travel was spent to attend conferences 
not directly associated with a specific job? How much travel 
was spent for training?
    Answer. In fiscal year 2003, we spent 7 percent of our 
travel funds to support training and development activities, 
including conferences and speeches, many of which were related 
to specific jobs. Presently, we do not segregate the cost for 
each of these activities, but plan to do so in the future. 
These trips allow staff to attend training and professional 
conferences to gain and share information, as well as to 
represent GAO in their professional capacity.
    Question. What was the number of trips that were made 
overseas and why?
    Answer. In fiscal year 2003, 380 trips were made outside 
the contiguous United States to areas such as Afghanistan and 
Iraq. Our International Affairs and Trade team conducted travel 
to assess peacekeeping transitions, review the U.S. public 
diplomacy, monitor sensitive exports, review refugee 
protections, assess embassy conditions, review ocean container 
security, and assess the global health fund. Travel by other 
teams and offices included issues related to joint strike 
fighter allies, foreign military sales shipments, foreign 
schools, port security, force protection, contractors on the 
battlefield, plutonium production reactors and radioactive 
sources, international aviation consumer benefits, postal work-
sharing, border security, and collaboration with the other 
Supreme Audit Institutions.
    Question. What has been the average increase over the past 
five years in per diem and transportation costs?
    Answer. Per diem costs represent about sixty-two percent of 
our total travel costs. Between fiscal years 2001 and 2003, in 
the 20 major cities that we travel to most often, per diem 
costs increased an average of 4 percent, while domestic 
airfares increased an average of almost 7 percent from 
Washington, D.C., and international airfares increased an 
average of 10 percent. Between fiscal years 2001 and 2003, per 
diem costs increased 18 percent in Atlanta, 16 percent in 
Chicago, 23 percent in Denver, 25 percent in Seattle, and 21 
percent in Washington, D.C. Since fiscal year 1999, 
transportation costs have increased almost 40 percent.

                         TECHNOLOGY ASSESSMENT

    Senator Campbell. Thank you.
    Would you mind if I yield to the chairman?
    Senator Durbin. No, of course, not.
    Senator Campbell. Before we turn to our ranking member, I 
would like to yield to the chairman of the full committee. 
Senator Stevens, do you have any comments or questions?
    Senator Stevens. Well, first to express my regret for your 
decision yesterday, Mr. Chairman.
    Senator Campbell. My granddaughter, 4 years old, is very 
happy with it.
    Senator Stevens. I was just going to say you would like to 
get to know your grandchildren before they enter college, which 
is what my experience has been.
    Mr. Walker, I note that you are going to have four 
additional staff devoted to establishing a technology 
assessment capability. Now, I am one of the few survivors of 
the Office of Technology Assessment Board. It was one of the 
most controversial boards that we ever had, and it brought in 
the private sector, it brought in Government, it brought in 
academia, and the oversight of Members of the House and the 
Senate.
    Being what you are, an office that serves the Congress, 
both the House and the Senate, and knowing the propensity for 
these issues to involve horrendous political controversies, why 
are you doing this?
    Mr. Walker. Well, Senator, first, it was not our idea. The 
fact of the matter is there are a number of parties in Congress 
and individuals on both ends of the Hill and both sides of the 
aisle who are interested in some limited technology assessment 
capability. They specifically asked us to include a proposal 
for consideration by the Congress as to whether or not if there 
was some limited technology assessment capability, what we 
thought would make sense.
    Our view, Senator, is this is a decision for the Congress 
to make. I think there was a general view that it does not 
necessarily make sense to create a new entity, and to the 
extent that there was an existing entity within the legislative 
branch that could meet this need, that GAO was the logical 
entity to do it.
    The additional FTE's and the $545,000 would be for 
additional skills that we think we would need in order to be 
able to properly address this.
    But it is really up to the Congress as to whether or not 
you want to expand our mission for us to do this.
    Senator Stevens. We have two shared staffs, the GAO and the 
Congressional Research Service. We had a meeting yesterday of 
the Joint Committee of the Library, which I am honored to be 
chairman of, and we discovered yesterday that CRS has hired 
four technology assessment scientists.
    Now, I would respectfully suggest that you should take this 
issue to the Government Affairs Committee and let both Houses 
review this. Obviously, with the loss of the Technology 
Assessment Board concept, we do need in Congress some 
substantial advice on technology assessment. Actually the old 
Board came out of the SST controversy, and we decided we did 
not have the capability. We reviewed that and created a Board 
that assisted us for some time.
    I personally favor restoring the Board and having some 
Members of Congress in constant oversight of what is going on 
on a bipartisan basis and a bicameral basis. But I do not think 
that either entity of the Congress should proceed to fill this 
gap without some direction from the Congress itself. Enough 
said on that.
    On your pay-for-performance concept, did you generate that 
or was that pursuant to an act of Congress?

                     SOURCE OF PAY-FOR-PERFORMANCE

    Mr. Walker. No. This is at our generation, Senator. We have 
been a leader in the Federal Government for years in pay-for-
performance, and we are looking to provide additional 
flexibility for pay-for-performance. We have also been a leader 
in the Federal Government in the so-called broad-banding 
concept which is moving away from the 15 General Schedule (GS) 
levels and to have flatter and more flexible classification 
systems and pay systems. So we have been in this business for a 
while, Senator.
    Senator Stevens. Again, I remember when I was chairman of 
the Government Affairs Committee, we had China Lake and San 
Diego experiments on the whole concept of unit management 
rather than directed management by law. But we had some 
parameters from the Congress in setting it up. You do not have 
any parameters. Right?
    Mr. Walker. Well, Senator, we actually do. And the other 
thing is----
    Senator Stevens. Where do you have it from?
    Mr. Walker. Well, we had legislation in 1980 that gave us 
the authority to go to broad-banding and additional pay-for-
performance. We had legislation in the year 2000, and now we 
have legislation pending before the Senate, the GAO Human 
Capital Reform Act of 2003. It has actually already passed the 
Senate once, but the House passed a bill that was slightly 
different, and so now we have for consideration by the Senate 
that legislation, which is of critical importance to, number 
one, help us to continue to make progress on pay-for-
performance, and second, to give us additional flexibility if 
we have a tight budget year next year.
    Senator Stevens. All right. My memory is that the past 
performances ended up with the chiefs being able to divide the 
money for performances and the Indians sitting there at the 
desks and not having annual increases. I would be very 
interested to see how you are going to balance the rights of 
those who are permanent employees from the temporary super 
stars you have got.
    Mr. Walker. Senator, I would be happy to provide you some 
information. We have, I think, successfully addressed that 
issue. There is no such thing, as you know, as a perfect 
performance appraisal system, but I clearly believe, Senator, 
that we are in the lead in the Federal Government in this 
regard. I would be happy to provide you some additional data 
and statistics with regard to this.

                            FEDERAL DEFICIT

    Senator Stevens. My staff tells me that you have expressed 
some rather strong views on the deficit. Is that right?
    Mr. Walker. Well, Senator, let me tell you what I have 
done. As you know, I am the audit partner on the consolidated 
financial statements of the U.S. Government. My comments really 
are twofold. One, that if you look at how we keep score, both 
as it relates to financial reporting, the financial statements 
of the U.S. Government, which were just released, I might add, 
last Friday for fiscal year 2003, that it does not provide a 
full and complete picture of our true financial condition. For 
example, it does not adequately consider the difference between 
promised Social Security benefits and promised Medicare 
benefits and the resources that are there, the payroll taxes, 
et cetera. So we actually have huge unfunded commitments that 
are not given enough transparency.
    I have also noted concern about the fact that given known 
demographic trends, the retirement of the baby boom generation 
and rising health care costs, that we are likely to face a 
structural deficit in future years that is going to require the 
Congress to take a look at entitlement programs, discretionary 
spending, and tax policy in the way that you deem appropriate 
to try to address that gap.
    Senator Stevens. Have you addressed the lack of a capital 
budget for the United States?
    Mr. Walker. I have touched on that somewhat, Senator. One 
of the problems we have is the way that we keep score is 
problematic, and one of the challenges that we have, as you 
know, Senator, is we treat capital transactions the same way 
that we do operating expenses.
    There are different ways that one could approach that. You 
would not necessarily have to have a capital budget, but as you 
yourself have noted, in the case of trying to make major 
capital purchases, we need to figure out how we can go about 
doing that in a way to recognize that we need to modernize our 
platforms, we need to modernize our infrastructure, and those 
are investments that end up inuring benefits over a number of 
years rather than just in the year that you appropriate the 
money.
    Senator Stevens. I do not want to prolong this, but I 
showed to a group of Senators yesterday a chart that I had of 
the infrastructure investment by China per year and the 
increase in infrastructure investment of the United States per 
year, and it has declined. We are supposed to be involved in a 
world economy, competing globally. If we continue to take the 
position that the Federal Government should not spend for the 
infrastructure that is necessary for growth, then by definition 
we will not have any growth. And I think we face a challenge 
internationally in terms of our place in the global marketplace 
that cannot be handled unless we address the subject of a 
capital budget and, if necessary, the concept of bonding some 
of that expansion. So I would welcome your review of that.
    Again, I am still on the Government Affairs Committee. I 
hope to raise this before the Government Affairs Committee so 
that we might consider it after the election. It is not 
something we address in an election year. But clearly, we 
cannot deal with this situation, and I mentioned it this 
morning in another committee. When we have energy development 
in Alaska, we have to take our roads allowances for our 
highways and build the roads to that energy development. In any 
other place in the world, the government provides 
infrastructure. As a matter of fact, if you want to build a 
building in China, you go to one entity and get one permit and 
you outline the necessity for your infrastructure and it is 
there within literally weeks. You could not build a building in 
this town in less than 4 years. So I do think we either get on 
to the capital budget concept and infrastructure renewal--the 
bridges we have and interstate highways were built in 
Eisenhower's day, and many of them are decaying and are really 
seriously in need of replacement or modernization.
    So I would welcome your comments on these things. I do not 
think we should become deficit blind, and if we do not wake up, 
we are going to be a third class power, not only militarily but 
economically.
    Mr. Walker. Senator, I would love to meet with you sometime 
on this, and we have done work on this in the past, as you 
know. So I would welcome the opportunity.
    Senator Stevens. I would welcome the opportunity to work 
with you on the technology assessment activity, but I would 
urge you to go to Government Affairs and get some outline so 
later we do not have a political squabble over who you have 
hired and what they have done.
    Mr. Walker. We will do it.
    Senator Stevens. Mr. Dodaro?
    Mr. Dodaro. Senator, that is a good idea and we will pursue 
that, but I just want to note for the record that we were 
required to do a pilot in the technology assessment area 2 
years ago. We did one, and we were required to have an 
evaluation of it by outside parties.
    Senator Stevens. Who required it?
    Mr. Dodaro. It was required by the Congress in our 
appropriation bill. We did it on biometrics.
    Senator Stevens. I do remember that.
    Mr. Dodaro. Yes, and we were deemed to have done it 
successfully, but it required some additional changes. And we 
were kind of viewed as an interim gap for the Congress, with 
CRS providing quick turnaround using secondary research, and 
the National Academy of Sciences doing long-term studies. GAO 
was looked at as a potential option to meet an intermediary 
need.
    Senator Stevens. If we are not careful, though, we are 
going to have different arms of the Congress giving us 
different advice on the same technology.
    Mr. Dodaro. Yes, exactly, Senator. We do not dispute your 
concerns about this. I think it is important to work it 
through.
    Senator Stevens. Thank you very much, Mr. Chairman. Thank 
you, Senator Durbin.
    Senator Campbell. We will now turn to Senator Durbin.

                          RETURN ON INVESTMENT

    Senator Durbin. I just wanted to make one observation. I 
want to thank Mr. Walker and all those in the GAO. I note that 
you have, in your testimony, acknowledged that the GAO has had 
a $78 return on every dollar appropriated. Have you considered 
taking over the thrift savings plan?
    Mr. Walker. It is not in our line of business.
    Senator Durbin. If we had a G fund and it was a GAO fund, 
that return?
    Mr. Walker. Some have suggested we ought to do an IPO, but 
I do not think that is appropriate.
    Senator Durbin. Two questions I would like to ask you. One 
is related to technology. It is my impression that the 
technology of the United States Senate is two steps behind the 
world and three steps behind the House. I happen to live with 
House Members and I hear what they are doing. It just amazes me 
that there is such a dichotomy and divergence here between the 
technology that is being used on the other side of the Hill and 
what we are using in the Senate. We seem to be late to the 
party time and again. I will not dwell on that other than to 
say I am going to send you a note and ask you to please look 
into this because I think that there are things that, for some 
reason, we are very slow to come to in changes here.
    Let me ask you one specific question. I feel very strongly 
about the human capital issue and the fact that to attract the 
best and brightest of the new young men and women who are 
available requires some attentiveness to the issue of student 
loans. I have found that time and again that some of the very 
best people cannot afford to make the Government service choice 
because of their student loan indebtedness.
    Now, I created this idea a few years ago. I have to tell 
you candidly that I do not think it got off to a strong start 
in the Senate because, frankly, no one wanted to take on the 
responsibility of deciding how to establish standards. Have you 
used this program in GAO and can you tell me whether or not you 
think it has value to you in terms of human capital?

                        STUDENT LOAN REPAYMENTS

    Mr. Walker. Senator, I believe we were the first agency in 
the Federal Government to adopt the student loan repayment 
program. We are the second largest user of student loan 
repayments in the entire Federal Government as far as the 
number of student loan repayments and the amount of dollars 
involved. Number one is the State Department. Needless to say, 
we are a lot smaller than the State Department.
    To give you just some statistics off the top, last year we 
gave about $1.2 million--pardon me--last year, fiscal year 
2003, $945,000 in student loan repayments, that averaged about 
$4,000 each.
    We have criteria that we set up where we look at the nature 
of the position, what the skills and knowledge are for the 
position. As you know, there are statutory limits as to how 
much you can do in a given year and how much you can do over a 
period of time.
    One of the things that we have done is, in addition to 
trying to attract and retain critical skills, we have really 
structured our student loan repayment program to try to help us 
maximize the chance that we can keep top new talent for at 
least 3 years. And the reason I say that is that our statistics 
show over time that if we can keep people for 3 years, then 
many times we can keep them for many years because they 
understand what public service is all about. They understand 
the difference they can make at GAO. They understand that we 
are a very unique place where you will be challenged your 
entire career and you can work in different areas and yet still 
work for the same entity. And it has been extremely successful. 
It is a very popular program. It is very successful, and we are 
using it strategically to help us attract, retain, and motivate 
top talent.

                    TAX FORGIVENESS OF STUDENT LOANS

    Senator Durbin. The second thing I will be asking the GAO 
is to take a look at the student loan redemption or forgiveness 
programs across the board, which I have some pride of 
authorship. But I also want to be candid. I do not think they 
are being applied fairly and evenly in all agencies. I think we 
ought to try to establish some common standards and what you 
have just described sounds like a good start. So that will be 
my second request of you.
    Mr. Walker. Thanks, Senator. One thing I would mention that 
would be helpful and it would involve an amendment to the 
Internal Revenue Code, which obviously raises a jurisdictional 
issue, but as you know, right now the student loan repayment is 
on a taxable basis. We could really leverage these dollars 
quite a bit if these were nontaxable because actually what we 
have right now is a situation where if somebody gets a student 
loan repayment, they have to include it in their income. If 
they end up leaving within a period of time, they have to pay 
back the full gross amount, in other words, including the 
taxes. It is a way that you could end up potentially further 
leveraging the dollars without appropriating additional money, 
but it would involve an amendment to the tax code.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. Thanks very much. Thanks, Mr. Chairman.
    Senator Campbell. Thank you and we thank this panel for 
appearing.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. You are requesting about $4 million for training in 
fiscal year 2005. Does this include both the cost of training provided 
by GAO's internal staff or is it only training provided by contractors?
    Answer. The requested amount includes (1) contractor costs to 
develop and/or provide training, (2) tuition costs to enable GAO-
sponsored groups or individuals to participate in job-related courses 
offered by private and public vendors, and (3) costs for training 
manuals and online tutorials. It does not include the time cost of 
training provided to or received by GAO staff.
    Question. What kind of training is provided by contractors and what 
is done by GAO's internal staff?
    Answer. Training that addresses development of core analytic 
skills, GAO policies, standards, and culture, and quality assurance 
procedures and practices are developed in-house using GAO subject 
matter experts and adjunct faculty. Professional development topics 
that are more general in nature, such as coaching, teambuilding, or 
project management, are outsourced. We seek to provide a blend of face-
to-face classroom interaction, online learning and web-based 
performance support tools. Learning programs delivered in each of these 
ways have been developed in-house, developed jointly with outside 
contractors or consultants, and purchased from outside vendors.
    Question. How many people has GAO dedicated to its internal 
training function, and what is the cost of this effort?
    Answer. GAO has about 15 staff, at an estimated cost of $1.9 
million, assigned to its internal training function. These staff are 
responsible for overseeing contractor training development and 
delivery; developing training materials; coordinating training delivery 
to GAO staff; providing subject matter expertise, conducting training 
courses, and assessing course development and content; and working with 
GAO managers and staff to identify options for maintaining and 
enhancing course offerings.
    Question. How much of that is directly related to maintaining or 
enhancing technical skills? How much is directly related to supervisory 
and management training?
    Answer. GAO's total investment in training approximates that spent 
by comparable professional services organizations. Our request provides 
funding for development and delivery of courses in our newly revised 
curriculum not only to maintain individual professional competence, but 
also to enhance it, thus promoting a work force that continually 
improves its skills and knowledge. To this end, we require analyst and 
specialist employees complete 80 hours of continuing professional 
education credits every 2 years. The proposed new mandatory curriculum 
for analyst staff includes 256 hours to maintain or enhance technical 
skills through orientation to GAO processes and customers, core 
analytic skills training, and professional development at an estimated 
cost of about $2 million. This training is critically important because 
about 38 percent of our analyst staff have 5 years or less with GAO. 
Also, about 172 hours of training in the new mandatory curriculum will 
focus on leadership development for senior and management-level analyst 
staff at an estimated cost of $687,000. Teams and offices provide 
training on substantive professional development and subject matter 
expertise at an estimated cost of $1.6 million.
    We plan to develop a mandatory curriculum for our administrative, 
professional, and support staff which will include components for 
technical skills, as well as supervisory and management training.
    Question. Do you have a strategic plan for training in GAO? If so, 
could you supply it for the record?
    Answer. Human capital elements, such as training, have always been 
broadly reflected in our agency strategic plan. However, we felt the 
need to have a separate human capital plan due to the importance of 
human capital management as the cornerstone of GAO's management 
framework and the high interest in such a plan. During fiscal year 
2003, we made substantial progress towards finalizing our first formal 
and separate strategic plan planning document for human capital that 
communicates our strategy for becoming a model, professional 
organization, including how we plan to attract, retain, train, 
motivate, and reward a high-performing and top quality workforce. 
Management has reviewed the draft human capital strategic plan and we 
are following it in practice. We are waiting for enactment of our 
pending human capital legislation. Thereafter, we will finalize the 
plan and provide copies to the committee.
                       GOVERNMENT PRINTING OFFICE

STATEMENT OF BRUCE R. JAMES, PUBLIC PRINTER
ACCOMPANIED BY:
        BILL TURRI, DEPUTY PUBLIC PRINTER AND CHIEF OPERATING OFFICER
        STEVE SHEDD, CHIEF FINANCIAL OFFICER
        MARC NICHOLS, INSPECTOR GENERAL

                  SUMMARY STATEMENT OF BRUCE R. JAMES

    Senator Campbell. We will now hear from the Government 
Printing Office, Bruce James, the Public Printer; Marc Nichols, 
Inspector General; William Turri, the Deputy Printer; and Steve 
Shedd, the Chief Financial Officer.
    Mr. James, why do you not go ahead and proceed. If you 
would like to abbreviate your comments, your complete testimony 
will be in the record.
    Mr. James. Thank you, Mr. Chairman. I am pleased to be with 
you here today to offer testimony in support of the Government 
Printing Office's appropriations request and to answer any 
questions you may have. At the table with me is Bill Turri, the 
Deputy Public Printer of the United States and the Chief 
Operating Officer, and to my immediate right is Steve Shedd, 
our Chief Financial Officer, and to my far right is Marc 
Nichols, our Inspector General.
    Last year at this hearing, I discussed the importance of 
developing a strategic plan for the GPO that is aligned with 
the changing information requirements of the agencies of 
Government, the national library community, and the general 
public. I also testified about the importance of stabilizing 
GPO's finances by stopping the long string of financial losses.
    We have made great strides toward the development of a 
strategic plan that can be accepted by Congress, employees of 
GPO, the printing and information industries, and the library 
community. We are wrapping up the first phase, the fact 
finding, and are only waiting for the final reports from GAO's 
study of the future information dissemination needs of the 
Government. We expect to complete a final plan before the 
beginning of next fiscal year.
    Meantime, as you know, we have proceeded to make changes to 
our organization that will be required regardless of the final 
plan. We have taken the steps necessary to stabilize the 
financial condition of the GPO by reorganizing and streamlining 
our business units, reducing employment, and shutting 
unnecessary operations. We conducted a successful early 
retirement program last year and have another underway. By the 
summer, we will have reduced overall agency employees by 20 
percent from the time that I arrived at the GPO a little over 1 
year ago. We have changed our capital investment program to 
require faster paybacks for taxpayers. If there are no 
unanticipated setbacks as the year progresses, we should end 
this fiscal year at or near the breakeven point rather than the 
$33 million loss I inherited, all while measurably improving 
our service levels to agencies, libraries and the public.
    Next year we will begin to roll out a series of new 
printing and digital information products now being developed 
by our New Products and Revenues Group which is supported by 
our Office of Innovation and New Technology, both of which 
report directly to me.
    While I cannot bring before you a finished strategic plan 
today, I can tell you that every sign is pointing to the 
necessity of maintaining a centralized public source for 
Federal Government documents that takes into account the fact 
that more than 50 percent of our documents are born digital and 
will never be printed by the Government except on demand, as 
needed. This calls for a different type of dissemination 
system, one that can deal with multiple electronic versions of 
the same document, authenticate electronic documents as 
official and reliable, and preserve the digital record of the 
American Government in perpetuity.
    Congress is fortunate to have in place an organization for 
providing such services to the American people staffed by more 
than 2,000 printing and information professionals who together 
have more than 55,000 years of experience in collecting, 
processing, and the distribution of United States Government 
documents. The men and women of the GPO are here to serve you 
and guide our brothers and sisters throughout the Government 
into the complex world of 21st century digital information.

                           PREPARED STATEMENT

    We appreciate the trust and confidence that Congress has 
placed in us and this subcommittee in particular for your 
support of our initiatives. To continue to serve your needs and 
those of the courts and the executive branch agencies, we are 
asking for a $25 million technology investment. We will use 
this to modernize our document handling systems, which will 
reduce future costs and lead to lower appropriations for 
congressional printing and binding and other Government 
documents.
    With that, we would be pleased to entertain your questions.
    [The statement follows:]
                  Prepared Statement of Bruce R. James
    Mr. Chairman and Members of the Subcommittee: It is an honor to be 
here today to present the appropriations request of the U.S. Government 
Printing Office (GPO) for fiscal year 2005.
    2003 Results.--I'm pleased to report that 2003 was an 
extraordinarily eventful and productive year for the GPO. With funding 
from the Legislative Branch Appropriations Act for 2004 and the 
approval of the Joint Committee on Printing, we conducted a highly 
successful voluntary separation incentive program that allowed us to 
reduce our workforce level by more than 300 positions, or 10 percent, 
yielding annual savings of $21.7 million. Together with our efforts to 
shutter GPO's failing retail bookstores, which will generate savings of 
$1.5 million in the first year, and the other steps we have taken to 
better manage our operations, our finances are being restored to a 
positive basis.
    We have undertaken additional measures in recent weeks that will 
yield further financial benefits. With the approval of the Joint 
Committee on Printing, we are implementing another voluntary separation 
incentive program that is targeted at reducing an additional 250 
positions, yielding an annual savings of $16.5 million for fiscal year 
2005. This program will be financed through our revolving fund during 
the April-July period of this year. The Joint Committee has also 
approved our plan to end the financial losses at our Denver regional 
printing plant by closing it. Barring any unforeseen developments, 
these and related actions we are taking to improve efficiency and 
economy will allow us to complete fiscal year 2004 at or near the 
break-even point, halting a decade-long pattern of year-end losses and 
setting the GPO on the road to sustained financial health.
    Transforming the GPO.--Apart from restoring our finances, during 
2003 we began the transformation of the GPO into a 21st century digital 
information processing facility. We carried out a broad reorganization 
to redirect the GPO's management, expanded our workforce development 
resources, began modernizing the GPO's product lines with new offerings 
such as Public Key Infrastructure technology, and initiated planning 
for the restructuring of our Federal Depository Library Program. We 
also improved emergency preparedness for our employees and for 
continuity-of-government operations. Across the board--from our 
customers in Congress, Federal agencies, and among the public, from the 
printing industry, the library and information communities, and from 
our employee representatives--we're getting strong support for the 
direction we're heading.
    Transforming the GPO for the long term will require much more than 
the changes we've already achieved. As you know, in the coming weeks 
the General Accounting Office will be concluding its congressionally-
mandated study of Federal printing and information policy. The study 
will establish a baseline of current operations on which we can 
confidently build a strategic plan for the GPO's future involving 
consultations with all of our stakeholders. The plan will include 
recommendations for reforming the 19th century statutes comprising 
Title 44 of the U.S. Code, the laws that authorize our programs and 
operations.
    Dealing with the GPO's building needs is a major transformational 
issue that we are also addressing. As reports in The Washington Post, 
The Washington Times, Roll Call, and The Hill have detailed recently, 
we've begun a process that we expect to culminate by 2007 in the 
relocation of the GPO from our aging, oversized quarters on North 
Capitol Street to modern, efficient facilities--preferably in the 
District of Columbia--that are sized and equipped to meet our needs in 
the 21st century. Rather than burden the taxpayers with this project, 
we want to investigate opportunities to finance it through the 
redevelopment of our current structures. In addition to benefiting the 
GPO and our customers, this approach will also generate significant 
benefits for the District. We have obtained the approval of the Joint 
Committee on Printing to proceed with the initial stages of this 
project and we will continue to consult closely with Congress as we 
proceed. As part of these efforts, we are seeking specific statutory 
approval to utilize up to $500,000 in our revolving fund to finance the 
services of experts to help us in this process.
    Beyond our planning and building efforts, the transformation of the 
GPO will require investments in new technology for collecting, 
processing, and distributing Government information. This will 
establish the GPO's leadership in using the best leading-edge digital 
technology in support of Congress, Federal agencies, and the public. 
The GPO has a vastly expanded role to play in content management, 
authentication of documents, meeting the challenges associated with 
versioning of electronic data, on-demand printing, the transfer of 
information from one generation of technology to the next, and the 
preservation of digital information in perpetuity. The 19th century is 
not coming back. These are the baseline services that the GPO must be 
prepared to provide if we are to carry out our mission effectively in 
the 21st century. In addition to our request for funding for 
continuation of services, our appropriations request for fiscal year 
2005 reflects this investment requirement, which is essential to the 
GPO's future and the future information activities of the customers we 
by law support.
    Fiscal Year 2005 Request.--Our appropriations request is designed 
to provide for the: Continuation of our congressional printing and 
binding operations at required levels; continuation of our document 
dissemination services at required levels; investment in GPO's future 
as a 21st century digital information processing facility; separate 
funding for the GPO's Office of the Inspector General; and 
modernization of business practices through appropriate legislative 
changes
    Continuation of Services.--For the Congressional Printing and 
Binding Appropriation, which covers printing and related services for 
Congress, we are requesting $88.8 million. This is a reduction of $1.8 
million, or 2 percent, from the level approved by Congress for fiscal 
year 2004.
    For the Salaries and Expenses Appropriation of the Superintendent 
of Documents, we are requesting $33 million. This is a reduction of 
$1.2 million, or about 3.6 percent, from the fiscal year 2004 approved 
level. This appropriation provides for the cataloging and indexing of 
Government publications, and the distribution of Government 
publications to Federal Depository and International Exchange libraries 
and other recipients authorized by law.
    The reductions in these two appropriations have been made possible 
by reduced printing workloads, our continued application of cost-saving 
digital information technologies, and increased efficiency in 
operations, including savings from the buyout conducted in 2003.
    Investment in the GPO's Future.--The most strategic of our fiscal 
year 2005 requests is a proposal for $25 million to be appropriated to 
our revolving fund, to remain available until expended, which will be 
used in carrying out a multi-year plan to transform the information 
technology used at the GPO in meeting Federal agency customer 
requirements for printed and digital documents as well as the public's 
increasing demand for authenticated, official Government information to 
be available from the Internet.
    Our vision is to move the GPO forward from a predominantly ink-on-
paper distributor of printing requirements to a life-cycle manager of 
digital Government information, electronically collecting, organizing, 
processing, and protecting the flow of public documents from their 
origination in Congress and Federal agencies through their 
dissemination, in perpetuity, to depository libraries and the public. 
To make this transformation effective, our technology plan has 
identified a series of initiatives that will sustain and improve the 
GPO's current information technology (IT) baseline; consolidate data 
center capabilities; modernize the GPO's IT infrastructure; reengineer 
the GPO's business processes to synchronize with IT capabilities; 
provide effective enterprise resource management; and ensure continuing 
IT security. This vision embraces the GPO's historic role of serving as 
the gateway to the Government's public documents while utilizing 
technologies that meet the demands of the 21st century. It will 
necessarily be modified by our strategic plan, the development of which 
will depend on the conclusions reached by the GAO's study.
    The funding we are requesting today will be used to generate 
efficiency and reduce costs tomorrow. Already, Congress is seeing the 
results of investment in the GPO, as last year's appropriation to fund 
our buyout is already generating savings that are showing up in our 
reduced requests for the Congressional Printing and Binding and 
Salaries and Expenses Appropriations for fiscal year 2005. As with all 
of our initiatives undertaken since my taking office as Public Printer, 
this transformation will be conducted under the oversight and guidance 
of the Joint Committee on Printing, the Appropriations Committees, and 
our legislative oversight committees in the House of Representatives 
and the Senate, and in consultations with our customers throughout 
Congress, Federal agencies, and the library and information 
communities.
    Office of the Inspector General.--Rather than continue to finance 
the GPO's IG through our revolving fund, we are requesting that this 
function be funded annually by direct appropriations, as IG operations 
are throughout much of the Government. For fiscal year 2005, we are 
requesting $4.2 million and 25 full-time equivalent (FTE's) positions 
for this purpose.
    Financing the IG through the revolving fund requires that the fees 
for various services be increased to reimburse this cost. A direct 
appropriation will alleviate that cost burden on Congress and agency 
customers and make our services more competitively priced. It will also 
provide greater independence for the IG and his staff to monitor the 
GPO's operations.
    Legislative Changes.--In addition to our funding request, we are 
requesting several authorities to support our transformational efforts 
and further our mission:
  --Extension of our early retirement and separation incentive 
        authority, which expires at the end of fiscal year 2004. 
        Utilized in 2003 and again this year, this authority has been 
        extremely useful in achieving orderly reductions in staffing 
        that are providing significant savings to GPO operations.
  --Authorization to use up to $500,000 to contract for expert services 
        to assist us in our effort to relocate the GPO and to finance 
        this project through redevelopment of our existing structures.
  --Authority to accept contributions of property, equipment, and 
        services to support and enhance the work of the GPO. We have 
        improved the language we submitted last year by adding 
        additional reporting requirements to ensure full 
        accountability.
  --Elimination of the current, long-outdated limit of 25 percent on 
        discounts for our sales publications. This would enable us to 
        match current sales discount practices in the private sector 
        and improve our documents sales practices.
  --Elimination of the current 5-year retention period for Government 
        documents in selective depository libraries. This requirement, 
        which would be replaced with regulations issued by the 
        Superintendent of Documents in consultation with the library 
        community, is imposing excessive costs for documents management 
        on libraries and undermining the efficiency of program 
        participation.
  --Authorization to use up to $10,000 in our Revolving Fund to support 
        the activities of the Benjamin Franklin Tercentenary 
        Commission, established by Public Law 107-202. The Commission 
        is working on ways for the Federal Government to appropriately 
        observe the tercentenary of Benjamin Franklin's birth in 2006. 
        The GPO's support for this important work could involve 
        printing, mailing, travel, or associated expenses. We are 
        deeply committed to cooperating with the Commission and its 
        private sector counterpart, the Benjamin Franklin Tercentenary 
        Consortium.
  --An increase in our representation allowance to $15,000 to support 
        activities promoting the GPO.
    Mr. Chairman and Members of the Subcommittee, thank you for all the 
support you have shown for our efforts to bring transformation to the 
GPO, reduce the costs of its operations, and improve the provision of 
our services to Congress, Federal agencies, and the public. This past 
year has been one of unparalleled accomplishment at the GPO, and with 
your support we can continue that record of achievement. I look forward 
to working with you and the Appropriations Committees in your review 
and consideration of our request. This concludes my prepared statement, 
and I would be pleased to answer any questions you may have.

                        BUSINESS-LIKE OPERATIONS

    Senator Campbell. You stated that you would like to run the 
GPO like a business, which around here sometimes is a buzzword. 
That is what almost candidate for office says about the Federal 
Government. You run it like a business and with most 
businesses, if they are not making a profit, you have got to 
shut it down because it is the profit margin that keeps it 
going.
    What are you going to do to make it more businesslike? 
Explain what that buzzword means.
    Mr. James. Well, Senator, I think we have taken a number of 
steps. I think we are seeing results from those steps. We have 
streamlined the organization to eliminate multiple levels of 
reporting. We have begun to build metrics to be able to predict 
and measure what it is that we are supposed to be doing. We are 
streamlining the ways that we go about dealing with Government 
agencies. I think we have taken a number of steps. I think 
those steps are paying off.
    Senator Campbell. You closed the bookstores, the outlets.
    Mr. James. We did.
    Senator Campbell. Has that saved a considerable amount?
    Mr. James. It will save millions over the years, Senator, 
about $1.5 million per year.
    Senator Campbell. And if people want a document that they 
normally would get in that bookstore, how do they get it now?
    Mr. James. Well, they get it online. They can certainly 
come online and look at our bookstore online, or they can call 
our 800 number and receive help from a real, live human being 
who will find that document and Federal Express it to them.

                           INVESTMENT REQUEST

    Senator Campbell. Good.
    Your budget includes $25 million for transformation 
efforts, and you mentioned that your final strategic plan will 
not be done until next fiscal year. Is that correct?
    Mr. James. Well, we certainly hope, Mr. Chairman, that we 
will complete that plan this summer. We are on track to 
complete it and to begin to make the investments we need 
beginning in the next fiscal year. I am a little reluctant. I 
know your staff has pushed us hard to give solid specifics.
    Senator Campbell. Yes. There is some concern about 
appropriating the money before the plan is complete.
    Mr. James. I think by the time that you would move forward 
with this, I think we will be able to give you more facts. I am 
just a little concerned about putting the cart in front of the 
horse in talking about how we are going to spend the money 
before we get the agreement on the plan not only from Congress 
but from the various stakeholders that we have.
    Senator Campbell. Do you still think you might get the 
strategic plan done by the summer, though?
    Mr. James. We will have it done.
    Senator Campbell. Your budget includes 16 new staff for the 
depository library program. Are those needed at this time?
    Mr. James. You bet. The depository library program is 
changing and it is changing because of the nature of the way 
the Government is creating information. For many years we sent 
to depositories hard copies, first in paper, then in 
microfiche, and we began to send CD-ROM's 15 years ago. It is 
now not only a combination of those products but last month, 66 
percent of all the documents we sent to our depository 
libraries were only digital. And they need a considerable 
amount of help in learning how to use digital tools to mine 
that data for their clients.
    Senator Campbell. Let me ask you the same thing I asked the 
former panel, and that is, if we have a flat budget and cannot 
increase the amount of money that you are asking for, what is 
going to get cut or hurt?
    Mr. James. Well, I think we will not come back to you in 
tears. We will manage the business. It may cause us to change 
the timing on some of the investments we are making in the 
future, but we will continue forward.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. I have a couple other questions too and I 
will submit those in writing, if you would get to those.
    Mr. James. Thank you.
    Senator Campbell. Thank you for appearing. I appreciate it.
    Mr. James. Thank you, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. What would be the benefits of continuing to invest in the 
GPO, as we did last year with an appropriation of $10 million to your 
revolving fund?
    Answer. We are asking Congress to invest in the GPO only where we 
can show that savings will result. Using the $10 million appropriation 
to our revolving fund for fiscal year 2004, we conducted a retirement 
incentive program that resulted in annual savings of $21.7 million. Our 
request for $25 million for the revolving fund for fiscal year 2005 
will be used to carry out a multi-year plan to transform the 
information technology used at the GPO in meeting Federal agency 
customer requirements for printed and digital documents as well as the 
public's increasing demand for authenticated, official Government 
information to be available over the Internet. This plan, to be carried 
out in concert with the pending results of the General Accounting 
Office's study of the GPO, as requested by this Committee, will 
generate new efficiencies and significantly reduce the future costs of 
our operations to Congress, Federal agencies, and the public.
    Question. Can you tell the subcommittee about your plans for 
relocating the GPO? Have you determined GPO's specific new space 
requirements?
    Answer. The GPO's current facilities are outdated, inefficient, and 
too large to support our changing operations, particularly as we 
transform those operations to meet the demands of the 21st century. Our 
central office complex here in Washington, DC, is composed of 4 aging 
multi-story buildings totaling 1.5 million square feet of space, 
completed between 1903 and 1940. The buildings have numerous 
inefficiencies that have been well-documented. At one time housing over 
8,000 employees, they now are too big for our current workforce of less 
than 2,500. Multiple stories make it difficult and costly to handle 
materials. Deteriorating utilities and elevators require constant 
upgrading. Floor loading limitations in the older buildings have long 
restricted their use.
    The nature and age of the buildings is imposing growing costs just 
to maintain the structures in serviceable condition. These costs must 
be recovered through the rates charged to the GPO's customers. 
Currently, 12 percent of our costs, about $35 million annually, are for 
building-related expenses (including utilities, maintenance and repair, 
security). The GPO will need to spend between $275 million and $530 
million over the next 5-10 years to maintain, repair, and secure our 
current facilities. If there is no change in our situation, these costs 
will have to be recovered from Congress, Federal agencies, and the 
public through our printing rates and sales prices.
    Our objective is to secure a modern, inline production facility 
that is appropriately sized and equipped to meet the GPO's current and 
future needs, which are still in the process of being determined 
through our planning process. Optimally, this facility would be located 
conveniently in the District of Columbia to enable us to serve 
Congress, Federal agencies, and the public efficiently. We envision 
entering into an agreement with a private sector concern to redevelop 
our current buildings and use the revenue generated from the 
redevelopment to acquire, construct, and equip a new GPO facility. The 
redevelopment agreement would also be configured to provide a revenue 
stream that would be used to underwrite GPO's operations into the 
future. This financing approach should obviate the need for 
congressional appropriations to accomplish the relocation project, 
remove the burden of building-related expenses on GPO's rate and price 
structures, and ensure the continuation of the GPO's information 
production and dissemination services well into the 21st century.
    Question. How many people took the buyout with the funding we 
provided you last year? What is the annual savings from this reduction? 
Did this reduction affect your request for appropriations for 2005? How 
is your current buyout effort proceeding?
    Answer. A total of 319 employees took the buyout we conducted last 
year, resulting in annual savings of $21.7 million. These savings--more 
accurately characterized as a reduction to our costs--have been a 
primary factor in eliminating the loss pattern that the GPO sustained 
over the past several years. We are currently conducting another buyout 
with the target of reducing our current employment level by 250 by July 
1, 2004. This buyout, which has been approved by the Joint Committee on 
Printing, will be financed through the GPO's revolving fund. It will 
generate annual savings of $16.5 million beginning in fiscal year 2005. 
It is proceeding well and we expect to meet the targeted goal of 
reducing employment by 250 positions.
    Question. You've requested authority to accept contributions of 
property, equipment, and services to support and enhance the work of 
the GPO. How do you see this authority working? How would GPO avoid a 
conflict of interest in accepting gifts?
    Answer. Last year we requested authority to accept contributions of 
property and services on behalf of the GPO and to make donations of 
surplus property and equipment to specified Federal, state, local, and 
charitable entities. The authority to accept contributions of voluntary 
services, such as those provided by interns, and to make donations was 
approved in the fiscal year 2004 Legislative Branch Appropriations Act. 
For fiscal year 2005 we are renewing our request to accept 
contributions of equipment and property, which was approved by this 
Committee last year.
    Currently, GPO is not authorized by law to accept contributions of 
equipment and property. This authority would allow us to accept the 
placement of prototype equipment for beta-testing and systems trials 
without requiring a Government investment, providing us with the 
flexibility we need to evaluate new and emerging technologies onsite in 
this period of rapid technological change. It would also permit us to 
work with the private and non-profit sector on the development of 
programs designed to increase the public visibility of GPO's 
operations, such as the creation of a printing museum similar to the 
U.S. Postal Service Museum located nearby.
    The authority we are requesting is similar to donation acceptance 
authorities possessed by many Federal agencies, such as the Library of 
Congress, the U.S. Court of Veterans Appeals, the Department of Housing 
and Urban Development, the Consumer Product Safety Commission, the 
Department of Commerce, the Administrative Office of United States 
Courts, and the Department of Labor. Acceptance of contributions of 
equipment and property would be solely on behalf of the GPO and subject 
to the usual limitations covering donations to the Government. To 
assure accountability, our request this year includes additional 
language that would require reporting on all contributions to the 
Appropriations Committees and the Joint Committee on Printing.
    Question. What are the benefits from providing a direct 
appropriation for your Inspector General?
    Answer. The GPO's Office of the Inspector General, established 
under the provisions of 44 U.S.C. 3901 et. seq., is currently funded 
through the GPO's revolving fund. The costs of this office are 
distributed as overhead to the various revenue-generating operations of 
in-plant printing, printing procurement, and documents distribution. 
The rates for the GPO's products and services must be adjusted to 
recover our overhead costs, including those of the IG. Along with other 
actions we are taking to reduce costs and improve efficiency, we are 
asking Congress to provide direct appropriated funding to cover this 
mandatory expense to help reduce cost pressures on our rates and 
prices.
    Equally as important, we believe it is necessary to have direct 
funding to the GPO's IG to ensure a level of independence for this 
operation that is appropriate to its mission. The IG is responsible for 
conducting audits and investigations relating to the GPO, yet is 
dependent on the Public Printer to provide approval for the necessary 
staffing, funding, equipment, and training necessary to carry out this 
mission. By law the Public Printer has ``no authority to prevent or 
prohibit the Inspector General from initiating, carrying out, or 
completing any audit or investigation.'' However, providing the IG with 
the capability to execute its mission independent of the GPO's 
management would put this office on a par with how most Federal IG 
operations are funded today.
    Question. What efforts have you undertaken to identify and make use 
of new and emerging information technologies?
    Answer. The GPO has implemented a variety of strategies over the 
past year to identify, evaluate, and incorporate new and emerging 
information technologies into our operations. An Office of Innovation 
and New Technology (INT) was established to identify new technologies 
and practices that will help us move forward. Reporting directly to the 
Public Printer, INT also helps create associations with other public 
and private sector entities to carry out the GPO's mission. During 
2003, we announced a partnership with the National Archives and Records 
Administration in support of permanent online public access.
    Along with INT, we have expanded our participation in technology 
and trade forums and shows to gain greater exposure to new 
developments. Through management reorganization and associated 
strategic and contingency planning functions, we are also carrying out 
broader outreach to the technology community. We have begun modernizing 
the GPO's product lines with new planned offerings such as Public Key 
Infrastructure technology. We are participating in the ongoing General 
Accounting Office long-range study of Federal printing and information 
policy, and expect to be able to use the study's results to help guide 
technology evaluation and acquisitions programs at the GPO. We have 
also revised our capital acquisitions policy to establish a more 
rigorous standard for return-on-investment to ensure we gain the 
maximum value from taxpayers' technology dollar.
    Question. Tell us what you see as the future of the depository 
library program. Why are additional staff needed in fiscal year 2004? 
What will be the impact if we are unable to provide these additional 
staff?
    Answer. The ongoing transition to a more electronic Federal 
Depository Library Program (FDLP) will continue into fiscal year 2005 
and beyond. Approximately 63 percent of the new titles entering the 
FDLP in fiscal year 2003 were electronic and this percentage will 
continue to grow. Currently, there are more than 262,000 titles in the 
FDLP electronic collection and it is expected to increase substantially 
over time.
    New challenges associated with discovering, acquiring, cataloging, 
and preserving digital documents for the FDLP electronic collection, 
working through these changes with our depository library partners, and 
carrying out our cataloging and indexing responsibilities will require 
an increase of sixteen FTEs for the Salaries and Expenses (S&E) 
Appropriation in fiscal year 2005. The increase will support the 
following activities:
  --Fourteen of the additional FTEs would be dedicated to preservation 
        activities associated with maintaining and providing permanent 
        public access to materials in the FDLP legacy and electronic 
        collections and a proactive program that emphasizes 
        consultation and education and promotes best practices for our 
        depository partners during this transition.
  --Two FTEs would be added to our cataloging and indexing efforts to 
        ensure that the full range of in-scope electronic information 
        being published by our Government is brought under 
        bibliographic control and made publicly available.
    While every effort to reallocate resources from traditional 
pursuits has and will provide some of the required personnel, not 
increasing the FTE level would mean that we would not be completely 
able to carry out our program responsibilities in fiscal year 2005.
    Question. You completed a management reorganization last year. How 
has that helped your transformation efforts at the GPO? Do you 
anticipate additional realignments?
    Answer. Last year we implemented an organizational model that is 
relatively new to the Federal Government but widely used in industry, 
wherein the chief executive officer (Public Printer) focuses on 
organizational policy and long-range planning and the second in command 
(Deputy Public Printer) serves as chief operating officer focusing on 
the day-to-day operations of the business. This has streamlined 
decision-making and is designed to keep the overall GPO organization 
focused on movement forward while ensuring that the day-to-day tasks of 
the agency are fulfilled. The reorganization of the top-level 
management structure has been followed by organizational restructurings 
at lower levels. There will be further organizational change in the 
future as the result of the development and implementation of the GPO's 
strategic plan.
    Question. Last year you reached an agreement with OMB on executive 
printing. Can you tell us how that agreement is working? Where do you 
expect this to go in fiscal year 2004 and fiscal year 2005?
    Answer. The OMB/GPO Compact on printing (June 6, 2003) successfully 
resolved the longstanding controversy over executive printing by 
proposing a new system that will enable Federal agencies to choose 
their own printers, using technology and support services provided by 
the GPO. Our hope is that the volume of printing paid through the GPO 
will increase at lower costs while providing all documents for 
cataloging and entry into the GPO's Federal Depository Library Program 
and related dissemination programs. As called for by the Compact, 
during fiscal year 2004 we are operating a demonstration project at an 
agency selected by OMB, the Department of Labor. We plan to deploy the 
system established by the Compact government-wide in early fiscal year 
2005.
    Question. How important is employee workforce development to your 
transformation efforts at the GPO? What changes have you implemented in 
your workforce development program?
    Answer. Workforce development is critical to GPO's transformation 
process. It is the means by which GPO will move our current workforce 
into our future mission. Last year we doubled our workforce development 
program and increased our training budget to help us shape the staffing 
capabilities we will need for the future. We also revised our training 
policy to support mission-related training, not just job-related 
training. To guide our workforce development for GPO's future mission, 
we will conduct a systematic needs assessment across GPO and a 
corresponding skills assessment of the current workforce.
    GPO has made a number of changes in order to ensure the success of 
the workforce development. A new Director of Workforce Development 
position was established and a new Director has been selected. The 
Director works under the leadership of the Chief Human Capital Officer. 
A Workforce Development Advisory Committee, involving the key leaders 
in each major area of GPO, has been working on the critical aspects of 
the needs assessment. A working committee involving management and key 
labor representatives has also been involved in formulating a process 
for ensuring that the needs assessment and the skill assessment is 
reflective of the differences that exist in GPO across organizations 
and occupations. These efforts have been widely promoted throughout 
GPO.
    Question. What is the status of emergency planning at the GPO?
    Answer. Over the past year, the GPO has completely revised its 
Emergency Action Plan. New procedures for emergency evacuations and 
``shelter in place'' were developed and published in an Interim Plan. 
Both plans were exercised and based on the results, adjustments to the 
procedures were made, and the final version of the Plan will be 
published this month. We also completed a number of physical security 
improvements such as raising the height of outside air intakes to 
preclude easy introduction of toxic substances into our heating and 
ventilation system. We also upgraded the ventilation control and fire 
alarm systems in our passport production building. We further reduced 
the number and operating hours of building access points and 
implemented more rigorous metal detection and package x-ray policies. 
This month we are installing an upgraded access system based on smart 
card technology which will allow us to incorporate digitally signed 
certificates and biometric identification data into our building and 
computer access control systems. Finally, we are in the final phase of 
acquiring an emergency mass notification system, which will enable us 
to individually notify and instruct all of our employees in a matter a 
few minutes during an emergency. Collectively, these actions represent 
a significant upgrade of our ability to protect and secure GPO 
employees and property.
    In the area of continuity of business operations, we this week 
signed the Memorandum of Understanding with the Congress which will 
enable the GPO to backup our critical computer databases and 
applications at the Legislative Alternate Computing Facility (ACF). In 
preparation for this, we have been consolidating databases and systems 
at our main North Capitol Street facility into a state-of-the-art data 
center, which we currently back up on a daily basis. As we implement 
our new capability at the ACF, we will be able to back up systems 
continuously and thus will be able to provide virtually uninterrupted 
support to Congress and our other Government customers in all but the 
most catastrophic disasters. Last summer, we initiated a comprehensive 
program to complete enterprise-wide risk assessments and security 
upgrades for all of our business applications and databases. This 
effort will be complete by the end of fiscal year 2004 and will further 
secure the integrity and security of our operations.
                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS HOLTZ-EAKIN, DIRECTOR
ACCOMPANIED BY ELIZABETH ROBINSON, DEPUTY DIRECTOR

    Senator Campbell. Now we will hear from our third panel 
from CBO, Douglas Holtz-Eakin, the Director, accompanied by 
Elizabeth Robinson, the Deputy Director. Mr. Holtz-Eakin, if 
you would like to proceed, your complete testimony will be in 
the record. I see you have got abbreviated notes right there in 
front of you.
    Mr. Holtz-Eakin. I have very little to say.
    Senator Campbell. They look like the kind of notes I use 
too.
    Mr. Holtz-Eakin. I thank you for the chance for us to be 
here this morning to talk about CBO's budget request for 2005. 
I want to take the opportunity to introduce Beth Robinson, who 
has done a sterling job in under a year as the Deputy Director 
of CBO. And I want to thank the committee for its support with 
our----
    Senator Campbell. May I interrupt you? What was your 
background before you got to the position, Ms. Robinson?
    Ms. Robinson. It was an eclectic one. I have training as a 
geophysicist actually.
    Senator Campbell. A geophysicist.
    Ms. Robinson. Yes, and I spent some time on the Hill at the 
Office of Technology Assessment.
    Senator Campbell. Does the geophysicist background help you 
with CBO?
    Ms. Robinson. Well, sometimes I wonder, but basically a lot 
of skills that you learn to handle large data sets, to get the 
computers to give you the answer you want, we use a lot at CBO.
    Senator Campbell. I have got an eclectic background too, 
and I am not sure it helps me being a Senator.
    Mr. Holtz-Eakin. She is being very modest. One of the 
reasons I was attracted to her is, in fact, that she has a 
background in science; and the range of issues that rolls 
through the CBO is quite broad. She brings skills that we did 
not previously have.
    Senator Campbell. Welcome aboard. Please proceed.

                       OVERVIEW OF CBO'S REQUEST

    Mr. Holtz-Eakin. Briefly, this year we have a request that 
would be an increase of $1.6 million for pay and benefits for 
the existing FTEs at CBO and an additional roughly $200,000 
that would cover a variety of needs--including our alternative 
computing facility communications, which are part of the 
disaster recovery system at CBO, and some higher costs for the 
Federal Accounting Standards Advisory Board, and other things 
are detailed in the written request.
    The total would be a budget of $35.5 million, an increase 
of $1.8 million, or 5.5 percent. We view this as essentially a 
current-services request, which will allow us to maintain our 
level of productivity, which we hope is well documented in our 
submission, in supporting the Congress in its need for 
budgetary and economic advice.
    We have made great progress, I think, in being responsive, 
cutting the time required to produce reports and being timely 
in their delivery for the deliberations of Congress. I would be 
happy to expand on that if necessary.
    As you mentioned in your opening remarks, we recognize that 
Congress may desire an even more limited request, and we 
respect Congress' desire to limit the growth of spending in the 
Federal budget and will work with this committee as necessary 
to meet any target that you might provide.
    I will point out that we have modest opportunities in the 
non-pay part of CBO's budget, which is only 12 percent of the 
budget. Many of those would be one-time reductions, which we 
will entertain as possible. But to the extent that there was an 
ongoing need for budgetary stringency, it would be concentrated 
in our personnel, which constitute 88 percent of the CBO 
budget. Moving to a freeze, for example, given the current pay 
and benefits requirements, would create the need to reduce by 
about 12 full-time equivalents at CBO.
    Senator Campbell. Twelve employees, twelve FTEs?
    Mr. Holtz-Eakin. With more flexibility on the scale of the 
pay increase, that, of course, could be different, and we could 
ameliorate that to some extent through the non-pay part of the 
budget.

                           PREPARED STATEMENT

    But certainly we would work with you. We look forward to 
additional guidance on the kind of request that is appropriate 
and would be happy to answer your questions.
    [The statement follows:]
               Prepared Statement of Douglas Holtz-Eakin
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the fiscal year 2005 budget request for the Congressional 
Budget Office (CBO). The mission of CBO is to provide the Congress with 
timely objective, nonpartisan analyses of the economy and the budget 
and to furnish the information and cost estimates required for the 
Congressional budget process.
    The Congressional Budget Office's proposed budget for fiscal year 
2005 is effectively a ``current-services'' request, in which the 
increases from 2004 are primarily for pay, benefits, and general 
inflation. The request totals $35,455,000, a $1.8 million, or 5.5 
percent, increase over the appropriation for fiscal year 2004 (after 
the rescission of 0.59 percent).
    The total increase requested is dominated by $1.6 million for 
expected increases in staff salaries and benefits. Funding for salaries 
and benefits constitutes 88 percent of CBO's budget, and those costs 
will grow by 5.5 percent in 2005. Additional factors include a new 
$75,000 charge for telecommunications services associated with the 
Alternate Computing Facility, a component of the legislative branch's 
disaster recovery system, and a $32,000, or 8.1 percent, increase in 
CBO's portion of the cost of operating the Federal Accounting Standards 
Advisory Board (FASAB). The remainder of CBO's budget request increases 
by 3.2 percent over that in 2004, a rate of growth affected by the fact 
that this portion of the budget will absorb almost half of the 0.59 
percent rescission in 2004.
    With the requested funds for 2005, CBO plans to continue to support 
the Congress in exercising its responsibilities for the budget of the 
United States government. CBO participates in the Congressional budget 
process by providing analyses required by law or requested by the House 
and Senate Budget Committees; the Committees on Appropriations, Ways 
and Means, and Finance; other committees; and individual Members. In 
particular, CBO:
  --Reports on the outlook for the budget and the economy to help the 
        Congress prepare for the legislative year;
  --Analyzes the likely effects of the President's budgetary proposals 
        on outlays and revenues;
  --Estimates the costs of legislative proposals, including formal cost 
        estimates for all bills reported by committees of the House and 
        Senate and for unfunded mandates on states and localities and 
        the private sector;
  --Constructs statistical, behavioral, and computational models to 
        project short- and long-term costs and revenues of government 
        programs; and
  --Conducts policy studies of governmental activities having major 
        economic and budgetary impacts.
    In fiscal year 2005, CBO's request will allow the agency to build 
on current efforts:
  --Increase the number and reduce the preparation time of reports and 
        in-depth analyses for the Congress, extending progress begun in 
        2003. The request will support a workload estimated at 2,120 
        legislative and mandate cost estimates, 82 major analytical 
        reports (11 percent more than in 2003, which itself represented 
        a 76 percent increase over 2002), 74 other publications, and a 
        heavy schedule of Congressional testimony.
  --Consolidate gains from additional staff resources provided by the 
        Congress for 2004 to augment the agency's ability to estimate 
        revenues and conduct dynamic analyses of the budget. Overall, 
        the request will support 235 full-time-equivalent positions, 
        the same number as in 2004. It includes an across-the-board pay 
        adjustment of 3.5 percent for staff earning a salary of 
        $100,000 or less, which is consistent with the pay adjustment 
        requested by other legislative branch agencies, along with a 
        projected increase in benefits of 7.0 percent.
  --Fund a combination of promotions and merit increases for all staff, 
        including those whose salary exceeds $100,000 and who do not 
        receive automatic annual across-the-board increases.
  --Provide $429,000 for CBO's share of FASAB's budget.
  --Provide $75,000 (previously paid by the House of Representatives) 
        for telecommunications services for the Alternate Computing 
        Facility.
  --Complete the replacement of CBO's Budget Analysis Data System, the 
        agency's primary budget-tracking system, with a lower-cost, 
        more-capable in-house system. After accomplishing that 
        replacement midyear in 2005, CBO plans to continue to develop 
        and exploit the capabilities of the new system--to improve the 
        speed and breadth of the agency's analyses--during the 
        remainder of the year and into the next, but at a much lower 
        annual development cost.
    Before I close, I would like to thank the Committee for its support 
of CBO's 2004 budget request, in particular, the two new positions that 
it approved to strengthen the agency's ability to forecast the economy 
and project revenues. And I would also cite the Committee's ongoing 
support of the student loan repayment benefit, which is an increasingly 
valuable tool in CBO's recruiting.
    I look forward to answering any questions that you might have about 
this request.

                      STAFFING IN DIFFICULT AREAS

    Senator Campbell. Thanks.
    In fiscal year 2004, the committee agreed to provide two 
additional staff for CBO. Are those staffers both on board?
    Mr. Holtz-Eakin. Those were identified to address needs for 
enhanced precision in our baseline receipts forecasts, and also 
to meet the desire for Congress to have some more dynamic 
analysis of macro-economic effects and also some budgetary 
proposals. We have not only enhanced the FTEs and are hiring 
for those, but we have also done some internal reallocations to 
make sure that there are people available in some of the tough 
cross-cutting areas, in particular finance. A lot of the 
difficulties in forecasting baseline revenues in the past 
several years have involved large run-ups in the stock market 
and then declines and associated bonuses and options. Finance 
people are difficult to hire, hard to retain. If Senator Durbin 
were here, I would point out that that has been one of our 
targets for student loan repayment. It has been successful.
    Senator Campbell. They make more in New York.
    Mr. Holtz-Eakin. We have had some success on that front, 
and we have got more firepower in those areas.

                            PROGRAM CHANGES

    Senator Campbell. You have $227,000 in what is described as 
program changes. What are those program changes and what is the 
money for, necessary at this time?
    Ms. Robinson. The largest component of that is twofold. One 
is a new $75,000 charge for disaster recovery for the physical 
data connections between CBO and alternate computing facility.
    The second one is an investment in our defense-modeling 
capability, of the defense budget itself. We had been 
contracting in the past for some data sets and other things, 
and we find, actually, that these contractors are retiring. It 
is a very specific $75,000 expense to bring that capability in-
house.
    Senator Campbell. Thank you.

                         INCREASED PRODUCTIVITY

    Your budget also discusses your effort to increase staff 
productivity. What are you doing to accomplish that goal?
    Mr. Holtz-Eakin. Well, there are two major problems. The 
first is management: setting clear objectives for deadlines for 
studies, keeping track of progress for those deadlines, and 
making sure in our merit review system that productivity is a 
component of the merit review. So internal management issues 
are one aspect, but there are also some changes in the nature 
of the process, the most notable being moving toward a more 
modern platform for publication, moving from word processors to 
a real desktop publishing system.

                         RETENTION OF EMPLOYEES

    Senator Campbell. How does the CBO compare with other 
Federal agencies on the retention of employees?
    Mr. Holtz-Eakin. I do not have the precise statistics, but 
I think we have been very successful.
    Senator Campbell. Could you provide that for the committee?
    Mr. Holtz-Eakin. Yes.
    [The information follows:]

    Employee retention is defined by the amount of turnover and 
agency experiences. The chart below describes the Congressional 
Budget Office's (CBO's) turnover among management and 
professional staff over the last two fiscal years. (Clerical 
staff are not included because CBO's workforce is less than 10 
percent clerical, and the agency experiences very little 
turnover among clerical staff.)
    Comparing the Congressional Budget Office's turnover with 
other agencies' is challenging because agencies maintain their 
data in disparate ways. The chart shows the information that we 
have been able to gather.

----------------------------------------------------------------------------------------------------------------
                                                  Fiscal Year 2002                     Fiscal Year 2003
                                       -------------------------------------------------------------------------
                                          Staff on                 Turnover    Staff on                 Turnover
                                           Board     Separations  (percent)     Board     Separations  (percent)
----------------------------------------------------------------------------------------------------------------
Congressional Budget Office...........          190          18        9.47          193          28       14.51
General Accounting Office.............          n/a         n/a        8.80          n/a         n/a        7.70
Congressional Research Service........          554          31        5.60          609          22        3.61
Library of Congress \1\...............        2,622         146        5.57        2,725         123        4.51
Executive Branch Agencies \2\.........    1,232,496      71,866        5.83    1,244,493      86,285        6.93
----------------------------------------------------------------------------------------------------------------
\1\ Includes Congressional Research Service as part of the Library of Congress.
\2\ Does not include the Federal Bureau of Investigation, the Postal Service, or intelligence agencies (such as
  the Central Intelligence Agency and the National Security Agency). Source: www.fedscope.opm.gov.
 Notes:
Data are for permanent employees in management and professional positions.
n/a = not available; GAO does not track staff by the category of management and professional and therefore could
  not provide this breakdown.

                          SUBCOMMITTEE RECESS

    Senator Campbell. Well, I have no further questions. 
Senator Durbin might and/or Senator Stevens, and if they do, 
they will submit those in writing to you. If you could get 
those back to us. Okay?
    Mr. Holtz-Eakin. Thank you very much.
    Senator Campbell. I thank you and with that, the 
subcommittee is recessed.
    [Whereupon, at 11:43 a.m., Thursday, March 4, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]












         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        THURSDAY, MARCH 11, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell and Stevens.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. JAMES H. BILLINGTON, THE LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
        JO ANN C. JENKINS, CHIEF OF STAFF, OFFICE OF THE LIBRARIAN
        LAURA CAMPBELL, ASSOCIATE LIBRARIAN FOR STRATEGIC INITIATIVES
        RUBENS MEDINA, LAW LIBRARIAN
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        MARYBETH PETERS, REGISTER OF COPYRIGHTS
        DEANNA MARCUM, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
        FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICES FOR THE 
            BLIND AND PHYSICALLY HANDICAPPED
        KENNETH E. LOPEZ, DIRECTOR OF SECURITY
        MARY LEVERING, ACTING DIRECTOR, INTEGRATED SUPPORT SERVICES
        JOHN D. WEBSTER, CHIEF FINANCIAL OFFICER
        KATHRYN B. MURPHY, BUDGET OFFICER, OFFICE OF THE CHIEF 
            FINANCIAL OFFICER

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The subcommittee will come to order.
    We meet today to hear from Dr. James Billington, Librarian 
of Congress, on the fiscal year 2005 request for the Library of 
Congress. Dr. Billington will also have testimony for the 
record on the Open World Leadership Program.
    Dr. Billington is accompanied by the Deputy Librarian, 
General Donald Scott, and a team of others; and we welcome you 
this morning.
    The Library is requesting almost $563 million, an increase 
of 7.6 percent over the current year. In addition, a total of 
$161 million is requested by the Library buildings and grounds 
appropriation, under the Architect of the Capitol.
    Clearly, there are many critical areas for which the 
Library seeks increases, including funding activation of the 
new audiovisual conservation center in Culpeper, Virginia, and 
increasing acquisition costs, in addition to routine payroll 
and inflationary increases. With the increases being requested, 
this budget will be very tough to accommodate in the budget 
environment we face this year, so we will be looking to you to 
prioritize and to help us make some very difficult choices as 
we move forward. Thank you very much.
    The chairman of the full committee is here this morning and 
I would like to yield to him.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Well, thank you very much. I am glad to be 
here with Dr. Billington and General Scott, but I cannot stay 
long because of other matters. I did want to come and show my 
support, basically, for the programs that are outlined in the 
budget. And I agree with you, it is going to be a difficult 
year. I want to make sure that we do the best we can to help 
the Library. Thank you.
    Senator Campbell. Dr. Billington, if you would like to 
proceed. Your complete testimony will be included in the 
record; as General Scott's will, too, if he has any comments.

            PREPARED STATEMENT OF SENATOR RICHARD J. DURBIN

    Before you proceed, Dr. Billington, we have received a 
statement for Senator Durbin who could not make it today, but 
asked that his statement be submitted for the record.]
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, thank you for scheduling today's budget 
oversight hearing on the Library of Congress and the Open World 
Leadership Center.
    I want to welcome you Dr. Billington. It has been a 
pleasure working with you in your capacity as Librarian of 
Congress. My staff informs me that you are now in your 18th 
year as the Librarian. I would also like to welcome the Deputy 
Librarian, General Donald Scott, to today's hearing.
    I recently had the opportunity to visit the Churchill 
Exhibit. It was extremely well done and I enjoyed it 
tremendously.
    Your fiscal year 2005 budget request is 7.6 percent over 
the fiscal year 2004 enacted level. While this is not as high 
as some of our legislative branch agencies' requests, it is 
rather high. I hope you will shed some light on your priorities 
so we can make informed decisions in what promises to be a very 
tight year.
    I understand that due to security upgrades at the Jefferson 
Building the retail store has been relocated. I hope you will 
talk a little bit about how the retail sales are going, both 
from the shop and from the Library's website, and what affect, 
if any, relocating the shop will have on its visibility to 
visitors to the Library.
    I'd like to hear about how your security needs at the 
Library are being addressed. I noticed in your budget request 
that you are asking for an additional 45 police personnel. I 
hope you will address the need for these extra personnel to the 
subcommittee, particularly in light of the pending merger of 
your force with the Capitol Police.
    I'm very happy with the continuing success of the Open 
World Leadership Center. The United States just hosted the 
first delegation from Lithuania and I understand it went quite 
well. I congratulate you on the success of this program, Dr. 
Billington.
    I hope you will provide us with an update on the Culpeper 
National Audio-Visual Conservation Center. I noticed a request 
for $5.28 million and 16 FTEs in your budget. It would be 
helpful to know the particulars of the request and the need for 
extra personnel.
    You are requesting $160.7 million in Library of Congress 
building projects under the Architect of the Capitol. In light 
of our tight budget constraints, I hope you will explain to the 
subcommittee what your priorities are for these projects.
    I'd also like to hear more about the Veterans' History 
Project.
    I'm anxious to hear more about your technological advances 
to the Blind and Physically Handicapped Program. I hope you 
will describe to the subcommittee the Digital Talking Book 
Machine.
    Thank you both for attending today's hearing. I look 
forward to hearing your testimony.
    Thank you, Mr. Chairman.

      INTRODUCTION OF THE ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES

    Dr. Billington. Thank you, Mr. Chairman. First, I would 
like to introduce Deanna Marcum, our new Associate Librarian 
for Library Services.
    She is coming back to the Library from a decade-long 
position as President of the Council on Library and Information 
Resources, which is the only think-tank in the world, Mr. 
Chairman, devoted exclusively to library concerns.
    She was with us before as Director of Public Service and 
Collection Management at the Library of Congress; and she was 
previously Dean of the Library School at Catholic University. 
So, we are very fortunate and grateful to have her with us.

                   OPENING STATEMENT OF THE LIBRARIAN

    The Library, Mr. Chairman, in many ways can be seen as the 
Nation's strategic information reserve, at a time when our 
security, economic competitiveness, and our creative dynamism 
is increasingly dependent on information. The Library provides 
America with the world's largest and most diverse collection of 
retrievable human knowledge. At the same time, it is the mint 
record of American private sector creativity and a world leader 
in freely distributing high-quality material on the Internet.
    From this time last year to this year, we estimate that we 
had about 3 billion electronic transactions. At the same time, 
we are digitally transforming our internal processes, ranging 
from re-engineering the Copyright Office to moving into new 
user-friendly digital materials for the blind and physically 
handicapped.
    We are also developing a national plan to store digital 
collections, even as we continue to add 10,000 new analog items 
to the Library every day. We are doing all this with 7.7 
percent fewer full-time equivalent staff than we had in 1992, 
before all this began, and with a magnificent but somewhat 
aging workforce, 25 percent of whom will be eligible for 
regular retirement by September of this year with potentially 
another 23 percent, if early retirement is offered as an option 
at the Library.
    Guided by our strategic plan and a rigorous review process, 
we are requesting some resources needed to continue performing 
our statutory obligations and core mission for Congress and the 
Nation. We must increase our modest acquisition budget for 
traditional print materials, which are growing by an estimated 
15 percent, particularly in troubled regions of the developing 
world that are of concern to American foreign policy.

           ACQUISITION AND PRESERVATION OF LIBRARY MATERIALS

    In our extraordinary Arabic collections, we discovered an 
autobiography of Osama Bin Laden and two volumes of 
Afghanistan's traditional laws, that were destroyed by the 
Taliban. These were, in part, reconstructed largely by our Law 
Library, which digitized them within 24 hours for distribution 
to 1,000 institutions in Afghanistan. So, these acquisitions 
are extremely important and we must also adequately preserve 
and store them. We have 128 million analog items.

                            NAVCC--CULPEPER

    By far the largest private gift ever received by the 
Library, is an unprecedented $120 million, which is being 
donated by the Packard Humanities Institute. This is to build a 
national facility for housing the audiovisual heritage of 20th 
century America, where much of the world's history and of our 
Nation's creativity is preserved, but in presently fragile and 
perishable forms at widely scattered locations.
    This will be a state-of-the-art facility in Culpeper. The 
construction is already well underway but it requires some 
modest, largely one-time increases in our own budget to equip 
it, to prepare for the move, and to sustain for the future of 
the good relationship with our extremely generous donor.

                          FORT MEADE PROJECTS

    We are also requesting in the Architect of the Capitol's 
budget, continuation of the Fort Meade storage project for 
specially formatted collections. About 15 million of them will 
be housed here in accordance with a plan previously discussed 
with the committee. We also need a copyright deposit facility 
for housing the vast, but presently scattered, creative record 
of America into one location. This is needed to fulfill our 
preservation obligations to depositors and to assure 
continuation of the voluntary deposit system that annually 
provides more than $30 million worth of material for the 
Library's collections. These occur, actually, in the 
Architect's budget.

                         FLEXIBLE HIRING TOOLS

    Now, the single greatest challenge facing the Library in 
the digital age is to develop a workforce that can think and 
work in new ways, without losing the immense inherited 
traditional knowledge and memory embedded in our staff. We will 
soon need the committee's support for a package of flexible 
human capital tools, in line with practices already in use 
within the Federal Government. The Library simply must be able 
to train a new type of objective knowledge navigator, to 
provide Congress and the Nation with seamlessly integrated old 
analog and the new digital materials.

                             POLICE MERGER

    With regard to the police merger, Mr. Chairman, the Library 
is fully engaged in increasing security, integrating police 
operations, and improving budget economy here on Capitol Hill. 
We are, however, deeply troubled by the proposed plan that the 
U.S. Capitol Police have issued for implementing the merger of 
the Library's police force with that of the U.S. Capitol.
    The proposed plan that the U.S. Capitol Police have 
submitted for congressional approval does not protect the 
statutory responsibilities that we bear and the distinct 
problems connected with protecting the collections, as well as 
the buildings and people of the Library. The merger is 
happening de facto and is eroding the Library's authority to 
exercise this core task, since we no longer can hire our own 
police.

                   NATIONAL FILM PRESERVATION PROGRAM

    The Library also submitted, during the first session of the 
108th Congress, a request for re-authorization of the National 
Film Preservation Program that has brought 375 motion pictures 
into the National Film Registry, which was created by Congress 
in 1988. This program has played the leading role in 
identifying endangered films, and setting national preservation 
standards, and working with other archives to save American 
films of all kinds from otherwise irreversible deterioration.

                          PREPARED STATEMENTS

    On behalf of the Library and all of its staff, I want to 
thank this committee for its continued support for, and 
interest in, the Library. Individual members of this committee 
have provided continuity and guidance for the Library. We are 
all in your debt and we will be happy to answer your questions.
    Senator Campbell. Thank you, Dr. Billington.
    [The statements follow:]
               Prepared Statement of James H. Billington
    I appreciate the opportunity to discuss the Library of Congress 
budget request for fiscal year 2005. This unique institution has become 
increasingly important to the nation as the economic and security needs 
become increasingly dependent on knowledge and the wise use of 
information. All libraries--and especially the Library of Congress--
must deal with the greatest upheaval in the transmission of information 
and knowledge since the invention of the printing press--the electronic 
onslaught of digitized information and communication. The Library is 
responding to this challenge, with program-focused goals and objectives 
contained in our new strategic plan, which was forwarded to the 
Congress in September 2003. The plan will undergo continuous 
improvement to ensure our place as the foremost library of the 21st 
century.
    The Library's mission is unchanging--to make its resources 
available and useful to the Congress and the American people and to 
sustain and preserve a universal collection of knowledge and creativity 
for future generations. What is new is the need to acquire, sort, and 
provide access to the massive unfiltered content of the Internet in 
order to keep our collections universal and continue to provide full 
information and services to Congress and the American people.
    The Library must continue to acquire, preserve, and provide access 
to analog collections with new storage facilities and mass 
deacidification. At the same time, the Library must implement 
fundamental technological changes to accommodate the digital 
revolution. Both collections and staff are being reconfigured by new 
initiatives in digital preservation, digital talking books, and 
Copyright reengineering, and by the increased reliance on digital 
services. The fiscal year 2005 budget request addresses this 
``Challenge of Change; Maintenance of Tradition.''
    The priorities of our fiscal year 2005 budget, reflecting the major 
objectives in the Library's strategic plan, are: to bring the National 
Audio Visual Conservation Center into operation; to restore the 
diminished acquisition capabilities for our collections; to regain full 
funding for the Congressional Research Service staff capacity at 729 
full-time-equivalent (FTE) positions; to implement the Copyright 
Office's reengineered processes; to support the conversion to digital 
talking book technology for people who are blind and physically 
handicapped; to fund the fifth increment of the Library's mass 
deacidification program; to accelerate the Veterans History Program; to 
gain additional security for the Library's systems, staff, buildings, 
and collections; and to address critical infrastructure support 
requirements.
    For fiscal year 2005, the Library of Congress requests a total 
budget of $602.3 million ($562.6 million in net appropriations and 
$39.7 million in authority to use receipts), a total increase of $43.0 
million above the fiscal year 2004 level. The total increase includes 
$20.5 million for mandatory pay and price-level increases and $34 
million for program increases, offset by $11.5 million for non-
recurring costs. The Library's fiscal year 2005 budget request is a net 
appropriations increase of 7.6 percent above that of fiscal year 2004. 
The Library has submitted a fiscal year 2005 budget amendment, which is 
reflected in the above numbers, that increases the net appropriations 
amount by $1 million, which is discussed under the headings ``Copyright 
Office'' ($.8 million) and the ``Sustaining the Collections'' ($.2 
million).
    Requested funding supports 4,363 FTE positions, a net increase of 
80 FTEs above the fiscal year 2004 level of 4,283. The 80 additional 
FTEs are requested to support the core needs of the collections, 
security, and management.
                     the library of congress today
    The core of the Library is its incomparable collections and the 
specialists who interpret and share them. The Library's 128 million 
items include almost all languages and media through which knowledge 
and creativity are preserved and communicated.
    The Library has more than 29 million books and other print items; 
12 million photographs; 4.8 million maps; 2.7 million audio materials; 
925,000 films, television, and video items; and 57 million manuscripts.
    Every workday, the Library's staff adds some 10,000 new items to 
the collections. Major annual services include handling more than 
875,000 on-line and customized Congressional inquiries and requests, 
registering more than 534,000 copyright claims, and circulating 
approximately 23.8 million audio and braille books and magazines free 
of charge to blind and physically handicapped individuals all across 
America. The Library annually catalogs more than 300,000 books and 
serials and provides the bibliographic record inexpensively to the 
nation's libraries, saving them millions of dollars annually.
    The Library also provides free on-line access, via the Internet, to 
its automated information files, which contain more than 75 million 
records, including more than 8.5 million multimedia items from its 
American Memory collections. The Library's acclaimed Web site 
(www.loc.gov) will record more than 3 billion hits in 2004.
                          21st century library
    As impressive as the everyday work of the Library of Congress is, 
we recognize the need to address the future. All libraries are rapidly 
changing in response to new digital technologies. The Library of 
Congress, like other research libraries, is building digital 
collections, making them readily accessible on-line, and developing 
search services previously not feasible. Digital technology also 
benefits smaller libraries because it allows them to expand and enhance 
resources for their patrons in colleges, schools, and communities. 
Libraries, in effect, are moving their catalogs and collections from 
physical buildings into patron's computers and are transforming their 
individual storage repositories into collaborative information-service 
centers. As this transformation continues, 21st century libraries will 
develop in the following significant ways: libraries will collect at 
the point of creation rather than after publication; libraries will 
complement classification systems with simpler search services; 
libraries will work with information creators and publishers to create 
digital preservation repositories; libraries will work with legislators 
to balance copyright against access needs; and libraries will retrain 
print oriented staffs for digital information services.
    In a world in which Google is the preferred search mechanism, the 
library of the future will be less the custodian of a collection in a 
physical building than a guide to Internet-accessible resources and a 
creator and provider of on-line information services. Realizing this 
library of the future depends on providing opportunities for today's 
librarians to learn to take advantage of digital developments and on 
integrating this new digital technology into the basic library 
processes of acquisition, cataloging, preservation, and reference 
services. The Library's strategic plan and this fiscal year 2005 budget 
request are helping guide us in making this inevitable change to a 21st 
century library.
                    fiscal year 2003 accomplishments
    Even as the Library plans for a dramatic new future, the immediate 
challenges continue to be addressed. In fiscal year 2003, the Library 
provided concerted congressional research support in more than 150 
major policy areas, including terrorism, health care, the U.S. economy, 
environmental and resource issues, and space exploration. The Library 
supported the war effort by making information and services available 
to the Congress as it executes its constitutional responsibilities, by 
documenting for future generations the war as it progresses, and by 
helping reconstruct the national libraries in Afghanistan and Iraq. 
Specifically, the Law Library helped reconstruct the destroyed law 
codes of Afghanistan from its collections.
    The Library also received congressional approval for the plan for 
the National Digital Information Infrastructure and Preservation 
Program; expanded the Global Legal Information Network to include the 
laws of 48 countries and international organizations; added seven new 
multimedia historical collections to the American Memory Web site; 
increased to more than 8.5 million the number of items freely available 
on-line or in digital archives; recorded more than 2.6 billion 
electronic transactions on the Library's Web sites; registered more 
than 534,000 copyright claims; added more than 1.8 million items to our 
collections; opened the off-Capitol Hill storage facility at Fort 
Meade, Maryland; and produced more than 2,700 new braille, audio books, 
and magazine titles for the blind and physically handicapped. Private 
funding enabled the Library to make notable new acquisitions, including 
the great Alan Lomax collection of Americana, and brought into 
residence a distinguished new cohort of invited senior scholars and 
competitively chosen junior researchers in the Thomas Jefferson 
Building with the opening of the John W. Kluge Center.
            national audiovisual conservation center (navcc)
    An increase of $5.28 million and 16 FTEs is requested for the 
NAVCC, a projected state-of-the-art facility for audiovisual 
collections. These funds are needed to continue the construction of the 
NAVCC and to begin the move-in of collections and staff of the Motion 
Picture, Broadcasting and Recorded Sound Division of the Library. The 
Packard Humanities Institute (PHI) is generously providing the majority 
of the funding to build the NAVCC--consolidating in one place and 
enhancing film and recorded sound preservation. The Library continues 
to work closely with PHI representatives and the Architect of the 
Capitol (AOC) on this much-needed project.
    Construction on this national repository for America's audiovisual 
treasures began in early September 2003, and the current schedule calls 
for the newly renovated Collections Building and Central Plant to be 
ready for collections to be moved in by summer 2005. The new Nitrate 
Vaults and Conservation (Laboratory) Building is scheduled to be ready 
for staff move-in by summer 2006. The Library's ability to procure, 
deliver, and install NAVCC furnishings, equipment, and infrastructure 
will require close coordination with PHI's construction schedule. The 
requested additional funding in the current budget is essential to 
maintain the construction schedule and the various components and 
procurements that support the transition to the new facility. Fiscal 
year 2005 funding will support staff relocation, collections 
relocation, and the design, procurement, and integration of the complex 
digital preservation systems within the NAVCC's audiovisual 
laboratories.
    The NAVCC will enable the Library to redress significant 
limitations in its current ability to store, preserve and provide 
access to its moving image and recorded sound collections. When the 
entire NAVCC complex is opened in 2006, the Library for the first time 
will be able to consolidate all of its collections in a single, 
centralized storage facility that provides space sufficient to house 
projected collections growth for 25 years beyond the NAVCC move-in 
date. Without the NAVCC, the Library's current preservation rate would 
result in the preservation of only 5 percent of its total endangered 
sound and video materials by the year 2015. By contrast, we project 
that the new NAVCC laboratories will enable us to preserve more than 50 
percent of these endangered collections in the same 10-year period 
after move-in. The NAVCC will also include a Digital Audiovisual 
Preservation System that will preserve and provide research access to 
both newly acquired born-digital content and analog legacy formats. 
This new system is contributing to the Library's overall development of 
a digital content repository and signals a new paradigm of producing 
and managing computer-based digital data.
    The Packard Humanities Institute's contribution to building this 
new state-of-the-art facility will represent the largest private 
donation to the Library of Congress in its entire history.
                       sustaining the collections
    Acquiring timely and comprehensive collections for the National 
Library and Law Library as well as the highly specialized research 
materials required for the Congressional Research Service (CRS) is 
among the most essential tasks the Library performs. All else depends 
on acquiring needed materials--preferably at the time they appear on 
the market. The rising tide of new kinds of knowledge and new formats 
make it essential that the Library address the already-serious 
catastrophic projected shortfalls in these areas. A total of $4.462 
million and seven FTEs are requested for addressing--for the first time 
in many years--this critical area. Lost purchasing power and the 
increased complexity and cost of acquiring proprietary electronic 
resources make this a critical problem that must be addressed.
    Serial subscriptions prices alone have increased by 215 percent 
over a 15-year period ending in 2001, yet the Library's GENPAC 
appropriation--used to purchase library materials--has grown at an 
annual average rate of only 4 percent. These shortfalls accumulated 
because the Library understated annual price-level increases for 
research materials. The Congress, in most years, has supported the 
Library's modest requests for inflationary increases in research 
materials, but the Library's methodology did not adequately factor in 
the value of the dollar, the sharp escalations in market prices for 
serials, budget rescissions, and the changes in how research materials 
are packaged and sold. The Library's fiscal year 2005 acquisitions 
budget proposals include funding for the recovery of lost purchasing 
power (a one-time increase to the Law Library [$205,000] and CRS [$1 
million], and a one-time and incremental increase in the National 
Library [$2.333 million]), for a total of $3.538 million. The $3.538 
million request includes a $.2 million budget amendment for the CRS 
element; the original CRS catchup amount was determined through fiscal 
year 2004 rather than fiscal year 2005. During the next year, the 
Library will develop a new formula that will adequately reflect the 
inflationary increases for research materials beginning in fiscal year 
2006.
    In addition, $479,000 and 7 FTEs are requested to support the new 
acquisitions methodology and policy that has been successfully piloted 
in China. Collecting materials published in China is difficult, but a 
three-year pilot project, funded by private donations, successfully 
demonstrated that the Library can acquire high quality, hard-to-obtain 
and politically sensitive materials, which traditional channels are not 
providing. Funding of $479,000 is requested to establish six teams of 
experts in the social sciences, located at carefully selected sites 
throughout China. The teams will recommend materials from their 
regions, which will then be shipped by the Library's established 
vendors. The Library's pilot program has proven that important added 
information about China can be obtained in this way. The Library 
requests funding to make this a permanent acquisition process for the 
world's largest country as it assumes an even-greater world role.
    Lastly, $445,000 is needed to allow the Law Library to begin 
properly reclassifying 800,000 volumes or one-third of its legal 
collections from the ``LAW'' class--previously used to shelve legal 
materials--to the ``Class K,'' (the new international standard for the 
classification of legal materials that was developed by the Library of 
Congress). Currently, one out of every four foreign legal documents 
cannot be located because of the outdated classification system, and 
the inevitable change to the new ``Class K'' cataloging system is 
required to effectively provide foreign legal research. The five-year 
project would enable the Law Library to meet its own cataloging 
standards before the few remaining staff with the experience and 
knowledge of the outdated ``LAW'' class cataloging leave or retire.
                           crs staff capacity
    In fiscal year 2005, CRS must face the increased cost of sustaining 
the research capacity needed to meet the legislative needs of the 
Congress. CRS is requesting a base increase of $2.71 million--the 
equivalent of about 25 FTEs. During the past ten years, the total size 
of CRS has decreased from 763 to 729. However, the salary costs per 
person have increased at a rate that exceeds the funding provided in 
the budget process. Without the proposed base increase, CRS would have 
to staff down further to a level of about 704 FTEs. The impact of this 
reduction would be a loss of CRS capacity in serving the Congress of 
about 275 hours a year in each of more than 150 major policy areas in 
which the Congress can be expected to be engaged. CRS would lose 
between eight and nine weeks of capacity per major policy area.
    CRS has been evaluating workforce opportunities and authorities to 
improve the productivity, efficiency, and attractiveness of CRS as an 
employer. During fiscal year 2003, CRS hired approximately 90 new 
staff--nearly 13 percent of the total staff population. To enhance 
retention of new staff and to further staff development Service-wide, 
CRS is requesting $546,000. This funding would be used to initiate a 
pilot student loan repayment program, to increase slightly its training 
and related travel budgets, and to provide monetary incentive awards to 
the Service's most highly talented and productive employees. The CRS 
Director will provide more details of this request in his statement.
                            copyright office
    The Copyright Office's Reengineering Program, which will be 
completed in fiscal year 2006, requires additional funding authority 
for fiscal year 2005. The extensive multiyear Reengineering Program has 
redesigned the Office's business processes, developed a new information 
technology infrastructure, created new work-flows and new job roles, 
and developed a new facilities plan. The program will allow the 
Copyright Office to replace outdated information systems with 
technology that promotes the use of electronically transmitted 
applications and works. The Library requests $3.66 million, in budget 
authority and equal offsetting collections authority (zero net 
appropriations), in order to implement the facilities portion of the 
Reengineering Program. This funding will support relocation of staff, 
redesign and construction of current space, and acquisition of 
furniture and other equipment.
    In developing the fiscal year 2005 budget request, inflationary 
factors for mandatory pay and price level increases were applied to 
both the Copyright Office's net appropriated funds and receipts funds. 
In reviewing this approach and upon further analysis, the Library has 
determined that the increases needed to cover inflationary growth 
cannot be met by the initially requested receipt level. As a result, 
the Library is requesting, via a budget amendment, that the fiscal year 
2005 receipt level be reduced by the inflationary adjustment of 
$810,000, with a corresponding increase in net appropriations. The 
Register of Copyrights will provide in her statement more details about 
the Reengineering Program and this adjustment.
                      digital talking book machine
    In support of the Blind and Physically Handicapped (BPH) program, 
the National Library Service (NLS) for the BPH is implementing a 
revolutionary change from analog to digital technology, which has been 
projected and planned since the early 1990s. The service will replace 
cassette tape players with Digital Talking Book (DTB) players and 
introduce a new medium for distributing the DTBs: solid-state 
(``flash'') memory, replacing the present cassette tape.
    NLS plans to introduce the DTB players to its customers by fiscal 
year 2008. The Library is requesting a total of $1.5 million in fiscal 
year 2005, of which $1 million will support the beginning of the design 
phase of the DTB player. In concert with the development of a DTB 
player, NLS will begin converting its current analog collection to 
digital format to ensure that its patrons will have a large and diverse 
collection of DTBs by fiscal year 2008. The balance of $500,000 in the 
request is for the first installment of a three-year conversion of 
10,000 audio titles from analog to digital format. Support for the 
fiscal year 2005 budget will help prepare the way for the new delivery 
system to replace the current analog cassette tape technology.
                          mass deacidification
    A total increase of $948,000 is requested for the fifth increment 
of the Library's five-year, $18 million initiative to save through 
deacidification one million endangered acidic books and five million 
manuscript sheets during the period 2001-2005. The Congress has 
approved the first four increments of this critical preservation 
program, and the Library requests the planned increase to continue to 
scale up to $5.7 million annually. By 2005, the Library plans to have 
reached the capacity to deacidify 300,000 books and 1,000,000 
manuscripts annually.
                        veterans history project
    Additional funding of $1.035 million and four FTEs is required for 
this important and growing project. Support is requested to increase 
public participation in interviewing veterans and creating the 
collection; to preserve accounts and documents for researchers, 
educators, and future generations; and to disseminate this compelling 
material to the public more widely. The overwhelmingly positive 
nationwide reaction to this program has exceeded our expectations, and 
will require additional resources to respond to the growing demands of 
this mandated program.
                                security
    The Library is requesting an increase of $7.306 million and 47 FTEs 
to support improved security of the Library's systems, staff, 
buildings, and collections. The Library continues to work with the 
Architect of the Capitol (AOC) to support major perimeter security 
improvements, consistent with the entire Capitol Hill campus (e.g., 
garage barriers, bollards, entrance reconfigurations). Seventy-five 
percent of Phase I (Jefferson and Madison Buildings) perimeter security 
project construction has been completed. However, unforeseen structural 
conditions below the James Madison Building have resulted in a partial 
redesign and additional AOC costs to complete the Phase I work. The 
Library understands that the AOC is working with the Committee to fund 
the additional costs and complete the initial phase. We ask the 
Committee to support the funds required to bring our perimeter security 
fully up to Capitol Hill standards.
    The Library is also working with the Capitol Police regarding the 
filling of 23 new police officer positions authorized by the Committee 
for the Library's campus. Capitol Police officers will be detailed to 
the Library to fill the new positions beginning in March 2004.
    Components of the Library's fiscal year 2005 security budget 
request are:
    Police Staffing.--The Library is requesting $3.825 million and 45 
FTEs for the continuation of the fiscal year 2004 hiring initiative, 
which identified a police staffing shortfall of approximately 100 FTEs. 
This is the second of three fiscal year requests for funding beginning 
in fiscal year 2004. For fiscal year 2005 funding and staffing are 
being requested in the Library of Congress's budget to ensure that this 
critical need is set forth to the Congress. The staffing requirements 
will not diminish if and when the Library's Police Force merges with 
the Capitol Police Force. The requirements will be the same, regardless 
of which force provides the service. The Library needs additional 
police positions to meet minimum staffing levels at all public building 
entrances; to staff new and enhanced fixed exterior posts; and to 
ensure an overtime rate that does not exceed 10-15 percent above the 
standard 40-hour workweek.
    Police Merger.--On August 6, 2003, the Library responded in a 
letter to U.S. Capitol Police Chief Gainer regarding the U.S. Capitol 
Police Implementation Plan for the Merger of the U.S. Capitol Police 
and the Library of Congress Police. In this response, we relayed our 
concerns about how this proposed plan will impact the Librarian's 
statutory responsibility to protect Library assets.
    The Library remains concerned about the how the merger of the 
Library of Congress Police Force with the U.S. Capitol Police Force 
diminishes the Librarian's authority to exercise his responsibilities. 
The current plan proposed by the Capitol Police does not take into 
account the statutory obligation of the Librarian of Congress to 
oversee the Library's collections and buildings. The Library's police 
force is focused not only on the physical safety of our staff, 
visitors, and buildings, but on the integrity and security of our 
invaluable collections and is the primary arm for the Librarian of 
Congress in discharging this responsibility. At the very least, the 
Library must have a presence on the Capitol Police Board in order to 
argue for the level of resources made available to protect the 
Library's assets. The Capitol Police officers that serve on Library 
property must also be under the technical direction of and accountable 
to the Librarian of Congress. The Library looks forward to working with 
this Committee and the authorizing Committees to ensure that the merger 
is completed in a manner that preserves the mandated authority of the 
Librarian.
    Security Equipment Maintenance.--A total of $930,000 is requested 
for the maintenance and repair costs of five new major electronic 
security systems, which will become fully operational in fiscal year 
2005. Sustaining their operations will be crucial for Library security. 
The requested funding will ensure that these vital security systems, 
installed in accordance with the Library's Security Enhancement Plan, 
are adequately maintained and repaired by accepted best industry 
practices.
    Intrusion-Detection System.--$1 million is requested to build-out 
the electronic access control and primary intrusion detection systems 
requirements identified in the Library's Security Plan's risk framework 
and needed to mitigate safety risks within the Library.
    Alternate Computer Facility (ACF).--An increase of $622,000 is 
needed for CRS to support the annual recurring operating costs of this 
all-important facility. The ACF will provide for IT business continuity 
in the event of a catastrophic failure of the Library's computer 
center. In the event that the Library's primary computer center becomes 
inoperable, the ACF will also provide continued on-line service to the 
Library's remote/local users, preventing disruption of service to the 
Congress and its constituency.
    IT Security Certification and Accreditation.--Security must be 
treated as an integral part of the Library's overall IT infrastructure 
if risks are to be systematically reduced. Accordingly, the Library has 
embarked upon a thorough review of its IT security. Funding of $929,000 
and two FTEs is requested in fiscal year 2005 for ITS to certify and 
accredit existing, mission-critical IT applications, systems, and 
facilities of the Library ($720,000) and to conduct computer security 
audits by the Inspector General Office ($209,000/2 FTEs).
                         infrastructure support
    The Library is requesting $6.531 million and nine FTEs to address 
critical support systems, space, and staff initiatives. These Library-
wide initiatives support all organizational entities and are key to 
performing our varied tasks efficiently and to providing our customers 
with efficient and seamless services. Funding supports:
    Information Technology (IT).--IT is a critical tool for achieving 
organizational success in the Library. An additional $3.316 million is 
needed for the Library's IT infrastructure. To keep pace with the rapid 
increase in electronic traffic, ITS server processing power and 
associated storage has increased, and the corresponding funding for 
maintenance must also increase. A total of $1 million is needed to 
cover ITS's actual and projected maintenance costs (we anticipate a 14 
percent increase in hardware maintenance and a 6 percent increase in 
software maintenance in fiscal year 2005). The Library's technology 
needs change as services expand, and they require 24-hour support to 
satisfy the Library's customers, which sharply raises contract costs. 
The requested $1.017 million will allow ITS to support the increasing 
costs of the IT service provider contract, which the current ITS budget 
cannot fund. Without added funding, ITS will have to either curtail 
services or dangerously cut back on equipment purchases or maintenance. 
One-time funding of $1.299 million is also needed to implement a single 
integrated search function for the Library's primary on-line 
information sources (LIS/Thomas, American Memory, LC Web pages, and the 
Integrated Library System bibliographic catalogs). This initiative will 
support searching with the commonly used data standard (XML) that the 
Congress is now applying to the preparation of its publications. As the 
House and Senate develop and implement new authoring systems that 
support XML, the congressional clientele expect the Library to have a 
search engine and related software that can handle XML. CRS will be 
partnering with the ITS Office to identify the requirements, develop 
solutions, and procure, migrate, configure, and optimize the needed new 
search engine tools.
    Facilities Management.--An increase of $1.880 million and nine FTEs 
are requested to modernize the Library's facilities services, 
supporting space management ($1.658 million/8 FTEs) and custodial 
services ($222,000/1 FTE). The Library's Facilities Services Division 
cannot effectively meet current and future Library space support 
requirements, and lacks flexibility to respond to the Library's rapidly 
changing needs. Multiple internal and external audits and studies of 
Facilities Services have identified fundamental problems in facilities 
programs that only division-wide modernization and workforce 
development can improve. The funding request addresses the most urgent 
recommendations identified by the auditors, several outside expert 
consultants, the ISS Director, and the Facilities Services management 
team. Implementation of these recommendations will provide the Library 
with the basic support tools, previously not available to the Library 
but used throughout industry and by other government agencies, to 
increase the efficiency of all space-related projects, and enable 
rotated scheduling of preventive maintenance (reducing costly repairs 
Library-wide). These steps are especially important for the Offices of 
Safety Services, Security and Emergency Preparedness, and for ITS.
    Reduced funding for custodial services in recent years has resulted 
in a general deterioration of building conditions, and an additional 
$196,000 and one FTE (custodial work inspector) is needed to supplement 
the current contract. Since Fort Meade will add 335,000 square feet of 
space between fiscal year 2005-2009, the Library is requesting $26,000 
to fund the needed custodial services.
    Personnel Management.--A total of $1.335 million is requested to 
upgrade the Library's personnel hiring system. The future of all of the 
Library's efforts depends on our greatest asset the expertise, 
intellect, and dedication of a Library staff that makes our vast 
collections and services relevant and accessible. Library management 
must be able to train, develop and renew its staff and add fresh talent 
to sustain the Library's leadership role amid the massive technological 
changes in the 21st century. The Library's Human Resources Services 
(HRS) needs a fully integrated and comprehensive Web-based Human 
Resource Information System (HRIS) that interfaces with the Library's 
payroll provider. The added funding of $1.335 million requested for 
fiscal year 2005 will procure and implement staffing and classification 
modules that will be integrated with the emerging HRIS and will improve 
the timeliness and efficiency of the Library's hiring and 
classification processes.
                     library buildings and grounds
    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care and maintenance of the Library's 
buildings and grounds. In coordination with the Library, the AOC has 
requested in its fiscal year 2005 budget an increase of $121.8 million 
for Library-related work and support. The AOC budget includes funding 
for six key projects requested by the Library. The two most crucial 
projects are (1) continuation of the Fort Meade construction program by 
the construction of Book Storage Modules 3 and 4 ($38.5 million) and 
(2) construction of the Copyright Deposit Facility ($59.2 million). 
Both of these capital improvement projects are critical in addressing 
basic storage and preservation deficiencies, as well as serious 
environmental, fire, and employee safety issues. Delay in funding this 
construction will make an already-critical situation worse and will 
increase the future cost of construction. Funding is also requested for 
increased space modifications ($150,000), construction of six secure 
storage rooms/vaults ($860,000), a dishwashing machine for the Madison 
cafeteria ($210,000), and an integration and upgrade study ($400,000) 
of our aging book conveyor system. The Library strongly recommends the 
approval of the AOC's Library Buildings and Grounds budget, which is 
essential for the effective functioning of the Library.
                        legislative initiatives
    The Library has proposed language to extend, by five years, the 
period for securing commitments from partners to join the National 
Digital Information Infrastructure and Preservation Program (NDIIPP), 
to provide the mandated matching funds, and to work out formulae to 
include grants, cooperative agreements, contracts, and other legally 
enforceable pledge agreements entered into before 2010.
    The Library's strategy for meeting the requirements of the 
legislation revolves around making investments that require mutual 
participation and cost-sharing agreements with a wide variety of 
stakeholders. Given the current economic climate, the Library 
anticipates that a substantial volume of non-federal matches will be in 
the form of in-kind, cost sharing contributions to the joint NDIIPP 
projects that will be defined and developed by the Library over time. 
The Library seeks to extend the period of time in which these non-
federal contributions can be solicited and received. The Library's 
ability to support these jointly funded projects will be substantially 
enhanced if the $75 million that is subject to a matching requirement 
can be made available for obligation over the extended time frame in 
which the different schedules of pledge donations are likely to be 
fulfilled.
    The Library is funding the NDIIPP by investing in a first set of 
practical experiments and tests. Following an assessment, we will fund 
a second set of investments as described in the plan that was submitted 
to and approved by the Congress in December 2002. The initial planning 
and fact-finding phase of NDIIPP made it clear that the entire amount 
available to NDIIPP could not be responsibly committed without the 
benefit of the earlier testing and iterative learning, followed by 
reinvestment in a second generation of work. The language we are 
proposing for fiscal year 2005 is required to implement this approach, 
which was needed for the Congressionally approved NDIIPP plan. 
Attaining the $75 million of matching federal funding and achieving the 
desired results in the preservation of digital material requires 
investing the initial $20 million in a series of practical projects 
that will unfold over a five-year period.
    The creation of an attainable national preservation strategy will 
occur incrementally, because of the complexity of the challenge and the 
number and diversity of partners involved. The Library is taking 
actions to begin building the preservation infrastructure by: building 
the technical architecture that can support these multiple 
partnerships; developing a network of partners who will share the 
responsibility in the course of the next five years; and participating 
in joint collaborative research on long-term digital preservation and 
archiving issues.
    A first formal call for network partners was released in August 
2003, and we received final proposals on November 12, 2003. The 
Library, along with the National Endowment for the Humanities, is 
making selections among the proposed applicants to seed the NDIIPP 
network with partners for long-term preservation of digital content. 
The Library anticipates awarding up to $15 million of the available $20 
million available in this initial round of investments.
    The Library is simultaneously funding a test of existing 
architectures to assess how digital content can be shared and inter-
operate among different institutions. This will result in a revised 
technical architecture and a second generation of investments in 
developing the overall technical preservation architecture.
    The Library is partnering with the National Science Foundation 
(NSF) in a digital archiving and long-term preservation research 
program. The goal of the program is to stimulate research that builds 
capacities for long-term management and preservation of digital 
materials. The intent of the program is to support both technical and 
economic, social, and legal research topics related to archiving 
digital materials. The Library signed a memorandum of understanding 
with NSF in February 2004.
    Language is also proposed to prohibit transferring funds from the 
Library of Congress to the State Department (DOS) for the construction 
of embassies. The DOS has proposed establishing a Capital Security 
Cost-Sharing Program that, by fiscal year 2009, would cost the Library 
as much as and possibly more than the entire present cost of our 
overseas offices. Under the proposed new program, the Library would be 
paying DOS, by fiscal year 2009, approximately $7.4 million for 202 
positions located in 12 locations--95 percent of which are located in 
only six locations. This assessment would be equivalent to 90 percent 
of the Library's fiscal year 2004 total present overseas budget of 
$8.231 million. The DOS proposal does not follow government cost-
sharing standards and would unfairly leverage additional costs on the 
Library's overseas acquisitions programs that are essential for our 
continued understanding of the Near East and other foreign areas of 
national concern.
    The budget before this subcommittee reflects important needs for 
the Library--preservation of its collections, expansion of its services 
to the Congress increasingly services for the nation. As the national 
library leading and working with a complex network of partners at the 
beginning of the 21st century, the Library's workforce--now and in the 
future--is an essential element to the success of our mission and 
goals. In previous appearances before this Subcommittee, I have 
stressed the need to transfer knowledge and expertise to a new 
generation of knowledge specialists. An estimated 40 percent of the 
Library's workforce will be eligible to retire by 2009. The Library 
must also be able to attract and retain the very best talent 
available--in CRS, the Law Library, the Copyright Office, in its core 
library management areas.
    Elsewhere in the federal government--widely in the Executive Branch 
and within sister agencies such as GAO--the recruitment, management, 
and pay scales of the federal workforce are being changed. The Library 
will be seeking from the 108th Congress authorization for broad-based 
human capital tools and flexibilities, in line with practices already 
in use within the federal government. We need to ensure that the 
Library of Congress can attract, retain, motivate, and reward a top 
quality and high performing workforce to serve the Congress and to 
sustain and make even more usable the nation's strategic information 
and knowledge reserve. In order to meet the ambitious goals of our 
strategic plan and accomplish our goals, we must be able to compete on 
a level playing field within the federal government for the best 
talent. The Library's services to Congress and the nation are unique 
and multi-faceted, and they require the Library's workforce to possess 
cutting-edge knowledge and skill sets.
                                summary
    As the keeper of America's--and much of the world's--creative and 
intellectual achievements, the Library of Congress is keenly aware of 
its awesome responsibility. This Library is the research and 
information arm of the national legislature and contains the world's 
largest storehouse of knowledge and the mint record of America's 
creativity. The strategic plan and supporting fiscal year 2005 budget 
request will continue the Library's great tradition, which covers the 
world and has now been expanded to include Congressionally mandated 
leadership in the massive task of sorting and preserving digital 
material. All of this is needed to support the Congress, the public, 
and the democratic ideal.
    The Library's vision for the 21st century is to lead the nation in 
ensuring access to knowledge and information by promoting the Library's 
creative use of its unmatched human and material resources for the 
Congress and its constituents. By 2008, the Library plans, with the 
support of the Congress, to have achieved the following:
  --The Library's National Audiovisual Conservation Center is operating 
        and is recognized as having assumed international leadership in 
        providing film and recorded sound preservation and 
        accessibility. The new storage facilities at Fort Meade are 
        operating and are recognized as an outstanding example of how 
        to perform off-site storage, long-term preservation, and rapid 
        access to the material.
  --The core national programs of Library Services and the Office of 
        Strategic Initiatives are recognized to have sustained the 
        breadth and depth of the universal artifactual and digital 
        collections. These programs will also have provided positive, 
        verifiable assurance that the Library is acquiring, 
        establishing bibliographic control, preserving, providing 24/7 
        access, and securing the collections for future generations 
        regardless of the information's format.
  --The Congressional Research Service has succeeded in restructuring 
        both its permanent workforce and its supplemental interim 
        capacity so that it is always the first-choice research 
        provider of the Congress for authoritative, nonpartisan, 
        timely, and objective research and public policy analysis in 
        support of legislative deliberations. It will have improved 
        both the quality of its analysis as well as its overall 
        research capacity.
  --The National Library Service for the Blind and Physically 
        Handicapped has completed the development of digital talking 
        book technology and has begun conversion to use of the 
        technology through distribution of the new talking book 
        machines.
  --The Copyright Office is a leading advocate of an effective national 
        copyright system that serves both creators and users of 
        copyrighted works; is the primary advisor to the Congress on 
        national and international copyright matters and is a relied-
        upon source of information and assistance to federal agencies 
        and the judiciary on these matters; is providing its services, 
        including registrations, electronically; and is creating 
        registration records compatible with the Library's cataloging 
        system.
  --The Law Library of Congress will have achieved and maintained an 
        enhanced electronic system involving almost all countries 
        important to the U.S. Congress in order to provide it with more 
        comprehensive, authoritative, and timely global legal 
        information.
  --The Library has implemented human capital management initiatives 
        resulting in recruitment, development, and maintenance of a 
        diverse, well-trained, highly skilled, and high-performing 
        workforce to filter, navigate, analyze, and objectively 
        interpret knowledge for the Congress and the nation. Further, 
        the workforce functions in a management-supported environment 
        characterized by open communication, innovative thinking, 
        leadership in managing change, and effective and efficient 
        program and supporting processes rivaling the best commercially 
        available services. Special emphasis will be paid for providing 
        flexible rewards and responsibility for staff with substantive 
        expertise that leads to productivity improvements.
    On behalf of the Library and all of its staff, I thank the Congress 
for its continued support of the Library and its programs. I ask for 
the support of the Library's fiscal year 2005 budget request as the 
next step in moving toward achieving these strategic outcomes.
                                 ______
                                 
               Prepared Statement of Daniel P. Mulhollan
    Mr. Chairman and Members of the Committee: I am pleased to appear 
before you today to discuss the work of the Congressional Research 
Service (CRS) and our fiscal year 2005 request. I want to thank this 
Committee for the confidence it has shown in CRS in the past and the 
support that has enabled CRS to serve the Congress during these 
difficult times of demanding policy deliberations, which have been made 
especially challenging because of our heightened need to provide for 
security at home and abroad, and because of greatly increased fiscal 
constraints.
    As CRS completes its ninth decade of service to the Congress, we 
continue to uphold our sole mission: We work exclusively and directly 
for the Congress, providing research and analysis that is 
authoritative, timely, objective, nonpartisan, confidential, and fully 
responsive to the policy-making needs of the Congress.
    The Congress continually and routinely calls on CRS research 
assistance as it examines policy problems, formulates responses, and 
deliberates on them across the broad range of complex and challenging 
issues on the legislative agenda. Our paramount concern, especially 
given the critical constitutional role of the Congress during a time of 
war, is preserving independent, accessible, and responsive analytic 
capacity in the legislative branch.
    Mr. Chairman, my statement today highlights CRS accomplishments in 
supporting the Congress over the past year. My statement also outlines 
the fiscal challenges CRS will face in the upcoming year and reports on 
the steps we have been taking to contain costs. I am concerned about 
the Service's ability to continue providing the level of support 
Congress has come to rely upon. For the coming year, we seek to 
maintain our research support for the Congress including priorities 
targeted to meet major law-making needs as Congress faces continuing 
and unfolding policy concerns, as well as significant, unanticipated 
crises.
         fiscal year 2003 highlights in crs legislative support
    Throughout fiscal year 2003 Congress called on CRS as it confronted 
numerous, challenging public policy problems in its demanding schedule 
of legislative and oversight activities. Today I will touch upon some 
issues emanating from the war with Iraq and efforts to enhance homeland 
security last year. CRS has and continues to play a significant role in 
keeping the Congress abreast of policy questions, options and their 
implications during rapidly changing situations of vital importance to 
the Nation.
    The War with Iraq.--U.S. involvement in Iraq--the diplomatic 
activities and military preparations leading up to the war, the war 
itself, and the war's aftermath--dominated the congressional foreign 
affairs and defense agenda during the year. CRS specialists responded 
to diplomatic, military, and postwar issues; provided briefings on the 
congressional joint resolution authorizing the President to use force 
against Iraq; and fielded queries on war powers, declarations of war, 
and the preemptive use of force under international law.
    As military action began, CRS assisted with issues such as Iraq's 
relations in the Middle East, U.S. efforts to change the Iraqi regime, 
and the United Nations oil-for-food program. Analysts examined the 
postwar needs of Iraq for humanitarian and reconstruction assistance, 
the role of the international community and the United Nations, Iraq's 
economy and foreign debt, and the likelihood that any U.S. loans to 
future Iraqi governments would be repaid.
    Homeland Security and the Potential for Terrorism.--To assist the 
Congress as it addressed homeland security and terrorism, CRS continued 
its Service-wide, coordinated response that draws upon a wide range of 
expertise. Following passage of the Homeland Security Act, CRS experts 
developed a comprehensive organization chart that identified statutory 
requirements for congressional staff who monitor the establishment of 
the Department of Homeland Security (DHS). As Congress began oversight 
activities pertaining to this new government agency, CRS provided help 
with procedural and jurisdictional questions, briefings on the 
operational and organizational aspects of DHS, and analyses on the 
protection, use, and disclosure of critical infrastructure information 
submitted to DHS. Anticipating the subsequent intense demand for 
information and analyses on new or expanded programs related to 
homeland security, CRS examined such matters as emergency management 
funding programs, federal disaster recovery programs, and federal 
assistance programs aiding state and local government in terrorism 
preparedness.
    Other related domestic policy issues related to the war and 
terrorism arose late in the 107th and continued throughout the 108th 
Congresses. CRS responded to requests regarding bioterrorism and health 
issues, such as the public health system's ability to respond to health 
threats posed by chemical and biological agents; border and 
transportation safety; the continuity of Congress in the event of a 
catastrophic attack; critical infrastructure security including 
communications systems, oil and gas pipelines, electrical power grids, 
and highway systems; immigration concerns such as restructuring the 
issuance of visas; and legal ramifications of anti-terrorist 
enforcement, including the roles and authorities of law enforcement and 
the intelligence community.
    The Service's overall productivity and performance in fiscal year 
2003 are best illustrated by four measures of its workload during the 
year: (1) support for 160 major policy problems at all stages of the 
legislative agenda; (2) maintenance of 900 key products in major policy 
areas, representing a 30-percent increase over the 700 products 
maintained at the close of last fiscal year; (3) immediate 24/7 online 
access to key products and services through the Current Legislative 
Issues (CLI) system on the CRS Web site, with a 10-percent increase in 
congressional use of our electronic services over use last year; and 
(4) custom work for the Congress--thousands of confidential memoranda, 
in-person briefings, and telephone consultations. In fiscal year 2003, 
CRS delivered 875,197 research responses, a number that includes 
analysis and information requests, product requests, in-person requests 
and services at Research Centers, electronic services, and seminars.
                        cost containment efforts
    Over the past several years, in order to sustain the level of 
research support on issues such as those outlined above, CRS has 
conducted numerous management reviews to evaluate current operations, 
maximize value, and implement cost containment measures. As stewards of 
the taxpayers' money, it is our obligation to review continuously how 
we can work most cost-effectively. Our reviews identified opportunities 
for containing operational costs of current services: for example, 
closure of the Longworth Research Center and one copy center, 
elimination of the Info Pack, and reorganization of the Service's 
information professional staff. In addition, the Service formed 
collegial research partnerships with major public policy universities 
to enhance research capacity, created a hiring strategy that does not 
routinely replace staff attrition one-for-one, but rather continually 
adjusts the work force composition to respond to the evolving needs of 
the Congress, and examined outsourcing of selected activities where 
cost efficiencies could be realized. I assure you that CRS has 
exhausted all reasonable means of realigning existing resources to 
maximize its efficiency and effectiveness in supporting the Congress. 
Yet despite these many efforts, our research priorities for the future 
remain in jeopardy without additional funding.
                    fiscal year 2005 budget request
    Mr. Chairman, I am requesting a total of $100.9 million for fiscal 
year 2005. This represents a 10.7 percent increase in funding over 
fiscal year 2004. This funding request is critical to the continual 
delivery of high-quality analysis to the Congress. A 2001 congressional 
directive obligates the CRS director to: ``. . . bring to the attention 
of the appropriate House and Senate committees issues which directly 
impact the Congressional Research Service and its ability to serve the 
needs of the Congress. . . .'' [H. Rept. 1033, Cong. Rec. 146, H12228, 
November 30, 2001]. I am fully aware of the fiscal realities that the 
Congress faces and the hard choices that must be made in the coming 
months, and I make a request for this funding because I believe that 
these resources are critical to preserving our ability to provide the 
Congress with the level of expertise and breadth of services it has 
come to rely upon so heavily.
    The remainder of my statement summarizes three critical challenges 
facing the Service this upcoming year preserving the Service's research 
capacity, meeting congressional requirements, and funding 
uncontrollable increases for essential research materials.
                 preservation of crs research capacity
    Preserving CRS's research capacity is of the highest priority. Over 
the last several years, with the help of the Congress, the Service has 
been able to abate erosion of its workforce. The Service's capacity--
measured by the number of full-time equivalent positions (FTEs)--has 
decreased from 763 in 1994 to 729 this year. After delays due to the 
implementation of the Library's new merit selection, the Service has 
nearly rebuilt its capacity by hiring much needed analytic staff. To 
preserve this capacity the Service is requesting two actions full 
funding for its mandatory pay and inflationary increases and a one-time 
adjustment to sustain its current ceiling of 729 full time equivalent 
staff.
    CRS needs $4.3 million to cover its mandatory and price-level cost 
increases. Without this adjustment, the Service would have to reduce 
its full-time equivalent (FTE) capacity by 37 staff. In addition, the 
Service's budget request includes a one-time financial adjustment of 
$2.7 million to sustain the CRS current FTE level of 729. Without the 
one-time funding adjustment, CRS would have to staff down further by 
another 25 FTEs.
    Change in the CRS workforce composition is an increasingly 
significant factor affecting personnel costs. The nature of the work--
reflecting the increasingly complex and specialized research and 
information requirements of the Congress--dictates that CRS hire 
individuals with high levels of formal education and specialized 
experience. In the period from fiscal years 1995 to 2003, the grade 
level of the average competitive CRS hire has increased from a GS-7, 
step 9, to a GS-13, step 1.
    When Congress confronts unanticipated major policy events, it turns 
immediately to CRS to draw on the existing stock of knowledge of CRS 
experts and their proven ability to assess situations and options 
reliably and objectively. Congress gained significant, immediate 
support from CRS experts as the world listened to early reports of the 
Columbia Space Shuttle accident, during the electricity blackout last 
August, when Mad Cow disease was found in the United States, when ricin 
was discovered in a Senate office building, and on many other 
occasions.
    Congress routinely turns to CRS as it engages in long-term policy 
endeavors for which precedents or experience is limited. Congress is 
receiving continuing assistance from CRS experts in formulating, 
implementing and overseeing a complex complement of provisions for 
homeland security; in grappling with major revisions in government 
personnel practices; in responding to an array of novel assaults on 
corporate and financial integrity; in responding to world health 
threats from SARS, avian flu, and AIDS; in assessing unique conditions 
in Iraq and Afghanistan relating to security, reconstruction and 
governance; in relating a mix of policy objectives across the use of 
the tax code and providing for a robust economy in a far more 
globalized setting than experienced before.
    Without the full funding of our mandatory costs and the one-time 
adjustment to our salary base, CRS would loose a total of 62 full-time 
equivalent staff--a 9 percent reduction to its workforce. The results 
would be devastating. What could be said with certainty is that, 
overall, CRS would not be able to provide the Congress with 102,300 
productive work hours per year. For example, for the 160 active policy 
areas for which CRS maintain ongoing research coverage, 682 productive 
work hours--more than 21 weeks per year--per major issue--would be 
unavailable to the Congress. While the Service would do its best to 
carry out its mission to serve the Congress as it carries out its 
legislative function, this outcome would, by the very scope of its 
effect, force the Service to reduce seriously or eliminate customized, 
timely, and integrative analyses of some critical policy issues. It 
would be difficult to predict what issues would be the most impacted 
but seasoned, expert staff working on high demand issue areas will 
likely leave and we would not be able to replace them.
                   meeting congressional requirements
    Another challenge facing the Service is to support CRS business 
continuity and improved technological infrastructure activities as 
required by the Congress. I am seeking $622,000 for continuing 
operations of the alternative computer facility (ACF) that houses back-
up and emergency computer and other technology capacity for the 
Congress, the Library and CRS. With this facility CRS will be able to 
meet needs of the Congress in emergency situations while maintaining a 
secure and reliable technology environment.
    The Service is also requesting $549,000 to develop the XML 
international standard authorized by the Congress as the data standard 
for the creation and accessibility of all congressional documents 
through the Legislative Information System (LIS). CRS will continue to 
work with the House Committee on House Administration, the Senate 
Committee on Rules and Administration, and the Library's Information 
Technology Services to implement this much-needed capability. Without 
funds to replace the existing search system, the LIS will need 
extensive, costly, and proprietary modifications to be able to receive 
and index the legislative documents you need.
 meeting uncontrollable inflationary increases for essential research 
                               materials
    And the last challenge facing the Service is funding research 
materials. Providing accurate, timely, authoritative, and comprehensive 
research analysis and services to the Congress has become increasingly 
difficult due to the high annual increases in the costs of research 
materials. Thus our budget includes a one-time financial adjustment of 
$1.0 million to meet cumulative increases over recent years in 
subscription and publication prices. Restrictive industry policies 
limit our alternatives for obtaining needed materials, especially 
electronic resources, in a more cost-effective manner. Information 
resources sought with the additional funding include those that provide 
information on port security, prescription drug pricing, and the nature 
and status of corporate financial reporting.
    In closing, Mr. Chairman, I appreciate the opportunity to inform 
the Committee about the state of CRS. During a time of war, Congress, 
the First Branch of Government, must ensure that it maintains its 
independent capacity to analyze the complex challenges that the Nation 
confronts in combating terrorism and sustaining homeland security.
    I trust that you agree that CRS contributes significantly to this 
independent capacity of the Congress. I also trust that you believe we 
are fulfilling our mission in a way that warrants your continued 
support. I am, of course, always available to answer any questions that 
the Committee might have.
                                 ______
                                 
                 Prepared Statement of Marybeth Peters
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present the Copyright Office's fiscal year 2005 budget 
request.
    For fiscal year 2005, the Copyright Office is seeking the 
Committee's approval of two major requests. First, we are requesting 
$3,660,000 in new offsetting collections authority and spending 
authority to construct the new office space required to support our 
reengineered business processes. I am pleased that, with this 
Committee's support, we have been able to keep our Reengineering 
Program moving ahead and are now planning for full implementation in 
fiscal year 2006. Second, as part of the Architect of the Capitol's 
budget, we are requesting $59.2 million to construct a Copyright 
Deposit Facility at Fort Meade. This facility will, for the first time, 
ensure that copyright deposits not selected by the Library are stored 
for certain periods in environmental conditions that allow us to meet 
our legal requirements to retain, and be able to produce copies of, 
these works.
    I will review these two areas in more detail, but first will 
provide an overview of the Office's work.
          review of copyright office work and accomplishments
    The Copyright Office's mission is to promote creativity by 
sustaining an effective national copyright system. We do this by 
administering the copyright law; providing policy and legal assistance 
to the Congress, the executive branch, and the judiciary; and by 
informing and educating the public about the principles of our nation's 
copyright system. The demands in these areas are growing and becoming 
more complex with the rising use and evolution of digital technology.
    I will briefly highlight some of the Office's current and past 
work, and our plans for fiscal year 2005.
Policy and Legal Work
    We have continued to work closely with Members and committees on 
copyright policy and legal questions during the present Congress. 
During the past year, I testified at hearings on peer-to-peer networks, 
state sovereign immunity and the ``broadcast flag'' issue, and the 
Office's General Counsel testified at a hearing on additional 
protection for databases.
    Last April, the House Subcommittee on Courts, the Internet, and 
Intellectual Property held a hearing on the Copyright Royalty and 
Distribution Reform Act of 2003 (H.R. 1417), a matter which could 
impact the operations and budget of the Office. This bill, which was 
reported to the House on January 30, would replace Copyright 
Arbitration Royalty Panels (CARPs) with three full-time independent 
Copyright Royalty Judges appointed by the Librarian of Congress. CARPs 
are ad hoc panels composed of arbitrators which determine royalty 
rates, distributions, and conditions of payment. Panels have been 
operating under Copyright Office auspices since Congress eliminated the 
Copyright Royalty Tribunal in 1993.
    The current system authorizes the Copyright Office to deduct CARP 
administrative costs from royalty fees collected by the Office. The new 
program would require funding primarily from net appropriations. We 
estimate these new costs could approach $1 million.
    During the remainder of this session, the Office expects to assist 
Congress with legislation on and oversight of a number of copyright 
issues, including the extension of the Satellite Home Viewer Act (which 
expires December 31, 2004) and review and possible revision of section 
115 of the Copyright Act, and in particular, the provisions of section 
115 governing digital transmissions of music.
    Last year, we assisted the Department of Justice in a number of 
important copyright cases, including cases before the Supreme Court. We 
also completed the bulk of our work on the second Section 1201 
rulemaking to determine whether any particular classes of copyrighted 
works should be exempted from the protection afforded by the 
prohibition on circumventing technological protection measures that 
control access to such works. As a result of this rulemaking, four such 
classes of works were exempted, including one proposed by the American 
Federation for the Blind and supported by library organizations aimed 
at making sure that the blind and visually impaired gained meaningful 
access to literary materials.
    The Copyright Office continues to provide ongoing assistance to 
executive branch agencies on international matters, particularly the 
United States Trade Representative (USTR), the Department of Commerce, 
and the Department of State.
    As part of this work, our staff participated in U.S. delegations to 
negotiations of several bilateral and plurilateral Free Trade 
Agreements that have been recently concluded, including with Australia, 
Morocco, and a group of Central American countries, and will continue 
involvement with ongoing negotiation efforts, such as with the Free 
Trade Area of the Americas and Bahrain. We also were active in drafting 
and negotiating the intellectual property provisions of the bilateral 
Free Trade Agreements with Chile and Singapore signed in 2003.
    We have also participated in U.S. delegations to multilateral fora 
such as meetings of the World Intellectual Property Organization's 
Standing Committee on Copyright and Related Rights and ad hoc Committee 
on Enforcement, and the preparatory meetings for the World Summit on 
the Information Society. We completed reviews of draft copyright laws 
for a number of countries and, for USTR, provided assistance to other 
nations in their World Trade Organization accession processes. In the 
past year, we also advised and assisted the Bureau of Customs and 
Border Protection in resolving issues and developing new procedures 
relating to border enforcement.
Registration and Recordation
    In fiscal year 2003, we made it a priority to complete our recovery 
from the fiscal year 2002 mail disruption while also improving the 
timeliness of our registration and recordation services. During fiscal 
year 2003, the Copyright Office received 607,492 claims to copyright 
covering more than a million works. Of these, it registered 534,122 
claims. The Examining Division reduced its registration work on hand by 
half and continued toward a goal of currency in correspondence. Two 
years ago, the Office required an average of approximately 200 days to 
issue a registration certificate. By the beginning of fiscal year 2003, 
we had shortened the average processing time to approximately 130 days. 
In January 2003, the Office began a focused effort, reducing the number 
of claims awaiting processing by nearly a third over the course of the 
last nine months of the fiscal year. At year's end, the average time to 
process a claim was 90 days.
    We also reduced processing times in the Cataloging Division. The 
Division created cataloging records for 543,105 registrations in fiscal 
year 2003. Throughput time from receipt in the division until the 
completion of a public record was reduced from over seven weeks to less 
than five.
    As part of its statutory recordation services, the Copyright Office 
creates records of documents relating to copyrighted works that have 
been recorded in the Office. These documents frequently involve works 
of significant economic value. During fiscal year 2003, the Documents 
Recordation Section recorded 16,103 documents covering approximately 
300,000 titles of works. The majority of documents involve transfers of 
rights from one copyright owner to another. Other recorded documents 
include security interests, contracts between authors and publishers, 
and notices of termination of grants of rights. During the course of 
the year, the Section cut its processing time by more than half.
Licensing Activities
    As part of our responsibilities for the copyright law's statutory 
licenses, we administered six Copyright Arbitration Royalty Panel 
proceedings. Five involved rate adjustments, and one was a distribution 
proceeding. The use of electronic funds transfer (EFT), including the 
Treasury Department's ``Pay.gov'' Internet-based remittance collection 
system, in the payment of royalties increased. The percentage of 
remittances made via EFT was 94.5 percent at the end of fiscal year 
2003. The Licensing Division deducts its full operating costs from the 
royalty fees.
Public Information and Education
    In fiscal year 2003, the Office responded to 371,446 in-person, 
telephone, and e-mail requests for information, a 4 percent increase. 
The Office web site received 16 million hits, a 23 percent increase. We 
were pleased to inaugurate new Spanish-language web pages on our site 
which provide basic information on copyright and instructions on how to 
register a work.
    Finally, we worked throughout the year on a project to develop a 
new official seal and an updated logo for the Office. For more than 25 
years, the Office's seal and logo has been a representation of a pen in 
a circle. The new seal and separate logo became effective on January 1, 
2004.
                    fiscal year 2005 budget request
    I will now describe the two principal areas of our fiscal year 2005 
request.
Reengineering Program
    Since my testimony last year, we have made significant progress in 
our Reengineering Program:
  --On August 22, we awarded a contract to SRA International to build a 
        new integrated IT systems infrastructure which will support our 
        new processes and public services. This work began in 
        September; since then we have defined the system architecture, 
        refined our system requirements to match the selected software 
        environment, and completed the preliminary design of staff 
        screens and the system's data model.
  --We completed a facilities project plan, a program report 
        identifying facilities and requirements across the Office, 
        adjacency and blocking diagrams, and began detailed design work 
        for each division.
  --We completed much of the process of reviewing and revising the more 
        than 135 position descriptions for jobs that will be changed, 
        in some way, in our new processes.
    Our challenge over the next two years is to coordinate our 
execution across the three reengineering fronts of information 
technology, facilities, and organization. Since our processes are 
changing so dramatically, our Office structure in each of these areas 
will change dramatically as well to the point that our new processes 
cannot begin without full implementation of each front.
    At the same time we are making this dramatic transition to our new 
processes, we need to make sure that we continue to provide our 
services to the public including registration, recordation, licensing 
activities, and acquisition of copyrighted works for the Library's 
collections. We realize that the most significant impact on our public 
services, in terms of the Office's transition, will be in the area of 
facilities. As such, we need to complete our facilities work as quickly 
as possible. We determined that under the fastest construction 
schedule, this redesign would take at least six months. We then 
concluded that, in order to keep providing our services to the public, 
the best option would be to move off site into rental space during the 
construction period.
    Our plans are to begin construction in October 2005 and complete 
this work in April 2006.
    We are including in our fiscal year 2005 approximately $7.5 million 
in spending in the facilities area, consisting of both relocation and 
construction costs. As I mentioned, this budget submission requests an 
increase of $3,660,000 in offsetting collections authority to allow us 
to use funds in the No-Year Account for these tasks.
    We are working with the staff of the Architect of the Capitol on 
the overall facilities approach, and are very appreciative of their 
understanding of our requirements and willingness to work with us to 
address them. We are on schedule to fully complete the design and 
construction documents this year so that the Architect can request 
fiscal year 2006 funding to perform the structural and safety aspects 
of the construction work.
    In addition to our facilities work, in fiscal year 2005, we will be 
piloting our new processes with the new IT systems, obtaining Library 
approval of our new organization, and completing bargaining with the 
unions.
    While we still have a lot of work ahead of us, I believe the entire 
Copyright Office staff is excited that they are involved in building 
the Copyright Office of the future. The result will be better service 
to our customers, including more of our products being available 
online, and a better work environment for our staff.
Fort Meade Copyright Deposit Facility
    The imperative for the Copyright Deposit Facility at Fort Meade is 
to fulfill the requirement under the Copyright Act for the Office to 
provide for long-term preservation of copyright deposits. The Copyright 
Office is required by statute to retain unpublished copyright deposits 
for the full-term of copyright, which is the life of the author plus 70 
years, and to retain published deposits for the longest period 
considered practicable and desirable by the Register. Retention periods 
of 120 years for unpublished deposits and 20 years for the published 
deposits have been established to fulfill this legal requirement.
    Deposits serve as evidence of what was registered; they reflect the 
nature and extent of the material that has been registered. Copies of 
copyright deposits, certified by the Copyright Office, are used in a 
variety of legal proceedings. The Office retrieves approximately 2,500 
works from its offsite storage each year.
    The present retention requirements took effect in 1978. If we 
continue to hold deposits under the conditions that have been in place 
since then, some works will deteriorate to such an extent that we would 
not be able to either ascertain the full work or make a copy.
    The Office currently stores about 50,000 cubic feet of deposits at 
the Landover Center Annex, a GSA leased facility. In addition, the 
Office stores over 85,000 cubic feet of deposits at a commercial 
records management storage facility in Sterling, Virginia run by Iron 
Mountain.
    The legal deposits consist of a variety of formats and types, which 
include: paper in varying quality and size such as books, architectural 
drawings, sheet music, and computer code printouts; magnetic tape (both 
audio and video); photographs; CD-ROMs, CDs, and LPs; and fabric.
    The current storage space, both at the leased facility and the 
commercial records storage facility, fails to provide the appropriate 
environmental conditions necessary to ensure the longevity of the 
deposit materials. The storage space at the Landover Annex is subject 
to wide temperature variances, high humidity levels and water leaks. 
The commercial records storage facility is also subject to seasonal 
temperature fluctuations and uncontrolled humidity levels.
    Continued storage under present substandard environmental 
conditions will accelerate the aging of the deposit material and reduce 
the useful life span by 75 percent, i.e., deterioration that would 
occur in 100 years occurs in 25 years. These conditions place these 
legal deposits at risk in the long term. This is particularly 
applicable to the video and audio magnetic tapes in storage which are 
especially sensitive to environmental conditions. In addition, the 
current storage space at the Landover Annex and the commercial records 
storage facility does not meet the NARA fire protection requirements 
for storage of long-term records which must be in place by fiscal year 
2009.
    The Fort Meade facility would be a highly secured, environmentally 
controlled, high-density storage building with sufficient space for 
retaining current and future deposits. The facility has been 100 
percent designed and construction documents are complete. It will be in 
full compliance with the NARA regulations for records storage 
facilities, and would bring together all copyright deposits in a single 
location, improving retrieval time and our service to the public.
    The Fort Meade facility will allow for 245,000 cubic feet of 
storage. When the building is ready for occupancy in fiscal year 2007, 
we would immediately occupy about two-thirds of that space. Currently, 
the Copyright Office is adding an average of 3,500 cubic feet of 
deposits of published works and records and 3,500 cubic feet of 
deposits of unpublished works annually. Although it is difficult to 
estimate the volume of copyright deposits that we will receive in the 
future, we project that the facility would provide adequate storage 
space at least through 2020.
    We consulted with the Library's Preservation Directorate to 
determine the climate control requirements to ensure that the useful 
life of the legal deposits would be sufficient to meet the legally 
mandated retention periods. Because published and unpublished deposits 
retention periods are different, the necessary environmental 
requirements are different as well. Published deposits need to be 
stored in a temperature of 68 degrees Fahrenheit (F), and 45 percent 
relative humidity (RH). Unpublished deposits must be stored in a 
climate-controlled area maintained at 50 degrees F and 30 percent RH.
    We have briefed the Committee staff on our current storage problems 
and our need for this facility. The Committee staff has asked us to 
ascertain whether there are acceptable alternative storage options. We 
have contacted NARA and Iron Mountain to determine whether other 
storage options exist. All options need to be evaluated based on our 
requirements in the areas of environmental conditions, security and 
retrieval of deposits. We will report our findings to the Committee 
shortly.
       fiscal year 2005 offsetting collections authority request
    As I have mentioned, for fiscal year 2005 the Office is requesting 
a one time increase of $3,660,000 in offsetting collections authority, 
to be funded by fee receipts in the No-Year Account, for the facilities 
work related to our Reengineering Program. In addition, the budget 
submission contained inflationary factors for mandatory and price level 
increases that were applied to both the Copyright's appropriated and 
receipt funds. This resulted in an additional $809,594 increase to 
offsetting collections authority for a total increase of $4,469,594.
    In reviewing this approach, and upon further analysis of receipt 
projections, we have determined that inflationary increases cannot be 
met by the requested increase in offsetting collections authority. 
Receipts have generally been level since fiscal year 2001 and there 
does not appear to be any basis to believe they will increase in fiscal 
year 2005. As a result, we are requesting that the fiscal year 2005 
offsetting collections authority be reduced by the inflationary 
adjustment of $809,594, with a corresponding increase in net 
appropriations. We have submitted a formal budget amendment to make 
this change.
    Certain factors support a conservative receipt projection in fiscal 
year 2005. Currently, there is no mail backlog, so all receipts have 
been accounted for. Recent delays in the delivery of mail, however, 
underscore the Office's vulnerability to unforseen events and the need 
for conservatively projecting receipts. The relocation and construction 
phase of the Reengineering Program could disrupt fee processing for a 
few weeks, reducing the receipt level in fiscal year 2005.
    In summary, I ask that the fiscal year 2005 budget request for 
Copyright Basic offsetting collections authority be reduced to 
$26,843,406, and that net appropriations be increased by $809,594 for a 
total of $20,178,594. The use of the no-year funds to partially fund 
the facilities piece of the reengineering implementation will leave 
approximately $620,000 in the account for unanticipated decreases in 
fee receipts.
    I would be most grateful for the Committee's acceptance of this 
budget amendment.
                               conclusion
    Mr. Chairman, this fiscal year we are determined to continue the 
improvements we have made in providing public services and to maintain 
steady progress in our Reengineering Program.
    Our fiscal year 2005 request permits us to move forward on the 
facilities work critical to the final implementation of our 
Reengineering Program. The new Copyright Deposit Facility at Fort Meade 
gives us the assurance that we will be able to meet the copyright law's 
requirement that deposits be retained under proper conditions.
    I thank the Committee for its consideration of this request and for 
its support of the Copyright Office in this challenging time of 
transition and progress.

                     OPEN WORLD LEADERSHIP PROGRAM

    Senator Campbell. Since the chairman of the full committee 
is here, I would like to ask one question first, that I was 
going to get to a little later, but as the chairman of the 
Board for the Open World Program, this is a program that 
Senator Stevens was instrumental in helping move.
    Would you give us a quick update on the program, since we 
authorized that expansion to new countries?
    Dr. Billington. Yes, sir, Mr. Chairman. We will shortly be 
delivering the Open World's 2003 Annual Report to the Congress; 
but just a few highlights.
    In 2003, a total of 1,201 families, in 542 communities in 
46 States, hosted people from this program. We have completed 
pilot programs also in Ukraine, Uzbekistan, and Lithuania, 
launched a new cultural program in Russia, while continuing to 
bring political and civic leaders in Russia. Our alumni now 
total 7,547. There is also a group who came from Belarus.
    This has been extremely useful. I think the addition of 
Russia's cultural leaders, who play an important role in the 
development of the country, has been an important new 
dimension; and it focused on vibrant areas outside of Moscow 
and Petersburg that have not previously had the opportunity to 
come. The first hosting was in North Carolina and Michigan, and 
it has already spurred some collaborative efforts in historic 
preservation and plans for exchanges of exhibitions. So, the 
spin-out, the roll-out, of this is very gratifying.
    The focus on the rule of law continues. We have had 838 
Russian judges and legal professionals hosted by Federal and 
State judges, and that has lead to the establishment of sister 
courts and all kinds of relationships.
    Senator Campbell. Do they come over one time?
    Dr. Billington. Yes, they come--well, there have been 
occasional repetitions but almost all of them are one time, 
yes, from--and that is just terribly important, because they 
have a lot of professional demands.

              GAO REVIEW OF OPEN WORLD LEADERSHIP PROGRAM

    Senator Campbell. There is a GAO review of the program now; 
isn't there? Do you know what their preliminary findings are?
    Dr. Billington. Yes. The GAO review, which has been 
completed, and we have had a chance to comment on it. I do not 
know that it has been published yet, but I have reviewed the 
draft, which should be published, I think, this week.
    They spent a lot of time on this, and I want to give them 
full credit, traveling to Russia and Ukraine to interview State 
Department officials and Open World alumni. The draft report 
found that our delegates were highly favorable about their Open 
World program, and noted that the congressional sponsorship was 
particularly important because it helped the program attract 
emerging leaders who might otherwise not have participated.
    The program also came up with some recommendations for 
long-term strategic and business planning, which we have 
already begun on and will be incorporating into the next 
meeting of the board. So, I think it has been very helpful and 
it has generally reinforced the impressions we have had very 
distinctly. With the average age of 38, these people--large 
numbers of women, something totally new for Russia. It is 
really a different kind of exchange program--and it has been 
valuable to the American hosts, communities, families, and 
community leaders that have given so much in-kind support.
    One of the GAO recommendations is that we try to quantify 
that. It is going to be hard to quantify it because it is real 
people from all 89 regions of Russia----
    Senator Campbell. Those are personal relationships that 
carry on.
    Dr. Billington. Our American hosts are real people from all 
over the States, all 50 States, and the District. So, it has 
been a very rewarding program that has gotten good reviews and 
I think has been very successful.
    We also had a group from Belarus that was very important. 
They met with the Governor of Virginia, with the Helsinki 
Commission.
    Senator Campbell. Yes. I met several from Belarus as 
Chairman of the Helsinki Commission.
    Dr. Billington. Yes, sir.

                   FUNDING PRIORITIES AND CHALLENGES

    Senator Campbell. Dr. Billington, I guess I need to ask you 
what we have asked every agency that has come before the 
committee, and that is: What happens if we do get a freeze in 
the fiscal year 2004 level on your budget, and have you 
prioritized things that you are--I mean from the wants to the 
desperate; and are you prepared, if we have to, to make any 
cuts in your programs?
    Dr. Billington. Well, if we had a freeze, the most 
immediate effect would be to radically reduce staff, since 
personnel costs represent, on average, almost 65 percent of our 
overall budget; and in the case of CRS, it is 89 percent. So 
probably, we would have to consider RIFs, furloughs, and so 
forth.
    Without the requested $20.5 million, for instance, for 
mandatory pay and price staff increases, we would have staff 
reductions that would be about 195 FTEs in the LC,S&E 
appropriation--a 7 percent reduction in capacity, 62 FTEs in 
CRS--a 9 percent reduction in capacity, and 26 FTEs in the 
Copyright Office.
    Senator Campbell. Well, the committee is thinking of 
staffing and hiring.
    The committee understands that years ago you instituted a 
new hiring system; is that correct?
    General Scott. Yes; that is correct.
    Senator Campbell. What is the status of that hiring system? 
I understood in your testimony, I am not sure if that was an 
across-the-board number you mentioned, of 7.7 percent fewer 
staff than 1992, was that----
    Dr. Billington. Yes. We presently have 7.7 percent fewer 
FTEs now than we had in 1992, and we are doing a tremendous 
amount more work, as I think is evident. So, to have further 
reduction beyond that would be quite serious.
    There would be all kinds of implications for many important 
ongoing initiatives, for example Culpeper--not to do our part 
that prepares for the processing and the movement of things 
into the building--when the construction is underway largely 
with private sector costs would upset a whole set of 
relationships there.

                            AGING WORKFORCE

    Senator Stevens. Yield to me right there. I must leave. But 
would you enlighten the chairman about the problem of the aging 
of your staff, and then assess these for really reaching out 
now to train people, to take the place of so many people? I 
think it is unique.
    Also, the one thing I would like to see you consider is, I 
spent some time with the archivists the other evening, and they 
are now going through a digitalization program similar to what 
you have gone through. I wonder if you could find the 
opportunity to confer with them to see if you could assist them 
in the progress of their new program to go digital with all of 
their materials as possible, particularly in terms of the aging 
of the staff? That worries me considerably.
    Dr. Billington. Yes, this is tremendous; 48 percent of 
Library staff by this September will be either eligible for 
regular retirement or eligible for early out retirement, if 
they are given that option. This is very serious, particularly 
at a time when we are, in effect, re-tooling people to get into 
the new electronic age and we are losing a lot of our subject 
expertise that has enabled us to find these important things, 
particularly in trouble spots around the world. But, I invite 
General Scott to comment on this. We hope to bring a package 
forward quite soon, and perhaps General Scott can elaborate on 
this.
    General Scott. Yes, sir.
    Senator Campbell. General Scott.
    General Scott. Thank you.
    Senator Campbell. Go ahead.
    General Scott. Yes, Mr. Chairman. With respect to the 
Library's workforce, it is a highly qualified, aging workforce. 
By the end of September this year, 25 percent of our workforce, 
some 1,033 individuals, will be eligible to retire. We also 
estimate that another 23 percent would be eligible to retire if 
we had an early out this year.
    For each year projected ahead, we would of course continue 
to have more employees eligible to retire. By 2009, or 
thereabout, we could be looking at one-half of our workforce 
that would be eligible to retire.
    Dr. Billington has just referenced that our challenge is to 
retain those who we can, retrain staff to handle the new 
knowledge navigation requirements under the digital period, and 
remain competitive in the hiring process. We will be submitting 
a legislative proposal that would in addition to other 
management tools give Dr. Billington some flexibilities for 
handling the fluctuation with staff retirements that we expect 
to happen within the next 3 to 4 years.
    Senator Campbell. What is the average years of service of 
the people who are retiring?
    General Scott. It ranges from 22 to 24 years.
    Senator Campbell. They stay a long time.
    General Scott. Yes, sir.
    Dr. Billington. This requires succession planning which 
includes both retraining current staff, and hiring new staff. 
To successfully accomplish our planing effort, we are going to 
need a great deal more flexibility. We will have a package to 
present to you, Mr. Chairman, very soon that will build on the 
recognition of this problem, capitalizing on HR initiatives 
that have been approved by Congress for other agencies.
    The demands on this institution, with a very low training 
budget and an extremely high demand for skills dictate that we 
focus even more energy on succession planning; CRS has been in 
the forefront but this is an extremely important institutional 
issue that we gain greater flexibility and competitiveness. 
This is important because what our people are doing.

                    COLLABORATION WITH THE ARCHIVES

    Incidentally, on the question on collaboration with the 
Archives, we would be very happy to do that. We have been 
talking with the Archives in connection with the digital 
preservation plan and with other Federal agencies, as well. So, 
we are happy to share our experience and to work 
collaboratively with other institutions.

                           FLEXIBLE WORKFORCE

    But this is really the development of a flexible, well-
trained workforce that is able to work seamlessly between the 
old traditional materials, of which we have unique copies, 
particularly in these trouble spots in the Third World that no 
other library really has the materials on, and at the same 
time, integrate it with the digital world, which is exploding 
at an exponential rate.
    The demands on our people are going to be colossal. We will 
be coming back to you with proposals for legislation that can 
help us in that regard.

                           CRS STAFF CAPACITY

    Senator Campbell. Along the manpower line, I had a question 
relating to CRS and I did not know if you wanted to try to 
answer it; or Mr. Mulhollan, if he is with you here. Mr. 
Mulhollan, come on up to the table there.
    Could you tell the committee why the CRS needs $2.7 million 
for what is called ``lost purchasing power''? What does that 
mean? Does it mean your average pay level has increased 
significantly, or are you requesting more staff, or what does 
lost purchasing power mean?
    Mr. Mulhollan. Yes, sir, that refers to the budgetary 
resources needed to sustain the current CRS staff. You, the 
Congress, are facing more complex issues--whether it is the war 
on terrorism, homeland security issues, aging of the U.S. 
population, infrastructure problems, or nuclear proliferation--
you require greater expertise on each of these complex issues. 
For many years, CRS and this committee has been supportive of 
what Dr. Billington referred to with regard to succession 
planning. CRS faces the possibility of having half of our staff 
retire by 2006. We have already begun replacing them--in fact, 
last year, we filled 91 vacancies.
    The cumulative financial impact of these two phenomenum has 
been an overall shift in the composition of the CRS workforce. 
In 1995, aside from special recruiting programs, the average 
new hire was a GS-7, step 10. Today, it is a GS-13, step one. 
This increase is indicative of the greater level of expertise 
needed by the Congress. In addition, the vast majority of our 
losses are staff who are covered by CSRS, the older Civil 
Service Retirement System. Where the average costs of employer-
paid benefits are 13\1/2\ percent.
    Nearly all of new employees are covered under the newer 
retirement system, FERS, where the average benefit is 27 
percent. That fact alone doubles the employer-paid benefit--
which is significant in an organization where the average grade 
is a GS-13, step nine.
    Another influence contributing to lost purchasing power is 
the gap on the pay raise. In fiscal year 2004, we requested, 
and you approved, a pay increase of 3.7 percent; however a 4.2 
percent pay raise was enacted--creating a $400,000 deficit in 
our fiscal year 2004 budget. That is four FTEs.
    Finally, the rescission of 0.59 percent, in the CRS budget 
was $540,000--equating to five FTEs. So, that is a loss of nine 
FTEs in fiscal year 2004 alone. We are looking for the 
committee to provide the Service with a one-time adjustment to 
sustain an FTE level of 729.
    Senator Campbell. I wish I had not asked that question.
    I am just kidding. I appreciate that, for the record.
    Mr. Mulhollan. You are welcome.
    Senator Campbell. Thank you, Mr. Chairman.

                        NAVCC--CULPEPER DONATION

    Dr. Billington, the very generous donation that Mr. Packard 
did of $120 million, how does that compare with what we are 
investing in that National Audiovisual Conservation Center?
    Dr. Billington. Well, the original arrangement was that 
over a period of time, the Congress would provide $16.5 million 
and the Packard Humanities Institute would match it with some 
$50 million. That adds up to about $66 million. The Congress 
has appropriated its part for that original investment but the 
costs overall have doubled to $120 million--or, actually, more 
than that, but the Packard Humanities Institute has agreed to--
very generously agreed to--absorb all the additional 
construction costs.
    So, all we are asking for, in the current budget, is for 
added staff who can work on the processing and sorting of these 
materials, which is widely scattered. A lot of that is 
permanent value for--as well as to begin the move; because the 
train is moving very fast, thanks largely to their added 
investment in this. And we will be, by next summer, ready to 
move into the re-done vaults for storage; and the following 
year, a whole new building will come on stream. So, this is 
moving very rapidly and all the added construction costs have 
been absorbed by the Packard Humanities Institute.
    What our part of the bargain is, it was attached to the 
agreement, the tripartite agreement among us, the Packard 
Humanities Institute; and the Architect of the Capitol, of 
course, is making sure that all of this conforms to all of the 
relevant standards and so forth.
    We are asking for some FTEs and some added funding that 
will enable us to fully process this material and prepare for 
the move. A lot of that is one-time cost, which will not stay 
in the base; but it is essential that it be done now so that 
the schedule of moving these things in can be done immediately 
and will not hold up construction.
    Let me see, a total of $16.5 million was appropriated for 
the acquisition.
    Senator Campbell. $16.5 million?
    Dr. Billington. Yes, but we will need additional funding 
for the annual carrying costs, which must be covered. A lot of 
the requests that are included for this year will be one-time 
costs that will not be repeated but are essential to come on 
stream at this point, so that the whole process can go forward.
    So, those are the basic outlines, Mr. Chairman. I can give 
you a full, detailed accounting and projection, if you would 
like, on this, for the record.
    [The information follows:]

    From fiscal year 2000 to fiscal year 2003, the Congress 
appropriated $16.5 million to the Architect for the acquisition 
of the facility. In fiscal year 2004, the Congress appropriated 
$14.8 million to the Library for the National Audio-Visual 
Conservation Center to support one-time equipment and other 
implementation costs. In fiscal year 2005, the Library is 
requesting an increase of $5.3 million for a total project cost 
of $20.1 million. Total Library funds through fiscal year 2008 
are projected to be approximately $77 million of which $9.8 
million reflect ongoing program costs for fiscal year 2009 and 
beyond.

             LIBRARY BUILDINGS AND GROUNDS--BUDGET REQUEST

    Senator Campbell. Your budget request includes $161 million 
for buildings and grounds, which is a 312 percent increase over 
the prior year appropriation for that activity. There are two 
projects which account for the majority of that money; $39 
million for the two new book storage modules at Fort Meade, and 
$59 million for the new copyright storage facility.
    Can you just briefly describe those two facilities? Are 
there any alternatives to those buildings?
    Dr. Billington. Well, just briefly. The one--the copyright 
deposit facility is already essential for the reasons that I 
have indicated. They are examining some variant options but it 
does not appear that any will be cheaper than the presently 
projected one.
    The other is dealing with basic storage for special format 
collections. For copyright deposit, the obligation to store 
unpublished works has been extended for 20 years, because of 
the extension of the copyright term. So, we have a much bigger 
pile-up even than we had before; the same is true of our 
special collections.

                              LEASED SPACE

    Senator Campbell. The storage now of all that material, is 
it mostly in leased space or in Government buildings scattered 
around?
    Dr. Billington. It is in leased space, namely at Landover. 
I think I will let General Scott, who has been working most 
closely on these issues, elaborate, if he would.
    Senator Campbell. Okay.
    General Scott. Thank you, sir. With respect to modules 
three and four, Mr. Chairman, those modules are for special 
collections. With special collections, we are talking about 
maps, and we are talking about microfilm, we are talking about 
prints and photographs.
    Currently, those items are being stored in leased 
facilities, the largest of which is in Landover. Now, modules 
three and four--first, let me just make a statement that all of 
the construction for the modules is about 5 years behind, which 
sort of exacerbates the problem of deterioration, and making 
sure that we can preserve those items.
    Now, we also are concerned that in a delay, particularly 
with the copyright deposit facility, any delay increases the 
risk of further deterioration. There is----
    Senator Campbell. Are those leased spaces climate 
controlled?
    General Scott. Yes. Some of it is not climate controlled, 
others have minimal climate control.
    Senator Campbell. What is the cumulative cost of all that 
leased space to the Library of Congress, do you know off hand?
    General Scott. I do not have the cumulative total, Mr. 
Chairman, but I will provide that for the record.
    Senator Campbell. I would like to know that, if you could 
get that to us.
    General Scott. Yes, sir.
    Senator Campbell. It would help----
    General Scott. Will do.
    Senator Campbell [continuing]. When we talk about that big 
increase for facility construction, if we would know the 
comparative costs of what it is costing us now. I think the 
committee would be interested in that.
    [The information follows:]

    Lease space for storage collections is costing the Library 
approximately $1.293 million in fiscal year 2004 and $1.390 
million in fiscal year 2005.

                       COPYRIGHT DEPOSIT FACILITY

    General Scott. Yes, sir. I will add that with the copyright 
deposit facility, that the Copyright Office is currently 
looking at three alternatives. The first is in Lenexa, Kansas, 
where the National Archives has leased some storage space.
    Senator Campbell. Kansas?
    General Scott. Yes, sir. Lenexa, Kansas. There is a cave 
out there that meets some of the requirements for preservation 
controls, and that sort of thing.
    Senator Campbell. What is in that cave now?
    General Scott. Some National Archives material. We are 
looking at it to come up with some cost comparisons. We are 
also looking at the alternative computing facility, which is 
new out at Manassas, Virginia. And the third site is a 
limestone cave at Iron Mountain. We expect to have our report 
completed within 2 or 3 weeks, and we will certainly make sure 
that the Committee has access to all of that information.
    Senator Campbell. Okay. I appreciate that.
    Dr. Billington. There are two considerations, Mr. Chairman, 
on this; one is effective preservation and the other is 
accessibility. One of the great things about Fort Meade module 
one, which is more than two-thirds filled now, is that every 
single request to retrieve has been answered successfully. They 
found it and brought it to the main reading rooms, where the 
stuff can be used fairly rapidly.
    So, you may get excellent preservation at one of these 
distant locations but you will not get the access. We have to 
have continued access because you never can tell what is going 
to be important, German archaeological records----

                    PRESERVATION OF THE COLLECTIONS

    Senator Campbell. Let me ask you, in some of this leased 
space that is not climate controlled, have you been able to 
monitor deterioration of any of the things that you have stored 
there or have you lost anything, because of it being stored in 
places that are not controlled?
    Dr. Billington. Well, we--yes. We do monitor our 
preservation department physically restores or does 
preservation treatment of some chemical or just physical sort 
to somewhere between 300,000 and 500,000 physical items every 
year. We have a very active program for deacidification but 
also transposition into more safety-based films and so forth. 
So, part of this whole process of moving into these things is 
to assure that we can get the highest state-of-the-art 
preservation protocols, which Congress has encouraged us to 
make, and for various formats, actually brought into place.
    I mean Culpeper--for instance, an archive of radio and 
television materials was mandated by the Congress in 1976. 
Culpeper will finally enable us to realize that. It will also 
include film and recorded sound of all kinds. So, this 
preservation is of capital importance; it is monitored very 
heavily. We estimated that something like 75,000 or 77,000 
printed volumes a year risk disintegration. So, we have turned 
the pages into----
    Senator Campbell. How many volumes?
    Dr. Billington. So, these are problems that our 
preservation department works on very intensively; and we are 
making great progress thanks to the Congress' support. But 
without these facilities, we cannot be sure that the progress 
is uniform and that the immense 128 million item collections 
are going to be safely preserved for posterity.

                 EMBASSY CONSTRUCTION--BUDGETARY IMPACT

    Senator Campbell. I understand. Thank you. The last 
question, the Library has six overseas field offices for 
acquiring international publications, and you requested a 
provision exempting the Library from a State Department 
proposal to charge all U.S. Government agencies with an 
overseas presence to pay a portion of the Department of State's 
new building program.
    Why do you believe the Library should be exempt from the 
State Department's proposal and what would be the budgetary 
impact if the State Department's proposal is enacted?
    Dr. Billington. Well, the budgetary impact, I can give you 
the exact computations on this, Mr. Chairman. But let me just 
say that this would be really quite catastrophic. The way the 
assessment is computed, in any case, is based on constructing 
150 Embassies--95 percent of the Library's staff is located in 
only six positions--none of which are a part of the proposed 
new construction. While the Library does have three positions 
in two locations where new Embassies are projected to be built, 
we question the $7 million price tag for three positions.
    So if you figure it up, this is an extremely cost-effective 
way, not only for the Library of Congress but for the other 
research universities that use these things. These offices are 
almost all in trouble spots in the so-called developing world, 
which are of extreme importance to the United States. We would 
have to reduce, immediately, the budget for actually gathering 
in these works.
    I can give you some exact statistics. Let me see, the 
proposal would nearly double the cost of our overseas offices 
eventually to about $15 million from the $8.2 million they cost 
today. As I say, it is based on the number of all employees 
overseas, as opposed to the actual use of space and services.
    Overseas offices are critical, as I say, to the gathering 
of the information of this developing world. So, I think we 
just have to block this inequitable charge from the State 
Department and we would appreciate your help--these overseas 
offices have never been more important. Islamabad, Delhi, 
Djakarta, Nairobi, Cairo, these are areas that are extremely 
important to the United States--there are very few secrets in 
the world. So much can be discovered from more effectively 
reading; and, to jeopardize the ability to put their maximum 
effort on acquiring materials, rather than just paying this 
inequitable surcharge, would make a huge difference.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. Thank you. I appreciate it. I have no 
further questions, Dr. Billington. Thank you for appearing. 
There may be some in writing from other members of the 
committee. Senator Durbin, the ranking member, was tied up 
today and could not get here. He may have some questions that 
he will send to you in writing.
    Thank you both for appearing.
    General Scott. Thank you, sir.
    Dr. Billington. Thank you.
    Senator Campbell. General Scott, thank you for being here.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard J. Durbin
                              retail sales
    Question. Dr. Billington, as you know I have been a strong advocate 
of retail sales within the Library of Congress. Could you please update 
me on the status of the Library's retail activities initiatives?
    Answer. The Congress appropriated $335,000 per year for 3 years to 
the Library to support its retail initiatives, beginning in fiscal year 
2004.
    Both the Retail Sales Shop and the Photoduplication Service (PDS) 
ended fiscal year 2003 in the black.
    Our online sales revenues have totaled $105,000 in the year since 
the last hearings. This represents an increase on the $73,000 we 
reported this time last year.
    We have introduced a new website that allows visitors for the first 
time to purchase pre-selected images from the Library's collections.
    We concentrated on major activities to implement the Business 
Enterprises strategy developed and presented to Congress last year.
    We focused on (1) improving and expanding existing e-commerce 
operations; and (2) adding key infrastructure fixes to improve the 
financial management and operations of the Sales Shop and PDS.
    We took actions that included: reducing operating costs, installing 
a new accounting application in PDS, and setting new pricing policies.
    We have developed a ``Strategic Plan Fiscal Year 2004-2006'' and an 
``Implementation Plan Fiscal Year 2004'' that provides a planning 
framework, goals, and implementation actions.
    We have established a team dedicated to the development of this 
program in the areas of business, retail, finance, and marketing.
                    construction impact on security
    Question. I understand that the retail store is changing locations 
in the Jefferson Building due to new security initiatives. Will the new 
location be more visible to visitors to the Library of Congress? What 
impact, if any, has the construction related to the new security 
initiatives in the Jefferson Building had on the retail store?
    Answer. The retail store is scheduled to move from its current 
location to one directly across from where it is now. The current move 
date is targeted for between mid-January and the end of February 2005, 
in order to minimize the impact of sales during the store's busy 
holiday season, late October through December. Its new location will be 
equally visible to visitors.
    We do not expect the new security initiatives to have a negative 
impact on the retail shop. In fact, in its new location, it will be 
immediately accessible to visitors as they exit the Jefferson Building, 
which should be an advantage for sales purposes.
                              police force
    Question. Dr. Billington, I notice you are requesting $3.825 
million and 45 FTEs for the Library of Congress' Police force. Given 
that there are relatively concrete plans in place to merge the 
Library's Police force with the Capitol Police, are you coordinating 
your plans with the Capitol Police Board to ensure a proper skills mix 
in the merged police force?
    Answer. The Library did not coordinate its fiscal year 2005 
staffing request with the Capitol Police Board, but the request is 
consistent with the Library's multi-year fiscal year 2004 request that 
was reviewed by the United States Capitol Police (USCP). The Library's 
fiscal year 2005 staffing request, which reflects year two of a three-
year staffing request of 100 Library Police Officers, is consistent 
with the USCP minimum staffing standards.
                             human capital
    Question. Dr. Billington, in your statement you indicate that the 
Library will be seeking broad-based human capital tools and 
flexibilities to enhance recruitment and retention activities. What new 
authorities will the Library be requesting? Are you working with the 
authorizing committees?
    Answer. The Library seeks to exercise authorities that Congress has 
granted throughout the federal government, and to do so without seeking 
executive branch approval. For example, consistent with that already 
granted to both the executive and judicial branches, we will request 
authority to offer early outs and buyouts to Library employees. We will 
also be seeking authorities that will ease significant competitive 
disadvantages the Library would otherwise experience in recruitment and 
retention of senior managers, and skilled professionals, who would be 
better compensated or experience better leave, bonuses or training 
opportunities in the executive branch.
    As Dr. Billington testified in his appearance before this 
subcommittee, as well as the Joint Committee on the Library, we will be 
sending our legislative request to the Library's House and Senate 
authorizing committees.
                     open world leadership program
    Question. I understand that the United States recently hosted the 
first Open World Leadership delegation from Lithuania. How was the 
expansion received in Lithuania? When will other delegations from 
Lithuania be arriving?
    Answer. The expansion of the Open World Program to Lithuania was 
received with great enthusiasm in Lithuania. U.S. Ambassador to 
Lithuania Stephen Mull and his colleagues at the U.S. Embassy were 
extremely supportive of the idea from the start, and planning this 
pilot would not have been possible without their assistance. A number 
of Lithuanian and American organizations nominated strong candidates 
under the theme ``civil society.'' The first delegation traveled to the 
United States in February 2004 to examine topics such as business, 
community development, media, NGO development, and youth initiatives. 
Ambassador Mull spoke at their pre-departure orientation in Vilnius, 
and upon arrival in Washington D.C. the delegation was greeted by 
Ambassador Vygaudas Usackas Lithuanian Ambassador to the United States. 
Initial feedback from this delegation is very positive, the trip gave 
the Lithuanian participants the opportunity to build long-lasting 
professional partnerships and friendships with their American 
counterparts. The Open World Leadership Center plans to host its next 
delegation of Lithuanian leaders in the fall of 2004.
    Question. How is the Open World program working in Russia and other 
former Soviet satellites? Do you believe it is workable in the rest of 
the former eastern bloc and elsewhere?
    Answer. The Open World Program has made a considerable contribution 
to bettering United States-Russian relations as well as to the 
development of civil society and democracy in Russia. Since the 
program's inception in 1999, Open World has brought over 7,500 Russian 
leaders to the United States, allowing them to experience first-hand 
American style democracy and free enterprise. Now, these Russian 
leaders comprise an active Open World alumni network, a network that is 
working together for positive change in Russia.
    In 2003, the Open World Program was expanded to Lithuania, Ukraine, 
and Uzbekistan. In total, 148 participants were hosted in the United 
States from the three countries under the theme ``civil society.'' 
While each program was adapted to meet the specific needs of the 
country, these pilot exchanges prove that the Open World Program model 
is applicable and useful to countries around the world. Open World 
participants returned to their home countries with new contacts and 
fresh ideas and inspiration. In Uzbekistan, for example, Open World 
alumni are putting their Open World experience to work to better their 
communities by writing articles in the local press, establishing Rotary 
clubs, drafting proposals for developing child and maternity health 
care services, and planning new programs for children with 
disabilities.
    The pilot exchanges demonstrate that leaders and activists from a 
variety of countries can benefit greatly from meeting and sharing ideas 
with their American counterparts. In addition, the Open World Program 
has contributed significantly to furthering bilateral relations between 
the United States and other countries.
                 crs science and technology capacities
    Question. Mr. Mulhollan, what distinguishes the work done by the 
Congressional Research Service in providing analysis of science and 
technology issues for the Congress from those which were performed by 
the OTA, and are now conducted by the General Accounting Office, the 
Congressional Budget Office, the National Academy of Sciences, or other 
sources?
    Answer. Each of the entities that you mention performs different 
activities serving different purposes. The sum total of the work being 
conducted by all is complementary in that each organization brings a 
different perspective or different scope of analysis to the same 
problem.
    The Office of Technology Assessment (OTA) conducted technology 
assessments--a recognized and structured methodology that is very 
distinct from legislative and public policy support. These assessments 
addressed the multiple positive and negative impacts of technology on 
society and offered policy options.
    OTA studies were performed at the request of any congressional 
committee Chairman. The Chairman may have requested work on behalf of a 
Ranking Minority Member or on behalf of a majority of committee 
Members. The OTA Board could also request assessments as could the OTA 
Director. In practice, most assessments were requested by the Chairman 
and the Ranking Minority Member of a Committee.
    OTA assessments, which usually took over a year to complete, relied 
heavily upon groups of external experts and involved extensive external 
review, monitored by internal staff. The contracts issued to obtain 
information or to write parts of the reports could cost well over 
$100,000 each--with the total costs of each study reported to range 
from $500,000 to nearly $1 million each.
    OTA's enabling legislation permitted its reports to be made 
available to the public and its work typically was not prepared on a 
confidential basis.
    The General Accounting Office's (GAO) current technology 
assessments are being conducted on a pilot basis, pursuant to law and 
report language originating in Legislative Branch appropriations.
    To date, GAO has worked on three assessments--each of which has 
taken about a year to complete and has cost in the hundreds of 
thousands of dollars.
    While GAO reports normally make recommendations, its assessment 
reports seem to offer policy options, together with a discussion of 
legislative implications.
    The Congressional Budget Office (CBO) provides budgetary analysis 
on a wide range of issues related to science and technology, ranging 
from health policy to high-technology industries.
    The National Academy of Science (NAS) conducts studies which are 
oriented to resolving technical issues or policy issues.
    Most of the NAS science and technology studies are not mandated by 
Congress--even those which are requested by Congress, via statutory or 
report language, are contracted for by federal executive branch 
agencies. Seven such studies were mandated in public laws and completed 
for the 107th Congress.
    The NAS studies usually cost several $100,000 and take between one 
and two years to complete.
    NAS retains control over the scope of these studies. The NAS 
typically convenes panels of scientific and technical experts to write 
reports, which undergo extensive Academy review prior to transmittal to 
the agency requestor.
    NAS reports typically contain recommendations and advice and are 
not done on a confidential basis.
    Extensive use is made of the expertise provided by the NAS and 
their staff, via contracts. The topics of assessments are typically 
suggested by a few interested Members of Congress.
    The Congressional Research Service (CRS) undertakes analyses for 
both committees and Member offices in scientific and technological 
areas to: (1) assess the overall policy context on specific broad-scale 
legislative issues; (2) assess tradeoffs and alternatives; (3) evaluate 
proposals with heavy technical components; (4) help Congress to 
understand technical and scientific background and developments; and 
(5) provide program and institutional memory.
    Because of the diverse and open-ended needs of Committees and 
Members, the Service must work carefully to ensure that the appropriate 
research capacity is available to the Congress when it needs it.
    Some CRS analyses take several months to over a year to complete. 
The agency's specialization, however, is on integrative policy analysis 
that is legislatively oriented, client-focused, confidential, and 
decision-oriented in nature.
    Science and technology support includes personal, confidential 
consultations, briefings, seminars, workshops, a variety of programs 
for Members of Congress and their staff, technical analytical memos, 
and background reports that assess oversight and legislative issues 
relating to technical subjects.
    For instance, CRS staff have written analytical reports on such 
subjects as management and technical issues relating to the National 
Ignition Facility; vaccine policy issues for the 108th Congress; 
technical, trade, and policy issues for space launch vehicles; digital 
television; and bioterrorism policy issues posed by ricin and 
monkeypox, among many others.
    Several projects involving science and technology in the aging area 
are under way including Medicare assessment of molecular technologies 
and interventions for coverage; biomedical issues in diagnosis and 
treatment of Alzheimers disease; chronic illnesses among older people 
and implications for health care programs; coverage of genetic testing 
by private payers; shifting of risk and responsibilities in an aging 
society; bioethical issues at the end of life; and factors driving 
health care costs; among others.
    CRS has also developed more formal, comprehensive, and systematic 
assessments of technical and/or scientific issues
    These assessments often address broad questions requiring 
foresight, analysis, and synthesis.
    Examples of these in-depth studies include: children's 
environmental health; various global climate change studies; invasive 
species issues; ecosystems management; health benefits of air pollution 
control; electricity restructuring; external costs of oil used in 
transportation; chemical and biological agents and pathogens; and 
various studies on acid rain issues.
    Such in-depth studies take several forms: some--including the ones 
on children's environmental health, the health benefits of air 
pollution control, and ecosystems management--have been implemented 
through national symposia. Some in-depth studies have been undertaken 
with internal resources, but because of their scope and the effort 
required, others have been conducted under contract or through 
foundation grants typically in the range of $20,000 to $100,000.
    CRS continues to monitor its science and technology requests and 
workload through close work with committee staff, discussions with 
nationally recognized scientists, and analysis of scientific 
developments. These actions help CRS anticipate issues as well as 
signal future needs for resources and technical capabilities. For 
example, concerns about terrorism in the 1990s led CRS to begin, before 
September 11, 2001, an assessment of chemical and biological agents and 
pathogens--a study that proved useful during the Homeland Security 
debates of 2002 and 2003.
                   crs one-time financial adjustment
    Question. Mr. Mulhollan, can you explain the $2.7 million ``one-
time financial adjustment'' in your budget request?
    Answer. CRS is seeking a one-time budgetary adjustment of $2.7 
million to sustain a total capacity of 729 FTEs. Without the additional 
funding, we estimate that the current budget base will afford the 
Service approximately 704 FTEs in fiscal year 2005 and beyond--25 FTEs 
short of its current ceiling. Any reduction from the current level of 
729 FTEs will result in a diminution in the Service's ability to meet 
the needs of the Congress.
    The basis for the one-time cost adjustment in fiscal year 2005 is 
the confluence of two dynamic influences:
    A change in the work force composition is the most significant 
factor. During the past ten years, the total size of CRS has decreased 
from 763 FTEs to 729 FTEs. Within these shrinking resources, CRS has 
consistently produced ``more with less'' and demonstrated increased 
productivity in responding to congressional needs. Economies that were 
previously realized from technology and contractual assistance are no 
longer possible. Assisting the Congress as it addresses increasingly 
dynamic and complicated issues requires a cadre of highly skilled, 
knowledgeable, and motivated workers--a work force that is increasingly 
more expensive to sustain.
    The second influence is related to the changing proportion of staff 
in the two federal retirement systems. CRS is behind the CSRS-to-FERS 
transition curve when compared to the rest of the federal sector. The 
CRS workforce has historically remained with the Service for the 
duration of their career--and often beyond their retirement-eligibility 
dates. Recent experience confirms that: (1) the majority of CRS 
retirements/separations are CSRS staff, and (2) the majority of CRS 
hires are from the private sector/school--eligible only to participate 
in the FERS. The employer-paid benefit rate for a FERS employee is 
nearly double that of CSRS employee making the same base salary. For 
fiscal year 2003, the benefits rate for a FERS employee was just over 
27 percent of his/her salary versus 13.5 percent benefit rate for a 
CSRS employee making the same basic pay.
    Without the one-time funding adjustment, CRS services to the 
Congress would be reduced by about 206 hours a year in each of over 150 
major policy areas in which the Congress can be expected to be actively 
engaged--between 5 and 6 weeks of lost capacity per major policy area. 
Across the Service as a whole, this reduction would equate to a loss of 
about 365 productive hours per week that would not be available to 
provide critical research and analytical support for the Congress.

                          SUBCOMMITTEE RECESS

    Senator Campbell. This subcommittee is recessed.
    [Whereupon, at 11:39 a.m., Thursday, March 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]








         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                       WEDNESDAY, MARCH 31, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Stevens, and Durbin.

                              U.S. SENATE

             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF HON. WILLIAM H. PICKLE, SERGEANT AT ARMS
ACCOMPANIED BY:
        KEITH KENNEDY, DEPUTY SERGEANT AT ARMS
        CHRIS DEY, CHIEF FINANCIAL OFFICER

           OPENING STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The subcommittee will come to order. We 
meet this afternoon to take testimony from Senate Sergeant at 
Arms Bill Pickle, and the Capitol Police Board, currently 
chaired by House Sergeant at Arms Bill Livingood and the Chief 
of Police Terrance Gainer.
    We will first hear from the Sergeant at Arms. Mr. Pickle is 
accompanied by the Deputy Sergeant at Arms, Keith Kennedy, and 
his Chief Financial Officer, Chris Dey, along with a team of 
others. We welcome you here today.
    The Sergeant at Arms' budget request totals $187 million, a 
3 percent increase over last year. This modest overall increase 
reflects the final year of funding for several major projects 
in fiscal year 2004, such as the recording studio project and 
the digital technology migration project. Your salary budget, 
as I understand it, would increase about 10 percent over fiscal 
year 2004.
    Following the Sergeant at Arms, we will take testimony on 
the Capitol Police budget. The Capitol Police request totals 
$291.6 million and total of 2,361 staff, which is a large 
increase, 33 percent over the fiscal year 2004 appropriation. 
That one will be a little tougher to deal with.
    In addition to the Capitol Police's own appropriation, $40 
million is included in the Architect's budget for the Capitol 
Police buildings and grounds, including a new firing range and 
an off-site delivery facility.
    We will need to make some tough choices this year, as all 
of us know, but I look forward to hearing your testimony. I 
might tell you that I did read your testimony so you do not 
need to read it again to me. I can read most of the words, and 
if you will abbreviate that would be fine with me. I'd like to 
turn it to a ranking member, Senator Durbin.

                       SENATOR DURBIN'S STATEMENT

    Senator Durbin. Thank you very much, Senator Campbell. I 
ask that my entire statement be made part of the record.
    Senator Campbell. We will put it in the record.
    Senator Durbin. And I'd like to commend Mr. Pickle; he did 
an excellent job with a very, very difficult assignment on the 
computer theft which we experienced in the Senate Judiciary 
Committee. I thought you demonstrated professionalism, non-
partisanship, just what we expect from you.
    Mr. Pickle. Thank you.
    Senator Durbin. I commend you for that and all of those who 
worked with you. It was an exceptional effort with a very, very 
difficult assignment. I'll be asking a few questions about that 
when I get the opportunity.

                           PREPARED STATEMENT

    Chief Gainer, good to see you again, along with the Capitol 
Police. And thank you and all of the men and women who serve us 
so well, put their lives on the line every day for us here at 
the Capitol.
    Chief Gainer. Thank you, Mr. Chairman.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, thank you for scheduling today's budget 
oversight hearing on the Senate Sergeant at Arms and the U.S. 
Capitol Police Board.
    First of all, I want to thank our witnesses, Mr. Pickle, 
Mr. Livingood, and Chief Gainer for joining us today to review 
your fiscal year 2005 budget requests.
    Mr. Pickle, last November when I discovered that some 
documents stored on my Judiciary Committee staff's computers 
were taken from them and published in the Wall Street Journal, 
I asked you to begin a Sergeant at Arms investigation into the 
potential security breach. You did so almost immediately. Your 
staff--including Capitol Police--worked around the clock to 
secure the committee's computer servers to preserve the 
evidence and interviewed dozens of staff.
    I want to commend you for the professional and expeditious 
way that you have handled the investigation, and your 
willingness, as demonstrated in the report, to follow the facts 
wherever they led you.
    However, during your investigation, you came to realize 
that all of the Senate committees' systems were set up in 
essentially the same way, with similar vulnerabilities in 
place. I hope that very aggressive steps are being taken to 
assure that this does not happen again.
    On another note Mr. Pickle, I had the opportunity to meet 
with Greg Hanson of your staff last week to discuss the 
technology available to us here in the Senate. It was very 
informative and I appreciated his updating me on this issue. As 
you know, I'm concerned that we are behind the House when it 
comes to technology. With the increased use of the internet, 
our constituents are able to get in touch with us much more 
quickly and easily. In my office, we receive close to a million 
emails a year. We need to be able to come up with a system that 
allows us to respond to this volume of email in a timely 
matter.
    In this regard, I noticed in your fiscal year 2005 request 
that you are asking for $10.3 million for three-year funding 
for purchase of computer equipment. I'd like to hear a little 
more about that.
    I hope you will address the current status of the perimeter 
security upgrades. I'm interested to know if this project is on 
schedule and on budget.
    I'd also like to hear about the status of the proposed Mail 
Processing Facility/Warehouse and whether a site has been 
selected to house this facility.
    I hope you will talk a little bit about the security 
upgrades for our state offices and when we can expect to see 
these upgrades occur.
    Overall your request of $186.6 million, or 3.1 percent, 
seems quite reasonable. We all know how difficult this year is 
going to be in terms of funding.
    I read in your testimony that there are plans in place to 
distribute emergency supply kits to all Senate offices. I hope 
you will talk a little about the contents of these kits and 
when our offices will be receiving them.
    Chief Gainer, welcome. It is good to see you again. I see 
that your fiscal year 2005 budget request is $291.6 million, an 
increase of 33 percent. I'm glad that you have provided us with 
a detailed prioritization of your request. I know that this 
will come in handy a little later on when we start to make some 
decisions with regard to funding.
    There have been several organizational changes made at the 
Capitol Police since our last hearing. I hope you will describe 
for the subcommittee the changes you have made, why you have 
made them and how they relate to particular goals or objectives 
in your strategic plan.
    I noted in your statement that in January your department 
started a Diversity Training Program. I hope you will tell us 
more about this training and when you expect it to be complete.
    I have noticed on many occasions that the lines to get into 
the Dirksen and Hart Buildings are quite lengthy. It seems 
there should be a better way to get both staff and visitors 
through security and into the buildings without them having to 
wait in such long lines.
    I hope you will update us on the progress of procuring an 
off-site delivery facility. I understand that you might co-
locate this facility with the Sergeant-at-Arms' Mail Processing 
Facility.
    I understand that the Capitol Police and FLETC are working 
together on a solution that would allow the Capitol Police to 
have adequate use of the firing range in Cheltenham, Maryland, 
thus eliminating the need to procure one of your own. I hope 
you will elaborate on that for the subcommittee.
    I am interested in your thoughts on the idea of a security 
fence around the Capitol and office buildings.
    Thank you Mr. Chairman.

    Senator Campbell. Mr. Pickle, why don't you go ahead.

                 SUMMARY STATEMENT OF WILLIAM H. PICKLE

    Mr. Pickle. Thank you, Mr. Chairman, and thank you for 
those kind words, Senator. We appreciate that.
    Mr. Chairman, actually, some of your remarks stole my 
thunder here. I had some informal remarks to make but I'm going 
to cut right through most of them. I'd like to submit a formal 
statement for the record.
    Senator Campbell. It will be included in the record.
    Mr. Pickle. And what I would like to affirm is we are 
asking for about a 3.1 percent increase in our budget. It is 
modest but it is important that we get this funding to complete 
some of the many programs and security enhancements that we 
have begun with the approval and the support of this committee 
over the previous years. As you mentioned, some of them are 
very important to us. The security upgrades for Members' 
offices, the alternate computing facility, the computer network 
security and in particular the secure mail and package 
processing protocols in our warehouse are very important to us 
this year for all the obvious reasons.
    Last year, when I testified before this committee, I made 
the statement that I was very honored and pleased to have been 
elected as the 37th Senate Sergeant at Arms. I also discussed 
with the committee that my goals, and indeed the entire 
Sergeant at Arms' Office, our goals are to provide the very 
best customer service we could here to the Senate, as well as 
the very best security and emergency preparedness. And what we 
hoped to do last year was to meld and use or leverage 
technology to do even a better job and be as efficient and as 
effective as we possibly could. Well, this year our goals 
remain the same; we've come a long way but we have a lot more 
to do. Security continues to be paramount, as it has since the 
anthrax scare of 2001.
    We have had a very challenging year, as Senator Durbin 
said; we had something occur that is rather unprecedented for 
the Sergeant at Arms Office to participate in and that was the 
matter of improper access to the Judiciary Committee computers. 
It was unprecedented in the sense that we are not staffed to 
conduct such an investigation. While the Sergeant at Arms is 
the chief law enforcement officer of the Senate, he really does 
not have the operational personnel or resources to do this. But 
thankfully we had the Capitol Police; we also went to the 
United States Secret Service and with the support of this 
committee, which was involved with us when we talked about the 
funding that would be needed to do the work, we completed the 
investigation. And I too am very proud of our staff. I think 
what it shows is that we are a very diverse organization, we 
have some very talented people, and I'm just so proud of the 
work that they did in this area.
    The other challenge we had this year was the ricin attack 
on February 3, 2004. Now, this was the second attack that's 
occurred here in the past 3 years. The anthrax scare of 2001 
shut down a Senate building for several months. Fortunately, 
this time, because of the response of the Capitol Police and 
the Sergeant at Arms Office of Emergency Preparedness, along 
with our colleagues and the other entities here, we were able 
to get the Senate office buildings back up and running within 5 
days. Now, as much as I'd like to take some credit for that, I 
think credit really belongs to my predecessor, Al Lenhardt, the 
former Sergeant at Arms. Al was confronted shortly after he 
arrived here with the anthrax attack and because of his efforts 
we have in place a very sound architecture and many sound 
security protocols that allowed us to be very successful in 
dealing with this ricin attack. I think the fact that it was 
only 5 days speaks well for the preparations of this body. It 
also speaks well for this committee which has supported us as 
well as the Rules Committee which was there to help out.
    I know I'm dwelling only on security and technology, but 
finally I want to close by making just a comment. We have over 
800 people here in the Sergeant at Arms Office, and when you 
look at the Sergeant at Arms Office, my analogy is the Senate 
is like a small city or mid-size corporation. We have about 
8,000 people who work here on the Senate side, and on any given 
day we have many thousands more who are tourists, guests, 
official visitors, so we have all the components of a city 
here. I think we have several dozen different little businesses 
within our office. The people who do the work and who make this 
place run, day in and day out, and who are invisible to all of 
us are the ones who really need to be thanked for their hard 
efforts this year. And I'm talking about people such as our 
facilities maintenance people who keep the Capitol clean, and 
it's always spotless in the morning when you come in; our 
furniture makers who make sure all the furniture and woodwork 
we have is just topnotch, and our communications people, who 
comprise most of our staff. These people do the job day in and 
day out, and I'm just so proud of them.

                           PREPARED STATEMENT

    With that, Mr. Chairman, I'm going to dispense with 
anything else. And I'll just be happy to take questions. Thank 
you.
    [The statement follows:]
                Prepared Statement of William H. Pickle
                              introduction
    Mr. Chairman and Members of the Committee, thank you for inviting 
me to testify before the Committee on Appropriations. I am pleased to 
come before you today to report on the progress the Office of the 
Sergeant at Arms (SAA) has made over the past year and our plans to 
enhance the capabilities of the Senate in the coming year.
    The SAA respectfully requests for fiscal year 2005 a total budget 
of $186,701,000, which is an increase of $5,669,000 or 3.1 percent over 
the fiscal year 2004 budget. This increase will enable the office to 
maintain the significant improvements and level of service we provided 
the Senate community over the past year.
    This fiscal year 2005 budget request will fund the completion and 
support of several initiatives that are already in progress, including 
security upgrades for Members' state offices, the Alternate Computing 
Facility (ACF), enhanced communication services, secure mail and 
package processing protocols, and computer network security.
    Last year I testified before this Committee and identified two 
priorities: (1) ensuring the United States Senate is as secure as 
possible and prepared for any emergency; and (2) accomplishing this 
goal through outstanding service and support, including the enhanced 
use of technology. The work of this office over the past year has been 
guided by these priorities.
    In addition to the projects the SAA had planned to undertake and 
invest in this past year, we faced unique challenges requiring that 
resources be used to meet immediate, unanticipated needs. The ricin 
incident and the Judiciary Committee's request to conduct an internal 
investigation are two examples of such challenges. This testimony will 
detail later the work of the SAA staff in responding to the ricin 
incident.
    The Committee on the Judiciary's request for the Sergeant at Arms 
to conduct an internal investigation into whether there was 
unauthorized access to the Committee's computer system was 
unprecedented. We were able to respond quickly to this request and to 
assemble an investigative team that included trained investigators 
detailed from the U.S. Secret Service and outside forensic experts. The 
sensitive nature of this matter required almost full-time involvement 
of several of our senior managers. The investigation and forensic 
analysis took almost four months and required a significant amount of 
personnel and financial resources.
    In our response to the ricin incident and the investigation for the 
Judiciary Committee, we met the needs of the Senate and accomplished 
the tasks set before us. In the past year we have also moved forward in 
a number of crucial areas.
    An outstanding senior management team led the efforts of the SAA's 
dedicated staff over the past year. This team consists of Deputy 
Sergeant at Arms J. Keith Kennedy, Assistant Sergeant at Arms for 
Security and Emergency Preparedness Chuck Kaylor, Assistant Sergeant at 
Arms for Police Operations Al Concordia, Assistant Sergeant at Arms for 
Operations and Administrative Assistant Rick Edwards, General Counsel 
Lynne Halbrooks, and Assistant Sergeant at Arms and Chief Information 
Officer J. Greg Hanson. This team has worked to develop and implement a 
comprehensive approach to Senate projects. The many accomplishments set 
forth in this testimony would not have been possible without their 
leadership and commitment.
    This testimony highlights some of our achievements over the past 
year, and demonstrates how we plan to build on our accomplishments and 
to protect the Senate's interests. Specifically, this testimony 
identifies (1) the security measures we have implemented and are 
working toward; (2) initiatives designed to keep the Senate at the 
leading edge of technology; and, (3) highlights of the critical 
operational support we offer the Senate.
         a comprehensive approach to security and preparedness
    I am pleased to report that in the areas of security and emergency 
preparedness we expanded on the significant accomplishments of my 
predecessors, and particularly on the strong foundation that Sergeant 
at Arms Alfonso E. Lenhardt implemented to protect the Capitol and 
Senate Office Buildings after the anthrax attack in 2001.
    The Senate now has in place an overall security strategy that 
establishes a layered defense based upon our understanding of threats 
to the Capitol and its vulnerabilities. Over the past year, this 
strategy led to updated security plans, created prevention and 
protection programs, and created life-safety, emergency preparedness, 
and information security programs. The strategy also led to training to 
educate staff and exercises to rehearse and evaluate our plans.
    The SAA has relied on the strong support of the Secretary of the 
Senate, this Committee, the Committee on Rules and Administration, and 
other Committees and Members to advance the Senate's security and 
emergency preparedness. A comprehensive approach to these critical 
subjects has required the partnership and cooperation of Senate 
offices, the U.S. Capitol Police, the Attending Physician, other 
legislative branch offices, as well as federal and state agencies.
    Together, we have made significant progress on our security and 
emergency preparedness.
    Despite the substantial advances in security and emergency 
preparedness since September 2001, and particularly this past year, we 
cannot become complacent. The Capitol and Congress remain targets to 
those wishing to cause our country harm, and the means to cause that 
harm are available, varied, and growing in sophistication. We need to 
be vigilant, and we need to continue our comprehensive, forward-looking 
security and emergency preparedness programs.
    This testimony outlines the SAA's security, emergency preparedness, 
and continuity of operations and government efforts. In addition to the 
initiatives set forth below, there are other steps being taken to 
secure Congress and the Senate community that are not appropriate to 
address in an open forum.
Vulnerabilities and Threat Assessments
    Understanding the threats the Senate faces is essential to 
establishing appropriate and cost-effective security programs. We work 
with the U.S. Capitol Police on an aggressive approach to security that 
recommends and supports ongoing security projects. We are participating 
in several studies that address vulnerabilities around the Capitol 
relating to land-based and airborne threats, as well as chemical, 
biological, and radiological threats. The SAA also works with the U.S. 
Capitol Police to provide analysis of emerging global threats, current 
intelligence information, analysis of vulnerabilities, and available 
countermeasures. As a result of this work, policies are being developed 
in conjunction with the U.S. Capitol Police that provide high levels of 
protection on Capitol Hill for Members, staff, and visitors. These 
coordinated efforts with respect to vulnerability and threat assessment 
include:
    Vulnerability Assessments.--Since 1998, the U.S. Capitol Police 
Board has conducted seven formal vulnerability assessments of the 
Capitol complex. These assessments serve as the basis for many of our 
protective measures. The assessments complement our work with the 
National Capital Region intelligence sharing initiatives for a complete 
view of the threats to the Capitol.
    Command Center.--Over the past year, the U.S. Capitol Police have 
established a state-of-the-art command center and campus-wide security 
network that significantly improve their situational awareness. This 
provides information in a number of areas, which enables the police to 
better understand an event and better manage the necessary response. 
SAA staff work closely with the Capitol Police at the Command Center 
during emergencies.
    Threat Intelligence Sharing.--The U.S. Capitol Police Board has 
approved the U.S. Capitol Police participation in the Targeted Violence 
Information Sharing System (TAVISS), a pilot program for sharing threat 
intelligence information. Created by the U.S. Secret Service to 
facilitate the sharing of threat information with twenty-seven 
agencies, this program will provide timely information about threats 
against Members of Congress and U.S. Government officials. Research has 
shown that people who attack public officials often switch targets, so 
subjects who come to the attention of one agency may be known to other 
agencies.
    To provide more intelligence information, the U.S. Capitol Police 
have officers assigned to critical National Capital Region intelligence 
collection and analysis and command centers. The U.S. Capitol Police 
also have a small but highly professional intelligence staff that 
collaborate with their counterparts, and participate in the national 
forums that provide the situational awareness we need.
    Air Security.--The U.S. Capitol Police are integrated fully in 
interagency air security coordination planning for the National Capital 
Region and the National Capital Region Coordination Center. This 
planning integrates multi-agency assets into a protective air security 
system that encompasses the Capitol. The National Capital Region Air 
Security Plan focuses on countering terrorist threats from the air. The 
coordination uses multi-agency capabilities that involve intelligence, 
law enforcement, and Department of Defense assets. Early warning and 
situational awareness has:
  --Enhanced detection of potential air threats.
  --Improved dissemination of inter-agency intelligence information.
  --Streamlined coordination of multi-agency assets to achieve command 
        and control.
  --Differentiated navigational errors and civil violations from 
        hostile intent.
The threat environment is always changing, but we have the people and 
organizations in place that understand the needs of the Senate and can 
provide the information necessary to ensure the continued security of 
Members, staff, and visitors.
Protecting the Senate's Physical Assets
    The first priority of the SAA's security strategy is to deter or 
prevent an incident. Our expanding protective measures program includes 
physical security measures, electronic systems, and law enforcement 
activities. It continues to improve the Senate's ability to prevent 
incidents. Many of the details of this program are confidential and 
sensitive. However, several of the significant protective measures that 
have been implemented are set forth below.
    Enhanced Perimeter Security Plan.--The first phase of the perimeter 
security plan, proposed in 1998, was completed in 2002. The Enhanced 
Perimeter Security Plan, developed after September 2001, is now being 
implemented. The Enhanced Perimeter Security Plan features pop-up 
barriers and bollards, hardened police kiosks, improved security at 
vehicle access checkpoints, increased U.S. Capitol Police roving 
patrols, and other enhancements. It also includes improved screening 
procedures for visitors entering the Senate Office Buildings and the 
Capitol. The Capitol Police Board is working to establish more 
comprehensive and visible identification protocols to manage visitors 
better, particularly in the Capitol.
    Capitol Visitor Center.--The Capitol Visitor Center remains an 
important focus of our security program. In 2000, almost three million 
people visited the Capitol and during peak season over 18,000 people 
visited the Capitol each day. In addition, delivery vehicles move tons 
of equipment, food, and other material into and out of the Capitol 
every day. These deliveries are essential to Congressional operations, 
but they also create risks to the Capitol complex. The Capitol Visitor 
Center will improve our ability to screen everything and everyone 
coming into the Capitol, and will enhance the public's access and 
experience while visiting the Capitol.
    The Visitor Center will include a remote delivery-vehicle screening 
facility for all deliveries to the Capitol. The facility will make it 
easier to deliver goods to the Capitol and safer to accept those goods. 
The design incorporates blast-resistant features and systems that will 
minimize the risk of airborne hazards within the Capitol Visitor Center 
and the Capitol.
    Once the Visitor Center is completed, the public will have just as 
much access to the Capitol, only through fewer access points. There 
will be enhanced screening and control of everyone and everything that 
enters the building. Screening will take place in the Visitor Center 
instead of near the Capitol doors, and, because of the design of the 
access points, the screening will make it easier to isolate and remove 
individuals who pose a security threat.
    Parking and Traffic Management.--Construction of the Capitol 
Visitor Center, the implementation of the Perimeter Security Plan, and 
other construction activities have created parking and traffic 
management challenges.
    To address the parking challenges, we made use of our existing 
resources and created 359 parking spaces proximate to the Capitol and 
Senate Office Buildings. This saved lease expenses of $1 million 
annually, or approximately $2 million to date. The parking is secure, 
near the Capitol, and convenient for Senators and staff.
    Because the traffic that flows past the Senate Office Buildings and 
the Capitol directly affects the security of the Senate, the SAA staff 
worked with the Architect of the Capitol, the U.S. Capitol Police, and 
the District of Columbia's Department of Transportation to ensure the 
safety of Members, staff and visitors to the Senate and simultaneously 
minimize the traffic impact of construction projects. Much of the 
construction is limited to nights, weekends, and off-peak hours to 
reduce the impact on traffic. The direction of one-way traffic is 
shifted to accommodate commuting in the morning and evenings. U.S. 
Capitol Police officers are stationed at major intersections to 
maintain traffic control and pedestrian safety.
    State Office Security.--While many of the recent security efforts 
focus on Capitol Hill, Members' state offices continue to be a focus 
for the SAA. During the past year and a half, SAA staff have conducted 
comprehensive, on-site security assessments of the 430 state offices. 
Besides completing assessments of existing offices, a system has been 
implemented to assess each newly-established office.
    The assessments provide the SAA an understanding of each state 
office's security needs and enable us to make recommendations, help the 
state office prioritize its needs and, ultimately, improve security. 
Each Member's Washington, D.C., office has the results of their state 
office assessments and the SAA's recommendations. We are working with 
each office to determine how to proceed to implement appropriate 
physical security upgrades.
    This state office security project involves physical modifications 
to offices, installation of physical security systems in offices, and 
staff training. It is ongoing and multi-year, and the initial focus has 
been on state offices in commercial spaces. The Federal Protective 
Service and the Federal Marshals have been consulted regarding Members' 
offices in federal and court buildings.
Emergency Preparedness
    To enhance the Senate's emergency preparedness, the SAA is 
addressing all aspects of preparing for, learning about, and responding 
to emergencies. Over the past year, the SAA has established 
notification systems, conducted training, and provided emergency 
response equipment and resources. SAA staff has also worked closely 
with the Architect of the Capitol and the U.S. Capitol Police to test 
and, where necessary, upgrade the alarms, emergency equipment, and 
notification systems in every Senate Office Building.
    The Senate continues to improve evacuation and assembly area 
accountability procedures by regularly conducting evacuation drills. 
The SAA has also worked with Senate offices to update the procedures 
for evacuating mobility-impaired staff and visitors. This outreach to 
our special needs community will continue next year.
    To maintain the focus on life-safety and emergency procedures, the 
SAA meets weekly with the U.S. Capitol Police, the Superintendent of 
the Senate, and the Capitol Fire Marshal to review life-safety programs 
and issues. This has resulted in better emergency equipment access to 
the Capitol Plaza and closer involvement by the Washington, D.C., Fire 
Department during evacuation drills. The SAA also is engaged with the 
National Capital Region's emergency management experts through a number 
of high-level interagency and intergovernmental committees and work 
groups that expand the National Capital Region's preparedness.
    Highlights of the SAA's efforts to better prepare the Senate 
community for an emergency include:
    Alert and Notification Systems.--In the past two years, the Senate 
provided BlackBerry devices and updated electronic pagers to Senators 
and key staff. The number of BlackBerry devices in use at the Senate 
continues to expand. Every office has a Senate ``Group Alert'' 
telephone system and approximately 1,000 telephones throughout the 
Senate are connected to the System.
    Last year, wireless annunciators were added as a component of the 
emergency notification system. These wireless devices have been placed 
in every office. The U.S. Capitol Police use the annunciators to 
provide audible alerts of an incident, instructions on appropriate 
action, and additional information as an event unfolds. Annunciators 
supplement the Group Alert telephone system, the building fire alarms, 
the public address system, and other emergency notification devices.
    The SAA is in the process of testing a newly installed, more 
capable automatic voice and text notification system that supplements 
the existing U.S. Capitol Police Dialogic system. Once this system is 
fully operational, it will be able to automatically call and send text 
alerts to predesignated individuals more quickly than in the past.
    Training.--Over the past year, the SAA created and delivered 
training courses that cover a wide range of emergency preparedness 
issues. There have been 172 training sessions providing life-safety 
information to over 5,700 individuals. This training included: in-
office sessions tailored to the emergency preparedness needs of each 
office, new staff and intern orientations that review emergency systems 
and procedures for all new staff, monthly emergency preparedness 
updates, and off-site training on the use of fire extinguishers.
    Special topic seminars were conducted by SAA staff on evacuating 
Washington, D.C., evacuating people with disabilities, and sheltering 
in place. Training was also conducted for U.S. Capitol Police officers 
and Senate office personnel regarding evacuation procedures for 
mobility-impaired staff members. And, in coordination with the U.S. 
Capitol Police, the SAA helped train 6,770 individuals about the proper 
use of escape hoods. This training gives every participant the chance 
to don a training hood.
    Emergency Equipment.--Almost 19,000 escape hoods, which provide 
protection against airborne hazards, are deployed in Senate offices and 
at cache sites throughout the Capitol and in Senate Office Buildings. 
Last year, hoods were distributed to every office. This year, escape 
hood cache locations were established in restaurants, hallways, near 
elevators, in the Capitol, and other public areas. These cache 
locations are quickly accessible to staff and visitors. This past year 
the SAA conducted the first full inventory of all the escape hoods 
issued to offices. Over the next year, options will be evaluated for 
replacing the escape hoods in anticipation of replacing the current 
hoods at the end of their shelf life in fiscal year 2006.
    Last fall, in consultation with Senate offices, the SAA developed 
an emergency supplies kit that will be useful to offices in any 
emergency. The SAA plans to issue the kits and provide training to the 
Office Emergency Coordinators this spring.
Continuity of Operations and Government
    This past year the SAA and the Secretary of the Senate developed 
and published the Senate Continuity of Operations and Continuity of 
Government Planning Guide that provides strategic guidance and a 
framework for developing comprehensive, integrated Senate Continuity of 
Operations and Continuity of Government plans. The SAA and Secretary of 
the Senate worked closely with all affected legislative branch agencies 
to ensure the plans, which are part of each office's emergency plan, 
are supportable and coordinated. Other initiatives the SAA has been, 
and will continue to be, involved in that are designed to meet the need 
for strong continuity of operations and continuity of government 
planning include:
    Senate Office Planning.--The SAA participates in the review and 
update of the Senate's Continuity of Operations plans each Congress. 
Most Member and Committee offices now have their own Continuity of 
Operations plans in place. They have established alternate operating 
sites, have laptops and other equipment for these sites, and have 
backed up their essential data and other records so the sites are ready 
to use. Many offices activated their plans during the ricin incident 
and are now improving those plans. The SAA will continue to help 
offices prepare, review, and update their internal plans and 
procedures.
    The SAA's Continuity of Operations planning support was extended to 
state offices this past year through a Web-based planning software 
application. The application helps Members' state offices create their 
plans, and enables Members' Administrative Managers to oversee those 
plans to ensure they fit within the office's overall office Continuity 
of Operations plan.
    Briefing Centers and Alternate Chamber.--The Senate has established 
Briefing Centers and Alternate Chamber locations for use in emergency 
circumstances. Over the past year, the SAA continued to enhance its 
ability to support these locations, as well as Member office and 
Committee operations. During this time, two Briefing Centers were 
completed. The Centers provide temporary, protected locations where the 
Senate can account for membership; where Leadership, Senate Officers, 
and the U.S. Capitol Police can communicate with Senators; and where 
communications capabilities are available to Senators. A third Briefing 
Center is nearing completion.
    Two years ago, a primary Alternate Chamber was established on 
Capitol Hill. Final modifications to that facility were made this past 
year and it is fully operational. A secondary Alternate Chamber 
location has also been selected off Capitol Hill. This facility is 
available now and final modifications are being made. Work to establish 
a second Alternate Chamber site off Capitol Hill will continue this 
upcoming year.
    Exercise of Emergency Plans.--This past year was the second full 
year of an active program that ensures that we regularly rehearse and 
evaluate all aspects of our emergency plans. The SAA's exercise program 
focuses on evaluating new facilities and capabilities as they become 
available. In the first year, the ability to activate, relocate to, and 
operate out of our primary Briefing Center and the Capitol Hill 
Alternate Chamber location was tested.
    This past year, exercises were conducted for using a second 
Briefing Center location and the off-site Alternate Chamber. These 
exercises included tabletop reviews of all aspects of the plans and 
procedures, and full exercises of the facilities. They included the 
U.S. Capitol Police Command Center and the Sergeant at Arms and 
Secretary of the Senate's Emergency Operation Center. The exercises 
also tested the transportation to each facility, support of each 
facility, and communications between the facility and the Command and 
Operation Centers. The program exercises life-safety responses as well 
as emergency operations. A similar protective measures exercise of the 
Senate Chamber was also conducted recently.
    This upcoming year, the operations of the Emergency Operations 
Center will be exercised and a tabletop exercise of the Alternate 
Computing Facility will be conducted. In addition, quarterly evacuation 
drills and monthly tests of the emergency communications systems will 
continue.
The Ricin Incident
    The discovery of ricin in the Dirksen Senate Office Building on 
February 2, 2004, brought to test the emergency planning work done by 
the Senate in the last two years. The response was a collaborative 
effort. SAA staff worked with the U.S. Capitol Police, the Committee on 
Rules and Administration, the Office of the Secretary, the Office of 
the Attending Physician, and numerous other agencies and organizations, 
to support Senate operations even though all three Senate Office 
Buildings were closed.
    The closure of the Senate Office Buildings required the activation 
of the SAA Continuity of Operations plan to support Senate, Member, and 
Committee operations. In cooperation with the Secretary of the Senate 
and Committee for Rules and Administration, the SAA established limited 
alternate space and services for Member and Committee operations. By 
the morning of February 4, 2004, space and operating capabilities were 
available for all Member and Committee offices that needed it. Offices 
were able to borrow equipment they needed from the SAA. Information 
hotlines and backup systems worked well under the circumstances. 
Assistance was also provided to Member offices to transfer their 
telephones to other offices to ensure constituents' calls were 
answered.
    The support of the Committee on Appropriations was instrumental in 
implementing the systems and processes that helped the Senate respond 
successfully to this ricin event. Because redundant technology was 
available, the Senate offices were able to continue to conduct business 
even when they were unable to access their offices.
    The feedback we received during and after the response to the 
incident will help improve our response to future incidents. Of primary 
concern is the need to improve notification processes and procedures. 
This incident demonstrated that a solid technical infrastructure is in 
place to ensure timely notifications, but the processes and procedures 
need improvement. We will continue to work with the U.S. Capitol Police 
and the Senate community to ensure effective notification in the event 
of an emergency.
    Following the ricin incident, it was necessary to implement new 
mail processing procedures. Over two years ago, the Legislative Branch 
Mail Task Force (consisting of representatives from the scientific and 
medical communities, the United States Postal Service, security 
experts, and agencies within the legislative branch) established a mail 
processing system to treat and test all mail coming into the Congress. 
The discovery of ricin in the Majority Leader's office in February 
mandated the need for additional protective measures in our mail 
processing. Science advisors and the Legislative Branch Mail Task Force 
recommended that envelopes and packages be opened, examined, and tested 
for contaminants at an off-site location. With the approval of the 
Senate Leadership, these new mail processing protocols were quickly 
implemented.
    Overall, the response to the ricin incident is encouraging. The 
Senate Office Buildings were reopened within 5 days. The response truly 
was a team effort and demonstrated the importance of preparing for 
emergencies to ensure continuity of operations.
                         information technology
    This past year has seen significant advances in the area of 
information technology in the Senate. The addition of a Chief 
Information Officer to the SAA management team has facilitated the 
development and delivery of a technology vision, a strategy, and 
solutions to support the Senate and enhance its security.
    The Senate's information technology infrastructure is used to 
complement other security efforts. Information technology is crucial to 
security in the Senate and to the Senate's ability to accomplish its 
day-to-day activities. With a strong emphasis on providing advanced 
technology capabilities and outstanding customer support to the Senate, 
the SAA is adopting a comprehensive approach to delivering technology 
solutions and services. This approach focuses on evaluating and 
implementing effective technology to help the Senate conduct its 
business.
    The SAA is developing an information technology strategy that will 
be implemented in the coming year. The strategy will address the 
Senate's need for mobility, flexibility, and redundancy in information 
and telecommunications systems and will specifically address the 
requirements that:
  --Members and staffs need to be informed and have the ability to 
        track current events in near real-time.
  --Members and staffs need to be secure to carry out their duties 
        under any circumstances.
  --Members and staffs need to be able to communicate among themselves 
        and with constituents and the public.
  --Members and staffs need to be able to operate and maintain 
        Washington, D.C., and state offices.
  --Members and staffs must be able to collect, analyze, manipulate, 
        and present information.
    The strategy will include a plan and a technology roadmap for the 
next two years. The plan and roadmap will provide guidance to the 
Senate on its technology decisions, and a framework for making those 
decisions. In conjunction with this strategy, significant work will 
continue this coming year on information technology initiatives 
relating to security, emerging technology, and customer service. 
Several of these critical initiatives are set forth below.
Security Initiatives
    The Alternate Computing Facility (ACF).--This year, the Alternate 
Computing Facility was added as a major addition to the Senate's 
operational capability. Much of the alternate computing facility 
infrastructure is complete, including facility fit-out, network 
infrastructure, network operating center, and central computing room 
facilities. The facility will soon be ready to house backup servers for 
interested Members and Committees. A fiber optic ring is now complete 
in both directions providing fully redundant connectivity between the 
ACF and Capitol Hill. A state-of-the-art storage area network at the 
ACF receives up to 15 terabytes of data daily from the Capitol Hill 
central computing facilities. The mainframe and server hardware, 
telephone equipment, enterprise fax server equipment, and all 
associated networks are in place and are being tested. Currently, 
installation of a fully redundant set of primary domain controllers to 
support the Senate e-mail system is almost complete. The next step is 
to complete installation and testing of all the software and 
applications running on the hardware infrastructure, upgrade the power 
infrastructure, and complete plans to purchase the facility.
    Contingency Communications.--The SAA's contingency communications 
program involves a number of major multi-year projects. Last year the 
Senate's mobile recording studio became operational. Other mobile 
communications assets will be delivered over the next few months. We 
are working to complete communication systems that integrate 
communications across our emergency facilities. Combined, these 
projects provide a significant increase in the Senate's ability to 
continue to operate under any circumstance.
    Telecommunications Improvement and In-building Wireless 
Infrastructure.--To enhance security, emergency preparedness, and 
customer service, a comprehensive telecommunications improvement plan 
is being implemented. Wireless devices, including cellular telephones 
and personal digital assistants (such as BlackBerry devices), have 
become critical telecommunication infrastructure components supporting 
daily Senate operations and emergency notification activities. The in-
building wireless initiative will provide a Senate-owned wireless 
infrastructure integrating services from all cellular telephone 
carriers, BlackBerry devices, and wireless local area networks (LANs). 
Due to this innovative approach, which will lease infrastructure 
bandwidth back to the cellular telecommunications carriers, this 
program will pay for itself in less than five years while providing 
full cellular, BlackBerry, and wireless LAN connectivity across the 
entire Senate campus. In addition to the in-building wireless 
initiative, an analysis of telecommunications requirements is being 
conducted that will lead to a complete overhaul of our voice and data 
networks and services over the next several years. The first task in 
the analysis phase of this large project is already underway.
    Deployable Communications Assets.--Mobility and flexibility are 
fundamental to successful continuity of operations and continuity of 
government planning and execution. The goal of this office is to make 
it possible for Members and their staffs to communicate and process 
data from almost anywhere at any time if they have to relocate. A 
variety of technologies and capabilities is being developed to provide 
mobility and flexibility options. Two state-of-the-art communications 
vehicles are being deployed that will allow us to establish the 
Senate's information infrastructure almost anywhere. Satellite, radio, 
and local area network and wide area network facilities currently are 
being integrated in each of these communications vehicles with full 
operational capability planned for later this year. Next year's 
Continuity of Operations and Continuity of Government exercises will 
incorporate these vehicles.
    Emergency Operations Coordination Prototype.--To support security 
and emergency operations, we are working with the U.S. Capitol Police 
to develop a prototype emergency operations coordination system that 
will enable officers to update and track individuals electronically 
during a Capitol Hill evacuation operation. This system, which features 
tablet PC technology and back-end databases with full reporting 
capability, is currently in prototype, and will be fully operational 
later this year.
    Information Technology Security: Defense-in-Depth.--During this 
past year, there has been a steep increase in cyber threats, as hostile 
entities attempt to attack our systems with viruses, worms, and denial-
of-service attacks. The Senate's infrastructure and data are protected 
by continuously upgrading our defense-in-depth capability. The defense-
in-depth approach includes multiple layers of defense that protect the 
Senate's information infrastructure at all levels, from the inside out. 
It includes an enterprise anti-virus program.
    We expect to extend the enterprise anti-virus program to all 12,000 
Senate desktop and laptop computers by the end of next year. To date, 
this software has been installed on 5,000 Senate computers, protecting 
them from viruses, worms, and denial-of-service attacks.
    These security efforts have paid off; the Senate has not been 
successfully intruded upon from the outside and we have seen only 
minimal effects from the most aggressive virus and worm attacks. We are 
now working with office system administrators, who are responsible for 
the security of their office local area networks, to improve the 
Senate's overall security posture and enhance our ability to defend 
against intrusions.
    Next year, as part of a comprehensive network infrastructure 
upgrade, it will be necessary to evaluate and upgrade the information 
security infrastructure in the Senate switched network by upgrading 
routers and firewalls. Increased intrusion detection systems, software 
tools, and services will complete the defense-in-depth approach to 
information infrastructure.
    Information Technology Security: Policies, Practices, Training, and 
Tools.--An effective approach to information security goes beyond 
upgrading the information security infrastructure to include evaluating 
and applying best practices and information security and assurance 
hardware and software tools, and providing information security 
training for employees. Through the Information Security Policies and 
Practices Working Group, we are working with Members' technology staffs 
and the Committee on Rules and Administration to examine and improve 
information security practices across the Senate. Because of the 
increasing number of attacks the Senate faces, the SAA is also 
evaluating and upgrading the skills of our own information security 
staff.
Emerging Technologies Initiatives
    One major theme that has been embraced in the Senate's information 
technology strategy is to identify ways that new and emerging 
technologies can support the Senate's priorities. We are already moving 
forward on this effort by analyzing trends to discern which emerging 
technologies will be most applicable in the Senate environment. Once 
promising technologies are identified, the SAA will work with 
interested Senate offices to pilot or prototype the technologies and 
prove the concepts. Following successful pilots, the technologies can 
be rolled out Senate wide.
    New Technology and Innovation.--To elevate technology awareness, 
expose the Senate to the future of technology, and spur innovation, the 
SAA is sponsoring emerging technology events. The first Senate Emerging 
Technologies Conference, held in February 2004, brought experts from 
industry to the Senate to discuss emerging wireless technologies, 
telecommunications trends, knowledge management, and collaboration 
tools. The conference was followed by a technology fair highlighting 
low-cost applications that we could implement at the Senate in the near 
future. More emerging technology events are being planned for fiscal 
year 2005.
    Process Improvement.--The Sergeant at Arms is creating an 
organization to focus on process improvement and innovation from the 
perspective of customer service and security. This year, the 
organization will perform top-down and bottom-up analyses of 
technology-related business processes. It will look for opportunities 
to innovate and will implement ways to make the Senate's technology and 
business processes more efficient and effective. The group will 
document, analyze, and improve processes such as technology project 
management, requests for assistance, and the Senate's systems 
development life-cycle.
    Technology Infusion.--To move emerging technologies into the Senate 
environment quickly, the Office of the Sergeant at Arms is 
collaborating with Senate offices to develop prototype applications, 
consisting of subsets of target functionality. Two such prototypes 
currently under development are the Office Emergency Coordinator 
tracking system and a knowledge management prototype. The approach is 
to think big, start small, and scale quickly.
Customer Service Initiatives
    This office is paying special attention to how well it meets the 
Senate's technology needs. This effort requires the evaluation and 
analysis of all aspects of our information technology solutions and 
technology infusion and delivery programs. A survey was conducted last 
year that measured customers' satisfaction with technology. The survey 
revealed that Members and their staffs want more and better information 
about technology programs, a faster process for infusing new 
technologies, and an emphasis on looking ``over the bow'' toward 
emerging technologies and how the Senate can take advantage of these 
technologies in the next three years.
    Customer Service, Satisfaction, and Communications.--The first step 
taken by the SAA to improve customer service, satisfaction, and 
communications was to implement an extensive customer outreach program 
that enables us to understand the Senate's requirements better. This 
program features communications through monthly information technology 
newsletters, quarterly project status reporting to Senate offices, 
participation in the Majority Leader's Information Technology Working 
Group, joint monthly project and policy meetings with the Committee on 
Rules and Administration and the Senate System Administrators 
Association leadership, and participation in a Hill-Wide Information 
Technology Group. We are also emphasizing customer service by enforcing 
stringent service-level agreements with our technology Help Desk 
contractor. This program has been extremely successful with sustained 
performance levels meeting or exceeding the service-level agreement 
(greater than 95 percent based on customer satisfaction surveys) for 
the past eight months.
    Business Applications.--Based on input and feedback from users, it 
was determined that many of the business software applications 
supporting Members and their staffs needed to be updated. The Senate 
Information Services program will be modernized to provide more 
information from various news sources in near real-time and more 
comprehensive analysis of that information. The financial management 
systems that support the Secretary of the Senate's Disbursing Office 
are also being modernized and made Web-capable. We are also exploring 
new correspondence tracking and management systems and have added to 
the list of available application offerings.
    Intelligence over the Net-Web Services.--One major technology focus 
is to move applications and processing capability to the Senate's 
Intranet. Flexible Web services technologies will allow the placement 
of many service-delivery applications to Webster so users can access 
them with a Web browser. The goal is for the Senate Intranet to evolve 
into a full capability portal providing Senate staff ``one-stop 
shopping'' for common business application functionality.
    Secure Remote Access Options.--In addition to moving applications 
to the Web, this office is aggressively exploring alternate ways for 
Senate users to gain secure remote access to Senate information 
resources. In particular, biometric capabilities are being explored to 
add to the secure networking options already provided.
    Network Upgrades and Video Teleconferencing.--To support 
flexibility, mobility, and improved customer service, we are expanding 
and upgrading the Senate's information networks. Over the next year, 
the Capitol Hill network infrastructure upgrade will be complete, 
delivering increased communications bandwidth to the desktop to support 
the applications of the future. This upgrade, already underway, will 
provide 100 megabits per second (Mbps) to the desktop and one gigabit 
per second (Gbps) between servers in the network. To improve 
communications for Members' state offices, we continuously analyze and 
adjust their wide area network connections and increase bandwidth as 
required. This flexibility allows us to support sophisticated Web 
services over the Internet, as well as the video teleconferencing 
program that is currently underway. Under the video teleconferencing 
program, a state-of-the-art video teleconferencing terminal will be 
installed at each Member's Capitol Hill office and a similar terminal 
at the state office of their choice.
    Electronic Mail and Office Automation Applications.--The Senate 
Messaging Infrastructure is almost complete, with 98 percent of all 
offices migrated to Microsoft Exchange and Outlook. The Active 
Directory Messaging Architecture program, the successor to the Senate 
Messaging Infrastructure program, is currently in the design phase. It 
will allow Member and Committee offices to have choices between central 
and distributed management of their Exchange servers, a Senate global 
address list, and office servers updated from Microsoft NT4 to 
Microsoft Windows 2003 technology. In addition, we will continue to 
expand and upgrade our BlackBerry system to supplement both the Senate 
e-mail system and the emergency notification systems. Moving into the 
next year, continued convergence of devices and the widespread use of 
combination cell phone and BlackBerry devices are anticipated. This 
office is committed to deploying systems that will allow Members more 
flexibility in choosing which wireless device to use for receiving 
emergency notifications and legislative alerts.
                          operational support
    While security and information technology initiatives are 
necessarily at the forefront of the SAA's efforts to serve the Senate 
community at this particular time in history, the core value required 
to execute these initiatives successfully--a commitment to exceptional 
customer service--has always been a cornerstone of the SAA's 
operational support. Over the past year, we have seen significant 
improvements in the operational aspects of the SAA's support to the 
Senate. Some of the achievements and projects outlined below are the 
result of better integrating technology into business practices; others 
originated from the need to find innovative solutions to challenges 
presented by the ricin incident. Regardless of the impetus for these 
accomplishments, they all demonstrate the hard work and dedication of 
the SAA operational staffs.
    Senate Post Office.--The Senate Post Office delivered nearly 19 
million safe articles of mail to the Senate community during fiscal 
year 2003. It is our understanding that this was accomplished for 
approximately $3 million less than the House of Representatives, which 
uses an outside contractor to handle similar volume.
    One of the security improvements implemented this past year was a 
new package and envelope-testing site for couriers, allowing for same-
day delivery of time-sensitive items. Additionally, as set forth 
previously in this testimony, the ricin incident in February led to the 
adoption of new mail protocols. This was accomplished by leveraging 
existing personnel and assets while improving the safety, security, and 
cost effectiveness of mail delivery.
    Warehouse.--The need for a modern, efficiently designed warehouse 
facility and mail processing facility continues and, following the 
ricin incident, has become more critical. All mail, packages, and 
deliveries to the Senate must be inspected to ensure the safety of the 
institution. We believe that locating a new warehouse adjacent to the 
U.S. Capitol Police off-site inspection facility will yield 
considerable security and operating benefits. The warehouse and mail 
processing facilities, together with planned U.S. Capitol Police 
initiatives, will ensure the safety and security of Senate assets and 
staff. The financial benefits include eliminating an estimated $800,000 
in annual recurring costs, including the outsourcing expenses for 
package processing that are currently being performed by a contractor.
    Current warehouse facilities are geographically dispersed, 
environmentally inadequate for document and furniture storage and do 
not meet the minimum requirements of the General Services 
Administration. A new facility will correct these problems and enable 
volume discounts for Secretary of the Senate and SAA purchases. It will 
give a longer useful life to furniture and fixtures warehoused and 
provide specialized storage to meet the needs of the Senate Curator and 
Librarian. A new warehouse facility will ultimately benefit the whole 
Senate community through increased efficiency, enhanced security, and 
improved organization.
    Capitol Facilities.--The Capitol Facilities staff continues to work 
around the clock to ensure that the environment within the Capitol is 
clean and professional. With a new management team and a fresh look at 
key processes, the appearance of the Capitol has significantly 
improved. Among the staff's many accomplishments this past year is its 
successful relocation of the Secretary of the Senate's Capitol staff 
from basement offices, which were disrupted by Capitol Visitor Center 
construction, to newly developed fourth-floor office space. This move 
was done without interrupting the Secretary of the Senate's ability to 
support the legislative process.
    Printing, Graphics, and Direct Mail.--The innovations in this 
operational area resulted in substantial cost savings to its customers. 
Specifically, over $1.8 million was saved through the staff's work with 
Member offices on ways to address letters to ensure discounted postage 
rates are received as often as possible. The amount of processed mail 
that qualified for discounted postage this past year was 23 percent 
higher than in fiscal year 2002.
    The use of technology in this area has enhanced customer service. 
Over 2.2 million documents were produced through the SAA's online 
ordering service, a 427 percent increase over fiscal year 2002, when 
the service was first implemented. Online ordering reduces errors and 
provides convenience and labor savings by enabling Senate offices to 
order printing services from their desktops.
    This past year, automation also resulted in a significant increase 
in the Senate's ability to archive documents. By fully automating the 
process, the SAA was able to archive over two million documents for the 
Senate. This represents a 218 percent increase over the previous year 
with no additional staff.
    Photo Studio.--The Senate Photo Studio completed its transition 
from film to high-resolution digital photography and its conversion to 
digital photo printing processes this past year. Photography and photo 
printing services are now being performed digitally, eliminating some 
chemical processes and bringing significant improvements in quality and 
delivery of products to our customers.
    The shift to a digital operation allows staff to view photographs 
taken by the Senate Photo Studio immediately, on site. It also enables 
the Studio to e-mail high-resolution images to Senate offices, and 
allows offices to view images and download them. These enhancements 
have been received well by customers.
    Senate Recording Studio.--The Senate Recording Studio remains a 
leader in the use of technology. Last year, the Recording Studio 
initiated a project to upgrade and install multimedia equipment in 
Committee hearing rooms, including digital signal processing, audio 
systems, and broadcast quality robotic camera systems. This project 
will continue this year.
    The audio upgrades will improve speech intelligibility and provide 
software-based systems that can be reconfigured based on an individual 
Committee's needs. The upgrades also include diagnostic monitoring, 
which enables staff to detect and resolve problems before the problems 
become disruptive. For instance, if a Member is speaking at a 
relatively low volume, the system can more effectively raise the volume 
of that microphone. If a Member who is about to speak does not turn on 
the microphone, the Committee clerk can remotely turn it on from a 
computer. Even if the main electronics fail, a backup system will take 
over within minutes. Additionally, the system provides networking that 
allows the audio to be automatically routed from one hearing room to 
other hearing rooms for overflow purposes.
    The video upgrades will include the addition of broadcast-quality 
television cameras. These cameras will be installed on robotic systems 
and can be controlled remotely from the Recording Studio. The upgrades 
also include cabinetry so the cameras can be concealed when not in use. 
Once this project is completed, the Recording Studio will be able to 
meet the demand for the broadcast of Committee hearings and 
simultaneously maintain production capabilities in the television 
studios.
    The Senate has had the ability to search Chamber proceedings by 
text and listen to audio playback from desktop computers for years. In 
fact, the Senate was a pioneer in this area, and accomplished it in the 
early years of computer browsers. The next major advance will be the 
replacement of the audio and text browsing systems this summer with a 
state-of-the-art audio/text/video browsing system. This will enable 
Senate staff to search and play back Chamber proceedings and news 
programming from any computer on the Senate LAN.
    This system is the result of a modernization of the Senate 
Recording Studio's technical plant that incorporates technology so new 
that it is operational in only a handful of facilities in the country. 
This new technology will enable the Recording Studio to record, edit, 
and play media without ever using tape machines, while simultaneously 
making the media available for online searching and streaming. In the 
near future, the Recording Studio plans to add Senate hearings and 
other media to the system.
    Education and Training.--In 2003, the Senate's Joint Office of 
Education and Training offered 694 classes, with 6,916 Senate employees 
participating. Of the total number of classes offered, 309 were 
technical training, with 1,730 students participating. The registration 
desk handled 15,390 requests for training and documentation. An 
additional 1,126 staff received coaching on various software packages 
and other computer-related issues. Training was provided to almost the 
entire Senate community as the new Senate Messaging Infrastructure was 
implemented.
    Over 350 professional development classes were offered last year 
with a total attendance of 5,117 students. Managers and supervisors are 
encouraged to request customized training for their offices. As a 
result, the staff of the Joint Office of Education and Training worked 
on more than 40 occasions with teams on issues related to team 
performance, communication, and conflict resolution. Over 1,300 Senate 
staff also took advantage of the 18 health events sponsored by this 
office.
    A ``State Training Fair,'' which was first available in March 2000, 
was offered three times this past year to 134 state staff members. 
Forty-two senior leaders in state offices also participated in the 
first State Directors Forum. In addition, state offices continue to be 
offered ``Virtual Classrooms,'' an Internet-based training library of 
over 300 courses. To date, 164 state office staff, representing 59 
Senators, have used the virtual classrooms.
    The Joint Office of Education and Training ensures that the 
training designed for Senate staff meets their needs. This upcoming 
year particular attention will be paid to providing training to 
increase the Senate's awareness of information technology security. 
Specifically, an IT Security Awareness program for Senate staff is 
being developed and a course on reviewing and configuring security 
settings on Windows servers is ready for delivery. Existing computer 
security classes and documentation are being revamped, and IT security 
issues will be included as an integral part of our system 
administration classes and other classes. System Administrators will be 
able to receive training to maintain and enhance their skills, 
including new, self-paced training with mentoring for those who would 
benefit from more instruction and personal guidance.
    Support to Other Organizations.--In addition to the support the SAA 
provides the Senate, we also provide significant support to 
organizations outside the Senate. In fiscal year 2003, the SAA 
performed services for other organizations costing over $3 million 
without reimbursement. Most of these services support the U.S. Capitol 
Police and the Architect of the Capitol. However, support is also 
provided on occasion to the House of Representatives, and to liaison 
offices and other organizations located in the Senate Office Buildings. 
These services include printing and graphics products, maintenance of 
radio and network systems, telephone services (some of which are 
reimbursed), and computer repair and installation.
                               conclusion
    The staff of the SAA has done tremendous work to keep the Senate 
safe, secure, and operating efficiently. The accomplishments and vision 
of this office would not be possible without the active, ongoing 
support of this Committee and the Committee on Rules and 
Administration. We thank you for your support and for the opportunity 
to present this testimony and answer questions.
    From security to technology to operational support, we are 
dedicated to making sure that our products and services support the 
Senate's mission. The appendix accompanying this testimony elaborates 
the specific components of our fiscal year 2005 budget request.
                                 ______
                                 
                              Attachment I
                  Financial Plan for Fiscal Year 2005
          office of the sergeant at arms--united states senate
                           executive summary

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS              Fiscal Year 2005 vs.
                                                            --------------------------      Fiscal Year 2004
                                                                          Fiscal Year --------------------------
                                                             Fiscal Year      2005                     Percent
                                                             2004 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................      $45,789      $50,635       $4,846          10.6
    Expenses...............................................      $46,581      $55,585       $9,004          19.3
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $92,370     $106,220      $13,850          15.0
                                                            ====================================================
Mandated Allowances & Allotments...........................      $56,398      $58,129       $1,731           3.1
Capital Investment.........................................      $27,570      $18,062      ($9,508)        -34.5
Nondiscretionary Items.....................................       $4,694       $4,290        ($404)         -8.6
                                                            ----------------------------------------------------
      TOTAL................................................     $181,032     $186,701       $5,669           3.1
                                                            ====================================================
Staffing...................................................          845          860           15           1.8
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2005 
budget request of $186,701,000, an increase of $5,669,000 or 3.1 
percent compared to fiscal year 2004. The salary budget request is 
$50,635,000, an increase of $4,846,000 or 10.6 percent, and the expense 
budget request is $136,066,000, an increase of $823,000 or 0.6 percent. 
The staffing request is 860, an increase of 15 FTEs.
    For the third consecutive year, we have increased funds for 
security initiatives. The fiscal year 2005 budget request for security 
is $17,698,000, an increase of $1,588,000 or 9.8 percent compared to 
fiscal year 2004. The most significant aspects of the total security 
request are funding security upgrades for Member state offices 
($3,650,000 in expenses); the Alternate Computing Facility (ACF) 
($1,172,000 in salaries for 17 FTEs and $2,166,000 in expenses); 
enhanced communication services ($2,300,000 in expenses); personnel and 
operating expenses requested for the Office of Security and Emergency 
Preparedness ($1,074,000 in salaries for 12 FTEs and $2,166,000 in 
expenses); secure mail and package processing protocols ($694,000 in 
salaries for 19 FTEs and $2,165,000 in expenses); and network security 
($305,000 in salaries for 4 FTEs and $1,704,000 in expenses).
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$50,635,000, an increase of $4,846,000 or 10.6 percent compared to 
fiscal year 2004. The salary budget increase is due to the addition of 
15 FTEs, a 3.9 percent COLA, and merit funding. The additional staff 
will augment our security team, improve operations, expand services, 
and meet new requirements for the Senate community.
    The general operations and maintenance expenses budget request for 
existing and new services is $55,585,000, an increase of $9,004,000 or 
19.3 percent compared to fiscal year 2004. Major factors contributing 
to the increase are price adjustments and annual escalations in the IT 
Support contracts, $2,583,000; increased cost of expanded intrusion 
detection monitoring services and software, $1,105,000; implementation 
of a new real-time news service and renegotiation of all other Senate 
Information Services (SIS) contracts, $860,000; management consultants 
and services required for security operations and planning and 
emergency preparedness, $666,000; replacement of existing enterprise 
servers, $565,000; replacement of wiring in the Capitol, $500,000; 
increased hardware maintenance and licenses for the ACF, $310,000; 
procurement of furnishings, carpeting, and window treatments for the 
Senate wing of the Capitol, $238,000; support agreements for word 
processing and virus software, $202,000; and increased mainframe 
software maintenance, $181,000.
    The mandated allowances and allotments budget request is 
$58,129,000, an increase of $1,731,000 or 3.1 percent compared to 
fiscal year 2004. Major factors contributing to the increase are 
projected increases in commercial and federal office rents, $953,000, 
and maintenance and monitoring of previously installed security systems 
and new security installations in offices established following the 
2004 elections, $906,000. A decrease of $294,000 in office equipment 
purchases in Washington D.C. and state offices partially offsets these 
increases.
    The capital investment budget request is $18,062,000, a decrease of 
$9,508,000 or 34.5 percent compared to fiscal year 2004.
    Major factors contributing to this budget request are completing 
the procurement of the Mail Processing Facility/Warehouse, $7,200,000; 
upgrading Senate data networks and related management systems, 
$2,952,000; initial design and equipment purchases for the replacement 
of the Capitol Hill telephone system, $2,800,000; procurement of 
furnishings and equipment for the Senate side of the Capitol Visitor's 
Center (CVC), $2,500,000; workflow technology hardware and software, 
$400,000; backup document archiving system at the ACF, $350,000; 
emergency backup storage for Members at the ACF, $325,000; upgrading 
mail processing equipment, $310,000; and testing and evaluating 
telecommunications equipment and products, $250,000. Funds also are 
requested for several smaller printing and video projects.
    Funding is no longer required for relocation of the Recording 
Studio in conjunction with the CVC Project and completion of Phases I, 
II and III for the Digital Technology Migration Project, completion of 
CMS projects, acquisition of the work-order system, acquisition of an 
ID laser printing system, acquisition of a mail sorter, and completion 
of the upgrade to the video conferencing project.
    The nondiscretionary items budget request is $4,290,000, a decrease 
of $404,000 or 8.6 percent compared to fiscal year 2004. Major factors 
contributing to this budget request are contract maintenance for the 
Financial Management Information System (FMIS), $2,700,000; 
enhancements to the Legislative Information System (LIS), $1,220,000; 
and requirements definition for replacement of the Senate Payroll 
System, $370,000.
                                 ______
                                 
                             Attachment II
             Fiscal Year 2005 Budget Request by Department
    The following is a summary of the SAA's fiscal year 2005 budget 
request on an organizational basis.

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS              Fiscal Year 2005 vs.
                                                            --------------------------      Fiscal Year 2004
                         Department                                       Fiscal Year --------------------------
                                                             Fiscal Year      2005                     Percent
                                                             2004 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division...........................................      $10,765      $13,400       $2,635          24.5
Operations.................................................      $43,473      $37,608      ($5,865)        -13.5
Chief Information Officer..................................      $91,781      $99,074       $7,293           7.9
Office Support.............................................      $29,230      $30,261       $1,031           3.5
Staff Offices..............................................       $5,783       $6,358         $575           9.9
                                                            ----------------------------------------------------
      TOTAL................................................     $181,032     $186,701       $5,669           3.1
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and analyzed in detail 
beginning on the next page.
                            capitol division

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Fiscal Year 2005 vs.
                                                             --------------------------     Fiscal Year 2004
                      Capitol Division                                     Fiscal Year -------------------------
                                                              Fiscal Year      2005                    Percent
                                                              2004 Budget    Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................       $6,355       $7,317         $962         15.1
    Expenses................................................       $1,666       $2,433         $767         46.0
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................       $8,021       $9,750       $1,729         21.6
                                                             ===================================================
Mandated Allowances & Allotments............................       $2,744       $3,650         $906         33.0
Capital Investment..........................................           $0           $0           $0          0.0
Nondiscretionary Items......................................           $0           $0           $0          0.0
                                                             ---------------------------------------------------
      TOTAL.................................................      $10,765      $13,400       $2,635         24.5
                                                             ===================================================
Staffing....................................................          143          145            2         1.4
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, Media Galleries and the Office of Security and Emergency
  Preparedness.

    The general operations and maintenance salaries budget request is 
$7,317,000, an increase of $962,000 or 15.1 percent. The salary budget 
increase is due to the addition of two FTEs, an expected 3.9 percent 
COLA, and merit funding for fiscal year 2005. The Office of Security 
and Emergency Preparedness requires two additional FTEs to direct, 
develop and monitor the processes and procedures needed to ensure 
security for the Senate and to work on the Continuity of Operations 
Plan.
    The general operations and maintenance expenses budget request is 
$2,433,000, an increase of $767,000 or 46.0 percent, primarily for 
increased management consulting services for security initiatives.
    The mandated allowances and allotments budget request for state 
office security initiatives is $3,650,000, an increase of $906,000 or 
33.0 percent. Funding is required for the maintenance and monitoring of 
previously installed security systems and new security installations in 
offices established following the 2004 elections and consists of three-
year funds.
                               operations

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS              Fiscal Year 2005 vs.
                                                            --------------------------      Fiscal Year 2004
                         Operations                                       Fiscal Year --------------------------
                                                             Fiscal Year      2005                     Percent
                                                             2004 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................      $16,349      $17,817       $1,468           9.0
    Expenses...............................................       $7,992       $8,816         $824          10.3
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $24,341      $26,633       $2,292           9.4
                                                            ====================================================
Mandated Allowances & Allotments...........................           $0         $165         $165   ...........
Capital Investment.........................................      $19,132      $10,810      ($8,322)        -43.5
Nondiscretionary Items.....................................           $0           $0           $0           0.0
                                                            ----------------------------------------------------
      TOTAL................................................      $43,473      $37,608      ($5,865)        -13.5
                                                            ====================================================
Staffing...................................................          363          364            1          0.3
----------------------------------------------------------------------------------------------------------------
The Operations Division consists of the Central Operations Group (Printing, Graphics and Direct Mail, Parking
  Office, Director/Management, ID Office, Photo Studio, and Hair Care Services), Operations Administrative
  Services, Recording Studio, Post Office, and Facilities.

    The general operations and maintenance salaries budget request is 
$17,817,000, an increase of $1,468,000 or 9.0 percent. The salary 
budget increase is due to the addition of one FTE to provide 
administrative support, an expected 3.9 percent COLA, and merit funding 
for fiscal year 2005.
    The general operations and maintenance expenses budget request is 
$8,816,000, an increase of $824,000 or 10.3 percent. Major factors 
contributing to the increase are maintenance and procurement of 
furnishings, carpeting and window treatments for the Senate wing in the 
Capitol building, $238,000; increased warehouse rent and operating 
expenses, $120,000; software customizations and interfaces for the 
work-order system purchased in fiscal year 2004, $100,000; increased 
screening costs for more secure package processing, $100,000; 
replacement of miscellaneous printing/mailing equipment, $90,000; and 
maintenance on software and production equipment, $55,000.
    The mandated allowances and allotments budget request is $165,000 
to furnish Capitol offices. The capital investment budget request is 
$10,810,000, a decrease of $8,322,000 or 43.5 percent.
    Major factors contributing to this budget request are completion of 
the procurement of the Mail Processing Facility/Warehouse, $7,200,000; 
procurement of furnishings and equipment for the Senate side of the 
CVC, $2,500,000; purchase of a Data Storage Server to provide emergency 
archival backup services for Member offices at the ACF, $350,000; 
upgrades to and replacement of outdated mailing equipment, $310,000; 
replacement of an outdated color printer, $200,000; and upgrades to and 
enhancement of the Photo Browser database, $200,000.
    Funding is no longer required for relocation of the Recording 
Studio in conjunction with the CVC Project and completion of Phases I, 
II and III for the Digital Technology Migration Project, upgrades to 
the Senate Chamber Audio System, acquisition of the work-order system, 
acquisition of an ID laser printing system, and acquisition of a mail 
sorter for the Post Office.
    Funding for the Mail Processing Facility/Warehouse, $7,200,000, and 
the Facilities CVC project, $2,500,000, consists of three-year funds.
                       chief information officer

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS              Fiscal Year 2005 vs.
                                                            --------------------------      Fiscal Year 2004
                 Chief Information Officer                                Fiscal Year --------------------------
                                                             Fiscal Year      2005                     Percent
                                                             2004 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................      $16,498      $18,395       $1,897          11.5
    Expenses...............................................      $35,795      $43,074       $7,279          20.3
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $52,293      $61,469       $9,176          17.5
                                                            ====================================================
Mandated Allowances & Allotments...........................      $26,356      $26,063        ($293)         -1.1
Capital Investment.........................................       $8,438       $7,252      ($1,186)        -14.1
Nondiscretionary Items.....................................       $4,694       $4,290        ($404)         -8.6
                                                            ----------------------------------------------------
      TOTAL................................................      $91,781      $99,074       $7,293           7.9
                                                            ====================================================
Staffing...................................................          249          254            5          2.0
----------------------------------------------------------------------------------------------------------------
The Chief Information Officer Division consists of IT Support Services, Technology Development Services,
  Administrative Services, Process Management and Innovation, and Information Technology.

    The general operations and maintenance salaries budget request is 
$18,395,000, an increase of $1,897,000 or 11.5 percent. The salary 
budget increase is due to the addition of five FTEs, an expected 3.9 
percent COLA, and merit funding for fiscal year 2005. IT Support 
Services requires three new FTEs to serve as network engineers to 
accommodate increased workload for emergency preparedness and 
telecommunication systems at alternate locations. Technology 
Development Services requires one FTE to serve as a senior software 
specialist to assist with maintenance and enhancements to the Contract 
Administration System and other administrative systems. Administrative 
Services requires one FTE to draft correspondence, proof documents, and 
provide executive-level assistance to the Technical Writer, the 
Assistant Sergeant at Arms for Security and Emergency Preparedness, the 
Assistant Sergeant at Arms and Chief Information Officer, and Special 
Projects.
    The general operations and maintenance expense budget request is 
$43,074,000, an increase of $7,279,000 or 20.3 percent. Major factors 
contributing to this increase are price adjustments and annual 
escalations in the IT support contract, $2,583,000; increased cost of 
expanded intrusion detection monitoring services and software, 
$1,105,000; implementation of a new real-time news service and 
renegotiation of all other SIS contracts, $860,000; replacement of 
existing enterprise servers, $565,000; replacement of wiring in the 
Capitol, $500,000; increased hardware maintenance and licenses for the 
ACF, $310,000; support agreements for word processing and anti-virus 
software, $202,000; increased professional services for threat 
assessments and disaster recovery improvements, $190,000; increased 
mainframe software maintenance, $181,000; and additional purchases of 
data communication equipment, $172,000.
    The mandated allowances and allotments budget request is 
$26,063,000, a decrease of $293,000 or 1.1 percent. Major factors 
contributing to this budget request are voice and data communications 
for Washington D.C. and state offices, $17,937,000; procurement and 
maintenance of Members' constituent mail systems, $4,255,000; 
procurement and maintenance of office equipment for Washington D.C. and 
state offices, $3,181,000; and acquisition of the Appropriations 
Analysis and Reporting System, $400,000. Reduced purchases of office 
equipment, primarily photocopiers, for Washington D.C. and state 
offices results in the lower budget request for fiscal year 2005. 
Funding for procurement and maintenance of Members' constituent mail 
systems, $4,255,000, consists of five-year funds.
    The capital investment budget request is $7,252,000, a decrease of 
$1,186,000 or 14.1 percent. Major factors contributing to this budget 
request are upgrade of the data network, $2,952,000; initial design and 
equipment purchases for the replacement of the Capitol Hill telephone 
system, $2,800,000; and purchase of data storage servers to provide 
emergency backup for Member offices at the ACF, $325,000. Reduced 
funding needs for the Asset Management Upgrade Project as it moves into 
the maintenance phase, several CMS-related projects, the Public Key 
Infrastructure project, the Wireless PDA project, the Enterprise 
Storage Area Network project, and the Application Server Provider 
project result in the lower budget request for fiscal year 2005.
    The nondiscretionary items budget request is $4,290,000, a decrease 
of $404,000 or 8.6 percent. Major factors contributing to this budget 
request are contract maintenance for the Financial Management 
Information System (FMIS), $2,700,000; enhancements to the Legislative 
Information System (LIS), $1,220,000; and requirements definition for 
replacement of the Senate Payroll System, $370,000.
                        office support services

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS              Fiscal Year 2005 vs.
                                                            --------------------------      Fiscal Year 2004
                  Office Support Services                                 Fiscal Year --------------------------
                                                             Fiscal Year      2005                     Percent
                                                             2004 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $1,895       $1,995         $100           5.3
    Expenses...............................................          $37          $15         ($22)        -59.5
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............       $1,932       $2,010          $78           4.0
                                                            ====================================================
Mandated Allowances & Allotments...........................      $27,298      $28,251         $953           3.5
Capital Investment.........................................           $0           $0           $0           0.0
Nondiscretionary Items.....................................           $0           $0           $0           0.0
                                                            ----------------------------------------------------
      TOTAL................................................      $29,230      $30,261       $1,031           3.5
                                                            ====================================================
Staffing...................................................           28           28            0          0.0
----------------------------------------------------------------------------------------------------------------
The Office Support Services Department consists of the Customer Support, Help and IT Request Processing, State
  Office Liaison, and Director branches.

    The general operations and maintenance salaries budget request is 
$1,995,000, an increase of $100,000 or 5.3 percent. The salary budget 
increase is due to an expected 3.9 percent COLA and merit funding for 
fiscal year 2005.
    The general operations and maintenance expenses budget request is 
$15,000, a decrease of $22,000 or 59.5 percent, resulting from a 
reduction in travel costs and office supplies.
    The mandated allowances and allotments budget request is 
$28,251,000, an increase of $953,000 or 3.5 percent, resulting from 
projected increases in commercial and federal office rents. Funding to 
purchase computer equipment for Members, Committees, Officers, and 
Leadership, $10,315,000, consists of three-year funds.
                             staff offices

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Fiscal Year 2005 vs.
                                                             --------------------------     Fiscal Year 2004
                        Staff Offices                                      Fiscal Year -------------------------
                                                              Fiscal Year      2005                    Percent
                                                              2004 Budget    Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................       $4,692       $5,111         $419          8.9
    Expenses................................................       $1,091       $1,247         $156         14.3
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................       $5,783       $6,358         $575          9.9
                                                             ===================================================
Mandated Allowances & Allotments............................           $0           $0           $0          0.0
Capital Investment..........................................           $0           $0           $0          0.0
Nondiscretionary Items......................................           $0           $0           $0          0.0
                                                             ---------------------------------------------------
      TOTAL.................................................       $5,783       $6,358         $575          9.9
                                                             ===================================================
Staffing....................................................           68           69            1         1.5
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Financial Management, Human Resources, and
  Special Projects.

    The general operations and maintenance salaries budget request is 
$5,111,000, an increase of $419,000 or 8.9 percent. The salary budget 
increase is due to the addition of one FTE to perform compensation and 
classification duties, an expected 3.9 percent COLA, and merit funding 
for fiscal year 2005.
    The general operations and maintenance expenses budget request is 
$1,247,000, an increase of $156,000 or 14.3 percent, primarily from 
increased professional services operating expenses and purchase of 
equipment and software for training programs.

                       EFFECT OF BUDGETARY FREEZE

    Senator Campbell. Thank you, Mr. Pickle. I'm going to ask 
you what I've asked everyone who's testified before this 
committee this year, and that is, how would you manage if we 
had a freeze, and have you prioritized your budget?
    Mr. Pickle. I'd really have to study it but I would say 
offhand the first thing that we would not touch would be 
security and emergency preparedness. Then we would look and 
prioritize, along with the committee's assistance, and work on 
those areas where we could make cuts. But certainly the 
security and emergency preparedness would be untouchable for 
me.

                          STATUS OF WAREHOUSE

    Senator Campbell. Good answer. Now, last year we provided 
$6.3 million for design and land purchase for a new warehouse. 
Your budget request for 2005 includes an additional $7.2 
million for this same project. What's the status of that 
warehouse project now?
    Mr. Pickle. The actual design of the project is about two-
thirds complete. But this year's ricin attack has put us back a 
little bit. And let me explain that. We all agree that a 
warehouse is very important. We're using three very obsolete 
facilities--they're spread out around the metropolitan area--
and for many, many reasons we need to replace those three 
facilities with one. The ricin attack caused us to make some 
very fundamental changes here on the Hill in regard to mail 
processing. As you probably realize, we are now examining all 
mail before it comes on campus. What we are looking to do is, 
we want a partnership with the police department, and we're 
looking for one footprint, or one piece of land, where we can 
have separate facilities--a warehouse, a mail processing center 
and the police department's off-site inspection center. We're 
moving toward it, and the reality is that money that's been 
appropriated is a good start, but I truly believe we're going 
to need significantly more money to do this the right way.
    Senator Campbell. So this $7.2 million won't be enough to 
complete the project? Is that correct?
    Mr. Pickle. No, it will not. It would be substantially more 
than that.
    Senator Campbell. Is it something that could be deferred in 
view of budgetary constraints or is that considered a really 
high priority?
    Mr. Pickle. I think it's a high priority for several 
reasons. We have personnel who are now opening this mail off-
site in very primitive conditions. We're making them safe, they 
are safe.
    Senator Campbell. What is a primitive condition?
    Mr. Pickle. When I say primitive, we are remodeling a 
current warehouse facility; it's a very close-in facility. Now, 
where it's safe, and we have the negative airflow and we have 
all the precautions that we're taking to make them safe, it's 
just not a very efficient operation. There are several 
different processes, which I won't go into here in this open 
session, but there's several different processes and it is a 
very, very labor-intensive process.
    Senator Campbell. Well, the ricin scare was after we 
provided the $6.3 million. Have you had to do design changes 
that you hadn't expected?
    Mr. Pickle. Yes, we have because the ricin scare forced us 
to look at the way we handled mail and it's caused us to do a 
re-engineering of the actual process. But the fundamental 
design changes whereby walls are here and interior walls are 
here, that hasn't changed too significantly.

                            STAFFING LEVELS

    Senator Campbell. I see. Your budget also includes 15 
additional staff over the fiscal year 2004 authorized level. 
This committee understands that there are about 50 vacancies, 
excluding patronage positions. Why do you have so many 
unfulfilled positions and why are you requesting additional 
ones when you haven't filled the other 50?
    Mr. Pickle. Well, that was my question, too. It was my 
question last year and I think it was your question last year. 
And I thought I had a good answer last year and I'm going to 
try to give you a better one this year. What we have found is, 
we have an attrition rate of maybe 3 or 4 percent a year. We 
constantly have people who are leaving for one reason or 
another. We have also been given additional positions by this 
committee over the last several years which we are trying very 
aggressively to fill. So I guess what I'm saying is, as we hire 
one person we may have one vacancy occur. But the other part of 
that, and this is an important part, we have many applicants 
for these positions but we still continue to insist on hiring 
only the best people we can find. And if we don't find the 
right person then we won't fill that person and we will 
readvertise it. But I agree it's imperative that we become 
fully staffed. We are not there yet and I do not think, based 
on what I found out, that we are any different than any other 
organization, private or governmental, whereby you ever reach 
full staffing levels.
    Senator Campbell. So with the 50 vacancies, are our service 
levels degraded any place in particular?
    Mr. Pickle. I think it's across the board but one of the 
areas that we're increasing dramatically this year, and it's 
not reflected in our initial budget request, is we've added 12 
positions to the post office for mail handlers, and this is for 
those personnel who will examine mail.

                          NEW TELEPHONE SYSTEM

    Senator Campbell. Your budget includes $2.8 million for the 
design of a new Capitol Hill telephone system. Why is that 
system needed and when would funding be required for the system 
itself?
    Mr. Pickle. It's my understanding the last major 
telecommunications upgrade took place in the late 80's. What 
this $2.8 million does for us is it gives us about $800,000 to 
do the actual consulting work, the research, the developmental 
work, looking at the architecture we have or will need. The 
other $2 million is a number that we believe will be sufficient 
this year to start buying additional equipment, phone sets. But 
you are right and I think where you're going, the long-term 
cost will be much more but we can't----
    Senator Campbell. Do you have an estimate about that long-
term cost?
    Mr. Pickle. The long-term cost I do not know; we won't know 
until we complete the consulting work. That's part of this 
funding.

                      NEW MAIL HANDLING PROTOCOLS

    Senator Campbell. For whatever you can say in a public 
forum here, what's the status of the new mail handling 
protocols? What's been put in place following the ricin 
incident?
    Mr. Pickle. Let me talk in general terms if I may. Mail 
coming to the Senate continues to be irradiated at a postal 
facility in the Northeast part of this country. It's then 
delivered here to Washington where it goes to a mail examining 
center. The mail is examined in a particular process. It then 
goes to another center where it's actually opened, physically 
opened, and each individual letter is opened and examined for 
any type of substance. It's then quarantined until the tests 
come back negative. It is then delivered to the Senate post 
office, where the post office then delivers it to the 
individual committee or Member's office. This process, 
unfortunately, adds about 24 hours to the current mail delivery 
process. We're looking at postmark to delivery about 8 to 10 
days. Now, having said that, we still have a backlog because, 
as you remember, on February 3, when we had the ricin attack, 
we stopped delivery of mail for approximately 10 days here on 
the Senate side. We're trying to go through all that mail that 
is backed up and clean it out of the system and get it 
delivered. So we still have a backlog of just under 2 weeks of 
mail that hasn't been caught up with.
    Senator Campbell. About 2 weeks?
    Mr. Pickle. About 2 weeks' worth.

                         EFFECTS OF IRRADIATION

    Senator Campbell. One last little question. I don't know if 
this happened to all the other Senators or just me but this is 
my Senate card, and it's all faded and flat. The raised 
numbers, that go through the irradiation machine, they're 
perfectly flat so the electronic tape, this magnetic tape on 
the back still works but the front doesn't. I was told that 
that's what irradiation does to them. Is that just my card or 
do they all come out like that?
    Mr. Pickle. No, if the irradiation level is high enough it 
will, the term that's used, ``cook'' something and that heat 
could, in fact, flatten those out.
    Senator Campbell. Is there anything on the drawing board 
that won't do that to cards?
    Mr. Pickle. Well, I'm surprised that happened. We promised 
about 1 year ago that we would reduce those levels considerably 
so as to prevent that. But we will look into that, certainly.
    Senator Campbell. Okay, I have no further questions. 
Senator Durbin.

                       JUDICIARY COMMITTEE PROBE

    Senator Durbin. Thank you, Mr. Chairman. Mr. Pickle, again 
let me thank you and all those who helped you with the 
investigation on the computer break-in, computer theft. I know 
it was an extraordinary commitment on your part and the people 
who worked with you, with the Capitol Police as well as the 
Secret Service. I thank you for that.
    Mr. Pickle. Thank you.
    Senator Durbin. I'd like to ask you a few follow-up 
questions. You're aware of the fact that when the Senate 
Judiciary Committee finished a number of letters were sent to 
the Attorney General.
    Mr. Pickle. Yes, sir.
    Senator Durbin. Different letters. Some of us signed both.
    Mr. Pickle. Yes.
    Senator Durbin. I think the message that we were sending to 
the Attorney General's Office was our hope that this would be 
investigated in a totally above-board, non-partisan fashion. 
And your investigation was to determine whether or not there 
was any criminal wrongdoing and whether this investigation 
should be pursued. I'd like to ask you a few questions relevant 
to that. I understand on Wednesday, March 17, you delivered a 
copy of the report to the Justice Department. First of all, I 
realize Attorney General Ashcroft has been out as he's 
recuperating from surgery and we all wish him well in that 
regard; Deputy Attorney General Jim Comey is in charge of the 
Department. Did you meet with Mr. Comey with this referral?
    Mr. Pickle. No, we made initial contact with Mr. Comey's 
office and his designee met with us, a Mr. Chris Ray.
    Senator Durbin. The Assistant Attorney for the Criminal 
Division?
    Mr. Pickle. Criminal, yes.
    Senator Durbin. Did anyone, Mr. Ray or anyone at the 
Justice Department, tell you what they intended to do with the 
report?
    Mr. Pickle. I believe the quote was that we intend to take 
a very thorough, professional review of this and we will 
contact the committee.
    Senator Durbin. Did they give you any timeframe within 
which they would respond to the referral?
    Mr. Pickle. No, not at all.
    Senator Durbin. Did you ask them for a response?
    Mr. Pickle. No, we did not, sir.
    Senator Durbin. Was Mr. William Ascella--I hope I'm 
pronouncing it correctly--the Department's Assistant Attorney 
General for Legislative Affairs, at the meeting as well?
    Mr. Pickle. Yes he was.
    Senator Durbin. Did you raise with him the outstanding 
issue you had with the Department of Justice Legislative 
Affairs Office which you referred to in your report footnote 
seven, and I quote, ``As to the time of this report is being 
completed, the Department of Justice still has under 
consideration investigators' request to interview the employee 
who Mr. Blank reported having contacts with.''
    Mr. Pickle. Yes, we raised that issue.
    Senator Durbin. If so, what did Mr. Ascella--I hope that's 
correct--reply?
    Mr. Pickle. I along with my counsel, Lynne Halbrooks, who 
is with me, raised that issue along with several other issues 
we thought were important but there was no comment to those.
    Senator Durbin. Based on your investigation do you feel 
that there is any danger if the investigation, complete 
investigation of this matter is not finished in a timely 
fashion?
    Mr. Pickle. I'm going to look at it as a criminal 
investigator would. I have no concerns that any evidence will 
be destroyed but of course any investigation you get into you 
want to do it in a very timely manner; memories are fresh, 
documents cannot be destroyed that may not be in possession, 
and people can still be located. So I would hope that it would 
be investigated soon if it's going to be investigated at all.
    Senator Durbin. Thank you very much, I agree with that. And 
I might also add for the record that some groups continue to 
buy newspaper advertising that attacks the Senators who had 
their files broken into instead of going after those who were 
guilty of the theft.

                      GAO COMPUTER SECURITY REVIEW

    Let me ask you also, during your investigation you came to 
realize that all of the Senate committees' systems were set up 
in essentially similar ways, with similar vulnerabilities in 
some places as those exploited in the Senate Judiciary 
Committee. On February 20, 2004, Senators Hatch and Leahy sent 
a joint letter to David Walker, Comptroller General, asking the 
GAO to perform a comprehensive control study to assess the 
sufficiency of our committee's computer security and to 
recommend policies and practices for the committee to adopt. 
Are you working with the GAO on this matter?
    Mr. Pickle. We have had only a conversation over the phone 
with them. They're starting to make inquiries now and they're 
starting to come in and begin their review but I don't know at 
what stage that is.
    Senator Durbin. Do you plan on working with the GAO in this 
study?
    Mr. Pickle. We're going to be helpful but I want to direct 
them to the committee and work with staff directors there. And 
I have to be cautious about this; I want to make sure that 
whatever we do does not jeopardize the evidence that we still 
have in custody, the servers, the hard drives and the other 
backup tapes that we seized. So it may be the GAO may take a 
step back and wait for this to be complete before they come in.
    Senator Durbin. So it's possible the GAO analysis and 
recommendations about how to make all the computers safe on 
Capitol Hill may be waiting Department of Justice action at 
your investigation.
    Mr. Pickle. It's possible but I think they would have to 
look and actually meet with the staff directors and meet with 
the systems administrators. And once they get a feel of the 
architecture and what currently exists they can probably then 
make that decision but I wouldn't want them to be premature and 
just jump in without having a good view of that land in front 
of them.
    Senator Durbin. Well, I certainly hope Department of 
Justice deals with this in a timely fashion to preserve 
evidence and to make certain that we have a good, complete 
investigation. You took it as far as you could, I understand 
that, did a fine job with the Secret Service but only 
Department of Justice can finish this investigation. Doing it 
in a timely fashion will finally bring us to a conclusion in 
that regard one way or the other and also set the stage for 
looking at other computer facilities on the Hill to make 
certain that they're not vulnerable to the same type of theft.

                      SENATE COMPUTING TECHNOLOGY

    At one of the earlier hearings I expressed concern about 
the technology----
    Mr. Pickle. Yes.
    Senator Durbin [continuing]. Available to members of the 
United States Senate. Since I share a home with two Members of 
the U.S. House of Representatives I often hear about the new 
bells and whistles that are being added to their computer 
system.
    Mr. Pickle. Yes.
    Senator Durbin. And I said outloud, and was quoted in the 
press, that I wanted to find out why the Senate was always 
behind the House and the House and Senate were always behind 
the rest of the world when it came to computer technology.
    Mr. Pickle. Yes.
    Senator Durbin. I've learned, once again, to be careful 
what you wish for because Mr. Greg Hanson of your office came 
by and absolutely snowed me in a matter of hours, an hour or 
so, briefing my staff about everything that he's done in a 
short period of time and plans to do to make sure that the 
Senate technology is the very best within the limits of our 
budget. My office receives about 50,000 e-mails every week, 
50,000 a week. And we have to find a way to sort through these 
e-mails by source and subject and generate some replies that 
are meaningful to the people who contacted us and decide which 
ones we're not going to reply to, for instance, those from 
outside my State. I'm wondering, the House, I understand, has a 
system that's being designed to generate such an automatic 
reply and sorting. Do you know if similar plans are in place 
for the Senate?
    Mr. Pickle. I was unaware of this sorting system or 
software that they have. I have talked to Mr. Hanson since his 
meeting with you and we are certainly looking at it. I think it 
can be supplied on an individual basis but we're looking at 
that now to see if that's not something we should offer 
everyone.
    Senator Durbin. One of the nightmares that Senator Campbell 
and I face is to go back to our home States and have someone 
say, I sent a letter to your office and I never got a reply. 
Or, I sent an e-mail and I never heard from you.
    Mr. Pickle. Yes.
    Senator Durbin. It's one of the most depressing things that 
can happen to an elected official. Now we have a mail system 
that is being delayed for security reasons, obviously necessary 
security reasons, and an e-mail system that is being 
overwhelmed.
    Mr. Pickle. Sure.
    Senator Durbin. And so I live and dread that going back to 
my State I'm going to run into that kind of a situation. So I 
certainly encourage you and Mr. Hanson to see if there's a 
timely way to deal with that issue.
    Mr. Pickle. We will.

                  SECURITY FOR CAPITOL VISITOR CENTER

    Senator Durbin. May I ask you one last question and that 
is, can you tell me what conversations you've been involved in, 
if any, relative to security at the new Capitol Visitor Center?
    Mr. Pickle. The conversations relative to security have 
been few and far between as it relates to the CVC. In other 
words, we're at a stage now where most of the discussions have 
to do with operational aspects of the center. Initially we did 
have a number of conversations; I know the police department 
participates in these discussions actively with the folks 
involved in coordinating this effort. Obviously security is 
paramount there; it's one of the key reasons why we have that 
center. But I believe from what I heard at a meeting last week 
that those needs are being addressed and we want to make sure 
they are addressed.
    Senator Durbin. Thank you. Thank you, Mr. Pickle, Mr. 
Chairman.
    Senator Campbell. Senator when you said 50,000 e-mails a 
week, I haven't been here as long as many of my colleagues but 
I tell you, when I first got in office just 22 years ago there 
were no e-mails. There were no cells phones, there were no 
Blackberries and those days are gone forever. I often think 
when I see some of my senior colleagues like Senator Stevens 
who's with us today, the changes he's seen in technology, what 
there was or wasn't when he got here but I guess I better not 
go there.
    I'll yield to Senator Stevens now for any questions.
    Senator Stevens. Pocahontas had just left if that tells you 
anything.
    Senator Campbell. That's been awhile.

                      LIBRARY OF CONGRESS SECURITY

    Senator Stevens. I really don't have any questions but I 
came by, Mr. Pickle, because I think Senator Bennett has 
pursued the concept of a police force for the Library of 
Congress. I happen to be Chairman of the Joint Committee on the 
Library of Congress. We still have some real misunderstandings 
about the concept of integrating the police force, Capitol 
Police Force, with the police, staff of the Library of 
Congress. And I've got a bunch of questions that I was going to 
ask but I think what I'm going to do instead is ask if you and 
Dr. Billington would meet us, members of the subcommittee, 
whoever wants to come and see if we can't work this out. 
Security of the Capitol comes first but there is, really, a 
history of the police force over there that they've had 
different duties in the past and I think we have to work some 
sort of a transition to meet their needs at the same time with 
the new complex that we've got being built in terms of the new 
facilities, the visitor facilities, and the connections that 
will lead to the Library there. I do believe we have to 
integrate the police force of Capitol Hill. I would like to 
make sure that the transition is done in a way that doesn't 
upset the current needs of the Library while at the same time 
meeting the transitional needs of the Capitol Police. I think 
that's going to be worked out in a conference with all 
concerned if you're willing to do that. I know, Mr. Chairman, 
you've been involved in that and of course it was initially 
started by Senator Bennett. We watched it but I do get comments 
from the librarian and from the Library of Congress personnel 
and it's just better if we work it out on a consensus basis and 
get some specifics about the transition and how we achieve the 
goals both of the Capitol Police and the Library. So I hope 
you'd be willing to do that sometime after Easter, just sit 
down and work it out.
    Mr. Pickle. Be happy to, sir. Thank you.
    Senator Stevens. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. Thank you, Bill. There may be additional 
questions in writing from other members who are not here. Thank 
you for your appearance.
    Mr. Pickle. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. It is our understanding that the Sergeant at Arms offers 
cellular phone/BlackBerry combination devices from both Cingular and 
Verizon; and that only the devices provided by Cingular have the 
capability to receive the emergency alerts from your office and the 
Capitol Police. Given that you offer the Verizon BlackBerry and that 
most Senate cellular accounts are on the Verizon network, what is your 
plan to enable the Verizon BlackBerrys to receive the emergency alerts?
    Answer. Although all of the major wireless carriers offer their own 
version of RIM's BlackBerry, the SAA only fully supports the original 
BlackBerry 950 and 957 devices which use the Cingular nationwide 
Mobitex ``data only'' network. This is because these are the only 
devices that provide the alert capabilities used by the Capitol Police 
and the Senate Cloakrooms.
    We are aggressively exploring a device- and carrier-agnostic 
solution that offers maximum flexibility and reduces our dependencies 
as they relate to device manufacturers and wireless network providers. 
In parallel, we have provided all carriers offering the converged 
BlackBerry devices our specific console-to-device and device-to-device 
broadcast messaging requirements that we rely upon for USCP Emergency 
Alerts and Cloakroom Vote Alerts. We have asked them to develop similar 
if not more capable solutions to meet our emergency messaging needs and 
hope that all carriers will soon be able to meet our requirements.
    We are currently testing a beta version of software that runs on 
Cingular's converged cellular phone/BlackBerry, model 7280, and 
provides the alert capabilities we currently have on the RIM BlackBerry 
models 950 and 957. We expect the final version of the software to be 
released in the April-June 2004 timeframe, at which time it will become 
the first fully supported converged cellular phone/BlackBerry device 
that receives our alerts and works with the Senate's e-mail system.
    We are also expecting to receive a beta version of the device- and 
carrier-agnostic solution by the end of May 2004. Since we have not 
seen the solution yet, we cannot say how long it will take to bring it 
into production if it meets our needs, but we are hopeful that it can 
be done by the end of the summer 2004.
    We also expect that the technology will continue toward the 
convergence of multiple functions into a single device. Although this 
is a benefit to many, you should consider the consequences of having 
all of your communications capabilities on one device that relies on a 
single communications path for all of your normal and emergency 
communications.
    Finally, to clarify an assertion in the question, we assist Members 
and their staff in ordering cellular phones or cellular phone and 
BlackBerry combination devices from whatever carrier they believe best 
meets their needs. In addition to Cingular and Verizon, we also order 
devices and service from AT&T and other cellular carriers.
    Question. In the wake of the recent ricin incident, is the Senate 
considering scanning and digitizing mail like the House of 
Representatives is doing?
    Answer. As you know, the ricin incident caused us to change our 
mail inspection, sorting, and delivery processes. Now, prior to 
delivery to Senate offices, we open, inspect and test, at offsite 
locations, all mail addressed to the Senate. These significant changes 
have made us less vulnerable to such threats in the future.
    In addition to the changes we've already made, we are investigating 
the possibility of digitizing mail and the ramifications on Senate 
operations. The House has a pilot program which has met with some 
limited success, based on low volumes of mail. As part of our always 
ongoing effort to leverage technology to improve efficiency and 
effectiveness at the Senate, we have implemented sophisticated document 
scanning and archiving capability in our Printing Graphics & Direct 
Mail (PG&DM) organization. We are currently evaluating the House 
initiative along with looking at ways to utilize the technology we have 
to address the problem of digitizing and distributing Senate mail.
    Factors to be considered:
  --The extremely high volume of Senate mail
  --The impact irradiation has on document imaging legibility
  --The sensitive nature of some of the Senate mail
  --The importance, in some cases, of preserving and delivering paper 
        artifacts
  --The delay that scanning and digitizing might introduce into our 
        mail processes--it takes about 3.5 minutes per letter and we 
        average 32,000 first class letters every day
  --Delivery modes and media
  --The potential effect of transmitting digitized mail files across 
        our network infrastructure
  --The additional cost in terms of personnel and infrastructure 
        upgrades to accommodate digitizing mail
  --Procedures, processes, and locations for storing paper mail 
        artifacts after digitization
  --Privacy and security issues.
    As we conduct this analysis, we will continue to explore new ways 
and new technologies to make Senate mail delivery more efficient, 
effective and secure.
    Question. Please give us an idea of the volume of message traffic 
that passes through our networks and the degree to which our website is 
visited.
A Typical Monday
    Web Services Statistics (Webster, Senate.gov, LIS & Senate 
Newswire)--
  --Total unique visits: 99,420
  --Total data sent to the public: 26,074,442,795 bytes
    Electronic Mail--
  --Inbound: 281,795 messages
  --Outbound: 163,609 messages
  --TOTAL: 445,404 messages
    Daily Viruses Report--
  --Mail Gateway viruses found: 39,795
  --Server viruses found: 3,664
    Question. Please give us an idea of the number of support calls 
your information systems help desk and your telecommunications services 
organizations process.
Computer Support:
    Computer trouble calls resolved annually--Approx. 18,000
    Orders and installations annually--Approx. 4,000
    Helpdesk has met or exceeded service level agreement (SLA) every 
month since May 2003 (95 percent work accomplished on time and 95 
percent of customer satisfaction ratings either ``very satisfactory'' 
or ``excellent''
Telecommunications Support (fiscal year 2003)
    Capitol Exchange calls answered--1,805,818
    Telecomm helpdesk (programming) telephones programmed--10,213
    Telecomm Coordinators--20,189 task orders accomplished
    Info Exchange--2,520,168 pages processed
    Question. Why is parking around the Capitol complex at such a 
premium?
    Answer. Nearly 400 parking spaces have been lost since the CVC 
project began. During that same period of time, Members, Offices, and 
Committees have issued or requested 445 unreserved parking permits, and 
the USCP has petitioned for another 400 unreserved permits to 
accommodate new recruits. Currently, over 2,000 unreserved permits 
exist for 1,042 unreserved parking spaces.
    Historically, Members, Offices, and Committees have been allowed to 
request unreserved parking permits as needed. Even when the CVC is 
completed, there will be less space for parking; perhaps now is a good 
time to limit the number of unreserved parking permits that each 
Member, Office, and Committee can issue as has been done with the AOC 
and the USCP.
    The USCP has exhausted its allocation and is looking for additional 
parking. A recent contract with the Fairchild Building will yield at 
least 100 spaces to the USCP, and parking lots adjacent to the 
Fairchild Building have been noted by the AOC.
    The USCP and the Parking Office are collaborating to step up 
enforcement. The AOC can help recover approximately 150 slots by 
seeking work sites off of Senate parking lots. The Parking Office is 
aggressively seeking ways to squeeze more spaces from existing lots and 
streets, including ``short stacking'' lots when demand for parking is 
high. Increased use of Metro Subsidy will help alleviate parking 
pressures as well.
    There has been discussion of building a garage on the Senate 
campus. A garage would certainly alleviate many problems and pressures 
associated with parking.
    Question. What is being done to alleviate the lengthy lines to 
enter Senate buildings?
    Answer. Several options are under evaluation by the U.S. Capitol 
Police. Those options include:
  --Designating certain entrances as ``Staff Only'' entrances between 
        the hours of 7:00 a.m. to 10:00 a.m.
  --Directing visitors to locations that do not impede staff entrances.
  --Providing additional officers at the Hart Building C Street 
        entrance to assist and conduct hand searches of staff bags.
  --Exploring additional X-ray machines at locations that can support 
        them.
    We plan to meet with the Committee on Rules and Administration to 
discuss these options prior to any implementation.
                          CAPITOL POLICE BOARD

STATEMENT OF W. WILSON LIVINGOOD, CHAIRMAN, CAPITOL 
            POLICE BOARD
ACCOMPANIED BY:
        HON. WILLIAM H. PICKLE, SENATE SERGEANT AT ARMS AND BOARD 
            MEMBER
        HON. ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL
        TERRANCE W. GAINER, CHIEF, U.S. CAPITOL POLICE

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. We now move to panel two, the House 
Sergeant at Arms, Bill Livingood, accompanied by board members 
Bill Pickle and Architect of the Capitol Alan Hantman. And 
Chief of Police Terrance Gainer. And as with the first panel if 
you'd like to abbreviate your comments that will be fine since 
we've already read your written statement. And I understand Mr. 
Alan Hantman is also here, a member of the Police Force, too. 
Go ahead and start, Mr. Livingood.

                       LOC POLICE MERGER MEETING

    Senator Stevens. Mr. Chairman, could I just interrupt and 
ask if I may ask questions of these gentlemen? You heard my 
question to Mr. Pickle, are you willing to have such a meeting, 
Chief Gainer?
    Chief Gainer. Yes, Senator.
    Senator Stevens. Does that meet with your approval, Mr. 
Livingood?
    Mr. Livingood. Yes sir.
    Senator Stevens. Thank you very much.

                     STATEMENT OF WILSON LIVINGOOD

    Mr. Livingood. Mr. Chairman and Senator Durbin, I'm honored 
to appear before you today to discuss the United States Capitol 
Police fiscal year 2005 budget request. The Capitol Board 
members, Mr. Pickle and Mr. Hantman, are here with me and Chief 
Gainer is accompanying us today.
    With your permission I am just going to provide you with a 
short summary of my budget request remarks and provide the 
balance in my testimony for the record.
    Senator Campbell. That's fine.
    Mr. Livingood. World events and the continuing threat to 
our security here at home have driven an increased Capitol 
complex security. It is a very difficult job to maintain a 
legislative complex open to the public while at the same time 
ensuring the safety of the Congress, staff and visitors against 
increased dangers. The news media provides daily testimony of 
the terrors and political agendas of extremist groups. In 
today's environment the Capitol Police walk a very fine line 
and have a challenging mission--maintaining the tradition of 
open Government that we revere and demand while providing the 
maximum degree of safety and security. To accomplish this 
mission the Chief and the Department have developed an 
excellent strategic plan, one designed to meet not only the 
current needs but the future needs of the Congress.
    The budget before you today is a funding requirement based 
on this strategic plan. We ask your support and approval in 
carrying out this strategic plan which strengthens our 
vigilance, resilience by augmenting abilities in assessing 
threats, preventing unlawful acts, responding to incidents and 
supporting the general operations of the Capitol Police.

                           PREPARED STATEMENT

    In closing, I would like to thank the Committee for the 
ongoing support of the men and women of the Capitol Police and 
their continued and diligent efforts to develop a better 
security plan and operations, response forces and law 
enforcement capabilities. I'd also like to extend a personal 
word of thanks to the men and women of the Capitol Police and 
the entire Board joins me in this, in that every day they 
provide the highest possible degree of professionalism, 
commitment and service to the United States Congress. And I am 
proud to represent them today as is the rest of the Board 
before you. Thank you.
    [The statement follows:]
                 Prepared Statement of Wilson Livingood
    Mr. Chairman and Members of the Subcommittee, I am honored to 
appear before you today to discuss the United States Capitol Police 
fiscal year 2005 budget request. Capitol Police Board members, William 
Pickle, Senate Sergeant at Arms, Alan Hantman, Architect of the 
Capitol, and Terrance Gainer, Chief of Police accompany me today.
    Mr. Chairman, I would first like to thank the Committee for their 
ongoing support of the men and women of the Capitol Police and their 
continued and diligent efforts to develop better security operations, 
response forces, and law enforcement capabilities.
    World events and security threats here at home have driven 
increased Capitol complex security. It is a difficult job to maintain a 
legislative complex open to the public, while at the same time ensuring 
the safety of the Congress, staff, and visitors against increased 
dangers. The news media provides daily testimony of the terrors and 
political agendas of extremist groups. In today's environment, the 
Capitol Police walk a fine line--maintaining the tradition of open 
government that we revere and demand, while providing the maximum 
degree of safety and security. At times in the past year, the national 
threat level has been elevated in response to the potential for 
domestic terrorist activity. We have mirrored this response with our 
own Capitol-specific threat levels. Indeed, the Capitol--much like the 
White House--is both a working building and a monument, and therefore 
currently remains at an elevated threat level. It is clear from our 
history that the Capitol is a tempting target for terrorists and those 
who seek to disrupt the legislative process or strike a symbolic blow 
against the United States. We also know that terrorists choose targets 
based on certain criteria, such as symbolism, mass casualties, and high 
likelihood of success. It is our responsibility to take every prudent 
precaution that we can to remove the terrorists' likelihood of success 
with regard to the Capitol, the Senate and House office buildings, and 
for those who work and visit within the Capitol complex.
    The Chief and his staff have been very diligent this past year in 
appraising the effectiveness of police operations. They have developed 
an excellent strategic plan that is designed to meet the current and 
future needs of Congress. The budget before you today is the funding 
requirement based on this Strategic Plan. We ask your support and 
approval in carrying out this plan, which strengthens our vigilance and 
resilience by augmenting abilities in assessing threats, providing 
effective security, preventing unlawful acts, responding to incidents, 
and supporting the general operations of the Capitol Police. We cannot 
undo an incident like a suicide or truck bombing as seen abroad, and 
should act responsibly to prevent these incidents. Related to the issue 
of sufficient force strength and sufficient police facilities, recent 
Capitol Police growth and requested staffing levels have and will 
strain facility requirements; we ask for your continued support in 
solving these issues.
    In prior appropriations, this Committee funded, and the Capitol 
Police are putting into action, a Hazardous Materials Response Team. 
Most recently, this forethought and action paid off. I would like to 
publicly commend the Chief and his dedicated staff for a stellar job in 
handling the ricin incident. The Capitol Police trained, prepared, and 
were ready for this type of incident. Being prepared requires gathering 
intelligence, training, and adapting operations commensurate with 
needs. For example, the discovery of ricin in Senate mail has prompted 
a complete review of all mail protocols for both the Senate and the 
House. We are constantly reviewing and enhancing existing emergency 
plans, protocols and procedures. Regarding preparations, there is a 
renewed focus on training. In the past year, Congressional staffs have 
been introduced to the protocols relating to evacuation and shelter in 
place procedures, as well continued practice with the escape hoods.
    The Capitol Police are to be applauded for their efforts since we 
last met. Preparing for incidents and preempting threats has been a 
crucial focus under the Chief's leadership, and so the Department is 
constantly assessing its abilities and strengthening its skills. Recent 
Capitol Police accomplishments include: an in depth analysis of 
staffing, the development of a new strategic plan, core infrastructure 
systems replacement, an increase in employee training, better morale, 
and continued implementation of hazardous materials response 
capabilities. The Department's infrastructure is being shored up with 
an inside-out-approach that is challenging the whole of the 
organization to perform at a higher level.
    This transformation effort, which includes additional operational 
and administrative staffing resources and new security and information 
systems, is a thoughtful multi-year undertaking extending into the 2005 
fiscal year and relies on the budget request before you today. This 
budget ties the planning and transformational efforts of the Department 
to the requested means necessary to support this effort. Every line 
item in this budget is purpose-built to support one of the four major 
goals of the Department and the supporting strategic objectives. This 
is a tightly engineered budget, formulated with the best efforts of 
many highly trained men and women dedicated to the mission of the 
Department to protect Congress, its Members, staff, visitors and, in 
whole, the Legislative process from harm or interruption.
    Mr. Chairman, on behalf of the Capitol Police Board, I would like 
to thank you for this opportunity to appear before you today, and for 
your consideration of this budget request. Every day, the men and women 
of the U.S. Capitol Police face a huge challenge: to provide the 
maximum degree of safety and security while allowing the Capitol, 
Senate and House Office Buildings to remain open and accessible to the 
general public. And every day they succeed. I am honored to be 
associated with the men and women of the U.S. Capitol Police.
    Chief Gainer will address more specific operations and plans for 
the coming fiscal year.

    Senator Campbell. Thank you, Mr. Livingood. Chief Gainer.

                 STATEMENT OF CHIEF TERRANCE W. GAINER

    Chief Gainer. Thank you Senator, and I too will submit my 
testimony for the record and summarize it.
    I'd like to put a little context to our budget request and 
reiterate what the chairman just mentioned, that the fight 
against terrorism led by the United States and its coalition 
partners continues. We know through speeches, tapes and other 
terrorist propaganda the leadership of Al Queda has stated 
their intent to strike another blow on America. This rhetoric 
and their actions has given some insight into potential 
targets. The United States Capitol and all it stands for is 
clearly one of those targets.
    It is human nature to be optimistic but recent events have 
reinforced what intelligence has discovered over the years, 
that terrorist organizations have the means and methods to 
strike whenever and wherever. Intelligence and security experts 
both inside and outside government have stated that the United 
States Capitol remains a primary target. It is not really a 
question of if but a question of when we could expect a strike. 
What is known is that vehicle bombs, suicide bombers and 
improvised explosive devices are the weapons of choice and easy 
to execute.
    We have not limited our preventive measures to these 
traditional threats. As you know, 9/11 introduced a new method 
and means of carrying out an attack, since then we have 
increased our intelligence capability and the Department has 
personnel detailed to other Federal agencies to further 
facilitate that capability. We have people at Homeland 
Security, FBI, State Department, CIA, as well as some local 
departments. We have undertaken a number of projects to 
continue emergency outreach and notification. While many of you 
know of the emergency annunciators you may not know that we 
have over 3,600 of these units deployed through the entire 
Capitol system. In addition, we have developed a project to 
deploy a complex-wide public address system. This project will 
provide the critical means to send out emergency notifications 
to all public spaces, evacuation and assembly areas, parking 
garages and other areas. We expect this project to be completed 
in December of this year; we're on target to reach that 
objective.
    We are, however, vulnerable around this Capitol. As the 
committee is aware, there have been a number of studies done 
over the years; they have all commented on our openness to the 
largest vulnerability, in particular there have been five 
studies by various security experts that have recommended the 
installation of a fence around the Capitol square. Even a 
recent staffing analysis conducted by the General Accounting 
Office in February 2004, included the installation of a fence, 
as a recommended option. This latest recommendation goes a step 
further and recommends a fence around all the office buildings, 
and I quote from that report. ``An aesthetically pleasing 
perimeter security fence could be constructed around the 
Capitol Building grounds. This would markedly increase security 
within and around the Capitol Building, Members, staff and 
visitors.'' The recommendation of a fence has been discussed 
for many years and was originally proposed in a 1985 document 
called the ``Whip's Plan''. While the decision on the fence 
will not be decided here, the impact from the lack of it is 
felt every day and is shown in the numbers of required 
personnel in our budget. We are constantly required to increase 
the use of manpower and technology to keep this legislative 
branch safe and secure while ensuring continuous operations 
during these evolving threats, as well as maintaining an open 
and free Capitol.
    It is the men and women of this Department who selflessly 
provide the first line of defense to protect this institution. 
Most Federal agencies have layers of defense to prevent 
attacks. The success of a terrorist attack on one of our 
buildings, once initiated, will be deterred by that officer 
standing at the entrance of the building. While the use of 
technology aids in detection and deterrence, it was a police 
officer that prevented Russell Weston from continuing through 
the Capitol. And it was police officers who first responded to 
both the anthrax and ricin.
    Accordingly, our budget request of $291.6 million 
represents a reasonable, necessary and balanced plan to 
directly assess the threats of today and proposes the use of 
resources to ensure the protection of the Congress, its 
Members, staff and visitors in the process. The implementation 
of our strategic plan, which this budget supports, is a prudent 
plan to help ensure the safety of our Capitol. The budget 
request represents a 33 percent increase over the fiscal year 
2004 net appropriation. It's a lot. However, when the $12.7 
million from the fiscal year 2003 supplemental, which as 
directed by the committees was used to support fiscal year 2004 
operational needs is taken into consideration, the requested 
increase is $59.1 million or 25 percent and is still 
significant.
    This increase provides $12.7 million for 6 months' funding 
for 213 sworn and 155 civilian additional positions. In the 
personnel area $5.5 million is requested for a sworn pay scale 
adjustment; $3.3 million for a 6-month annualization of the 75 
civilian positions provided in fiscal year 2004 and $12.2 
million for the cost of living adjustments, rate increases and 
health benefits.
    Other significant increases include $3.1 million for the 
Inauguration; $8.1 million for the replacement of escape hoods; 
$3 million for a new accounting system; $2.7 million for 
security at the new legislative branch alternate computer 
facility and $1.8 million for wireless data interoperability 
infrastructure. But I need to point out this is not just a wish 
list of our managers. We have a zero-base budget process. 
Originally, the general expense requests totaled over $100 
million, which were reduced by some 40 percent to the $59.9 
million included in this budget.
    As with any organization we realize there is always room 
for improvement. We will continue to strive to strengthen and 
augment our prevention and response capabilities, to review the 
current environment, to improve the coordination with our 
congressional community, to emphasize training of all our 
employees and to have substantially filled all authorized 
civilian positions by the end of this fiscal year, and to make 
progress with our business systems' modernizations.
    And finally, although facilities are the responsibilities 
of the Architect of the Capitol they certainly are critical to 
our operations. In February 2004 the Architect of the Capitol 
leased approximately 100,000 square feet of space at 499 South 
Capitol Street SE, the Fairchild Building, as an interim space 
solution. This facility will go a long way to alleviate our 
space constraints at our headquarters building when we move in 
there.
    As the Chief of the Capitol Police I take great pride in 
the many years of service that this Department has provided to 
the Congress. Building on that legacy, we at the Capitol Police 
look forward to continuing to safeguard the Congress, its staff 
and visitors. And we look forward to working with the Congress 
and this committee to see what we can do with our budget.

                           PREPARED STATEMENT

    And finally, Senator, I might say on behalf of the men and 
women, as we wind toward the conclusion of your particular 
career, thank you for your support of the men and women of the 
Capitol Police. Your kindness to our officers and the people 
who support them is well recognized. Your help in getting our 
Harleys is lauded by all those riders and now the horses that 
recently visited our Capitol and will be out galloping come 
this May, we definitely owe a debt of gratitude to you. Thank 
you.
    [The statement follows:]
                Prepared Statement of Terrance W. Gainer
    Mr. Chairman and Members of the Subcommittee, I am honored to 
appear before you today to discuss the United States Capitol Police 
fiscal year 2005 budget request.
    I would like to thank the Committee for their continued support of 
the Capitol Police and our efforts to provide world-class security and 
law enforcement services to the Congress. As the foremost symbol of 
American representative democracy, the Congress, its Members, 
employees, visitors, as well as public buildings and operations are a 
highly visible target for individuals and organizations intent on 
causing harm to the United States and disrupting the legislative 
operations of our government. We are the first line of defense and we 
take our job very seriously.
    Expansion, as well as consistently fine tuning how we currently 
operate, is imperative to ensuring that we continue to provide the 
safest and most secure environment to enable Congress to fulfill its 
Constitutional responsibilities, and to protect those who work and 
visit the Capitol complex. We face a daunting task, and a high 
workload.
    During fiscal year 2003, the Uniformed Services Bureau greeted and 
screened over 7.4 million staff and visitors, the K-9 unit conducted 
more than 40,000 explosive detection sweeps, the offsite delivery 
center conducted 19,081 vehicle and cargo inspections, the Construction 
Security Division conducted 85,870 vehicle inspections in calendar year 
2003, we made 553 misdemeanor and felony arrests and 982 traffic 
arrests, 87 weapons and contraband items were confiscated, and the 
Hazardous Devices section conducted over 2,000 bomb searches and 
responded to over 430 suspicious package calls. Our specialized units 
also responded to the recent Ricin incident. The Department used our 
Hazardous Incident Response Division teams and our recently specially 
trained officers for the initial response. This incident quickly grew 
to include numerous federal and military agencies involved in the 
resolution. The Department's incident management team seamlessly joined 
our federal partners to successfully manage this biological threat. Our 
capabilities in this area have greatly improved since the 2001 Anthrax 
attack.
    The fight against terrorism led by the United States and its 
coalition partners continues. Recent events in Europe, Russia, 
Afghanistan, Iraq, Israel and specifically the Madrid bombings 
illustrate that the global war on terrorism has not diminished. As the 
leader of this endeavor, the United States is the number one target of 
al-Qa'ida, its surrogates, and other Islamic radicals. In speeches, 
tapes and other terrorist propaganda, the leadership of al-Qa'ida has 
stated their intent to strike another blow on our homeland. This 
rhetoric and their actions, have given some insight into potential 
targets. The United States Capitol and all it stands for, is clearly 
one of those targets.
    It is human nature to be optimistic, but recent events have 
reinforced what intelligence information has told us for years, that 
terrorist organizations have the means and the methods to strike 
whenever and wherever. Intelligence and Security experts both inside 
and outside government have stated the U.S. Capitol remains a primary 
target. It is really not a question of if, but when the United States 
Capitol Police will again be called to respond to another terrorist 
attack. What is known is that vehicle bombs, homicide bombers, and 
improvised explosive devices are the weapons of choice and easy to 
execute. The Department continues to take unprecedented steps to 
counter these threats and is considered a leader in many areas among 
federal and private institutions.
    For example, we recently developed and distributed a comprehensive 
procedure for officers responding to a homicide bomber. One of the 
first in the nation to address this threat, we have developed with 
support from this Committee, a design for a comprehensive Truck 
Interdiction Program. This project will use the latest, leading edge 
technology to detect and interdict a threat before it reaches our 
doorstep. We have deployed the latest in explosive detection equipment 
at all our buildings and have increased the number of our K-9 explosive 
teams.
    But we have not limited our preventive measures to just traditional 
threats. As you well know, 9/11 introduced a new method and means of 
carrying out an attack. We have increased out Intelligence capability 
and the Department has personnel detailed to other federal agencies to 
further enhance that capability. The Capitol Police has personnel 
working as liaisons at major operations centers and have partnerships 
with the Department of Homeland Security, FBI, and others. Because of 
all these enhancements, the Capitol Police is able to respond to 
potential threats in a real-time manner.
    But we have not solely focused our notification efforts internally. 
We have taken a number of steps to provide information to the 
Congressional Community. The recent Ricin incident illustrated the 
benefit of having a fully functioning Capitol Police Command Center. 
The newly upgraded Center provided operational workspace for the 
Capitol Police Incident Command, as well as response elements from the 
Executive Branch, the Senate, the House, the Architect of the Capitol, 
the Sergeant at Arms Offices, the Office of the Attending Physician and 
many others. Those that remember our capabilities after 9/11 and the 
Anthrax attack saw a drastic change in our capabilities, which were 
fully used during this incident.
    We have undertaken a number of projects to continue emergency 
outreach and notification. While many of you now know of the emergency 
annunciators, you may not know that there are over 3,600 of these units 
deployed and the entire system is maintained and operated by the United 
States Capitol Police. In addition, we developed a project to deploy a 
complex wide Public Address System. This project will provide the 
critical means to send out emergency notifications to all public 
spaces, evacuation assembly areas, parking garages and other areas. We 
expect that this project will be completed by December 2004. We are on 
target to meet this objective.
    As the Committee is aware, there have been a number of studies done 
over the years. They all have all commented that our openness is the 
largest vulnerability. In particular, there have been five studies by 
various security experts that have recommended the installation of a 
fence around Capitol Square. Even a recent staffing analysis, conducted 
by the General Accounting Office in February 2004 included the 
recommendation of the installation of a fence. This latest 
recommendation goes a step further and recommends a fence around the 
office buildings as well. And I quote ``An aesthetically pleasing 
perimeter security fence could be constructed around the Capitol 
Building grounds. This would markedly increase security within and 
around the Capitol Building Members, staff, and visitors.''
    The recommendation of the fence has been discussed for many years 
and was originally proposed in a 1985 document called the Whip's Plan. 
While the decision of the fence will not be decided here, the impact 
from the lack of it is felt everyday and is shown in the numbers of 
required personnel and our budget. We are constantly required to 
increase the use of manpower and technology to keep the Legislative 
Branch, safe, secure, and while ensuring continuous operations during 
these evolving threats, as well as maintaining an open and free 
Capitol.
    It is the men and women of this Police Department who selflessly 
provide the first line of defense to protect this institution. Most 
federal agencies have layers of defense to prevent attacks. The success 
of a terrorist attack at one of our buildings, once initiated, will be 
determined by that officer standing at the entrance of the building. 
While the use of technology aids in detection and deterrence, it was a 
police officer that prevented Russell Weston from continuing through 
the Capitol; and it was police officers that first responded to both 
the Anthrax and Ricin attacks.
    With any organization, we can and need to make improvements, and we 
actively engage in self-assessments and critical reviews at the 
conclusion of each project and incident to determine what went right 
and what can be improved and to incorporate those lessons learned into 
the fabric of our operations. This mechanism allows us to gauge our 
success in a positive manner. For example, we are implementing a 
process of self-testing where random, unannounced contraband will be 
introduced to test our detection and response capabilities. This self-
assessment program, and the proper use of results, will strengthen our 
portals and provide a safer environment for all who work and visit the 
Capitol complex.
    We work very closely with the Sergeants at Arms and with leadership 
of both the House and the Senate to ensure that the security of the 
Congress is appropriately managed. The ability of the U.S. Congress to 
meet its constitutional responsibilities is intertwined with the 
ability of the Capitol Police to meets its mission. The Capitol Police 
is ready and willing to meet the challenge this changing environment 
poses to the structure of our operations, and we recognize continuous 
improvement and flexibility are key to maintaining our professional 
edge. The USCP is a stronger and better-organized agency than it was 
the last time we met. We have completed a new five-year strategic plan, 
a performance plan, an annual report and have completed an in-house 
staffing analysis to provide a road map for improvements and practical 
strategies for achievement of our mission and goals. The staffing 
analysis provides a basis for discussion of our manpower needs and 
continues to be reviewed by the General Accounting Office (GAO). 
Accordingly, we used the staffing analysis as the basis of our fiscal 
year 2005 personnel request. However, the GAO review and our ability to 
stand up to their scrutiny will provide this Committee, and our other 
oversight committees, with information with which to make decisions. I 
welcome the review and input we are receiving related to this effort.
    We welcome the input of our stakeholders and appreciate the input 
of the GAO. We worked closely with the GAO in developing our new 
strategic plan. The mission, vision, values, and goals established in 
the strategic plan serves as a management tool to guide the USCP as we 
carry out our mission each day and continue preparing for the future. 
We have linked both our staffing request and all of our general expense 
items to the strategic plan. In addition, performance appraisals for 30 
of our top managers are directly tied to the strategic plan that has 
become a working document in the Department as Lieutenants and above 
and civilian equivalents recently underwent training to ensure an 
understanding of the function and effect of the strategic plan.
    Our budget request of $291.6 million represents a reasonable, 
necessary and balanced plan to directly address the threats of today 
and proposes the use of resources to ensure the protection of Congress, 
its Members, staff, visitors, and the legislative process into the 
future. The implementation of the USCP strategic plan, which this 
budget supports, is a prudent plan to help ensure the safety of the 
Capitol community and the uninterrupted continuation of Congressional 
operations.
    The budget request of $291.6 million represents a 33 percent 
increase over the fiscal year 2004 net appropriation. However, when the 
$12.7 million from the fiscal year 2003 supplemental, which as directed 
by the Committees was used to support fiscal year 2004 operational 
needs, is taken into consideration the requested increase is $59.1 
million or 25 percent. This increase provides $12.7 million for six 
months' funding for 213 sworn and 155 civilian additional positions. In 
the personnel area, $5.5 million is requested for a sworn pay scale 
adjustment, $3.3 million for the six-month annualization of the 75 
civilian positions provided in fiscal year 2004, and $12.2 million for 
the COLA adjustments, and within grade, and health benefit increases. 
Other significant increases include $3.1 million for the Inauguration, 
$8.1 million for the replacement of escape hoods, $3 million for a new 
accounting system, $2.7 million for security at the new Legislative 
Branch alternate computer facility, and $1.8 for wireless data 
interoperability infrastructure.
    Mr. Chairman, I want you to know that we are aware of the funding 
constraints that this Committee may face. In that light, we have 
developed a detailed prioritization of the entire budget request. We 
will, of course, work with the Committee to meet any funding challenges 
the Committee faces and to assure that the most critical resources we 
require are provided to ensure the protection of the Congress and the 
legislative processes. I should point out that our budget request is 
not a ``wish list'' of our managers. We internally reviewed general 
expense requests that totaled over $100.4 million and reduced that 
amount by $40.5 million to the $59.9 million included in the fiscal 
year 2005 budget request.
    As with any organization, we realize there is always room for 
improvement. We will continue to strive to strengthen and augment both 
our prevention and response capabilities. We continue to review the 
current environment, our policies and practices, and the resources and 
tools available to the USCP to ensure that the level of Congressional 
protection is the best it can be. We continue to improve the 
coordination within our Congressional community and with other law 
enforcement entities. We are continuing to emphasize training of all of 
our employees. In fiscal year 2003, USCP employees participated in over 
136,000 hours of training.
    Training continues to be integral to the U.S. Capitol Police. This 
past January marked the beginning of our new Diversity Training 
Program. All Department employees will receive 8 hours of training 
designed by specialists in Diversity issues. The feedback on this 
training has been overwhelmingly positive.
    On that note, I would like to report on the Department's effort to 
recruit under-represented groups. In fiscal year 2004, the Office of 
Human Resources initiated a targeted recruiting campaign that focuses 
on recruiting activities in under-represented groups, while maintaining 
our posture in the female and African-American arenas. These activities 
include job fairs, educational institutions, professional 
organizations, and publications that will result in an increase in our 
targeted candidate pools. OHR has received input from several 
congressional offices/groups in this endeavor.
    I would like to point out that per Department of Justice 
statistics, in June 2002, the USCP had the second highest percentage of 
black police officers of all federal law enforcement. We recently 
promoted approximately 40 supervisors to the rank of sergeant and 
lieutenant. This group of supervisors reflects a very diverse group of 
individuals who will lead the Department into the future.
    We continue to make progress on our administrative and support 
side. We got off to a slow start on hiring the additional civilian 
staff that has been recently provided. To get this back on track, a new 
Human Resources director was hired in August 2003. Since that time, we 
have made a concerted effort to assess existing staff competencies and 
reposition them accordingly as well as hire experienced and seasoned 
individuals into key leadership positions. We have also procured 
significant contract support to ``jump-start'' work in functional areas 
identified by GAO as requiring improvement such as policy development, 
workforce planning, performance management, and time and attendance 
systems. In order to ensure that we keep our improvement efforts on 
track, we have linked key HR activities to the agency's strategic plan 
and developed corresponding performance measures.
    We are committed to having substantially filled all authorized 
civilian positions by September 30, 2004. We are developing an internal 
Investment Review Board (IRB) process to review and prioritize major 
resource requirements. In our Information Technology area, we continue 
to make progress with our business systems modernization. We are in the 
process of hiring an Information Security Officer and have contracted 
for an IT Security Assessment to ensure the appropriate security of our 
systems.
    Although facilities are the responsibility of the Architect of the 
Capitol (AOC), they are critical to our operations. In February 2004, 
the AOC leased approximately 100,000 square feet of space at 499 South 
Capitol Street S.E. as an interim space solution. This facility will go 
a long way to alleviate space constraints at our Headquarters building. 
Most of our administrative functions and the Capitol and House 
Divisions will be housed in the new facility. I would like to thank the 
Architect for his continued support, and go on record that I fully 
support the funding he has included in his budget for the acquisition 
of a new off-site delivery facility and for the maintenance of our 
existing facilities. Again, we will work with the Committee and the AOC 
on what our most urgent priorities are, and what can realistically be 
funded within the limited resources available to the Committee.
    Whether it is effective communications, effective incident 
response, effective staffing strengths, or simply effective operations, 
we value being the best. The men and women of the Capitol Police are 
talented, motivated, and engaged professionals who take great heart in 
protecting this Congress.
    As Chief of the Capitol Police I take great pride in the many years 
of service this Department has provided to the Congress. Building on 
that legacy, we at the USCP look forward to continuing to safeguard the 
Congress, staff, and visitors to the Capitol complex during these 
challenging times. And we look forward to working with the Congress and 
particularly this Committee.
    I thank you for your time and am ready to address any questions you 
may have.

                             SECURITY FENCE

    Senator Campbell. Thank you, Chief. I'm just leaving here, 
I'm not finishing a career. I'm going to climb a few mountains 
somewhere else. I've enjoyed working you, the Capitol Police 
and Bill with your Department, too. I look forward to coming 
back someday though and hope there's somebody that's going to 
really take a particular personal interest in the Capitol 
Police as it has been mine. Maybe you have to have been a 
policeman or a sheriff's deputy to have that kind of an 
interest. I don't know, but it was right when I first got here 
I wanted to make that one of my priorities and finally I was in 
a position where I could help a little bit.
    Let me ask you a few questions, here. First of all, you 
mentioned this fence. I tell you, I think most Americans would 
just rebel at the thought of their Capitol being fenced. 
There's got to be, in this high-tech way we operate now, 
methods of doing things without a big ugly fence around this 
place. I know that in some cases there are types of bushes and 
plants and things that can be planted that are just almost 
impregnable. I mean, you almost can't get through them. My wife 
has rose bushes around our house and if we don't trim them back 
every year you can't even get through the front door of our 
house, for obvious reasons; you just cut yourself to ribbons 
with those thorns. So I hope whoever's making the decisions on 
that thinks of some more aesthetically pleasing way of 
surrounding this place rather than a wall or a fence. I think 
that really flies in the face of what Americans want in their 
Capitol. You know the openness that we've always expected of 
our Capitol sends such a wonderful message to the world, we 
have to find that balance, between security and not looking 
like we're in a siege or something. And I know that there are 
brighter minds than mine working on that or will be working on 
that but I hope they think about that.

                             BUDGET FREEZE

    We've been asking all the agencies and you heard me ask the 
one that was on the table before you about what happens if we 
cannot provide a lot of the money that they're asking for and 
your significant increase includes 358 additional staff. If we 
cannot reach that and we have to freeze your budget at last 
year's level, do you have your budget prioritized to the 
absolute must-haves and the things that could slide for a year 
and things of that nature?
    Chief Gainer. Senator, we sure do but to freeze at the 
number last year would dramatically require the reduction in 
force of sworn personnel.

                             OVERTIME HOURS

    Senator Campbell. What are the shifts that the officers are 
working now? During the big anthrax scare and some other times 
they were working literally every day and 12-hour days and 
longer. What's the normal shifts they're putting in now?
    Chief Gainer. As a rule they're on an 8-hour schedule. But 
I also should say a large portion of the Department probably 
works another 8-hour day, one of their days off. So almost 
everyone is working some amount of overtime and fortunately 
they volunteer for it, as a rule.
    Senator Campbell. You manage to staff enough just with 
volunteers, too? Have you had to force any officers to work the 
days off?
    Chief Gainer. On occasion, Senator, there are probably some 
unhappy families.

                         STAFFING JUSTIFICATION

    Senator Campbell. You're requesting a total of 2,361 staff 
for fiscal year 2005, consistent with your staffing analysis 
put together last year. At the request of Congress the General 
Accounting Office has contracted for an analysis of the Capitol 
Police staffing plans. That contractor in its February report 
indicated that there was insufficient justification, such as a 
shortage of workload data, for roughly 300 new positions, of 
which 186 would be in the Uniformed Service Bureau. What is 
your reaction to that analysis?
    Chief Gainer. Well, we worked very closely with the GAO and 
their contractor, SAIC, who did that report for them. And I 
think overall it's a mixed reaction. They used a red, yellow, 
green light system. There were quite a few of the positions 
where they felt that we provided sufficient justification and 
information for them to make a decision, and then there were 
relatively few red lights, to use their parlance, where they 
felt there was not the justification or sufficient support. In 
the area of their yellow lights there were quite a few; we 
supplied them additional information, we're responding to their 
report in writing and we're working with the Board to further 
clarify what justification is needed.

           HIRING OF FISCAL YEAR 2004 NEW CIVILIAN EMPLOYEES

    Senator Campbell. We provided 75 additional civilian 
employees last year. What's the status of those employees that 
we did provide for? They've all been hired?
    Chief Gainer. They have not all been hired. But what we did 
do, about 6 months ago, was promote a new Director of Human 
Resources and she has retooled Human Resources substantially. 
Human Resources, along with our finance folks, have identified 
the bottlenecks to that hiring process and we believe we are on 
track to have all the hirings done for 2004 and also from 
carryover from 2003 by the end of the fiscal year.

                        FAIRCHILD BUILDING LEASE

    Senator Campbell. A lease was recently signed by the 
Architect of the Capitol for several floors of the Fairchild 
Building for the Capitol Police. Does that accommodate your 
space needs?
    Chief Gainer. Not totally. Right now we occupy probably 
just under 200,000 square feet and that is largely 
insufficient. The master plan called for some 500,000 square 
feet. What the Fairchild Building provides us is about 101,000 
square feet and it will go a long way to easing the pressure in 
our headquarters building, the Senate and House office 
buildings as well as the Capitol. It may very well free up some 
space in the Capitol Visitor Center. But I think the bottom 
line, Senator, I should point out, we see that Fairchild 
100,000 square feet as very, very temporary and not a long-term 
solution to the needs of the Department.

                              FIRING RANGE

    Senator Campbell. I see. And you requested funding through 
the Architect for a firing range. You do the training now over 
there way down in the bowels of the Rayburn Building somewhere.
    Chief Gainer. We do.
    Senator Campbell. I understand. Well, if we are unable to 
provide those funds is that where they'll continue training, 
where they are now?
    Chief Gainer. Well, that will be part of it but that again 
is not enough. The Congress was very good, especially then to 
the Department of the Treasury and now Homeland Security, in 
securing a large facility at Cheltenham, Maryland, where a 
large firing facility was designed and built. Unfortunately, 
when that was designed and conceived only some 20 agencies were 
going to use it; with the recomposition of Homeland Security 70 
plus agencies are now going to use it. So we're all kind of 
scrambling to see what piece of that we can get. We have met 
with the Board and Senate staff, Homeland Security personnel to 
see if we can work out a solution where we would have some 
rights of priority at that facility. If that works out then the 
absolute need for a range on-base would not be necessary.

                           LOC POLICE MERGER

    Senator Campbell. I see. I believe, like Senator Stevens, 
that we're at an impasse between the Library of Congress 
objectives and the Capitol Police too, and I'm sorry you 
haven't been able to get that all together and in sync. But I 
just wanted to identify myself, associate myself with his 
comments that I look forward to trying to work this difference 
of opinion out about how we merge one department with the other 
one. So I just wanted to tell you that.
    Chief Gainer. Thank you.

                           MOUNTED HORSE UNIT

    Senator Campbell. You mentioned the mounted unit. Are they 
are on the grounds now?
    Chief Gainer. Actually, they paid a visit to us just last 
week and I have to tell you they were mobbed by people wanting 
to get pictures with them. They're still in their training.
    Senator Campbell. I'd like to say ``I told you so.''
    Chief Gainer. Yes sir. They graduate April 16 and we hope 
maybe that your schedule will permit you to be part of that. We 
have eight officers and two sergeants in that school; we've 
lost a couple through riding mishaps and they decided not to 
continue riding. We have the equipment, we're in the midst of 
buying the horses.
    Senator Campbell. Did somebody tell them they're supposed 
to get back on when they fall off?
    Chief Gainer. Actually, they did right away but the next 
day they decided not to get back on.
    Senator Campbell. Oh, they shouldn't have been there in the 
first place if they decided not to get back on. And they're 
stabled with the Park Service horses down on the Mall?
    Chief Gainer. That's what we're working on.
    Senator Campbell. That's not where they are now, however?
    Chief Gainer. Right now, Senator, they're still at the Rock 
Creek training stable.
    Senator Campbell. I see.
    Chief Gainer. We're working out the agreement to determine 
at which stable they will be.
    Senator Campbell. So they're just training them and they 
brought them down?
    Chief Gainer. Right. We do have three vehicles and three 
trailers. But one of the concerns is with the World War II 
monument opening up and whether the Park Police will retain 
that stable on the Mall is being discussed.
    Senator Campbell. Is the Park Service Mounted Unit doing 
some of the training of these officers?
    Chief Gainer. They're conducting the training, it's all 
under their direction and their authority, their expertise.

                             TRAINING HOURS

    Senator Campbell. This is a broader training question--your 
in-service training is about 80 hours a year, is that correct?
    Chief Gainer. It is. And in fact, we really probably exceed 
that now with all the specialized training. Last year we 
collectively trained for about 200,000 hours.
    Senator Campbell. How much training do those mounted 
patrolmen go through?
    Chief Gainer. That's a 10-week program.
    Senator Campbell. Ten weeks. Okay, thanks. Senator Durbin.

                        ESCAPE HOOD REPLACEMENT

    Senator Durbin. Chief Gainer, can you or somebody on the 
Board explain escape hood replacement costs of $8 million.
    Chief Gainer. Yes. When the hoods were purchased they 
appeared to have a 4-year shelf life. We're hoping that's still 
the case. But what we've seen with the escape hoods is that 
they're very difficult to put on; and it is impossible to 
communicate with them on. So, we and others, have been working 
with the authorities to see if there's a better hood to be made 
available. The hope is that there would be; the National 
Certification Group is looking at different hoods. We hope that 
if a new hood becomes available it will be easier for adults 
and children to wear. If that's the case, we've made the 
preliminary decision rather than replace the current hoods, 
which have a 4-year life, or 3 years left now, rather than 
doing that piecemeal and give someone an older, less viable 
escape hood we would convert all to new escape hoods. If 
there's not a new one discovered then we probably only need to 
replace a quarter of those and we would not need the full $8.1 
million.
    Senator Durbin. What was the original cost of the escape 
hoods?
    Chief Gainer. The total cost? Excuse me. We purchased 
45,000.
    Chief Gainer. We purchased 45,000 for about $4.7 million. 
But the price of them has gone up.
    Senator Durbin. Obviously.
    Chief Gainer. Yes sir. We're anticipating getting higher 
quality hoods.
    Senator Durbin. What's to tell us that 1 year after we 
purchase these we've decided we shouldn't have purchased them 
and $4.7 million may have been wasted? What have we learned?
    Chief Gainer. Well, that was the best product at the time. 
And it was essential, I think, given the facts that everybody 
was dealing with that we purchase something. Actually, even if 
there was a better hood, in theory you could use these for the 
next 4 years if one trains on them. Most of the staffs of both 
the House and the Senate, have been excellent on training with 
the existing hoods. Some others have been a little bit more 
reticent to come to the training.
    Senator Durbin. I resemble that remark.
    Chief Gainer. But it is difficult to put on and impossible 
to communicate with it on.
    Senator Durbin. That may be a blessing with some elected 
officials. Let me--well, it's a concern. I don't know how I 
explain this at home, that we bought 45,000 for $4 million plus 
and 1 year later, even though they have 3 years of life left in 
them we've decided to junk them and to spend two times as much 
to replace them. If technology is moving that fast to justify 
it I suppose that's the argument but it appears that a decision 
was made and it's being countermanded within 1 year and I'll 
bet you that when the first $4 million was justified it was for 
a 4-year hood. So that's what we're going to be faced with so 
it seems like a pretty dramatic reversal in a short period.
    Chief Gainer. But it's really still under analysis, 
Senator, so there's no final decision at all.

                                 FENCE

    Senator Durbin. Let me say a word about this fence. I agree 
with Senator Campbell completely. I've been around here long 
enough and I think he has too to have seen some dramatic and 
depressing changes in terms of life on Capitol Hill that 
reflect the reality of threat. And I can recall the bombing in 
the Senate corridor when I was just a brand new Member of the 
House of Representatives; I heard it in my apartment just a 
block or two away. And we started changing things the next 
morning and they've never really stopped; 9/11, of course, was 
the major catalyst of change here. I for one hope that we don't 
move toward a security fence as I envision it. To call 
something an aesthetically pleasing security fence, it's a 
little hard for me to understand where they're coming from with 
this. And is it not true that we're investing substantial sums 
of money on Capitol Hill--maybe this goes to the Architect--for 
the construction of these bollards and other things, 
acknowledging that traffic would be within this complex? Is 
this going to be another escape hood, where we'll say, well, 
now we're going to build the multi-million dollar fence, we 
probably shouldn't have built the bollards because there won't 
be that much traffic within the perimeter of the fence. I don't 
know who can answer that, but is anybody considering that 
aspect?
    Chief Gainer. Well just, from my perspective, Senator, 
they're not incompatible. I guess all I'm suggesting, both here 
and in the House, and I did this in consultation with the 
Board, was to at least renew the discussion about this. I think 
it became most clear to me as we see the different bombings 
that are happening around the world. We have done a lot toward 
standoff on trucks and we've done a substantial amount for 
standoff on vehicles but unfortunately we see the suicide 
bombers, whether it's in England, Ireland, Israel, Palestine, 
Jordan, there are people bringing those packages and it is our 
concern that those small-type of explosives, which will only 
injure scores rather than the 9/11 type, is still a real 
danger. Frankly, as I listen to the 9/11 Committee, in their 
analysis, I just thought it was appropriate that we talk about 
this again because heaven forbid if something happens here on 
the Hill. Who knows what would have happened if 1 year before 
9/11 someone would have come in and said maybe we ought to seal 
all the doors on airplanes. I know it seems bizarre, it doesn't 
look good, but I think we need to lay it out and decide whether 
we want to accept the risk or not.
    Senator Durbin. I think it's entirely appropriate that you 
raised the issue. But I'm struggling with the concept that says 
we will have a perimeter fence to limit access to the Capitol 
Hill area, and that means that we'll have fewer Capitol Hill 
police, for example, who have to worry about access points; 
there will be fewer access points with such a perimeter fence 
and yet we can still justify the bollards for traffic that's 
going to pass through this secure area? I think those two 
things are inconsistent. Either a perimeter fence limits access 
and the bollards then become redundant or unnecessary or it 
doesn't limit access and you ask why you have it. So I need to 
work with you on that to understand this a little better.
    Chief Gainer. I know we're just a long way from even 
touching on this, but if you can envision how the White House 
is, where there are bollards along Pennsylvania Avenue and the 
bordering streets and then the fence. The fence is really 
designed less for vehicles and more for people. Unlike the 
White House, the vision for this is where we would have 
sufficient openings and officers, so the access for people 
would be freeflowing. Then we would know anybody inside the 
perimeter of the Capitol would be completely bomb-free, 
weapons-free and then they'd have complete access to the entire 
Capitol.
    Senator Durbin. I guess my misunderstanding was I thought 
initially they'd said that the fence would be outside of the 
office building area.
    Chief Gainer. That was one of the suggestions. Now again, 
it was at least one of the suggestions, you're correct.
    Senator Durbin. Before we get into all the details which 
would be a long discussion, I would just weigh in with Senator 
Campbell. I just hope that we don't reach that point where 
we're fencing off the Capitol area. I want to try to find some 
way to achieve security. Short of that, if it becomes a 
necessity then frankly we have to accept it.

                       SWORN PERSONNEL REQUESTED

    May I ask you this. The 1,800 sworn personnel, 1,805, if 
I'm not mistaken that has been a goal for several years, that 
the Capitol Police would reach that level of sworn personnel.
    Chief Gainer. Approximately, yes.
    Senator Durbin. Yes. And so the last several hundred that 
you're asking for this year, 200 or whatever it happens to be, 
is in pursuit of that goal that we set a number of years ago. 
Is that correct?
    Chief Gainer. Correct.

                          RECRUITING OFFICERS

    Senator Durbin. There was a time not too long ago when I 
asked either you or your predecessor how many applications need 
to be taken before you find someone who can be qualified to 
serve as a Capitol policeman? What is the current ratio, do you 
know?
    Chief Gainer. It's about 1 out of 10 and sometimes it goes 
1 out of 18. We do have some great candidates who are applying 
and maybe the job market helps us in that regard, but it's 
about 1 in 10.
    Senator Durbin. And what are the major reasons why 
applicants are not accepted?
    Chief Gainer. It is more a matter of being best qualified, 
it's really not that people are unqualified, it is in fact they 
are less qualified. We do the written test, the psychological 
and the background.
    Senator Durbin. Drug test?
    Chief Gainer. Yes sir. And a polygraph.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. I see. I have some questions for the record 
but thank you very much, Chief.
    Chief Gainer. Thank you, Senator.
    Senator Campbell. I have no further questions. There may be 
some written ones by other committee members. But I just want 
to say in parting it's been terrific working with both of you. 
Thank you.
    Chief Gainer. Thank you, Mr. Chairman.
    Mr. Pickle. Thank you, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. In 2001, the Capitol Police developed a plan to remedy 
administrative deficiencies identified by the GAO. In January GAO 
completed its semi-annual review of the status of these issues. GAO 
found that ``the overall pace of progress on USCP's strategic 
initiatives continues to be limited.'' Areas such as developing 
procurement policies and procedures, implementing a performance 
management system, and improving workforce planning were among the 
deficiencies noticed. Can you describe briefly how you will meet the 
milestones the Department itself set forth in 2001 to improve USCP 
administrative functions? How many new personnel are needed to 
implement these milestones? What is the status of hiring a new Chief 
Administrative Officer--a position that has been vacant for about 
three-quarters of a year?
    Answer. Mr. Anthony Stamilio was selected for the CAO position and 
reported for work on May 4, 2004.
    Significant progress has been made in administrative operations 
since the creation of the CAO in 2001. As reported by GAO in their 
semi-annual reviews of our administrative operations the following 
achievements have been made:
  --Completed a strategic plan for fiscal years 2004 through 2008 for 
        the Department, including departmental goals, objectives, and 
        associated performance measures.
  --We have stabilized and are making significant improvements in 
        financial management, including the development and 
        implementation of policies and procedures to control and guide 
        the appropriate use of funds. We have requested the 
        consolidation of our Salaries and General Expense 
        appropriations and have requested funding for a new accounting 
        system to continue the progress we have initiated.
  --We have implemented a zero based budget approach for all Department 
        operations to ensure budget requests are appropriately 
        developed and justified each year.
  --We have developed an IT systems architecture as a road map for the 
        deployment of technology within the Department and have 
        replaced and are in the process of replacing a significant 
        number of antiquated systems throughout the Department as well 
        as leveraging opportunities for systems augmentation and 
        development for new operational and administrative 
        capabilities.
  --Hired contract and additional staff, including a new Director and 
        senior staff in the Human Resources area to tackle the backlog 
        of filling positions and policy development.
    Areas that require additional work:
  --The GAO has identified the employment of critical administrative 
        staffing with the right mix of skills and competencies as the 
        number one impediment to the USCP achieving its administrative 
        goals.
  --Other areas for improvement include further development and 
        implementation of policies and procedures, completion of an IT 
        acquisition strategy, implementation of a competency based 
        performance management system, as well as developing a robust 
        workforce planning capability.
    We acknowledge that excessive operational demands and significant 
staffing shortages continue to consume critical administrative 
resources and impeded or slow progress toward reaching strategic goals 
and initiatives.
    We also understand the decisions reached as part of the planning 
process needed to drive the focus of daily operations.
    Question. The recent SAIC report identified several areas in USCP 
that had poor management practices, while in other areas it found 
``best practices'' in managing work and resources. Why does this 
management imbalance exist in USCP and what is top management doing to 
increase the management capabilities of those areas deemed deficient?
    Answer. The focus of the SAIC analysis was not to conduct a review 
of management practices and management of work but rather the 
methodology utilized in the USCP developed Staffing Analysis. Based on 
the review of the USCP methodology, SAIC determined that there were 
pockets of best practices in the organization. For example the Office 
of Information Systems (OIS) and Security Services Bureau were cited as 
a ``best practices'' because they utilized processes to depict workload 
and mapped workload to FTE requirements based on benchmarking, 
historical data, and/or subject matter expertise. While these areas 
were determined to be best practices, other areas were not able to 
document workload due to lack of data or lack of experience to create 
workload data (i.e., work had not previously been accomplished and 
workload data was not available). However, SAIC did indicate, ``most 
offices under the Chief Administrative Officer are not positioned to 
operate as fully functioning support organizations.'' SAIC went on to 
state, ``most deficiencies have been recognized and steps are being 
taken to address them.'' The USCP has initiated the process to contract 
with outside consultants to review selected operations, within fiscal 
constraints. Areas included in the current review processes include 
training services, internal affairs, budget, accounting, and selected 
areas of protective services.
    Question. USCP asked for a considerable number of additional 
positions in the Comprehensive Staffing Analysis, yet SAIC could not 
validate the assumptions and criteria used by USCP for most of these 
positions. What is USCP doing to increase the assurance that the fiscal 
year 2005 positions can be justified and validated?
    Answer. SAIC's task was to review the methodology used to develop 
the USCP staffing needs. SAIC reviewed each position and provided a 
stoplight (red, yellow, green) indication as to whether appropriate 
supporting information was available to support the new positions. They 
did not perform workload analyses or comment on the need for the 
positions, but rather the level of supporting information they 
reviewed.
    While the USCP does concur with many parts of the SAIC evaluation, 
there are also several areas where the USCP does not agree with SAIC's 
findings. The inability of SAIC to fully validate the justifications of 
several positions, where the USCP thought it had strong justifications, 
is where most disagreements exist. The following outlines where some of 
the validation issues occurred:
  --In several cases Bureaus/Offices were asked by SAIC to produce 
        workload data in order to validate justifications. Such 
        workload data was sometimes not available, or not as thorough 
        as one would like it, primarily due to the fact that there has 
        not been sufficient staff necessary to collect workload 
        information, or because current systems are not able to capture 
        the necessary data. In many offices the current staffing levels 
        are only sufficient to perform the minimum requirements of the 
        office, not allowing for the additional time necessary to 
        collect workload data, manually if it is not available 
        automatically.
  --SAIC asked for outside staffing studies to confirm what Bureaus/
        Offices were telling them in terms of the need for additional 
        staff. While the USCP acknowledges that such studies are very 
        useful tools, and were used when available in putting together 
        the Comprehensive Staffing Analysis, the Department has not had 
        studies done on all areas of the Department, in large part due 
        to costs associated with having such studies performed.
  --In some instances Bureaus/Offices thought the information provided 
        to SAIC logically showed the need for additional staff, while 
        SAIC would not validate, or would only partially validate the 
        request.
  --SAIC was unable to validate a majority of personnel requests for 
        administrative staff, stating that this was due to the lack of 
        sufficient analysis of current and projected workloads. The 
        Department is aware that there has been a great need for more 
        administrative staff to alleviate higher-level staff from 
        having to undertake administrative duties. To validate the 
        staffing requests, SAIC stated that an in-depth workload 
        analysis would need to be performed, thereby enabling accurate 
        manpower requests. Once again, as stated above such studies are 
        very costly.
  --In the last GAO report reviewing progress being made in the areas 
        under the USCP's Chief Administrative Officer, several 
        references were made about the great need that the USCP had in 
        the management/administrative areas for additional staff. The 
        SAIC report on the other hand, could not fully validate many of 
        the justifications presented for additional staff in those same 
        areas, and which the Department believes are obvious staffing 
        needs.
    In addition to the additional information provided to both SAIC and 
GAO, the USCP has initiated the process of contracting with outside 
consultants to review selected operations, within fiscal constraints. 
Areas included in the current review process include training services, 
internal affairs, budget, accounting and selected areas of protective 
services.
    Question. You have requested $5.7 million for a ``sworn pay scale 
adjustment.'' What is this and what are the implications if we are 
unable to fund this initiative?
    Answer. The sworn pay scale adjustment rectifies inequities between 
grade and step levels in the sworn pay scale as a result of prior year 
adjustments to selected portions of the pay scale without appropriate 
consideration of the impact these adjustments had on the pay scale as a 
whole.
    At the direction of the Appropriations Committees, a study was 
completed that recommended a correction of the current inequities. The 
study determined that it would cost $11.4 million in fiscal year 2005 
to implement the proposed pay schedule on October 1, 2004. The $5.7 
million included in the fiscal year 2005 request would provide for an 
April 1, 2004 implementation. An additional $5.9 million (includes 
estimated 3.5 percent January 2006 COLA) would be required in fiscal 
year 2006 for the annualization of the adjustments.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. What are the long term capital costs required for the 
Capitol Police?
    Answer. Excluding facilities related items, most of the USCP 
capital costs relate to the replacement of systems or equipment such as 
vehicles, X-ray, magnetometers and cameras. The cyclical replacement 
costs of these capital items are included on an ongoing basis in our 
annual requests.
    In the area of information systems modernization, the USCP 
currently operates a set of administrative systems including personnel, 
time and attendance, scheduling and inventory control. These mainframe 
systems are a heterogeneous collection of legacy mainframe software 
applications and commercial off-the-shelf software applications. The 
legacy systems are costly to operate and difficult to maintain. The 
infrastructure has been managed and developed on an as-needed basis, 
often tied to specific applications.
    USCP has developed an Enterprise Architecture and IT Strategic Plan 
consistent with the modernization effort started in fiscal year 2001. 
These efforts target web-enabled, integrated applications running on 
one or more enterprise servers to include back-up servers soon to be 
located at the Alternate Computer Center (ACF).
    The modernization effort project is large and enterprise-wide in 
scope. As such, there are multiple phases with multiple subprojects 
that are coupled together. Users have both functional and non-
functional requirements that cross the enterprise IT Architecture, 
requiring close coordination and project management of multiple teams.
    The Office of Information Systems (OIS) created a Business Systems 
Modernization Office (BSMO). The BSMO mission is to provide technical, 
functional, managerial, and planning IT support to the USCP in the 
development of an Enterprise Architecture (EA), development of a 
Transition Plan as well as oversight of the ongoing implementation 
efforts.
    Phase 1 of the modernization effort provided for the implementation 
of Administrative systems. Time and Attendance, Personnel, Scheduling, 
Training and Fleet Management, as well as a Case Management System for 
Internal Affairs have been completed. All Law Enforcement Systems have 
been brought up to the same relational data base level.
    Phase 2 will encompass the implementation of an Asset Management 
System integrated to the Financial Management System to include budget. 
A Data Warehouse and Operational Data Store has been designed and 
implementation is to take place in early fiscal year 2005.
    Phase 3 will occur in fiscal year 2006 and provide for an Executive 
Information System (EIS) to assist in the recovery and use of data and 
information as necessary.
    One significant item that is on the horizon is the replacement of 
the radio systems. A new digital radio system, which will be used by 
the USCP and other Legislative Branch entities, is roughly, and 
preliminarily, estimated at $30 million. A contract is being negotiated 
with the Navy Aviation Systems Command to assess and make 
recommendations for the radio communications system upgrades. This 
study will include firmer estimated costs for their proposed 
recommendations. Over the past several years, we have been working 
closely with the Architect of the Capitol in the development of a 
facilities master plan for the USCP. The potential cost of new 
facilities and the cost of facility renovation are best addressed by 
the Architect of the Capitol.
    Question. Chief Gainer, could you please explain why you need $8.1 
million for replacement of escape hoods?
    Answer. When the current escape hoods were purchased they were the 
best on the market. However, the current masks are difficult to put on 
and it is impossible to communicate when they are donned. In October 
2003, the National Institute for Occupational Safety and Health (NIOSH) 
published national standards for escape hoods, and all further testing 
and approval will be accomplished against those standards. At this 
time, several companies have submitted escape hoods to NIOSH for 
testing under the new standards and product approvals are expected to 
occur during the second half of 2004. Approved escape hoods are 
expected to be available for purchase in 2005. It is anticipated that 
the escape hoods that meet the new standards will be easier for adults 
and children to wear and will solve the communications issue. If as 
anticipated new masks are on the market in 2005 that meet the NIOSH 
standards, a preliminary decision was made to replace all the escape 
hoods rather that doing it in a piecemeal fashion and give someone an 
older, less viable hood. The cost of replacing all 45,000 escape hoods 
is estimated to be $8.1 million.
    Question. What training requirements are not being met at the FLETC 
facility at Cheltenham?
    Answer. The USCP is currently conducting follow-on basic and in-
service training at the FLETC facility at Cheltenham, Maryland. We are 
also negotiating a MOA with the FLETC to utilize the firearms range for 
re-certifications, and will utilize the driving range when it is 
complete this fall. Some of our long distance rifle training needs, 
which are best conducted in an outside environment, will not be met at 
the Cheltenham facility. Also, basic recruit training, which is 
conducted by the FLETC in Georgia, was never intended to move to 
Cheltenham and will not be relocated to the Cheltenham facility. We 
continue to work with FLETC regarding issues on availability of the 
facilities as well as funding requirements, and we expect to have a 
Memorandum of Agreement finalized soon. We have also been working with 
the Appropriations Committees regarding the resolution of the issues.
    Question. What is the cost for building a separate firing range for 
the Capitol Police?
    Answer. The Architect of the Capitol's budget request contains $12 
million for the design and construction of a 36-point 50-yard 
underground firing range. As conceived, the range would be co-located 
and built with the Off-site Delivery Facility. If the scheduling 
requirements, addressed in the above question, for all USCP firearms 
training and re-certification can be accommodated by the FLETC, the 
USCP will not require the facility requested by the AOC. However, if 
the facility availability issues are not worked out, the construction 
of a new firing range is critical to the operations of the USCP.
    Question. It was my understanding that the Capitol Police have free 
use of the firing range at Cheltenham. Why do you need a separate 
firing range?
    Answer. Our primary issue regarding the use of FLETC firing range 
at Cheltenham is one of access and accommodating our needs for firearms 
training and re-certification. As indicated above, the original 
partnership with the Federal Law Enforcement Training Center (FLETC) on 
the new training facility in Cheltenham, Maryland included 26 agencies. 
With the creation of Department of Homeland Security and subsequent 
merger with Treasury/FLETC, the facility now serves 70 plus agencies 
but the size of the range has not grown proportionally. If our training 
needs cannot be met by the FLETC, the construction of a new firing 
range is critical to our operations.
    FLETC has indicated that it is expecting a reimbursement for firing 
range use by all federal agencies and we have included funds for this 
purpose in our fiscal year 2005 budget request.
    Question. What are the costs associated with the Capitol Police 
having access to the Cheltenham facility? Are theses costs being 
covered by the Capitol Police or by the Department of Homeland 
Security?
    Answer. Although we are still working with the FLETC on access and 
reimbursement issues, based on reimbursement cost rates FLETC provided 
in the Fall of 2003, we estimated it will cost the USCP $1,032,000 in 
fiscal year 2005 to cover all firearms training. This amount is 
included in our fiscal year 2005 budget request. However, we now 
understand that FLETC may be lowering their rates. A Memorandum of 
Agreement (MOA) between the USCP and FLETC is being negotiated and it 
should be completed soon. This MOA will spell out who will pay for what 
cost and when cost will begin being paid by the USCP. In addition to 
the firing range reimbursements, these costs will include the 
operational and maintenance costs of Building 31, the primary training 
facility that we occupy, and any other resources utilized by the USCP 
at the Cheltenham facility. The FLETC has estimated the cost to be 
$281,400 for fiscal year 2004. FLETC will also expect reimbursement for 
the driving range when it opens and a daily per person user fee, 
currently set at $5, for the use of their other facilities at 
Cheltenham. We do anticipate reimbursing the FLETC for the operational 
and maintenance, driving range and other facility usage fees.
    Question. What is the status of filling the vacancy of the Chief 
Administrative Officer?
    Answer. Mr. Anthony Stamilio was selected for the CAO position and 
reported for work on May 4, 2004.
    Question. What are your priorities for improving administrative 
operations of the Capitol Police?
    Answer. Our first priority is to fill all the vacant civilian 
positions including the 75 new positions that were provided in fiscal 
year 2004. We have hired outside consultants to jumpstart our hiring 
and human resources operations. We are committed to having 
substantially all these positions filled by the end of the fiscal year. 
As part of our strategic planning effort we have developed performance 
plans and measures to continue the improvement of our administrative 
operations. We continue to move forward with our information technology 
systems modernization related to law enforcement databases and 
administrative systems as well as modernizing human resources and 
continuing with improvements with financial management operations.
    Question. We recently received SAIC's evaluation of your 
Comprehensive Staffing Analysis. It seems that the Capitol Police could 
benefit from the development of a comprehensive manpower plan that 
would determine the number and kinds of positions, both existing and 
new, needed to meet the requirements identified in the threat and 
vulnerability assessments as well as the strategic plan. Are there any 
efforts underway to undertake the preparation of such a plan? What 
would be required to produce a manpower plan that would clearly relate 
manpower requirements to a congressionally approved strategic plan that 
clearly ties to threat and vulnerabilities?
    Answer. One of the priorities of the new CAO is to take a strategic 
view of human capital management. Based on GAO recommendations, we are 
currently exploring the benefits and processes of strategic human 
capital planning, synchronized with the USCP Strategic Plan. The threat 
environment, evolving tactics and technology will drive requirements 
for future manpower adjustments. Our tentative plan is to assess 
functional slices of the organization in light of the above ``drivers'' 
to determine the manner in which the organization will operate in the 
future. The manpower requirements, to include numbers and skill sets 
will evolve from this analysis. Initial assessments should begin in 
fiscal year 2005.
    Question. Do you feel that a perimeter security fence is a good 
idea? Do you think it should include both the Capitol and the office 
buildings?
    Answer. All of our major security surveys (Secret Service, DTRA, 
SAIC) since 1983 have raised the issue of a perimeter fence to enhance 
Capitol Complex security. Strictly from a security standpoint, we agree 
that a fence is a good idea. Based on the current environment and 
events that are happening around the world, we believe that the 
perimeter security fence issue should be revisited and that here should 
be a discussion on its merits and whether we want to accept the risks 
as they exist today. This discussion should include a perimeter 
security fence around the Capitol and the office buildings. We realize 
that other factors, including perceived openness and cost, need to be a 
part of this discussion. The resolution of this issue is directly 
related to the manpower requirements of the USCP.
    Question. Are you working on a plan to ease staff entry into the 
Senate buildings? I have noticed on many occasions that the lines are 
out the doors and on the sidewalks at many of the Hart and Dirksen 
Building entrances.
    Answer. We have recently made several changes to reduce the line at 
entrances to the Senate buildings. We are designating several entrances 
as ``staff only'' until 10:00 a.m. and outside officers are directing 
visitors to lower volume entrances. We will continue to monitor the 
situation and make adjustments are needed.

                          SUBCOMMITTEE RECESS

    Senator Campbell. If there is nothing further, the 
subcommittee will next meet at 11 a.m., Thursday, April 8 to 
hear from the Secretary of the Senate and the Architect of the 
Capitol.
    [Whereupon, at 3 p.m., Wednesday, March 31, the 
subcommittee was recessed, to reconvene at 11 a.m., Thursday, 
April 8.]









         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        THURSDAY, APRIL 8, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:03 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell and Durbin.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. EMILY J. REYNOLDS, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        MARY SUIT JONES, ASSISTANT SECRETARY
        TIM WINEMAN, FINANCIAL CLERK
        DIANE SKVARLA, CURATOR

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The subcommittee will come to order. We 
meet this morning for our last scheduled hearing for the fiscal 
year 2005 budget cycle for the legislative branch. We will take 
testimony from the Secretary of the Senate, Emily Reynolds, and 
the Architect of the Capitol, Alan Hantman.
    Good morning, Emily. How are you this morning?
    Ms. Reynolds. I am fine, sir. Thank you.
    Senator Campbell. The budget request for the Office of the 
Secretary is $21.286 million, an increase of $755,000, or about 
a 4 percent increase over the current year budget.
    In the last year, your office had accomplished very much, 
including further implementation of a financial management 
information system, keeping the Senate operating during the 
February ricin incident and, of course, working with the owner 
of the Curtis chair that I was so interested in, and I thank 
you for that, which is now back in the Senate. We certainly 
appreciate that.
    Following your testimony, we will hear from the Architect 
of the Capitol, Alan Hantman. The AOC's budget request totals 
almost $858 million, which is an increase of $170 million, or 
41 percent over the fiscal year 2004 appropriation. Roughly, 
half of the budget is for operations and maintenance of the 
buildings and grounds administrative support, safety programs, 
and restaurants.
    The increase of 18 percent over fiscal year 2004 for this 
portion of the budget is due to increased utility costs, 
payroll, and safety programs. The other half of the budget, 
major capital projects, is up 143 percent over the current 
year, and would support 71 projects, including the Copyright 
Deposit Facility for the Library of Congress, storage modules 
for the Library at Fort Meade, and Capitol Police projects.
    The number of projects and dollar values associated with 
them will be very difficult to accommodate, not only in the 
view of the budgetary constraints but also owing to the 
concerns that you have a lot on your plate already, not the 
least of which is the completion of the Capitol Visitor Center. 
We will be looking forward to that testimony, too.
    Senator Durbin will be along, but while we are waiting for 
him, you go ahead and proceed, Ms. Reynolds.
    Ms. Reynolds. Thank you, sir. My full statement, which 
obviously you all have, I would like to have submitted for the 
record.
    Senator Campbell. It will be included in the record. Is 
your button on, on that microphone?

                  OPENING STATEMENT OF EMILY REYNOLDS

    Ms. Reynolds. Thank you very much. My full statement, of 
course, as you just said, we will include in the record. I 
thank you for that. I would like to give just a brief overview 
this morning and hit some of the high points of our past year.
    I have with me this morning our very able team, Mary Suit 
Jones, our Assistant Secretary, Tim Wineman, our financial 
clerk, and a number of our department heads, all of whom I am 
honored to work with each and every day.
    As you said, our budget request for the year is 
$21,286,000. That is $1.7 million in operating funds and just 
over $19 million in our salary costs. Our operational budget is 
static from last year but now knowing, obviously, the strengths 
of this office, what it takes us to operate, and also to take 
on some new initiatives, we believe that--that request is a 
sound one and will enable us to continue to function well in 
all three of our divisions, legislative, financial, and 
administrative.
    Our personnel costs, as you pointed out, we are requesting 
a very slight increase, that for the COLA and for merit, so 
that we can continue to attract and retain the talent that the 
United States Senate both needs and deserves in our operations.
    I want to thank the committee, Mr. Chairman, for your past 
support of two major projects, one of which you mentioned; our 
financial management information system, and our legislative 
information system, both of which, in the course of this last 
year, we continue to make enormous progress.

                FINANCIAL MANAGEMENT INFORMATION SYSTEM

    On FMIS, as you know, that was developed from a 5-year 
strategic plan for the disbursing office. It now covers some 
140 offices here in our Senate community and our goal is to 
move to a paperless voucher system.
    We reached an important step at the end of March, with a 
test of creating laser checks, which was successful. That is 
one of our production goals for this year. Moving into fiscal 
year 2005, our plans call for us to create a small pilot of the 
technology for paperless payment processing. So again, we are 
making considerable progress in that regard.

                     LEGISLATIVE INFORMATION SYSTEM

    On the legislative information system, to implement the 
extensible mark-up language, or XML, is our data standard by 
which we author and exchange documents, again, enormous 
progress. That really has been a very collaborative effort, 
with both our project office, Sergeant-at-Arms staff, and our 
Senate legislative counsel, who have been our guinea pigs, if 
you will, as part of that project team.
    I am happy to report that they are now using the LEXA 
application and, by all accounts, it is going quite well. In 
fact, one member of the Senate legislative counsel team 
reported that this is a story with a happy ending. The ending, 
of course, is not yet completely in sight, as we will continue 
to develop and enhance that project.
    All and all, our LIS system means an improved exchange 
program, quicker access to legislative information, and 
documents that we can use much more easily reuse and re-
purpose.
    I also want to thank the committee. We had some non-
recurring costs that you all were supportive of us on. We had 
some technology upgrades that we needed very badly, in closed-
captioning, in our gift shop, in our stationery room, and we 
have made progress on all of those in no small part thanks to 
this committee's help. So I thank you, again.

         SENATE PRESERVATION FUND AND CURATORIAL ADVISORY BOARD

    Most especially, something that I know is near and dear to 
you, and Senator Stevens' leadership was very helpful to us on 
this as well, and that is the creation of the Senate 
preservation fund, and a curatorial advisory board for us here 
in the United States Senate.
    I want to give you a quick update on that, in that, for the 
curatorial advisory board, we are in the process of gathering 
nominees from the members of the Commission on Art. 
Specifically, the legislation reads that those board nominees 
be experts, scholars in their field. And they will help us in 
terms of providing counsel on our Senate collection, looking at 
possible acquisitions for us, developing preservation policies.
    My hope is that we can have that board in place within the 
next month, and gather them for their first meeting this 
summer. So, that is an exciting opportunity.
    Second of all, again, the Senate Preservation Fund, the 
seed money that you all provided this committee, that $500,000, 
will give us the ability to service that curatorial advisory 
board in terms of administrative costs and also to make some 
potentially time-sensitive acquisitions going forward.
    In addition, I think that board and the Preservation Fund, 
the more people know of what we are looking to bring back to 
the United States Senate or the kinds of acquisitions we are 
looking for, the more that word spreads in that curatorial 
field, the better our ability will be to attract some 
additional treasures back to the Capitol and the Senate wing, 
in particular.

                              CURTIS CHAIR

    I want to again thank you, as you mentioned a moment ago, 
for bringing to our attention last year the existence of the 
chair that belonged to former Vice President Charles Curtis, 
and the detective search that we all enjoyed in terms of 
locating that chair, and bringing it back home, if you will.
    The chair is now, of course, on loan to us from an 
anonymous donor. With Vice President Curtis, it was housed in 
the Russell Senate Office Building. It now, as you know, has 
been placed in the ceremonial office for the Vice President, in 
the Capitol. As we move forward with plans for the exhibit 
content of the Capitol Visitor Center, our hope is that it will 
be displayed in the Visitor Center in the years to come, as 
well.

                    PORTRAIT OF MARGARET CHASE SMITH

    In other curator activity, the portrait of Margaret Chase 
Smith will arrive this year. This fall, we will see the 
addition of Senator Vandenberg and Senator Wagner to the Senate 
reception room. So, that will be an exciting event that all of 
us will look forward to, here in our Senate family.
    With our 26 departments, there are so many highlights in 
addition to all the curators' work. I just want to take a 
moment, just for a couple of additional highlights.

                             SENATE LIBRARY

    Our tremendous Senate library. While a lot of information 
centers are showing actual decline of usage, our Senate library 
last year continued its tradition of posting increases in use 
to up to 14 percent last year. Senate.gov, a tremendous tool, 
not only just for those of us here in the Senate community but 
for the general public, we are now averaging 115,000 visits to 
Senate.gov a day. So, it is a tremendous public education tool.

                        SENATE HISTORICAL OFFICE

    Our historical office last year was deeply involved in the 
first-ever conference of university-based research centers that 
are dedicated to the study of Congress. I am delighted to 
report that out of that conference, an Association of Centers 
for the Study of Congress was created. And with that, our 
historical office, we will help host that group for their first 
formal meeting. They will be meeting here with us in the 
Capitol next month. So again, something to look forward to. And 
again, our historical office played a pivotal role in that, 
something I am very proud to report.
    Our historical office also is a valuable part of the 
content team for the Capitol Visitor Center, as we look to 
opening that facility within the next couple of years.

                         COOP AND COG PLANNING

    I also want to mention that our continuity of operations 
planning and our continuity of Government planning, which I 
know our Sergeant-at-Arms, at his hearing last week, spent a 
great deal of time with you all on, is also an area that our 
office works very collaboratively with the Sergeant-at-Arms on. 
Clearly, as you mentioned a moment ago in the introduction, 
that planning pays off. Most recently, with our ricin scare 
February 2.
    Although our buildings were closed, our disbursing office 
still met payroll, just as they did during the anthrax incident 
of 2001. For offices that might have been relocated for a 
period of time, we exercised our COOP plan for the stationery 
store, so the supplies were available to offices as they set up 
in other locations. We had a statutory deadline in public 
records, and we were able to set up shop in our emergency 
operations center to meet that statutory filing deadline.
    We continue to exercise frequently with the Sergeant-at-
Arms in all aspects of COOP and COG, so that, most importantly, 
our team can meet our legislative responsibilities and any 
other responsibilities incumbent upon us.
    At the top of my remarks a moment ago, I mentioned the very 
able people within the Secretary's office, and I want to 
commend them, if you will indulge me for a moment. It is 
remarkable to me that total combined within our office, the 
individuals who staff the Secretary's office represent a 
combined service of over 2,500 years of service to the United 
States Senate.
    They really do represent the best of the vision of Senators 
Mansfield and Dirksen for now some 40 years ago. And that is 
attracting people to the Secretary's office to serve as true 
professionals, to maintain and strengthen the United States 
Senate as an institution, as a whole, and they are a remarkable 
group of individuals.
    You see how that strength and their expertise is so 
important to us when you look at the kind of legislative year 
we had last year. It was the busiest legislative year since 
1995. Having that depth and breadth of experience, especially 
as we went through two, of course, overnight marathon sessions 
in November, and followed by a rare weekend session right on 
the heels of that, that longevity in service, that expertise 
serves the Senate very well every day.

                 SUCCESSION PLANNING AND CROSS-TRAINING

    With that longevity of service also comes the need for 
succession planning and cross-training among our specialties. 
That initiative continues as well. We have a perfect example I 
just want to cite amongst our own personnel, in terms of 
succession planning, is that we have been able, in a very 
pivotal role within the legislative clerk's office, we were 
able to bring someone on 10 months in advance of a pending 
retirement, so that those individuals have ample time to train, 
share knowledge, work side by side on a daily basis; and when 
that retirement occurs, will allow for a seamless transition in 
our legislative shop.
    You will also notice in our cross-training efforts, our 
staff that works at the Senate rostrum, among the legislative 
clerk's staff, while their faces do not necessarily change, 
they will change seats on you from time to time. That is 
because all of them were cross-trained amongst their 
specialties; again, to give us all that depth and breadth of 
experience, enabling the Senate to meet its constitutional 
responsibilities.
    It has been my real privilege, for now just about 16 
months, to serve as the Senate's 31st Secretary, to be part of 
the tradition and history of this incredible institution. That 
is why on balance, I believe, after careful examination, the 
budget request we bring you today, both in terms of our 
operating budget and our personnel costs, will enable us to 
continue to provide the very best possible legislative, 
financial, and administrative services to this body.

                           PREPARED STATEMENT

    I thank you and I look forward to your questions.
    Senator Campbell. Thank you, Emily.
    Ms. Reynolds. Thank you, sir.
    [The statement follows:]
                Prepared Statement of Emily J. Reynolds
    Mr. Chairman, Senator Durbin and Members of the Subcommittee, thank 
you for your invitation to present testimony in support of the budget 
request of the Office of the Secretary of the Senate for fiscal year 
2005.
    Detailed information about the work of the 26 departments of the 
Office of the Secretary is provided in the annual reports which follow. 
I am pleased to provide this statement to highlight the achievements of 
the Office and the outstanding work of our dedicated employees.
    My statement includes: Presenting the fiscal year 2005 Budget 
Request; Implementing Mandated Systems: Financial Management 
Information System (FMIS) and Legislative Information System (LIS); 
Capitol Visitor Center; Continuity of Operations Planning; and 
Maintaining and Improving Current and Historic Legislative, Financial 
and Administrative Services.
             presenting the fiscal year 2005 budget request
    I am requesting a total fiscal year 2005 budget of $21,286,000.
    The fiscal year 2005 budget request is comprised of $19,586,000 in 
salary costs and $1,700,000 for the operating budget of the Office of 
the Secretary. The salary budget represents an increase over the fiscal 
year 2004 budget request as a result of (1) the costs associated with 
the annual Cost of Living Adjustment in the amount of $717,000; and (2) 
an additional $570,000 for merit increases and other staffing.
    The net effect of my total budget request for fiscal year 2005 is 
an increase of $722,000.
    Our request in the operating budget, which is the same as fiscal 
year 2004, is a sound one, enabling us to meet our operating needs and 
provide the necessary services to the United States Senate through our 
legislative, financial and administrative offices.
    In reference to the salary budget, first and foremost, this request 
will enable us to continue to attract and retain talented and dedicated 
individuals to serve the needs of the United States Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                     AMOUNT
                                                                    AVAILABLE        BUDGET
                              ITEM                                 FISCAL YEAR      ESTIMATE        DIFFERENCE
                                                                   2004 PUBLIC     FISCAL YEAR
                                                                   LAW 108-83         2005
----------------------------------------------------------------------------------------------------------------
DEPARTMENTAL OPERATING BUDGET:
    EXECUTIVE OFFICE...........................................        $525,000        $525,000  ...............
    ADMINISTRATIVE SERVICES....................................       1,100,000       1,135,000         $35,000
    LEGISLATIVE SERVICES.......................................          75,000          40,000         (35,000)
                                                                ------------------------------------------------
      TOTAL OPERATING BUDGET...................................       1,700,000       1,700,000  ...............
                                                                ================================================
SPECIAL PROJECTS...............................................         565,000  ..............        (565,000)
                                                                ------------------------------------------------
      TOTALS...................................................       2,265,000       1,700,000        (565,000)
----------------------------------------------------------------------------------------------------------------

                     implementing mandated systems
    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 100 Senators' offices, 20 Committees and 20 Leadership 
and support offices. As a result of a five year strategic plan 
developed by the Disbursing Office, the Appropriations Committee 
subsequently approved a $5 million appropriation of a multi-year 
program to upgrade and expand FMIS for the Senate.
    With these funds, the Disbursing Office continues to modernize 
processes and applications to meet the continued demand by our Senate 
offices for efficiency, accountability and ease of use. Our goal is to 
move to a paperless voucher system, improve the Web-FMIS system, and 
make payroll and accounting system improvements. In addition, we are 
working cooperatively with the Sergeant at Arms to prepare auditable 
financial statements for the Senate.
    In 2003, specific progress made on the FMIS project included:
  --Implementing three releases of Web FMIS, the accounting system used 
        by offices, which included making the online ESR function 
        available to all offices and piloting online review and 
        sanctioning capability to the Rules Committee Audit staff; 
        making changes to the reporting functionality; making changes 
        to the underlying technology; and providing additional office/
        committee functionality such as credit documents and the 
        ability to create budgets for a new fiscal year.
  --Implementing two releases of the Senate Automated Vendor Inquiry 
        (SAVI), the system used by Senate staff to see payment 
        information and to prepare expense summary reports (online 
        ESR's). Those releases were designed both to streamline access 
        to data necessitated by the full Senate implementation of 
        online ESR and to enhance security.
  --Implementing software enabling the Rules Committee Audit staff to 
        conduct the first and second post payment audits. This was done 
        in conjunction with the delegation of sanctioning authority to 
        the Financial Clerk for vouchers of $35 or less. These 
        statistically valid samples were returned with zero errors, and 
        the threshold was consequently increased by the Rules Committee 
        to $100 or less, effective January 1, 2004.
  --Piloting payments to external vendors via direct deposit.
  --Revising requirements for imaging of supporting documentation and 
        electronic signatures.
    For fiscal year 2004, the following FMIS activities are underway:
  --Full scale implementation of Rules Committee on-line review of Web 
        FMIS-produced vouchers is now completed.
  --Implementation of two WEB FMIS releases that will simplify the 
        system architecture, upgrade the technology used, provide 
        simpler disaster recovery and provide the platform for the 
        imaging of supporting documentation and electronic signatures.
  --Conduct a pilot for the use of laser checks.
  --Implementation of a new release of the SAVI system that enables e-
        mail notification of payments to vendors and staff.
  --Implementation of a new release of the online ESR component of SAVI 
        that will incorporate suggestions made by users.
  --Investigate the use of electronic signatures, imaging of supporting 
        documentation, and receipt of electronic invoices.
    During fiscal year 2005, the following FMIS activities are 
anticipated:
  --Implementation of a Web FMIS release to provide additional reports 
        useful to office with improvements in the software used to 
        create reports.
  --Conduct a pilot of the technology for paperless payment processing.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office which follows.
Legislative Information System (LIS)
    Our second mandated system, which this Committee has also 
generously supported, is the Legislative Information System, or LIS, 
which provides Senators and staff with text of Senate and House 
legislative documents from their desktop computers. In addition, LIS 
provides real-time access to legislative amendments and the current 
status of new legislation within 24 hours. LIS originates from the 1997 
Legislative Branch Appropriations Act, which also established a 
requirement for the broadest possible exchange of information among 
legislative branch agencies. This exchange process is now the focus of 
the LIS Augmentation Project, or LISAP.
    The overall objective of the LISAP is to implement the extensible 
markup language, or XML, as the data standard to author and exchange 
legislative documents among the Senate, House of Representatives, the 
Government Printing Office and other legislative agencies. Two years 
ago, the Appropriations Committee appropriated $7 million to the 
Secretary for the LISAP, to carry out the Senate portion of the 
December 2000 directive given to both the Secretary and the Clerk of 
the House by the Senate Rules Committee and the House Administration 
Committee respectively. Thus far, we have spent approximately $4 
million of our appropriation, and I am pleased to report that 
considerable progress has been made and the project is on budget and 
running smoothly.
    The project is currently focused on Senate-wide implementation and 
transition to a standard system for the authoring and exchange of 
legislative documents, including an XML authoring system for the Office 
of Senate Legislative Counsel (SLC) and the Enrolling Clerk for bills, 
resolutions and amendments. A database of documents in XML format and 
an improved exchange program will mean quicker and better access to 
legislative information and will provide documents that are more easily 
shared, reused and repurposed.
    The LISAP project team is developing the Senate's legislative 
editing XML application (LEXA) which was installed in the Office of the 
Senate Legislative Counsel (SLC) in January 2004. The attorneys and 
staff assistants received training and immediately began drafting some 
bills, resolutions, and amendments in XML with the first XML draft 
introduced on January 22, 2004.
    The SLC's document management system was completed in December 
2003, and will be implemented this year. Several of the XML document 
conversion projects have been completed, including the conversion of 
bills, resolutions and amendments from the 106th, 107th and 108th 
(first session) Congresses. The conversion of the compilations of 
current law to XML will be completed in the next few months. The SLC 
and House Legislative Counsel use the compilations in drafting bills 
and amendments.
    The SLC is working closely with the project team on continued 
development and enhancement of LEXA. The Enrolling Clerk and the 
Government Printing Office are next in line to begin using LEXA. When 
LEXA is fully functional for these two operations in producing XML 
documents, the project team will then turn its attention to other 
Senate offices and other types of legislative documents.
    A more detailed report on LIS follows the departmental reports.
                         capitol visitor center
    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. My colleague, 
the Clerk of the House, and I continue to facilitate weekly meetings 
with senior staff of the joint leadership of Congress to address and 
hopefully quickly resolve issues that might impact the status of the 
project or the operations of Congress in general.
    In addition, I also facilitate weekly meetings with the Architect's 
office for the senior staff of the Senate Sergeant at Arms, Capitol 
Police, Rules Committee and Appropriations Committee, to address the 
expansion space plans for the Senate and any issues with regard to the 
CVC's construction that may directly impact Senate operations.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the Capitol Visitor 
Center will bring substantial improvements in enhanced security and 
visitor amenities, and its educational benefits for our visitors will 
be tremendous.
      continuity of operations and emergency preparedness planning
    The Office of the Secretary maintains a Continuity of Operations 
(COOP) program to ensure that the Senate can fulfill its Constitutional 
obligations under any circumstances. Plans are in place to support 
Senate Floor operations both on and off Capitol Hill, and to permit 
each department within the Office of the Secretary to perform its 
essential functions during and after an emergency.
    COOP planning in the Office of the Secretary began in late 2000. 
Since that time, this office has successfully implemented COOP plans 
during the anthrax and ricin incidents, and have conducted roughly one 
dozen drills and exercises to test and refine our plans. In conjunction 
with the Sergeant at Arms, Capitol Police, and the Offices of the 
Attending Physician and the Architect of the Capitol, the Office of the 
Secretary has established and exercised Emergency Operations Centers, 
Briefing Centers and Alternate Senate Chambers, both on and off Capitol 
Hill.
    In addition, the Office has identified equipment, supplies and 
other items critical to the conduct of essential functions, and has 
assembled ``fly-away kits'' for the Senate Chamber and for each 
department within the Office of the Secretary. Multiple copies of each 
fly-away kit have been produced. Some are stored in our offices, and 
back-up kits are stored nearby but off Capitol property, as well as at 
other sites outside the District of Columbia. This approach enables the 
Office of the Secretary to resume essential operations within 12 to 24 
hours, even if there is no ability to retrieve anything from offices in 
the Capitol.
    Today, the Office of the Secretary is prepared to do the following 
in the event of emergency: support Senate Floor operations in an 
Alternate Senate Chamber within twelve hours on Capitol property, and 
within 24 to 72 hours off property, depending upon location; support an 
emergency legislative session at a Briefing Center, if required; 
support Briefing Center Operations at any of three designated locations 
within one hour; and activate an Emergency Operations Center on campus 
or at Postal Square within one hour.
    During the past year, the Office of the Secretary continued to 
update, refine and exercise emergency preparedness plans and 
operations. Specific activities included the following:
  --Activated an Emergency Operations Center, Leadership Coordination 
        Center and selected departmental COOP plans during the ricin 
        incident response;
  --Participated in the Capitol Police Incident Command during the 
        ricin incident response;
  --Provided supplies to temporary offices in the Capitol and Postal 
        Square during the ricin incident response;
  --Conducted an offsite Alternate Chamber exercise and a Briefing 
        Center exercise;
  --Identified and acquired all equipment and supplies required to 
        support Senate operations at an offsite Alternate Chamber, and 
        stored all materials at the Alternate Chamber location;
  --Reviewed, revised and published the Office of the Secretary's 
        Master COOP plan, and all departmental COOP plans.
    The central mission of the Office of the Secretary is to provide 
the legislative, financial and administrative support required for the 
conduct of Senate business. The Office's emergency preparedness 
programs are designed to ensure that the Senate can carry out its 
Constitutional functions under any circumstances. These programs are 
critical to the mission of the Office, and have become a permanent, 
integral part of operations. With the continued assistance of the 
Leadership, the Sergeant at Arms, and the Appropriations Committee, the 
Office of the Secretary is confident that we will be successful in 
facing any future emergency.
 maintaining and improving current and historic legislative, financial 
                      and administrative services
                          legislative offices
    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators in carrying out their 
daily chamber activities as well as the constitutional responsibilities 
of the Senate. The department consists of eight offices--the Bill 
Clerk, Captioning Services, Daily Digest, Enrolling Clerk, Executive 
Clerk, Journal Clerk, Legislative Clerk, and the Official Reporters of 
Debates--who are supervised by the Secretary through the Legislative 
Clerk. The Parliamentarian's office is also part of the Legislative 
Department of the Secretary of the Senate.
    Each of the nine offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service of legislative supervisors in the Office of 
the Secretary of the Senate is twenty years. There is not one 
supervisor with less than thirteen years of service. The experience of 
these senior professional staff is a great asset for the Senate. As in 
previous years and in order to ensure continued well-rounded expertise, 
the legislative team has cross-trained extensively among their 
specialities.
                             1. bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system, available to all House 
and Senate offices via the Legislative Information System (LIS). The 
Bill Clerk records actions of the Senate with regard to bills, reports, 
amendments, cosponsors, public law numbers, and recorded votes. The 
Bill Clerk is responsible for preparing for print all measures 
introduced, received, submitted, and reported in the Senate. The Bill 
Clerk also assigns numbers to all Senate bills and resolutions. All the 
information received in this office comes directly from the Senate 
floor in written form within moments of the action involved, so the 
Bill Clerk's Office is generally regarded as the most timely and most 
accurate source of legislative information.
Legislative Activity
    The Bill Clerk's Office processed slightly fewer pieces of 
legislative materials and significantly more roll call votes during the 
first session of the 108th Congress versus the first session of the 
107th Congress. Below is a comparative summary of the first sessions of 
the 107th and the 108th Congresses:

------------------------------------------------------------------------
                                               107th           108th
                                           Congress, 1st   Congress, 1st
                                              Session         Session
------------------------------------------------------------------------
Senate Bills............................           1,883           2,003
Senate Joint Resolutions................              30              26
Senate Concurrent Resolutions...........              93              86
Senate Resolutions......................             198             283
Amendments Submitted....................           2,697           2,231
House Bills.............................             264             282
House Joint Resolutions.................              17              20
House Concurrent Resolutions............              91              78
Measures Reported.......................             247             352
Written Reports.........................             132             220
                                         -------------------------------
      Total Legislation.................           5,652           5,571
                                         ===============================
Roll Call Votes.........................             380             459
------------------------------------------------------------------------

Assistance from the Government Printing Office (GPO)
    The Government Printing Office has responded in a timely manner to 
the Secretary's request through the Bill Clerk's office for the 
printing of bills and reports, including the printing of priority 
matters for the Senate chamber. Specifically, the Secretary requested, 
through the Bill Clerk, that GPO reprint (star printed) 21 pieces of 
legislation during the course of the Congress, and that GPO expedite 
the printing of 31 measures for the Senate.
Projects
    Amendment Tracking System.--In the fall of 2001, the Rules 
Committee approached our office with the task of scanning submitted 
amendments onto the Amendment Tracking System on LIS. The Rules 
Committee identified a need for Senate staff to have all amendments 
submitted in the Senate made available online shortly after being 
filed, especially during cloture. Rules Committee also requested that 
the Secretary through the Bill Clerk assess the feasibility of lifting 
the page limitation for scanning amendments onto the ATS Indexer. In 
response, the Bill Clerk contacted the Technology Development division 
of the Sergeant-At-Arms office to outline the technical requirements 
needed to implement such a request, and a draft outline was completed. 
Once the final version is delivered, the Secretary through the Bill 
Clerk, in consultation with the Legislative Clerk, will ascertain the 
legislative requirements needed in order for the staff to implement 
this request. The system must be designed and implemented without 
sacrificing critical services to the functioning of the Senate Chamber, 
specifically the amendment process.
    Electronic Ledger System.--Shortly after the September 2001 attacks 
and the subsequent anthrax attacks in the Capitol complex, the Bill 
Clerk identified the need to have an electronic version of the official 
Senate ledgers to ensure the integrity of the information recorded in 
the ledgers. The electronic version should be portable for use during 
possible emergency scenarios. The Technology Development division of 
the Sergeant-At-Arms is working to develop two separate functions of 
this electronic ledger system. One is an electronic data entry system 
which will mimic the layout of the current Senate ledgers printed by 
the Government Printing Office; the other is a search function. Both of 
these programs will be housed on a separate server to maintain the 
integrity of the ledger data. The electronic ledger system is currently 
under development.
                    2. office of captioning services
    Since 1991, the Office of Captioning Services has provided real-
time captioning of Senate floor proceedings for the deaf and hard-of-
hearing along with unofficial electronic transcripts of those 
proceedings to Senate offices via the Senate Intranet.
General Overview
    Accuracy remains the watchword of this office. Overall caption 
quality is monitored through translation data reports, monitoring the 
captions in real-time and reviewing the caption files on the Senate 
Intranet.
Technology Update
    A year-long review of all available real-time captioning technology 
for the office in fiscal year 2002 led to the acquisition of new real-
time captioning technology. By the end of fiscal year 2003, windows-
based software and paperless writing devices had been installed and all 
closed captioners had been trained and were on the air with the new 
technology.
    Voice recognition technology continues to improve and the Office of 
Captioning Services is on the cutting edge of testing and evaluating 
these products as they evolve. The pilot project to real-time caption 
Judiciary Committee hearings in fiscal year 2004 continues and a 
summary of the results will be provided at the completion of the 
project.
Primary 2004 Objectives
    To assist in both the execution of the Judiciary Committee's real-
time captioning pilot project and the preparation of a final report at 
the conclusion of the project for the Rules Committee, the Judiciary 
Committee and the Secretary of the Senate.
    To develop indefinite backup capability for assistance during 
sessions that may go around-the-clock.
                            3. daily digest
    The Senate Daily Digest serves seven principal functions:
  --To render a brief, concise and easy-to-read accounting of all 
        official actions taken by the Senate in the Congressional 
        Record section known as the Daily Digest;
  --To compile an accounting of all meetings of Senate committees, 
        subcommittees, joint committees and committees of conference;
  --To enter all Senate and Joint committee scheduling data into the 
        Senate's web-based scheduling application system. Committee 
        scheduling information is also prepared for publication in the 
        Daily Digest in three formats: Day-Ahead Schedule; 
        Congressional Program for the Week Ahead; and the extended 
        schedule which actually appears in the Extensions of Remarks 
        section of the Congressional Record;
  --To enter into the Senate's Legislative Information System all 
        official actions taken by Senate committees on legislation, 
        nominations, and treaties;
  --To publish in the Daily Digest a listing of all legislation which 
        has become public law;
  --To publish on the first legislative day of each month in the Daily 
        Digest a ``Resume of Congressional Activity'' which includes 
        all Congressional statistical information, including days and 
        time in session; measures introduced, reported and passed; and 
        rollcall votes. (See Attachment--Resume of Congressional 
        Activity); and
  --To assist the House Daily Digest Editor in the preparation at the 
        end of each session of Congress a history of public bills 
        enacted into law and a final resume of congressional 
        statistical activity.
Committee Activity
    Senate committees held a total of 906 meetings during the first 
session of the 108th Congress, as contrasted with 961 meetings during 
the first session of the 107th Congress.
Chamber Activity
    The Senate was in session a total of 167 days, for a total of 1,454 
hours and 5 minutes. There were 3 quorum calls and 459 record votes. (A 
20-Year Comparison of Senate Legislative Activity follows).
Computer Activities
    The Digest office continues to work closely with Senate computer 
staff to refine the LIS/DMS system. Under the direction of the Editor, 
the computer center staff was able to create two new reports for the 
Daily Digest. Report 82 is a compilation of Treaties Approved in Digest 
format, and Report 83 is a compilation of Written Executive Reports of 
Committees in Digest format. The Digest is also pleased to report that 
all refinements made to the Senate Committee Scheduling application 
have been successfully implemented, including the capability of 
entering multiple documents. The committee scheduling application was 
developed back in 1999 as a server-based web-enabled application that 
is browser accessible to all Senate offices on Capitol Hill. It was 
designed to replace the committee scheduling functions and reports that 
were supported by the mainframe-based Senate Legis System.
Assistance from the Government Printing Office
    The Daily Digest continues to send the complete publication at the 
end of each day to the Government Printing Office (GPO) electronically. 
The Editor, Assistant Editor, and Committee Scheduling Coordinator 
function coordinate in preparing Digest copy on computers, storing and 
sharing information, permitting prompt editing, and transferring the 
final to floppy disc. The Digest continues the practice of sending a 
disc along with a duplicate hard copy to GPO, even though GPO receives 
the Digest copy by electronic transfer long before hand delivery is 
completed adding to the timeliness of publishing the Congressional 
Record. The Digest office is comfortable with this procedure, both to 
allow the Digest Editor to physically view what is being transmitted to 
GPO, and to allow GPO staff to have a comparable final product to cross 
reference.
    The Daily Digest continues the practice of discussing with GPO 
problems encountered with the printing of the Digest, and are pleased 
to report that with the onset of electronic transfer of the Digest 
copy, occurrences of editing corrections or transcript errors are 
infrequent.
                           4. enrolling clerk
    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 2003, 62 enrolled bills (transmitted to the President) and 8 
concurrent resolutions (transmitted to Archives) were prepared, 
printed, proofread, corrected, and printed on parchment.
    A total of 593 additional pieces of legislation in one form or 
another, were passed or agreed to by the Senate, all processed from 
this office.
                           5. executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Executive Journal at the end of 
each session of Congress. The Executive Clerk also prepares daily the 
Executive Calendar as well as all nomination and treaty resolutions for 
transmittal to the President. Additionally, the Executive Clerk's 
office processes all executive communications, Presidential messages 
and petitions and memorials.
Nominations
    During the first session of the 108th Congress, there were 1,201 
nomination messages sent to the Senate by the President, transmitting 
28,423 nominations to positions requiring Senate confirmation and 13 
messages withdrawing nominations previously sent to the Senate during 
the first session of the 108th Congress. Of the total nominations 
transmitted, 600 were for civilian positions other than lists in the 
Foreign Service, Coast Guard, NOAA, and Public Health Service. In 
addition, there were 2,578 nominees in the ``civilian list'' categories 
named above. Military nominations received this session totaled 25,245 
(9,068--Air Force; 6,012--Army; 7,752--Navy; and 2,413--Marine Corps). 
The Senate confirmed 21,580 nominations this session. Pursuant to the 
provisions of paragraph six of Senate Rule XXXI, 18 nominations were 
returned to the President during the first session of the 108th 
Congress.
Treaties
    There were 14 treaties transmitted to the Senate by the President 
during the first session of the 108th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 108-1 through 108-14). The 
Senate gave its advice and consent to 11 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.
Executive Reports and Roll Call Votes
    There were 8 executive reports relating to treaties ordered printed 
for the use of the Senate during the first session of the 108th 
Congress (Executive Report 108-1 through 108-8). The Senate conducted 
78 roll call votes in executive session, all on or in relation to 
nominations and a treaty.
Executive Communications
    For the first session of the 108th Congress, 5,352 executive 
communications, 337 petitions and memorials and 58 Presidential 
messages were received and processed.
Legislative Information System (LIS) Update
    Our staff consulted with the Senate Computer Center (SCC) during 
the year concerning the ongoing improvements to the LIS pertaining to 
the processing of nominations, treaties, executive communications, 
presidential messages and petitions and memorials. Working with the 
Government Printing Office (GPO) and SCC staff, a process was developed 
last year for the printing of the Executive Journal by creating a PDF 
file. This year the Secretary's Information Systems staff provided the 
Executive Clerk's office with a new HP Digital Sender that has proven 
to be an even faster and more efficient process for sending the PDF 
file of the Executive Journal to GPO for printing.
    In the future, the Senate Computer Center will develop the 
Executive Calendar in a more ``user friendly'' program that will be 
beneficial to our office and the SAA computer support staff. In the 
meantime, the text field for placing unanimous consent agreements on 
the Executive Calendar was redesigned to provide the Executive Clerk 
more control in editing the Calendar in 2004.
                            6. journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Senate Journal as required by Article 
I, Section V of the Constitution. The Senate Journal is published each 
calendar year.
    In 2003, the Journal Clerk completed the production of the 903-page 
2002 Journal of the proceedings of the Senate, the annual project as 
required by the Constitution. The Journal staff take 90 minute turns at 
the rostrum in the Senate Chamber, noting by hand for inclusion in the 
Minute Book (i) all orders (entered into by the Senate through 
unanimous consent agreements), (ii) legislative messages received from 
the President of the United States, (iii) messages from the House of 
Representatives, (iv) legislative actions as taken by the Senate 
(including motions made by Senators, points of order raised, and roll 
call votes taken), (v) amendments submitted and proposed for 
consideration, (vi) bills and joint resolutions introduced, and (vii) 
concurrent and Senate resolutions as submitted. These notes of the 
proceedings are then compiled in electronic form for eventual 
publication of the Journal at the end of each calendar year.
    Over the past two years, the Sergeant at Arms' Technology 
Development Service Department, under the guidance of the Journal 
Clerk, has developed the LIS Senate Journal Authoring System. This 
system provides a much needed, supportable system for authoring and 
publication of the Senate Journal, in place of the decade-old software 
currently used for production. The system was installed for user 
evaluation in March 2004, and will be released for use by the end of 
April. The system's functionality was successfully exercised during the 
compilation of the 1,146 page 2003 Journal, which was sent to the 
Government Printing Office for printing at the end of March.
                          7. legislative clerk
    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the Presiding Officer of the Senate. 
The Legislative Clerk calls the roll of members to establish the 
presence of a quorum and to record and tally all yea and nay votes. 
This office prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate into those 
measures any amendments that are agreed to. This office retains custody 
of official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. This office is 
responsible for verifying the accuracy of information entered into the 
LIS system by the various offices of the Secretary.
    Additionally, the Legislative Clerk acts as supervisor for the 
Legislative Department providing a single line of communication to the 
Assistant Secretary and Secretary, and is responsible for overall 
coordination, supervision, scheduling, and cross-training of the 
department's eight offices.
    Underscoring the importance of planning for the continuity of 
Senate business, under both normal and possibly extenuating 
circumstances, cross-training is strongly emphasized among the 
Secretary's legislative staff. Currently, 50 percent of the legislative 
staff have been cross-trained between their specialities.
Summary of Activity
    The first session of the 108th Congress completed its legislative 
business and adjourned sine die on December 9, 2003. During 2003, the 
Senate was in session 167 days, over 1,454 hours and conducted 459 roll 
call votes. There were 352 measures reported from committees, 590 total 
measures passed, and 153 items remained on the Calendar at the time of 
adjournment. In addition, 2,231 amendments were processed.
Legislative Information System (LIS) Enhancement
    In an effort to monitor and improve the Legislative Information 
System (LIS), the Legislative Clerk acts as the liaison between 
legislative clerks and technical operations staff of the Sergeant at 
Arms. The Legislative Clerk also reviews, prioritizes, and forwards 
change requests from the clerks to the technical operations staff. Over 
the past year, 36 change requests submitted by the clerks to improve 
the system have been implemented.
                    8. official reporters of debates
    The Official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation are 
transmitted in hard copy and electronically throughout the day to the 
Government Printing Office (GPO).
    The office works diligently to assure that the electronic 
submissions to GPO are timely and efficient. The Official Reporters 
encourage offices to make submissions to the Record by electronic 
means, which results in both a tremendous cost saving to the Senate and 
minimizes keyboard errors.
                           9. parliamentarian
    In 2003, the Parliamentarian's Office continued to perform its 
extensive legislative duties. These include advising the Chair, 
Senators and their staff, committee staff, House members and their 
staffs, administration officials, the media and members of the general 
public, on all matters requiring an interpretation of the Standing 
Rules of the Senate, the precedents of the Senate, unanimous consent 
agreements, as well as provisions of public law affecting the 
proceedings of the Senate. The Parliamentarians work in close 
cooperation with the Senate leadership and their floor staffs in 
coordinating all of the business on the Senate floor. The 
Parliamentarians work closely with the staff of the Vice President of 
the United States and the Vice President himself whenever he performs 
his duties as President of the Senate. The Parliamentarians monitor all 
proceedings on the floor of the Senate, advise the Presiding Officer on 
the competing rights of the Senators on the floor, and advise all 
Senators as to what is appropriate in debate.
    The Parliamentarians also keep track of the amendments offered to 
the legislation pending on the Senate floor, and monitor them for 
points of order. The Parliamentarians reviewed more than 1,000 
amendments during 2003 to determine if they met various procedural 
requirements. The Parliamentarians also reviewed thousands of pages of 
conference reports to determine what provisions could appropriately be 
included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, and communications 
received from the executive branch, state and local governments, as 
well as private citizens. In order to perform this responsibility, the 
Parliamentarians do extensive legal and legislative research. During 
2003, the Parliamentarian and his assistants referred 2,467 measures 
and 5,747 communications to the appropriate Senate committees. The 
office worked extensively with Senators and their staffs to advise them 
of the jurisdictional consequences of particular drafts of legislation, 
and evaluated the jurisdictional effect of proposed modifications in 
drafting. The office continues to address the difficult jurisdictional 
questions posed by the creation of the massive new Department of 
Homeland Security, which now has responsibility for hundreds of issues 
previously in the jurisdiction of other Senate committees. The 
Parliamentarians have made dozens of decisions about the committee 
referrals of nominations for new positions created in this department, 
nominations for positions which existed before this department was 
created but whose responsibilities have changed, and hundreds of 
legislative proposals concerning the department's responsibilities.
    Additionally, in the last three years, rules relating to 
legislation on appropriations bills, and the scope of conference 
reports on all bills were reinstated. This has opened up hundreds of 
Senate amendments to renewed scrutiny by the Parliamentarians, and has 
meant that the Parliamentarians now have the responsibility of 
potentially reviewing every provision of every conference report 
considered by both Houses of Congress.
    The Parliamentarians have taken the lead in the Senate to analyze 
the need for emergency procedural authorities of Congress generally, 
and the Senate in particular.

                                                                        YEARLY COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1984          1985          1986          1987          1988          1989          1990          1991          1992          1993
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................          1/25           1/3          1/21           1/6          1/25           1/3          1/23           1/3           1/3           1/5
Senate Adjourned....................................         10/12         12/20         10/18         12/22         10/21         11/21         10/28        1/3/92          10/9         11/26
Days in Session.....................................           131           170           143           170           137           136           138           158           129           153
Hours in Session....................................        94025"      1,25231"      1,27815"      1,21452"      1,12648"      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"
Average Hours per Day...............................           7.2           7.4           8.9           7.1           8.2           7.4           9.1           7.6           8.5           8.3
Total Measures Passed...............................           726           583           747           616           814           605           716           626           651           473
Roll Call Votes.....................................           181           381           359           420           379           312           326           280           270           395
Quorum Calls........................................            19            20            16            36            26            11             3             3             5             2
Public Laws.........................................           408           240           424           240           473           240           244           243           347           210
Treaties Ratified...................................            20             6            12             3            15             9            15            15            32            20
Nominations Confirmed...............................        41,726        55,918        39,893        46,404        42,317        45,585        42,493        45,369        30,619        38,676
Average Voting Attendance...........................         91.95         94.64         95.72         94.03         91.58          98.0         97.47         97.16          95.4          97.6
Sessions Convened Before 12 Noon....................           106           119           117           131           120            95           116           126           112           128
Sessions Convened at 12 Noon........................            18            38            25            12            12            14             4             9             6             9
Sessions Convened after 12 Noon.....................             7            13             1            25             5            27            17            23            10            15
Sessions Continued after 6 p.m......................            81           104            92            97            37            88           100           102            91           100
Sessions Continued after 12 Midnight................            11             7            15             6             7             9            13             6             4             9
Saturday Sessions...................................             1             3             2             3  ............             1             3             2             2             2
Sunday Sessions.....................................  ............             1  ............             1  ............  ............             2  ............  ............  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                   YEARLY COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1994          1995          1996          1997          1998          1999          2000          2001          2002          2003
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................          1/25           1/4           1/3           1/3          1/27           1/6          1/24           1/3          1/23           1/7
Senate Adjourned....................................         12/01        1/3/96          10/4         11/13         10/21         11/19         12/15         12/20         11/20          12/9
Days in Session.....................................           138           211           132           153           143           162           141           173           149           167
Hours in Session....................................      1,24333"      1,83910"      1,03645"      1,09307"      1,09505"      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"
Average Hours per Day...............................           9.0           8.7           7.8           7.1           7.7           7.3           7.2           7.1           7.0           8.7
Total Measures Passed...............................           465           346           476           386           506           549           696           425           523           590
Roll Call Votes.....................................           329           613           306           298           314           374           298           380           253           459
Quorum Calls........................................             6             3             2             6             4             7             6             3             2             3
Public Laws.........................................           255            88           245           153           241           170           410           136           241           198
Treaties Ratified...................................             8            10            28            15            53            13            39             3            17            11
Nominations Confirmed...............................        37,446        40,535        33,176        25,576        20,302        22,468        22,512        25,091        23,633        21,580
Average Voting Attendance...........................         97.02         98.07         98.22         98.68         97.47         98.02         96.99         98.29         96.36         96.07
Sessions Convened Before 12 Noon....................           120           184           113           115           109           118           107           140           119           133
Sessions Convened at 12 Noon........................             2            15            12            31            17            25            10            12             4             9
Sessions Convened after 12 Noon.....................            17            12             7             7             2            19            24            21            23            23
Sessions Continued after 6 p.m......................           100           158            88            96            93           113            94           108           103           134
Sessions Continued after 12 Midnight................             7             3             1             2             3             8
Saturday Sessions...................................             3             5             1             1             1             3             1             3             1
Sunday Sessions.....................................  ............             3  ............             1  ............  ............             1  ............  ............             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

                financial operations: disbursing office
                     disbursing office organization
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed 
offices, and to Members and employees of the United States Senate. To 
accomplish this mission, the Senate Disbursing Office manages the 
collection of information from the distributed accounting locations in 
the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, prepare auditable 
financial statements, and provide appropriate counseling and advice. 
The Senate Disbursing Office collects information from Members and 
employees that is necessary to maintain and administer the retirement, 
health insurance, life insurance, and other central human resource 
programs in order to provide responsive, personal attention to Members 
and employees on a confidential basis. The Senate Disbursing Office 
also manages the distribution of central financial and human resource 
information to the individual Member Offices, Committees, and 
Administrative and Leadership offices in the Senate while maintaining 
the appropriate control of information for the protection of individual 
Members and Senate employees.
    To support the mission of the Senate Disbursing Office, the 
organization is structured in a manner that is intended to enhance its 
ability to provide quality work, maintain a high level of customer 
service, promote good internal controls, efficiency and teamwork, and 
provide for the appropriate levels of supervision and management. The 
long-term financial needs of the Senate are best served by an 
organization staffed with highly trained professionals who possess a 
high degree of institutional knowledge, sound judgement, and 
interpersonal skills that reflect the unique nature of the United 
States Senate.
               deputy for benefits and financial services
    The responsibility of this position is to serve as the Senate's 
expert on Federal retirement and benefits, payroll, and front office 
processes. Coordination of the interaction among the Financial 
Services, Employee Benefits, and Payroll sections is also a major 
responsibility of the position. Planning and project management of new 
computer systems and programs is a further responsibility. Ensuring 
that job processes are efficient and up to date, modifying computer 
support systems, implementing regulatory and legislated changes, and 
designing and producing up to date forms for use in all three sections 
are additional areas of responsibility.
2003 Accomplishments and activities
    Normal computer systems do not account for employees over 99 years 
of age, and consequently, the DO life insurance computer data elements 
have been expanded to accommodate 100 years of age. New age bands and 
deduction rates were instituted by regulation and our computer systems 
were modified to accommodate the new requirements.
    OPM mandated that a new calculation routine for the Civil Service 
Retirement-Offset deduction and new reporting requirements took effect 
in January, 2003. Much of the work was performed in late 2002 and the 
retirement record changes, the new deductions, and the new reports ran 
perfectly for the first payroll of 2003. Two new computer screens were 
built to track the new Offset CSRS deductions at 7.5 percent .
    As part of an ongoing effort to prevent payroll errors, an edit was 
added so that an account line with a future stop date cannot be 
deleted. However, this was removed the next month as it was determined 
that the high volume of alterations required due to offices changing 
pay increases, terminations, and transfers, necessitated the ability to 
delete future lines.
    Computer system menus for update and inquiry were altered early in 
the year to accommodate all of the new screens and the many changes 
required for implementation later in the year.
    To fill a critical need of the Continuity of Operations Plan, a 
document imaging project is underway to place employees' Official 
Personnel Folders in an easily accessible electronic format. This new 
system is complete, and procedures are currently being finalized for 
implementation this summer.
    In mid-2003, a reexamination was done of both the Political Fund 
Designee and S. Res. 110 (GS-15 Financial Disclosure) tracking and 
reporting processes. The Office of Public Records and Select Committee 
on Ethics use these reports extensively. By refining and extensively 
updating processes initiated in 1975, reports now provide what each 
office needs on a much more timely basis. Both Public Records and 
Ethics approved of the final product.
    Flexible Spending Accounts were announced in December, and a 
contract was awarded in March 2003. Work began immediately to add the 
two new FSAs (healthcare and dependent care) by the July 1 effective 
date. Automated processes to load the data received by the Senate from 
the FSA administrating agency, to deduct and report the monies on a tax 
exempt basis, and transmit monies and reports to the administrating 
agency, were completed on time.
    New TSP Catch Up contributions for employees over 50 passed in late 
2002 and regulatory requirements were received in February 2003. 
Project planning began immediately. This project required tax deferred 
deductions be withheld separate from the TSP program, reported 
differently and reported separately. A completely new screen was 
required. The project was completed and worked flawlessly on the 
required date of August 1.
    The Payroll Information Notice (pay stub) was completely redesigned 
in mid year to provide much more room to accommodate the many new 
deductions employees might have with the new programs established in 
2003. The various changes provided almost 40 percent more room. New 
deductions include Long Term Healthcare, Student Loan Repayment 
Program, Flexible Spending Accounts, and TSP Catch Up contributions. 
New PINs went out with the May 5 pay date. In October, a project was 
initiated to replace the current payroll system's OLAG programming with 
a completely new and updated version using BMS programming. This will 
eventually ensure continued operations on the newest mainframe 
operating systems, and to enable future payroll enhancements involving 
the web, employee self-service and on-line review of payroll reports by 
Senate offices. Work is scheduled to be completed by July 1, 2004.
          front counter--administrative and financial services
    The Front Counter is the main service area of all general Senate 
business and financial activity. The Front Counter maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
Counter provides training to newly authorized payroll contacts along 
with continuing guidance to all contacts in the execution of business 
operations. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to ensure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. The Front Counter is the first line of service provided 
to Senate Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will work in the Capitol Hill Senate 
offices are administered the required oath of office and personnel 
affidavit and provided verbal and written detailed information 
regarding their pay and benefits. Authorization is certified to new and 
state employees for issuance of their Senate I.D. card. Advances are 
issued to Senate staff authorized for an advance for official Senate 
travel. Cash and check advances are entered and reconciled in the Funds 
Advance Tracking System (FATS). Repayment of travel advances is 
executed after processing of certified expenses is complete. Travelers' 
checks are available on a non-profit basis to assist the traveler. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, voucher processing, reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the Front 
Counter and become part of the Senate's accountability of federally 
appropriated funds and are then processed through the Senate's general 
ledger system.
2003 Accomplishments and activities
    The Front Counter processed approximately 2,200 cash advances, 
totaling approximately $1.4 million and initialized check/direct 
deposit advances, totaling approximately $730,000.
    Received and processed more than 30,000 checks, totaling over 
$3,600,000.
    Administered Oath and Personnel Affidavits to more than 3,400 new 
Senate staff and advised them of their benefits.
    Maintained brochures for 11 federal health carriers and distributed 
approximately 5,000 brochures to staff during the annual FEHB Open 
Season and to new employees.
    Provided 33 training sessions to new office managers.
    The major emphasis during this year was the training for the 11 new 
Senate offices into the operations of the Disbursing Office. Training 
was provided to new office managers and guidance provided in their 
business transactions with the Disbursing Office.
    The only reconciliations of the Senate accountability were 
confirmed by a General Accounting Office audit performed in June 2003 
at the request of the Secretary of the Senate. Front Office operations 
continued to provide the Senate community with prompt, courteous, and 
informative advice regarding Disbursing operations.
                            payroll section
    The Payroll Section maintains the Human Resources Management System 
and is responsible for the following: processing, verifying, and 
warehousing all payroll information submitted to the Disbursing Office 
by Senators for their personal staff, by Chairmen for their committee 
staff, and by other elected officials for their staff; issuing salary 
payments to the above employees; maintaining the Automated Clearing 
House (ACH) FEDLINE facilities for the normal transmittal of payroll 
deposits to the Federal Reserve; distributing the appropriate payroll 
expenditure and allowance reports to the individual offices; issuing 
the proper withholding and agency contributions reports to the 
Accounting Department; and transmitting the proper Thrift Savings Plan 
(TSP) information to the National Finance Center (NFC), while 
maintaining earnings records for distribution to the Social Security 
Administration, and maintaining employees' taxable earnings records for 
W2 statements, prepared by this section. The Payroll Section is also 
responsible for the payroll expenditure data portion of the Report of 
the Secretary of the Senate.
2003 Accomplishments and Activities
    Funding for Calendar Year 2003 began as a Continuing Resolution. 
This restriction of spending delayed the January 1, 2003 Cost of Living 
increase. In January, the passage of the Legislative Branch 
Appropriations Bill gave the U.S. Senate a 3.1 percent Cost of Living 
increase retroactive to January 1, 2003. The passage of the Omnibus 
Appropriations Bill in March 2003 provided the Senate with a final Cost 
of Living increase of 4.27 percent retroactive January 1, 2003. While 
the multitude of cost of living transactions taxed the resources of the 
Payroll Section for a five month period, all pay adjustments were done 
in an accurate and timely manner.
    In late 2002 and early 2003, Payroll was heavily involved in the 
testing of the new CSRS-Offset deductions and reports. Attention to 
detail from the Payroll Section helped debug programs and streamline 
the new processes.
    During this same time period the Payroll Section maintained its 
schedule of processing TSP Open Season forms. Senate employees for the 
most part were taking full advantage of the increase in the cap for TSP 
deductions, making the most of 13 percent/$12,000 maximums. The TSP 
Catch-Up program was implemented in the fall of 2003. This program 
allowed employees who are 50 or older to deposit additional funds into 
their personal TSP. Payroll staff were involved in all of the testing 
performed with the new screen, new deductions, and reports.
    During the summer of 2003 the National Finance Center implemented 
its EnTrust Financial Management System allowing the agencies to have 
online update and correction abilities. Employees of our Payroll 
Section were trained by the Department of Agriculture to use the on-
line payments and corrections system.
    The Student Loan Program (SLP) continued into 2003. The new year 
brought new challenges to the Payroll Section. The time consuming 
methods of third party loan processing created needless delays of 
notification for loan payoffs. The Payroll Section had to develop 
procedures for returning overpayment of loans to the loan program 
allocation refund, return the respective over- withholding of Federal, 
State, FICA, and Medicare taxes to the employees involved. Regulations 
were enforced to alleviate these problems. Payments for loans to be 
paid off during the Agreement Year of a SLP are now spread out over the 
full year, eliminating these overpayments.
    The Payroll Section also assisted in developing methods for 
processing Long Term Care and in July 2003 implemented the FSA 
deductions system. These additional benefit plans were passed to 
provide additional coverage to our normal FEHB deduction processing 
system. Each of the above new deductions required research into the tax 
implications of each deduction. Once the plan was implemented further 
research was required for the proper modification of W-2s for calendar 
year 2003. Payroll staff were involved in testing and verification 
during the implementation of these systems. The Payroll Supervisor was 
part of the project management team during the planning portions and 
during final installation.
    Payroll filing systems and checking processes were updated to 
improve quality control. These changes help minimize errors in an 
environment where payroll changes are much more common than in most 
other government and private institutions. In addition, with 
considerable staff changes in 2003, new training procedures for the 
Payroll Section were implemented and have resulted in more 
knowledgeable staff and reductions in errors.
                       employee benefits section
    The primary responsibilities of the Employee Benefits Section (EBS) 
are administration of health insurance, life insurance and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of benefits laws and regulations. In 
addition, the sectional work includes research and verification of all 
prior federal service and prior Senate service for new and returning 
appointees. EBS provides this information for payroll input and once 
Official Personnel Folders and Transcripts of Service are received, 
verifies the accuracy of the information provided and reconciles as 
necessary. Transcripts of Service, including all official retirement 
and benefits documentation, are provided to other federal agencies when 
Senate Members and staff are hired elsewhere in the government. EBS 
processes employment verifications for loans, the Bar Exam, the FBI, 
OPM, and the Department of Defense, among others. Unemployment claim 
forms are completed, and employees are counseled on their eligibility. 
Department of Labor billings for unemployment compensation paid to 
Senate employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment. Designations of Beneficiary for FEGLI, 
CSRS, FERS, and unpaid compensation are filed and checked by EBS.
2003 Accomplishments and activities
    The year began with EBS finalizing retirement estimates and 
processing the many retirement cases associated with outgoing Senators 
and their staffs, as well as those staff on committees who were 
affected by the changes. Approximately 170 retirement cases were 
processed throughout 2003, including 10 death cases.
    During 2003 the new Federal Flexible Spending Account (FSA) Program 
was introduced and implemented government-wide. EBS worked diligently 
to become educated in all aspects of the program. This required 
constant interaction with OPM and the FSA plan administrator, SHPS, to 
establish, understand and implement procedures for the plan. Employee 
Benefits staff worked as part of the Project Team to apply 
modifications and establish parameters for the implementation of the 
program. Effective introduction to and participation in the FSA program 
required extensive notification to employees, which included several 
mail-outs, electronic notifications and use of streaming video on 
Webster. Two Open Seasons were conducted, along with an educational 
seminar on the FSA program and recurring FSA seminar broadcasts on 
Senate Cable TV. EBS also developed and disbursed educational materials 
for employees.
    During our anthrax displacement, EBS discovered that the most 
essential information that could not be accessed off-site was employee 
personnel folders. Based on these lessons, EBS has worked with the 
Deputy for Benefits and Financial Services as part of the Project Team 
to outline the needs and parameters required for development and 
implementation of a document imaging system for use in electronically 
reproducing employee personnel folders. Through extensive meetings, 
testing and feedback, the imaging system has been developed and is 
ready for implementation. This system will allow computer-based access 
to employee personnel folders as well as the ability to access them 
from an off-site facility.
    Based on the continued military operations and the call to active 
duty of military reservists, the volume of Senate employees being 
placed in a Leave Without Pay (LWOP) status and subsequently returned 
to pay status was elevated throughout 2003. Counseling and 
administration of their retirement and benefits was handled by EBS.
    Effective in 2003, OPM announced a modification to the way 
retirement deductions were to be reported for employees subject to 
Social Security and CSRS. Compliance with this change required 
coordination with the Senate Computer Center for programming changes 
and screen development, followed by debugging and subsequent 
implementation of the new withholding and reporting format.
    Based on new legislation, the Thrift Savings Plan (TSP) implemented 
a new provision enabling employees age 50+ to contribute additional 
``Catch-up'' contributions to their TSP accounts. This enhancement 
required a great deal of interaction with the Senate Computer Center to 
apply modifications and establish parameters for the implementation of 
the program. EBS worked to become a resource on the aspects of Catch-up 
contributions and educational materials and notices were created and 
supplied to eligible participants.
    Mid-year, the TSP implemented their long-awaited new record keeping 
system, which created many questions and requests for assistance from 
Senate employees as well as from offices on behalf of their 
constituents. Additionally, there were two TSP Open Seasons in 2003 
during which employees could change their rate of contribution. The 
number of employee changes was higher during the end of year Open 
Season, as the allowable rates of contribution increased.
    The annual FEHB Open Season was held and approximately 500 
employees changed plans. These changes were processed and reported to 
carriers in record time. This year, the DO offered an exciting new tool 
for Senate employees as the Checkbook on-line Guide to Health Plans was 
made available to research and compare FEHB plans. This tool will 
remain available to staff throughout the year, and may become an annual 
purchase. Feedback received on the Guide was very positive, and as 
awareness increases, more users are anticipated. Once again, the DO 
hosted a FEHB Open Season Health Fair, which was attended by about 600 
employees. As an additional service, it was open to all other federal 
employees on the Hill, including House, Capitol Police, Architect of 
the Capitol and Senate Restaurant employees. In addition to having 
health plan representatives available to provide information and answer 
questions, representatives from FSA Feds and Long Term Care Insurance 
were in attendance as well.
    EBS continues to upgrade the information available on the DO 
Webster site and has added more downloadable forms, routinely making 
use of the newer video technologies and links. In addition, EBS has 
been developing many computer-based forms and calculators for use in 
providing benefits information and estimates.
    Two detailed Power Point retirement seminars on CSRS and FERS were 
developed and conducted for interested Senate staff. The seminars were 
well attended and well received. Additionally EBS staff regularly 
provided a panel participant for the monthly New Staff Orientation 
seminars and quarterly Senate Services Fairs held by the Office of 
Education and Training.
    Interagency meetings were attended with time being spent on the 
implementation of the FSA Program, the CLER program, and the continuing 
TSP program changes and enhancements.
    There was a great deal of employee turnover in early 2003. New 
Members appointed numerous employees from the House and Executive 
Branch, and many other employees left with outgoing Members, several of 
whom were appointed to positions in the Executive Branch. This caused a 
dramatic increase in appointments to be researched and processed, 
retirement records to be closed out, termination packages of benefits 
information to be compiled and mailed out, and health insurance 
enrollments to be processed. Transcripts of service for employees going 
to other federal agencies, and other tasks associated with employees 
changing jobs were at a high level this year. These required prior 
employment research and verification, new FEHB, FEGLI, FSA, CSRS, FERS 
and TSP enrollments, and the associated requests for backup 
verification.
    Mortgage rates kept employment verifications coming in at a rapid 
pace, averaging over 100 per month. Unemployment verifications were 
especially high early in the year and remained constant throughout the 
year. Telephone inquiries, though not specifically tracked, continued 
at record levels.
                 disbursing office financial management
    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management (DOFM) is to coordinate all 
central financial policies, procedures, and activities to process and 
pay expense vouchers within reasonable time frames, to produce an 
auditable consolidated financial statement for the Senate and to 
provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. On a 
semiannual basis, this group is also responsible for the compilation, 
validation and completion of the Report of the Secretary of the Senate. 
DOFM is segmented into three functional departments: Accounting, 
Accounts Payable, and Budget. The Deputy coordinates the activities of 
the three functional departments, establishes central financial 
policies and procedures, acts as the primary liaison to the Human 
Resources Administrator, and carries out the directives of the 
Financial Clerk and the Secretary of the Senate.
                         accounting department
    During fiscal year 2003, the Accounting Department approved nearly 
80,000 expense reimbursement vouchers, processed 1,300 deposits for 
items ranging from receipts received by the Senate operations, such as 
the Senate's Revolving Funds, to canceled subscription refunds from 
Member Offices. The number of vouchers that the Accounting Department 
approves decreased over fiscal year 2002 numbers due to the Senate 
Committee on Rules and Administration authorizing the Accounts Payable 
Department to sanction vouchers of $35 or less. General ledger 
maintenance also prompted the entry of thousands of adjustment entries 
that include all appropriation and allowance funding limitation 
transactions, all accounting cycle closing entries, and all non-voucher 
reimbursement transactions such as payroll adjustments, stop payment 
requests, travel advances and repayments, and limited payability 
reimbursements.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including the testing 
required to implement the new approval path for the Rules Committee's 
on-line sanctioning. During January 2003, the Accounting Department 
with assistance from our contractor, BearingPoint, completed the 2002 
year-end process to close and reset revenue, expense and budgetary 
general ledger accounts to zero. At the beginning of 2003 and during 
the month of June 2003, we successfully tested and implemented in 
Federal FAMIS the first two document purge processes. Further, the 
financial file rollover was performed to update FAMIS' tables and 
create the new index codes needed to accommodate data for fiscal year 
2004.
    The U.S. Department of the Treasury changed their end of month 
reporting deadlines for agencies twice during fiscal year 2003; from 
the 7th to the 5th business day and then from the 5th to the 3rd 
business day of the following month. The second change on the Treasury 
reporting deadline was a challenge for DOFM since the Senate's end of 
the month payroll is a paid on the 5th of the following month. In order 
to comply with this requirement, the Accounting Department, assisted by 
BearingPoint, tested and implemented a change in how and when payroll 
is reported with the non-payroll expenses. The changes to comply with 
Treasury's accelerated reporting requirement were implemented in July.
    The Department of the Treasury's monthly financial reporting 
requirements include a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also on a monthly basis, 
the Statement of Transactions According to Appropriations, Fund and 
Receipt Accounts that summarizes all activity at the appropriation 
level of all monies disbursed by the Secretary of the Senate through 
the Financial Clerk of the Senate is reported to the Department of the 
Treasury. All activity by appropriation account is reconciled with the 
Department of the Treasury on a monthly and annual basis. The annual 
reconciliation of the Treasury Combined Statement is also used in the 
reporting to the Office of Management and Budget (OMB) as part of the 
submission of the annual operating budget of the Senate.
    This year, the Accounting Department transmitted all Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare, to the Federal Reserve Bank. The 
Department also performed quarterly reporting to the Internal Revenue 
Service (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes were reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. Monthly 
reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the Thrift Savings Plan. Every month, all employee withholdings and 
agency contributions for life and health insurance, and federal 
retirement programs were transmitted to the Office of Personnel 
Management. Any adjustment to employee contributions for any of the 
health, life, and retirement plans from previous accounting periods 
were also processed. In April and October, the Accounting Department 
prepared the necessary reports and information to be included in the 
Report of the Secretary of the Senate. All organizations and 
appropriation accounts reported were validated 100 percent to the 
financial system.
    In addition to Treasury's external reporting deadlines there are 
some internal reporting requirements such as the monthly ledger 
statements for all Member offices and all other offices with payroll 
and non-payroll expenditures. These ledger statements detail all of the 
financial activity for the appropriate accounting period with regard to 
official expenditures in detail and summary form. It is the 
responsibility of the Accounting Department to review and verify the 
accuracy of the statements before Senate-wide distribution.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management, is working closely with the Sergeant at Arms' 
(SAA) Finance Department in completing all the corrective actions that 
resulted from the Pro-forma financial statements auditability 
assessment completed in April 2002. Based on the results of this 
exercise, 23 corrective actions were suggested including an action plan 
and proposed schedule to have them corrected within several years. Some 
of the actions were rather simple to implement while others will take 
additional time. Of the 23 corrective actions noted, 6 have been 
completed, 13 are in process, and 4 are still open. As part of this 
project, the Accounting Group drafted the Senate-wide capitalization 
policy which has been reviewed and agreed to by the SAA's Finance 
Department. The Accounting Group also drafted and finalized the travel 
advance and vendor file procedures documents. The Deputy for Financial 
Management is working closely with the SAA's Finance Department in the 
replacement and implementation of the new asset management system, 
Asset Center.
    On a consulting basis, the Deputy for Financial Management has been 
assisting the Senate Gift Shop with the implementation of their new 
accounting system. In addition, the Accounting Group has been working 
with the General Accounting Office (GAO) to provide them with expense 
vouchers and certificate of deposits documentation requested for the 
audits of all the Secretary of the Senate and Sergeant at Arms 
revolving funds.
                      accounts payable department
    During the Fall of 2003, the Accounts Payable Department was 
restructured and a third section was created to adequately attend to 
the needs of the Senate community. Currently, the A/P Department is 
made up of the following three sections: the Audit group, the 
Disbursement group and the newly created Vendor/SAVI group.
Accounts Payable Vendor/SAVI Section
    The Vendor/SAVI (Senate Automated Vendor Inquiry) group was newly 
created in the fall of 2003. This section is responsible for the prompt 
completion of service requests from within the Senate community for 
access to the Disbursing Office's new Web-based payment inquiry system 
called SAVI, the timely processing of expense voucher payments via 
paper check or ACH wire transfer and for training Senate staff on the 
proper usage of the SAVI Web based system. The section also assists the 
IT Department with daily monitoring of system performance and the 
testing of new SAVI system upgrades. Another major responsibility of 
this group is the daily maintenance of the Senate's central payee file, 
which currently has over 11,000 vendors. Daily requests for new or 
updated vendor addresses are promptly handled and processed within 24 
hours of being requested. The section is in the process of collecting 
ACH wire information on external vendors with the intention of 
reimbursing most vendors electronically instead of by paper check. 
Further, this section is working with the IT Department in the 
selection and testing of a new e-mail notification project to inform 
all external vendors via e-mail that an electronic reimbursement has 
occurred.
    As part of its objectives, this section started to scan the hard 
copy supporting documentation (vendor-supplied remittance instructions) 
for the entire payee file (starting with the most recent ones) on the 
DO network which will enable quick access to necessary information. 
Because of the size of the vendor file (over 11,000 vendors) and the 
usual daily work which must be completed, this scanning project is 
expected to take approximately a year to complete. Ultimately, scanning 
of vendor-supplied supporting documentation will become a routine part 
of file maintenance.
Accounts Payable Disbursements Department
    During 2003, two new staff members were hired and one staff member 
was transferred to the newly created Vendor/SAVI Department. The new 
department now handles all aspects of the FAMIS vendor file which was 
previously tasked to A/P Disbursements. In fact, 133,000 expense claims 
were received and processed by the department. Over 40,000 expense 
checks were written and approximately 25,000 direct deposit 
reimbursements were made.
    The Disbursements Department is also responsible for researching 
returned checks as vendors request additional information relating to 
payment allocation. Fortunately, few checks are returned. This is a 
result of the use of a centralized vendor file and accurate 
certification of payments.
    The Accounts Payable Disbursements Department distributes the 
monthly ledgers to the 160 accounting locations throughout the Senate. 
Once produced, they are delivered to Disbursing. They are then sorted 
and delivered or picked up according to a list of special instructions. 
The main objective of this process is to have each office receive their 
ledger statements by the 10th of the month.
    A/P Disbursements also prepares the quarterly state tax returns. 
The amounts are provided by the Accounting Department, and payment 
coupons are prepared for the 43 state jurisdictions. The coupons are 
obtained from each jurisdiction either in hard copy or on-line via the 
Internet. Vouchers are prepared electronically via an uploaded 
spreadsheet, which is used to generate check payments to the taxing 
authorities. Once the checks are written, letters of transmittal are 
prepared and mailed to the appropriate State jurisdictions and the 
District of Columbia.
    The Department also prepares the forms required by the Department 
of the Treasury for stop payments. Stop payments are requested by 
employees who have not received salary or expense reimbursements, and 
vendors claiming non-receipt of expense checks. During this year, the 
A/P Disbursement Supervisor and the Accounts Payable Manager 
implemented the Department of the Treasury--Financial Management 
Service (FMS) on-line stop pay and check retrieval process known as 
PACER. The PACER system allows us to electronically submit stop-payment 
requests and provides on-line access to digital images of negotiated 
checks for viewing and printing. Once a check is viewed, it is printed 
and may be scanned. Scanned images are then forwarded to the 
appropriate accounting locations via e-mail. This process has been well 
received by Senate offices as well as vendors. This saves time and 
significantly reduces reliance on the postal system. The entire 
Accounts Payable Disbursements staff has Treasury secure ID cards and 
are being trained in the use of PACER. Given its time and money 
savings, as well as its overwhelmingly positive reception, large growth 
in the use of PACER is expected.
    Two major events have helped in centralizing the filing and storage 
of Accounts Payable and Accounting documents. First was new shelving 
which replaced file cabinets for all in-house filing. The documents are 
placed in side-tab folders which display their contents in an easy-to-
read format. The major benefit to the new shelving is space savings. 
The result is that what previously required over 20 feet of wall space, 
now requires a little less than 15 feet, a space savings of 25 percent. 
Second, the new shelving also allows us to keep a year's worth of 
vouchers in-house before sending them to our warehouse facility. 
Previously, only six months' worth of vouchers could be kept on hand.
    The warehousing of documents has improved and is still evolving. 
Vouchers were housed at two facilities, but now all have been 
transferred to a larger location, although there is need for expansion. 
Meetings with the Sergeant At Arms, consultants, and prospective 
vendors continue in an effort to provide state-of-the-art warehousing 
for the entire Senate. Such plans include current space requirements, 
future anticipated space requirements, and the need for ``staging'' 
areas, telephone, copier, and fax access, climate control, and 
security.
Accounts Payable Audit Department
    The third section under the Accounts Payable Department is the 
Audit Department. The Accounts Payable Audit Section is responsible for 
auditing vouchers and answering questions regarding voucher preparation 
and the permissibility of the expense, providing advice and 
recommendations on the discretionary use of funds by the various 
accounting locations, identifying duplicate payments submitted by 
offices, monitoring payments related to contracts, training new Office 
Managers and Chief Clerks about Senate financial practices, training 
Office Managers in the use of the Senate's Financial Management 
Information System, and assisting in the production of the Report of 
the Secretary of the Senate. During this year, the responsibility for 
the printing of the semiannual Report of the Secretary of the Senate 
was transferred from the retiring Assistant Financial Clerk to the 
Accounts Payable Manager. This Section also monitors the Fund Advance 
Tracking System (FATS) to ensure that advances are charged correctly, 
vouchers repaying such advances are entered, and balances are adjusted 
for reuse of the advance funds. An ``aging'' process is also performed 
to ensure that advances are repaid in the time specified by the advance 
travel regulations.
    The Accounts Payable Audit Section, currently a group of 11, has 
the responsibility for the daily processing of expense claims submitted 
by the 140 accounting locations of the Senate. During the first months 
of the year, the Accounts Payable Audit Group had some staff turnover 
and new auditors were hired. The new audit staff is undergoing 
comprehensive training and the section processed approximately 133,000 
expense vouchers during fiscal year 2003. The voucher processing ranged 
in scope from providing interpretation of Senate rules, regulations and 
statute, applying the same to expense claims, monitoring of contracts 
and direct involvement with the Senate's central vendor file. On 
average and as long as the voucher does not have any issues or 
questions and the Audit Section is fully staffed, vouchers are 
received, audited, sanctioned by Rules and paid by DO within the 
required directive of 10 business days.
    During December 2002, the Chairman of the Committee on Rules and 
Administration, delegated the sanctioning authority of vouchers of $35 
or less to the Financial Clerk of the Senate. As a consequence, the 
workload within this group increased by 15 percent. These vouchers are 
sanctioned by the Certifying Accounts Payable Specialists and are being 
received, audited, and paid within 5 business days of receipt. The 
sanctioning authority was subsequently increased in 2003 from items 
totaling $35 and less to items valued at $100 and below. The increase 
in sanctioning authority came as a direct result of our passing two 
post-payment audits performed by the Rules Committee. This additional 
change increased the number of vouchers sanctioned by Audit to 57 
percent of all submitted vouchers.
    Additionally, advance documents and non-Contingent Fund items such 
as Legal Counsel and Legislative Counsel vouchers are now posted in 
Audit. The sanctioning responsibilities allowed for one staff promotion 
to Certifying Accounts Payable Specialist.
    The reduced flow of vouchers to the Rules Committee allowed us to 
proceed with their inclusion in the on-line sanctioning process. 
Initially, four Senators' offices and the Committees comprised the 
pilot group. Currently, all vouchers sanctioned by the Rules Committee 
through the Web-submit process are sanctioned on-line.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, the 
permissibility of an expense, and participated with seminars sponsored 
by the Secretary of the Senate, the Sergeant at Arms, and the Library 
of Congress. The Section was able to train 21 new Office Managers and 
Chief Clerks and conducted 5 informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service (CRS).
    The Accounts Payable group also assisted the IT department in the 
testing and implementation of the new travel advance reporting. The new 
travel advance reporting became effective in September 2002 and with 
this new process, travel advances are accounted for as obligations. The 
Accounts Payable Audit Group has been fully trained in the new travel 
advance system and in the use of the four new WEB inquiries. The group 
also participated in the SAVI (Senate Automated Vendor Information) 
system training to assist Senate staff with any questions related to 
their reimbursements paid either by ACH (Automated Clearing House) or 
by check. The creation of a Vendor/SAVI department allowed for a senior 
staff promotion out of Audit, and two new staff were hired to help fill 
the void caused by this promotion and one staff termination.
    A cancellation process was established for advances. This was 
necessary to ensure repayment of advances systematically for canceled 
or postponed travel in accordance with Senate Travel Regulations.
                           budget department
    The third component of the Disbursing Office Financial Management 
Group is the Budget Department. The primary responsibility of the 
Budget Department is to compile the annual operating budget of the 
United States Senate for presentation to the Committee on 
Appropriations. The Budget Department is responsible for the 
preparation, issuance and distribution of the budget justification 
worksheets (BJW). In fiscal year 2003 the budget justification 
worksheets were mailed to the Senate accounting locations at the end of 
February. This deadline was much later than usual due to the late 
passage of the Legislative Branch Appropriations bill. This department 
is also responsible for the formulation, presentation and execution of 
the budget for the Senate and provides a wide range of analytical, 
technical and advisory functions related to the budget process. The 
Budget Department acts as the Budget Officer for the Office of the 
Secretary, assisting in the preparation of testimony for the hearings 
before the Committee on Appropriations and the Committee on Rules and 
Administration. The group is also responsible for reporting the budget 
baseline estimates that were developed for fiscal year 2004 to the 
Office of Management and Budget, via the MAX database.
                disbursing office information technology
                financial management information system
    The Disbursing Office Information Technology (IT) Department, 
currently operating with a staff of four, provides both functional and 
technical assistance for all Senate Financial Management activities. 
Activities revolve around support of the Senate's Financial Information 
System (FMIS) which is used by approximately 140 Senate accounting 
locations (i.e., 100 Senators' offices, 20 Committees, 20 Leadership 
and Support offices, and the Disbursing Office). Responsibilities 
include:
  --Supporting current systems;
  --Testing infrastructure changes;
  --Managing and testing new system development;
  --Planning;
  --Managing the FMIS project, including contract management;
  --Administering the Disbursing Office's Local Area Network (LAN); and
  --Coordinating the Disbursing Office's Disaster Recovery activities 
        and Continuation of Operations Plan (COOP).
    The activities associated with each of these responsibilities are 
described in more detail in the sections that follow. Work during 2003 
was supported by the Sergeant at Arms (SAA) Technology Services staff, 
the Secretary's Information Technology staff, and contracts with 
BearingPoint.
    The SAA Technology Services staff is responsible for providing the 
technical infrastructure, including hardware (mainframe and servers), 
operating system software (mainframe and servers), database software, 
and telecommunications; technical assistance for these components, 
including migration management, and database administration; and 
regular batch processing. BearingPoint is responsible, under the 
contract with the SAA, for operational support, and under contract with 
the Secretary, for application development. The DO is the ``business 
owner'' of FMIS and is responsible for making the functional decisions 
about FMIS. The three organizations work co-operatively.
    Highlights of the year include:
  --Conducting 44 classes, seminars, and demonstrations on Web FMIS;
  --Implementation of three releases of Web FMIS and preparation for 
        two releases during 2004. One of these releases made the online 
        ESR function available to all offices and provided online 
        review and sanctioning capability to the Rules Committee Audit 
        staff;
  --Implementation of two releases of SAVI;
  --Implementation of a post payment audit for the Rules Committee 
        Audit staff whereby they can do a statistically valid sample of 
        vouchers of $35 and under for which sanctioning was delegated 
        to the Financial Clerk;
  --Pilot of direct deposit payments to external vendors;
  --Entering into a new multi-year contract with the FMIS support 
        vendor, BearingPoint;
    and Hiring a new Systems Administrator.
    FMIS is not a single computer system. It is composed of many 
subsystems that provide Senate-specific functionality. These subsystems 
are outlined in the table that begins on the following page.

                                                                         SENATE FINANCIAL MANAGEMENT INFORMATION SYSTEM
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
             Subsystem                                      Functionality                                       Source                         Primary Users                  Implementation
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
FAMIS (Mainframe).................  Financial general ledger.....................................  Off the shelf federal system     Disbursing Office..................  October 1998
                                    Vendor file                                                     purchased from BearingPoint.
                                    Administrative functions
                                    Security functions
ADPICS (Mainframe)................  Preparation of requisition, purchase order, voucher from       Off the shelf federal system     Sergeant at Arms...................  October 1998
                                     purchase order, and direct voucher documents.                  purchased from BearingPoint.    Disbursing Office
                                    Electronic document review functions                                                            Secretary of the Senate
                                    Administrative functions
Checkwriter (Client-server).......  Prints checks and check registers as well as ACH (Automated    Off the shelf state government   Disbursing Office..................  October 1998
                                     Clearing House) direct deposit payments.                       system purchased from and
                                                                                                    adapted to Senate's
                                                                                                    requirements by BearingPoint.
Web FMIS (Client-server and         Preparation of vouchers, travel advances, vouchers from        Custom software developed under  All Senators offices...............  October 1999
 intranet).                          advance documents, credit documents and simple commitment      Senate contract by              All Committee offices
                                     and obligation documents.                                      BearingPoint.                   All Leadership and Support offices
                                    Entry of detailed budget                                                                        Secretary of the Senate
                                    Reporting functions (described below)                                                           Sergeant at Arms
                                    Electronic document submission and review functions                                             Disbursing Office
                                    Administrative functions
FATS (PC-based)...................  Tracks travel advances and petty cash advances (available to   Developed by SAA Technology      Disbursing Office..................  Spring 1983
                                     Committees only).                                              Services.
                                    Tracks election cycle information
Post Payment Voucher Audit (PC-     Selects a random sample of vouchers for which sanctioning was  Excel spreadsheet developed by   Rules Committee....................  Spring 2003
 based).                             delegated to the Financial Clerk for the Rules Committee to    BearingPoint.                   Disbursing Office
                                     use in conducting a post payment audit.
SAVI (Intranet)...................  As currently implemented, provides self-service access (via    Off the shelf system purchased   Senate employees...................  Pilot--Spring 2002
                                     the Senate's intranet) to payment information for employees    from BearingPoint.                                                   Senate-wide--July 2002
                                     receiving reimbursements via direct deposit.
                                    Administrative functions
Online ESR (Intranet).............  A component of SAVI through which Senate employees can create  Custom software developed under  Senate employees...................  April 2003
                                     on-line Travel Expense Summary Reports and submit them         contract by BearingPoint.
                                     electronically to their Office Manager/Chief Clerk for
                                     processing.
Secretary's Report (Mainframe       Produces the Report of the Secretary of the Senate...........  Custom software developed under  Disbursing Office..................  Spring 1999
 extracts, crystal reports, and                                                                     contract by BearingPoint.
 client-server ``tool box'').
Ledger Statements (Mainframe        Produces monthly reports from FAMIS that are sent to all       Developed by SAA Technology      Disbursing Office..................  Winter 1999
 database extracts, and crystal      Senate ``accounting locations''.                               Services.                       Senate Accounting Locations
 reports).
Web FMIS Reports (mainframe         Produces a large number of reports from Web FMIS, FAMIS and    Custom software developed under  Senate Accounting Locations........  October 1999
 database extracts, crystal          ADPICS data at summary and detailed levels. Data is updated    contract by BearingPoint.
 reports, client server, and         as an overnight process and can be updated through an on-
 Intranet).                          line process by accounting locations.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Supporting Current Systems
    The IT section supports FMIS users in all 140 accounting locations, 
the Disbursing Office Accounts Payable, Accounting, Accounts Payable 
Disbursements, Vendor/SAVI, and Front Office Sections, and the Rules 
Committee Audit staff. The activities associated with this 
responsibility include:
  --User Support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; answer 
        hundreds of phone calls a year; and meet with Chiefs of Staff, 
        Office Managers, Chief Clerks, and Directors of various Senate 
        offices as requested;
  --Technical Problem Resolution--ensure that technical problems are 
        resolved;
  --Monitor System Performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for parallel load and database 
        access optimization;
  --Security--maintain user rights for all ADPICS, FAMIS, SAVI, and Web 
        FMIS users. In 2003, we added, deleted and changed user rights 
        for 94 ADPICS, FAMIS and 57 Web FMIS offices and other users as 
        requested by Senators and Chairmen.
  --System Administration--design, test and make entries to tables that 
        are intrinsic to the system. In 2003, this included making 
        changes to reflect Senate organizational changes for the 108th 
        Congress, establishing new offices, changing the Senate-wide 
        privately owned vehicle reimbursement rates, establishing and 
        testing new accounting transaction codes, and creating new 
        approval paths for vouchers of $100 or less;
  --Support of Accounting Activities--provide assistance in the cyclic 
        accounting system activities. During 2003, the following 
        activities were performed--Upload of files into FAMIS (e.g., 
        budgets, monthly certification charges, state office rental 
        vouchers), Year End Rollover (in March for Committee Funding 
        Resolution 66B, and in August for fiscal year 2004), Year End 
        Close, Document Purge, and Ad hoc queries; and
  --Training--provide functional training to all Senate FMIS users. 
        During 2003, the IT Department conducted 44 classes, seminars, 
        and demonstrations on Web FMIS. The class schedule is issued 
        every other month and the classes offered were:
    --1. Introduction to Web FMIS--conducted 12 times. This hands-on 
            class covers the basics of preparing, printing, and 
            submitting vouchers and travel vouchers, and managing your 
            inbox. Also covered are adding items to an office's lookup 
            tables (e.g., vendor and expense category), using search to 
            find records, and what information goes in the Unique 
            Invoice Number and Account Number fields.
    --2. Web FMIS Travel Class--conducted 15 times. The hands-on class 
            covers all aspects of travel vouchers from both the Office 
            Manager's and the traveler's perspective. It enables the 
            Office Manager or Chief Clerk to prepare travel advance 
            requests, create travel vouchers, create travel vouchers 
            from online ESRs using the Web FMIS import function, train 
            travelers to create on-line travel expense summary reports 
            (online ESRs), train travelers to track direct deposit 
            payments via SAVI; and perform the Web FMIS setup tasks 
            (e.g., establishing a traveler's profile, and establishing 
            office mileage rates). This class was created in 2003 with 
            the Senate-wide implementation of online ESR.
    --3. Web FMIS Budget and Reports Seminar--conducted 12 times. This 
            demo-style seminar covers how to enter and change an 
            office's budget, and how different budgets show on an 
            office's Summary of Financial Status Report. Several 
            budgets, from simple to complex are discussed, based on the 
            interests of the attendees. Also discussed are the on-line 
            reporting functions including refreshing report data and 
            exporting report data into another application (e.g., 
            Excel). In addition, we look in detail at the Analysis by 
            Vendor, Analysis by Expense Category, and Analysis by 
            Office Control Number Reports, at the Changed Document 
            Report, and other reports based on the interests of the 
            attendees.
    --4. Web FMIS Reconciliation Class--conducted 7 times. This hands-
            on class covers how to reconcile an office's Web FMIS 
            balance with the DO's balance on a monthly basis. Also 
            provided individual training sessions for 14 persons who 
            were unable to attend the scheduled class sessions.
    --5. Web FMIS Special Topics--conducted once. Occasionally a 
            ``special topics'' seminar covering different subjects is 
            held. In May the seminar topic was how to use commitments 
            and obligations. This seminar is offered at the points in 
            the year when offices are most likely trying to estimate 
            expenses through the end of the fiscal year.
    --6. User Demos--In advance of each Web FMIS release, a 
            demonstration is conducted at a Joint Office Manager/Chief 
            Clerks meeting of the new functionality included in the 
            release. The demo is repeated for those unable to attend 
            the meeting. For Web FMIS release 7.4, the material was 
            presented twice.
Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
the telecommunications network, and a hardware and software 
installation crew and help-desk provider. During 2003, the following 
components of this infrastructure were changed:
  --Mainframe hardware and software--Upgrade of the mainframe operating 
        system (OS390/2.10, including CICS and WebSphere upgrades) 
        required that the Disbursing Office extensively test all FMIS 
        subsystems both in a testing environment and in the production 
        environment. Additional testing, although less extensive, was 
        performed when the SAA activated the new Storage Area Network 
        facility (SAN), an essential component of the Alternate 
        Computing Facility;
  --TDF and DHF Partitioning--The Transaction Detail File and Document 
        Header File, which are subsidiary files to the General Ledger, 
        were split into logical divisions in order to improve system 
        performance, especially for inquiries. The IT staff and 
        Accounting section staff created documents and tested all FMIS 
        functions with the partitioned files before the production 
        files were partitioned.
  --Printing online via ``Reveal''--The DO's use of the ``Reveal'' 
        software, which prints reports to a file for online viewing 
        instead of a printer, was expanded to include the weekly 
        Appropriations Summary Reports. This allowed the elimination of 
        a dedicated printer in SH-144.
Managing and Testing New System Development
    During 2003, we supervised development, performed extensive 
integration system testing and implemented changes to the following 
FMIS subsystems: Web FMIS; Senate Vendor Information (SAVI) and Online 
ESR; Post Payment Voucher Audit; and Checkwriter.
            Web FMIS
    Three releases of Web FMIS were done in 2003. Work was begun on two 
additional releases which will be implemented in 2004. These 
implemented in 2003 are:
  --Web FMIS r7.4.8.--This release in April 2003 made the import ESR 
        function available to all offices. This function allows Office 
        Managers to create travel vouchers from online ESRs that 
        travelers create in SAVI. This saves a significant amount of 
        time for Office Managers. Previously, this had been used by a 
        pilot of 10 offices. Additionally, this release included online 
        review and sanctioning capability for the Rules Committee Audit 
        staff. The Rules Committee staff elected to implement a pilot 
        of 23 offices (all Committees and Senators whose last name 
        begins with A) in order to become familiar with the software 
        and develop appropriate procedures. (As of January 1, 2004, the 
        Rules Committee staff implemented online review and sanctioning 
        of all Web FMIS vouchers via Web FMIS. This was implemented in 
        conjunction with an increase in the threshold for delegation of 
        sanctioning authority. In December 2002, the Rules Committee 
        Chairman delegated sanctioning authority to the Financial Clerk 
        for vouchers of $35 and less. Effective January 1, 2004, the 
        Rules Committee Chairman increased the threshold to $100.)
  --Web FMIS r7.4.9.--The July 2003 release focused on reports. The 
        most important change was reporting the total trip expense when 
        a travel advance was used. Additionally, several useful 
        formatting changes were made, including adding subtotals for 
        payroll and non-payroll to all of the ``summary'' reports.
  --Web FMIS r7.5.4.--The August 2003 release implemented new 
        underlying technology, including an upgrade to WebSphere 4.0, a 
        new version of mainframe CICS, and a new Cold Fusion server. It 
        included a few functional changes, the most important of which 
        was the ability to create budgets for the new fiscal year prior 
        to October 1 and without regard to whether funding has been 
        authorized. In addition, we created the files necessary for 
        fiscal year 2004. Making it possible for offices to work with 
        their budgets in August was a request from Web FMIS users. The 
        necessary system changes were implemented in this release and 
        the ``new year roll'' was done earlier than in past years. In 
        the future, the new year roll will also be in August.
    In addition, we began work on two projects scheduled for completion 
in 2004, development of Web FMIS ``thin client'' and Web FMIS Imaging 
and Signature Design, Electronic Invoicing and Remittance Enhancement. 
During 2003, a significant amount of staff time was spent to prepare 
for these releases. Activities included requirements analysis, planning 
and consultation with users.
  --Web FMIS ``thin client''.--There have been many functional releases 
        of Web FMIS, since it was implemented in October 1999. With 
        each release, the most appropriate technology available at the 
        time is selected. This has resulted in a complicated 
        architecture that has:
        1. Client/server components on a Cold Fusion server (e.g., 
            Document Entry and Budget Entry functions);
        2. Web components on a Cold Fusion server (e.g., Local list 
            maintenance functions and reports); and
        3. Web components on a WebSphere ``server'' on the Senate's 
            mainframe (e.g., the submit and on-line approval 
            functions).
      Under this project the functions that use Cold Fusion will be re-
        written to use WebSphere, eliminating two different 
        architectural components. This will be implemented in two 
        releases:
        1. Phase I--implemented in early March, 2004--Web FMIS r8--re-
            write the maintenance and administrative functions of Web 
            FMIS to use ``thin client'' technology, upgrade the 
            reporting function to use Crystal Reports version 9, which 
            is ``thin client,'' and revise the reporting function so 
            that it will continue to show data from closed fiscal years 
            (data that we would like to archive from FAMIS). Additional 
            functionality, previously developed but not implemented, 
            will be implemented in this release, the security paradigm 
            based on roles, and administrative contact screens that 
            consolidate information from several subsystems.
        2. Phase II--currently scheduled for August, 2004--Web FMIS 
            r9--re-write the remaining functions that use client-server 
            technology, including the functions most used by office Web 
            FMIS users (e.g., Main Menu, Document Entry, Budget Entry). 
            Additionally, this release will change notification of 
            documents requiring office action from an internal Web FMIS 
            function to e-mail, add a non-travel ESR in SAVI and modify 
            the ESR import function in Web FMIS.
  --Web FMIS Imaging and Digital Signature Design, Electronic Invoicing 
        and Remittance Enhancement.--As articulated in the FMS 
        Conceptual Design, the vision for the FMIS is for paperless 
        voucher processing. This requires implementation of electronic 
        signatures and imaging of supporting documentation. This 
        project begins the exploration of imaging and electronic 
        signatures and will result in a design for this functionality. 
        In addition, the plan is to explore, and if feasible implement, 
        the receipt of invoices electronically from large vendors. This 
        would eliminate the step of imaging paper invoices.
            Senate Automated Vendor Inquiry (SAVI) and Online ESR
    The Online ESR, a subsystem of SAVI, enables Senate staff to 
complete an on-line Travel Expense Summary Report (ESR) and submit it 
so that their Office Manager can ``import'' the data and create a 
voucher, without retyping the ESR data. The April 2003 release of Web 
FMIS made the corresponding ``import'' ESR function available to all 
Office Managers. Office Managers in turn encouraged their staff to use 
the online ESR, thus substantially increasing the number of online ESR 
users.
    The SAVI system enables Senate staff to check the status of 
reimbursements, whether via check or direct deposit, and whether or not 
referencing an online ESR. In June 2003, a serious performance problem 
was encountered in SAVI. Web pages that normally took a few seconds to 
access suddenly required more than a minute. This was due to 
inefficient structure of a few ``calls.'' While they performed 
adequately during testing and during pilot use of SAVI the increased 
use of SAVI after the April 2003 release of Web FMIS highlighted this 
inefficiency. In less than two weeks, DO and BearingPoint staff 
identified the cause of the problem and developed, tested and installed 
the solution, SAVI release 2.02. No substantial performance problems 
have since been encountered.
    In October 2003, SAVI release 2.1 was implemented. This release 
included a number of security features, such as encryption of user 
passwords, removal of Social Security Numbers from the Oracle database, 
masking all but the last three digits of bank account numbers, and 
disabling unused/unnecessary services on the servers. In addition, work 
was conducted on SAVI release 2.2, which is scheduled for 
implementation in 2004, and will include some major functional 
enhancements, conversion to .NET (``dot net'') version of Visual Basic 
and several other security enhancements.
            Post payment Voucher Audit
    In December 2002, the Rules Committee delegated to the Financial 
Clerk the authority for sanctioning vouchers of $35 and less. This 
authorization directed Rules and DO to establish a set of procedures 
for a semi-annual audit of these vouchers. The two offices agreed that 
Rules would conduct a random sampling inspection of these vouchers 
based on industry statistical standards. Under the supervision of the 
IT Group, BearingPoint created tools to determine the sample size, to 
enable selecting the sample from the universe of vouchers of $35 and 
less, and to determine the acceptable number of discrepancies given the 
sample size and the desired confidence interval. The first audit was 
conducted in May 2003 for the six-month period ending March 31, 2003, 
covered 7,270 vouchers, and resulted in a favorable finding of zero 
discrepancies. The second audit was conducted in November 2003 for the 
six-month period ending September 30, 2003, covered 11,502 vouchers, 
and again resulted in a favorable finding of zero discrepancies.
            Checkwriter
    The Disbursing Office makes payments via direct deposit and via 
check.
  --Direct Deposit.--In 2002 the Disbursing Office began making expense 
        reimbursements to Senate staff via direct deposit (i.e., ACH or 
        Automated Clearing House). In 2003 this was expanded to include 
        external vendors. The initial pilot vendors provided materials 
        to the Keeper of Stationery; and our first payments to them 
        were transmitted on June 3, 2003. After a very successful 
        initial pilot, it was expanded to larger-volume vendors such as 
        FedEx.
  --Laser Checks.--In five years of using the Checkwriter application, 
        it became clear that there are benefits in switching from 
        printing checks on a continuous-feed impact printer to printing 
        checks on a laser printer. The laser version will provide more 
        flexibility for continuance of operations by eliminating our 
        dependence on the harder-to-find printer. It will also produce 
        a higher print quality, which will help the postal service in 
        the delivery of checks. The higher quality print will also 
        prevent checks from being negotiated for an unintended dollar 
        amount. During 2003, the DO held numerous meetings with 
        Checkwriter's designer, BearingPoint, to establish new 
        specifications for the laser version. As a result, a new and 
        substantially different check proof has been established with 
        the Treasury Department. Additionally, the choice of folder/
        inserter machines to use with the laser check stock was 
        narrowed. Testing is currently underway for the implementation 
        of laser checks in 2004.
Planning
    There are two main planning activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
            Schedule Coordination
    In 2003, three meetings continued among the DO, SAA and 
BearingPoint to coordinate schedules and activities. These are:
  --Project specific meetings--a useful set of project specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Document Purge meetings 
        and Web FMIS requirements meetings);
  --Technical Meeting--a weekly meeting among the DO staff (IT and 
        functional), SAA Technical Services staff, and BearingPoint to 
        discuss coordination among the active projects, including 
        scheduling activities and resolving issues; and
  --``Project Office''--a monthly meeting among senior Senate staff 
        (e.g.,the Financial Clerk, Rules Committee staff), the 
        BearingPoint engagement partner, SAA technical and functional 
        staff, DO IT and functional staff, and BearingPoint staff to 
        discuss progress on each project.
    With progress being made, the decision was made to move more 
activities from the project office meeting to the technical meeting, 
and by the end of 2003, the project office meeting was eliminated. In 
January 2004 one technical meeting is held each month as a joint 
technical/project office meeting.
            Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month time frame of the technical meeting schedule. It is designed 
to set the direction and priorities for further enhancements. In 2002 a 
five-year strategic plan was written by the IT and Accounting staff for 
Disbursing Office Strategic Initiatives. This detailed description of 
five strategic initiatives is the basis for the $5 million in multi-
year funds given to the Secretary's office by the Senate Committee on 
Appropriations for further work on the FMIS project. The five strategic 
initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, that will reduce the Senate's dependence 
        on paper vouchers. This will enable continuation of voucher 
        processing operations from any location, should an emergency 
        again occur;
  --Web FMIS--Requests from Accounting Locations.--Respond to requests 
        from the Senate's Accounting Locations for additional 
        functionality in Web FMIS;
  --Payroll System--Requests from Accounting Locations.--Respond to 
        requests from the Senate's Accounting Locations for on-line 
        real time access to payroll data;
  --Accounting Subsystem Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.
Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the IT group during the summer of 2003 due to the retirement of the 
Assistant Financial Clerk. These responsibilities include developing 
the task orders with contractors and overseeing their work. In 2003, 
four new task orders were executed with BearingPoint:
  --Web FMIS Thin Client;
  --Web FMIS Imaging and Digital Signature Design and Electronic 
        Invoicing and Remittance Enhancements;
  --Additional Operational Support; and
  --Extended Operational Support (Sept. 2003--August 2004).
    In addition, in August 2003 a new multi-year contract with Bearing 
Point was negotiated and signed. This was a joint effort between the DO 
staff and the SAA procurement staff.
Administering the Disbursing Office's Local Area Network (LAN)
    The DO administers its own Local Area Network (LAN), which is 
separate from the LAN for the rest of the Secretary's Office.
            Office-wide LAN maintenance and upgrade
    Existing workstations were maintained with appropriate service 
patches, and security updates including:
  --Conducted Pre-Install meetings for the new DO SQL server--Worked 
        with the Senate support vendor to determine installation 
        strategy and procedures to properly prepare an SQL production 
        server;
  --Supervised DO SQL server installation--Ensured that system was 
        installed in accordance with all agreed upon requirements;
  --Installed SNAP servers--These devices provide an additional means 
        for LAN data backup;
  --LAN Planning--Began planning for the installation of a new LAN 
        server in 2004; and
  --Maintained our Office Information Authorization form log which 
        provides easy access from DO staff desktops to up-to-date 
        information about the authorized contacts for each Senate 
        office.
            Office-wide Technical Skills Improvement
    The Systems Administrator was tasked with improving the DO's 
efficiency with the use of available technology. One example of this 
improvement is how check inquires are processed. Prior to the 
implementation of existing technology, when an office requested 
information about negotiated checks, DO Accounts Payable Disbursements 
staff printed a copy of the front and back of the check via Treasury's 
Pacer system. Then the staff would mail these copies to the office. As 
a result of the training provided by the Systems Administrator, the DO 
staff scan the Pacer copy of the front and back of the check and attach 
the image to an e-mail message to the office, providing better and 
faster responses.
            Projects for the Accounts Payable and Accounting Sections
    The activities of the Accounts Payable and Accounting Sections were 
supported with the development of a Vendor Data Imaging process which 
consists of simple scanning procedures to capture and electronically 
store the paperwork associated with vendors.
            Projects for Payroll and Employee Benefits Sections
    Activities of the Payroll and Employee Benefits sections were 
supported with four specific projects:
  --Assisted in the development of the Payroll Imaging system, which 
        captures payroll documents turned in at the DO front counter 
        electronically, including ordering all required system 
        components. This system is still being implemented;
  --Maintained required software to enable the Employee Benefits 
        section to continue transmitting employee health plan 
        information electronically to the National Finance Center in 
        order to participate in the program called Centralized 
        Enrollment Clearinghouse System (CLER); and
  --Posted Revised Overtime Schedules for different work weeks along 
        with a generic time sheet on the DO website.
            Software for the Report of the Secretary of the Senate
    Several DO staff review and edit data for the Report of the 
Secretary of the Senate. This requires special software and 
dictionaries, with the following performed on this software:
  --Coordinated the update and installation of the ``Toolbox'' software 
        (provided by BearingPoint) on existing PCs;
  --Reviewed existing spell check dictionaries, and worked with 
        BearingPoint to make the required updates; and
  --Implemented procedures to ensure that dictionaries are maintained 
        after each reporting cycle.
Coordinating the Disbursing Office's Disaster Recovery Activities
    The DO's disaster recovery activities include two related 
activities:
  --Disaster Recovery Testing, participating in the computer system 
        disaster recovery tests conducted by the SAA; and
  --Coordinating the Continuation of Operations Plan (COOP), a broadly 
        focused activity, addressing all aspects of DO operations.
            Disaster Recovery Testing
    Since 1995, the SAA has contracted with an offsite contractor for 
backup services in case of a disaster affecting the Senate's main data 
center. The Senate's Payroll system and FMIS are included in this 
recovery process. Since the contract's inception, the Senate has tested 
its ability to restore systems and perform normal activities at least 
once, and often twice each year. Disbursing Office staff and SAA 
Procurement staff are active participants in the planning and execution 
of these tests. In a February 2003, exercise, the mainframe subsystems 
of FMIS (i.e., ADPICS and FAMIS) were tested successfully. Two critical 
subsystems, checkwriter and Web FMIS, were also tested with limited 
success. Due to time constraints, security for Web FMIS was bypassed 
and generating reports was not included in the test. In addition, 
because of the communications architecture, some ADPICS document prints 
(Purchase Orders and Vouchers) could not be created.
    Disaster Recovery Background.--Every night, data and software from 
the Senate's mainframe computer systems are backed up to a magnetic 
cartridge and taken to a secure off-site facility. In the event of a 
disaster in the SAA computing facilities at Postal Square, SAA 
technical staff would immediately arrange to have the data, software, 
and appropriate operating instructions forwarded from the off-site 
facility to one of the contractor's data centers. Senate staff would 
travel to this facility to oversee the restoration of all software and 
data on the contractor's computer. By contract, restoration would be 
complete within 24 hours and systems would then be available to users. 
The contracted-for facilities can currently support up to 48 concurrent 
Senate users.
    Disaster Recovery of the Payroll System.--Several key components 
are necessary for access to the payroll system after the restoration of 
data at the contractor's facility is complete. At least one terminal 
identification (term-ID) must be coded in the payroll system to allow 
CICS access because the payroll application has an internal security 
module that ties a user to a specific term-ID that controls user 
access. Another key component is FTP software that allows the movement 
of files from point to point.
    Most payroll payments are made via Direct Deposit to the Federal 
Reserve Bank using the Automated Clearing House (ACH). After the 
payroll system is closed-out for the payroll period, the SAA 
programmers provide an ACH data set which is transmitted to the Federal 
Reserve Bank in Atlanta, Georgia, via a specially configured PC 
containing an encryption board and a specialized modem. The DO also has 
an open-ended agreement with the Senate Federal Credit Union that 
allows the DO to transmit from their facility in Alexandria, Virginia. 
The Federal Reserve Bank of Atlanta must be notified prior to any 
transmission changes, but this agreement gives us the flexibility to 
transmit from an alternate access point in the event we encounter 
future transmission problems.
    Disaster Recovery for FMIS.--The DO has participated in disaster 
recovery testing of mainframe FMIS facilities since the system was 
implemented in October 1998. For the February 2003 test, DO and SAA 
Procurement staff tested the various modules of the mainframe 
application to ensure they were functioning correctly at the back-up 
site. Using workstations connected to the Senate's fiber network as 
well as laptop computers dialing into the offsite location, users have 
tested various types of document preparation and posting to FAMIS. In 
addition, batch report testing, and system inquiries into both the 
procurement and financial modules were tested. Finally, various batch 
processing tasks were tested to ensure that they perform as expected. 
In the February 2003 testing, these tests were completed 
satisfactorily. However, ADPICS printing of Purchase Orders and 
Vouchers does not work in the disaster recovery mode.
    Two components of FMIS, checkwriter and Web FMIS, were tested for 
the first time with limited success. Testing of the ``checkwriter'' 
process, which generates checks and/or direct deposits in payment to 
vendors, was tested successfully in the February 2003 exercise. The 
disaster recovery testing of Web FMIS was accomplished in the 2003 
effort. This testing required installation of additional hardware and 
software at the contractor's facility. In order to perform the testing 
in the available time frame, security had to be disabled and user 
requested reports were not generated. It was anticipated that problems 
associated with both will be resolved and tested satisfactorily in the 
future.
    Printing of ADPICS purchase orders and vouchers is still not 
possible with the current disaster recovery communications 
infrastructure of ``dial-up'' lines. Workaround facilities or a revised 
infrastructure have not been finalized for this functionality. As a 
result, entities that prepare ADPICS purchase orders and vouchers, 
primarily the Secretary of the Senate and the SAA, would not be able to 
print these documents in the event of a disaster. The proposed 
Alternate Computer Facility should have more advanced infrastructure, 
allowing for the printing of these documents.
            Coordinating COOP
    The DO staff wrote a Continuation of Operations Plan (COOP) in 
2001. This document addresses issues beyond the scope of disaster 
recovery. Normal maintenance is performed on this document to ensure 
that it remains up-to-date and viable.
                         administrative offices
                    1. conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. This office's initiatives include 
deacidification of paper and prints, phased conservation for books and 
documents, collection surveys, exhibits, and matting and framing for 
the Senate Leadership.
    Over the past year, the Office of Conservation and Preservation has 
embossed 110 books and matted and framed 515 items for the Senate 
Leadership. The office is especially proud to be a part of a Senate 
tradition. For more than 22 years, the office has bound a copy of 
Washington's Farewell Address for the annual Washington's Farewell 
Address ceremony. In 2003, a volume was bound and read by Senator Saxby 
Chambliss.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the Office of Conservation and Preservation continued to conduct an 
annual treatment of books identified by the survey in need of 
conservation or repair. In 2003, conservation treatments were completed 
for 112 volumes of a 7,000 volume collection of House Hearings. 
Specifically, treatment involved recasing each volume as required, 
using alkaline end sheets, replacing acidic tab sheets with alkaline 
paper, cleaning the cloth cases, and replacing black spine title labels 
of each volume as necessary. The Office of Conservation and 
Preservation will continue preservation of the remaining 4,165 volumes.
    This office assisted the Senate Library with 578 books sent to the 
Library Binding section of the Government Printing Office for binding. 
The Office of Conservation and Preservation also worked with the Senate 
Library on four exhibits located in the Senate Russell building 
basement corridor.
    This office continues to serve Senate offices with conservation and 
preservation of documents, books, and various other items. The office 
is currently monitoring the temperature and humidity in the Senate 
Library, the vault, and the warehouse for preservation and conservation 
purposes, and plans to phase 15 antique books for box conservation for 
storage as well as cross-train a Senate Library staff member to repair 
Senate Library materials.
                               2. curator
    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Office collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
architectural features; and exercises supervisory responsibility for 
the chambers in the Capitol under the jurisdiction of the Commission. 
Through exhibitions, publications, and other programs, the Office 
educates the public about the Senate and its collections.
Collections: Commissions, Acquisitions, and Management
    Several important commissioned portraits are currently in progress, 
including paintings of Senators Bob Dole and George Mitchell for the 
Senate Leadership Portrait Collection; Senators Arthur Vandenberg and 
Robert Wagner for the Senate Reception Room; and Senator Margaret Chase 
Smith. The Vandenberg, Wagner, and Smith portraits are scheduled to be 
completed and unveiled in 2004.
    The marble bust of Vice President Quayle was unveiled last 
September. The sculpture was added to the Senate's Vice Presidential 
Bust Collection and installed on the second floor outside the Senate 
Chamber. The Curator's Office also installed a painted canvas state 
seal of Kentucky in the Majority Whip's Office.
    Thirteen objects were accessioned into the Senate Collection this 
year. Objects of note include two porcelain Senate Restaurant plates 
dating to the early 20th century; a rare cigar label from the mid-
1800's depicting Senators Webster, Clay and Calhoun; an historic 
lithograph of George Washington by Rembrandt Peale based on the 
Senate's well-known Patri' Pater painting; as well as several historic 
prints and political cartoons.
    Thirteen new foreign gifts were reported to the Select Committee on 
Ethics and transferred to the Curator's Office. They were catalogued, 
and are maintained by the office in accordance with the Foreign Gifts 
and Decorations Act.
    In response to work on the Capitol Visitor Center (CVC) and other 
projects, the Curator's Office worked with the Architect of the Capitol 
(AOC) to relocate several sculptures in the Capitol. The marble bust of 
Constantino Brumidi was moved to accommodate the restoration efforts in 
the Brumidi Corridors; while the three marble patriot busts in the 
Senate Vestibule and the sculpture of Justice and History were 
relocated to accommodate CVC construction. Due to the size and fragile 
nature of Justice and History, a conservator was contracted to assist 
with the move, and later cleaned and reattached the two pieces in the 
sculpture's new location.
    The 2002 project to professionally photograph the Senate's 
approximately 1,000 historic prints was completed. One set of 
transparencies will be stored off-site for emergency purposes, while a 
second working set will be used for image requests, future 
publications, and new web site postings.
    The office also undertook a new initiative to photograph the 102 
historic Senate Chamber desks (one hundred on the Senate floor and two 
in storage). A contract was awarded to photograph the exterior of each 
desk, as well as the interior desk drawer. The project is phased to 
coincide with the conservation of the desks; a total of 20 desks were 
photographed in 2003, and the project will be completed in 2008. One 
set of transparencies will be stored off-site for emergency 
preparedness, while a second working set will be used for the website, 
image requests, and future publications.
    In keeping with the inventory schedule established by the 
Registration department last year, all prints, drawings, and 
advertising images in collection storage were inventoried in 2003. 
Additionally, all objects on display in the Capitol and Senate Office 
Buildings were inventoried to verify that no changes in location or 
condition occurred in the past year.
Conservation and Restoration
    A total of 19 objects received conservation treatment in 2003. 
These included 15 Senate Chamber desks, a portrait frame and canvas, a 
1909 Russell Senate Office Building partner desk, and two historic ship 
models.
    The initiative to conserve each of the 100 historic Senate Chamber 
desks began in 1999 at the direction of the Senate Commission on Art. 
Twice a year, during Senate recess periods, desks are removed from the 
Senate Chamber and sent out for restoration. Treatment is extensive, 
and follows a detailed protocol developed to address the wear and 
degradation of these historic desks due to continued heavy use. To 
date, 76 desks have been restored and the project is on track to be 
completed in 2005. This year a condition survey of the desks already 
treated was completed. The survey found the desks in good overall 
condition. The survey noted that the Senate Cabinet shop should 
complete the installation of rubber bumpers to the arms of the Senate 
Chamber chairs to protect the front of the desks from damage.
    The gilt frame for the portrait of Pocahontas received conservation 
treatment. While removing the frame from the painting, it was 
discovered that a small section of the canvas had adhered to the liner 
of the frame as a result of a previous conservation treatment. A 
painting conservator separated the frame and painting and performed 
minor conservation treatment to clean, repair, and protect the surface 
of the painting.
    The office of Senate Curator is studying the possibility of 
conserving the canvas and frame for the painting George Washington by 
Gilbert Stuart.
    An historic partner desk, part of the original suite of furniture 
purchased for the Senate Russell Office Building in 1909 and now 
assigned to the Republican Leadership suite, was refinished according 
to a detailed protocol treatment that restores the original type of 
finish and appearance to the Russell Office Building furniture.
    Major renovation of the Rules Committee Hearing Room in the Senate 
Russell Office Building provided the opportunity for conservation 
treatment of two historic ship models in the room. The ships, one 
representing the U.S. Constitution and the other the Santa Maria, are 
part of the original 1913 decorative scheme for the room when it served 
as the Foreign Relations Committee Room. The ships were removed and 
examined by a conservator. Extensive cleaning was necessary, as well as 
repairs to the rigging, sails, and other small associated details.
    The Collections Manager participated in training sessions for the 
Capitol Police regarding the care and protection of art in the Capitol. 
The Curator's staff also continued to educate the housekeeping 
personnel on maintenance issues related to the fine and decorative arts 
collections.
Historic Preservation
    Over the past year the preservation program continued to develop 
the infrastructure systems necessary to support all levels of 
preservation activities. Efforts focused on research (archival and 
physical investigations), documentation, record keeping, and project 
oversight.
    Research projects, in response to Senators' requests, produced room 
histories and chronologies for individual architectural features, some 
of which involved fabric analysis and condition assessments. The office 
initiated documentation projects to capture physical changes of a space 
or object, and to catalogue existing architectural elements through 
surveys. These research and documentation projects, aside from 
contributing to the office's architectural knowledge, provided a forum 
for developing and refining standards for information collection and 
reporting. In addition, various record keeping systems were established 
in order to house the findings, including relational FileMaker Pro 
databases and traditional files. Such systems allow the office to 
easily store and access information, and will continue to evolve as the 
preservation department expands its research, documentation, and 
oversight purview.
    The most significant research-related projects included the 
completion of an historic structures report (HSR) for the Senate 
Reception Room, and the creation of a collections guide to local 
archives. The HSR employed a standard format and will served as a model 
for all future HSR's. Based on this effort, the office worked with the 
AOC to develop a project for an HSR for the Senate vestibule, adjacent 
stairwell, and small Senate rotunda. Regarding the collections guide, 
the office initiated a program of systematic review of all relevant 
local research collections for the purpose of informing future research 
efforts. Through this undertaking, collection content is recorded, all 
crucial materials are copied, and the research path is clearly 
documented.
    Along with establishing internal procedures, the office worked in 
partnership with the AOC and the Sergeant at Arms to monitor all 
relevant Senate side projects and to provide guidance on those with 
potential to impact historic resources. Projects requiring considerable 
time and attention included creation of S-125A in the Brumidi 
Corridors; continued conservation of the Brumidi Corridor walls; 
initiation of a shutter restoration program; development of a plaster 
stability testing project; installation of escape mask hood storage 
units; rehabilitation of the Republican Leadership suite; and 
completion of the rehabilitation of the Democratic Leadership suite.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. By order of the Capitol Police, the Old Senate 
Chamber was closed to visitors after September 11, 2001. However, 
during three Senate recesses (August, October, and December), the 
historic room was opened to Capitol Guide and staff-led tours. Thirty-
eight requests were received from current Members of Congress for 
after-hours access to the chamber. Of special significance was the re-
enactment swearing-in ceremony for the newly-elected Senators of the 
108th Congress. Thirty-one requests were received by current Members of 
Congress for admittance to the Old Supreme Court Chamber after-hours. 
The office also worked with the AOC to install an electric lift outside 
the Old Court for the use of disabled visitors. The lift was necessary 
due to CVC construction and related accessibility issues.
Loans To and From the Collection
    A total of 69 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate Leadership and officials 
within the Capitol. Throughout 2003, the Curator's staff returned seven 
objects at the expiration of their loan periods to their respective 
owners. At the request of the Republican Leadership, 12 new paintings 
were borrowed this year.
    Of significance was the office's success in locating and securing a 
loan of an historic chair originally presented to Vice President 
Charles Curtis. The chair, which reflects Curtis's Native American 
heritage, is on indefinite loan to the Senate from an anonymous lender.
    The Curator's Office continued to work with CVC staff to assemble 
information on Senate Collection objects under consideration for loan 
to the exhibition in the main gallery of the CVC.
    The Secretary's china was distributed and returned three times in 
2003. The official Senate china was inventoried and used at 34 
receptions for distinguished guests, both foreign and domestic.
Publications and Exhibitions
    This summer the Office of Senate Curator teamed with the Government 
Printing Office to supervise the printing of the United States Senate 
Catalogue of Fine Art. The book marks the first time in its more than 
200-year history that the Senate has showcased its entire collection of 
paintings and sculpture in a publication. Using full-page color images 
and historic photographs, the book provides detailed information on 
both the subject and artist for 160 works of fine art, and is a 
significant resource for those interested in the history of the Senate 
and the heritage of its art. Advance copies of the publication were 
distributed to congressional offices in October, and additional copies 
will be available in 2004. Several brochures were reprinted, and one 
new brochure was published, The United States Capitol, Room S-219.
    The interactive exhibit Take the Puck Challenge! was deinstalled 
after a 5-year run. The office is continuing to work with the Architect 
of the Capitol to develop and install the second phase of the 
Constantino Brumidi exhibit. The Senate Cabinet shop is constructing 
exhibit kiosks to display informational panels for the paintings George 
Washington at Princeton and The Recall of Columbus.
    The Curator's office completed final drafts for the Senate 
Appropriations Committee Room and Isaac Bassett. These drafts have been 
submitted to the Appropriations Committee and the Secretary for final 
review.
    In early 2004, funding was approved to develop internet sites on 
the political cartoons of Puck and the drawings of Lily Spandorf.
Policies and Procedures
    This year saw the passage of important legislation related to the 
Commission on Art, Public Law 108-83, the Legislative Appropriations 
Act of 2004, with several important technical amendments to the 
Commission's enabling legislation, including a provision to permit the 
Commission to impanel advisory boards, and the establishment of the 
Senate Preservation Fund. It also created a Curatorial Advisory Board, 
which will greatly enhance the Commission's ability to care for the 
Senate's collections and to evaluate potential acquisitions on behalf 
of the Senate. Such a board will be composed of respected scholars and 
curators who will assist in the development of policies and procedures, 
and will review important acquisitions to ensure appropriateness and 
validity.
    The office also created several important procedural documents in 
2003. These included standard procedures for portrait unveilings and 
foreign gifts disposition. In response to recent Senate activities, the 
office developed formal guidelines for adding or removing applied and 
fixed fine art in the Senate. The guidelines call for the creation of 
parameters for each space where art has or could be applied, and the 
office developed parameters for the Brumidi Corridors and the Senate 
Reception Room. The guidelines are currently under review. The office 
also assisted in the development of standard contract procedures that 
will be used throughout the Secretary's offices in an effort to 
standardize and safeguard the contracting process.
    Progress continued on a definitive Collections Management Policy. 
The new Curatorial Advisory Board will review the document, which will 
be presented to the Commission on Art. A first draft of the Commission 
on Art's collections management policy has been completed with peer 
review expected in 2004.
Collaborations, Educational Programs, And Events
    As part of the seminar series conducted under the auspices of the 
Secretary of the Senate and the Sergeant at Arms, the Curator's staff 
continued to deliver periodic addresses on various aspects of the 
Senate's art and history. Staff conducted or assisted with several 
sessions, including ``Congress and the Capitol: Tour Guide Series'' and 
``The Vice Presidential Bust Collection.''
    The office contributed numerous articles to Unum, the Secretary of 
the Senate's newsletter. Along with regular features, a new series 
highlights art from the country's four geographic regions.
Office Administration
    The Curator's Office continued to improve office safety and 
emergency procedures. Practice evacuation drills were conducted 
monthly. The office purchased a digital camera for its COOP plan, and 
performed routine updates of COOP documents. The collection object 
files are the primary legal title, research, and management records for 
all art and historical objects in the Senate's collections. Microfiche 
and digital copies of these records will be stored off-site for 
disaster recovery and archival purposes. Additional copies will be used 
on-site for research and public information in order to lessen the 
handling and damage to the original paper records. In this way, these 
unique historical records will be preserved for future generations in 
case of disaster.
    Planning continued with AOC staff regarding both additional storage 
space in the Capitol complex and related construction outside the 
Curator's two archival storage rooms on the fourth floor of the 
Capitol. To ensure that the additional space meets the Curator's needs 
for both temporary and long-term storage for works of art and 
historical objects, a variety of considerations were addressed, 
including access, security, fire prevention, and environmental 
controls. The office worked closely with the AOC to ensure the safety 
and accessibility of these spaces during construction. At the same 
time, as part of a larger security system upgrade for the Capitol, the 
Physical Security Division coordinated replacement of the alarm systems 
for the storage rooms.
    On behalf of the Sergeant at Arms, the Government Services 
Administration (GSA) signed a three year lease with a contractor to 
provide secure, climate controlled, museum quality storage for objects 
in the Senate Collection that are not displayed and cannot be 
accommodated in the storage rooms on the fourth floor. The office 
subsequently relocated 70 objects to the new storage facility, 
primarily historical furniture, rugs, and decorative arts.
    In addition to fulfilling storage requirements, the fourth floor 
construction included renovation of the Curator's space. The changes 
have greatly improved operational efficiency and staff workspace.
Automation
    With the assistance of a consultant, the Senate Collection database 
was restructured and is now configured as a true relational database, a 
feature that will streamline data entry, enhance data recovery and use, 
and facilitate overall maintenance. In addition, data entry screens are 
better organized and more user friendly. Additionally, some staff in 
the office upgraded to a new version of FileMaker Pro 6. This version 
is compatible with XML and already has enabled the Senate website 
information to be updated directly from the collections database.
    In response to a new initiative to publish a catalogue on the 
Senate's historic prints and engravings, clean-up of data related to 
almost 1,000 graphic images began. The Registrar and Associate 
Registrar were tasked with confirming the accuracy and completeness of 
data for the requisite fields in the database which will provide the 
basis of the identification information for the objects in the 
catalogue. In order for this to occur most effectively, each print was 
viewed and its information compared with the data that appears in the 
automated database.
    The office published an exhibit, ``Women in Senate Art,''on the 
Senate web site. This collection of paintings and sculptures 
illustrates the role of women artists in the Senate Collection, as well 
as highlights the women depicted in Senate art. The office also posted 
PDF versions of many of its publications to the web site.
Objectives for 2004
    Conservation and preservation concerns continue to be a priority. 
Projects in 2004 will include the restoration of 15 Senate Chamber 
desks and restoration of an historic mirror in the Capitol. 
Investigation will be carried out to identify appropriate expertise and 
direction for conservation of the painting and frame for a portrait of 
George Washington by Gilbert Stuart, the First Reading of the 
Emancipation Proclamation by F.B. Carpenter, and an historic globe from 
the Senate Rules Committee Hearing Room.
    The office, through the Commission on Art, will be responsible for 
commissioning a new painting. S. Res. 177 directs the Commission on Art 
to commission by the end of the session a scene commemorating the 
Connecticut Compromise for display in the Senate.
    The office will develop regulations, guidelines, and authorities 
for administration of the Senate Preservation Fund and associated 
boards. The Curatorial Advisory Board will be furthered; any additional 
boards that the Commission deems are needed will be established; and a 
plan for the Preservation Fund developed.
    In compliance with S. Res. 178 directing the Senate Commission on 
Art to update every six months a list of art and historic furnishings, 
the office will work closely with the SAA and Senate Superintendent to 
coordinate and submit a complete inventory to the Rules Committee.
    Appropriate disposition of objects in the foreign gift collection 
will be a priority. The office has established procedures for reviewing 
and processing foreign gifts that will allow for quicker transfer of 
objects and alleviate storage issues.
    Microfiching of the fine art collection files and microfilming of 
the Isaac Bassett papers will proceed. The office will continue with 
the photography of the Senate Chamber desks. Clean-up of the historic 
print and engraving data will be a high priority.
    The next major publication will be a catalogue on the Senate's 
graphic art collection. Similar in style to the recent fine art 
catalogue, the United States Senate Catalogue of Graphic Art will 
highlight the approximately 1,000 prints in the collection along with 
essays by the Senate Curator and Associate Senate Historian. Other 
publications scheduled for 2004 include: Bassett: The Venerable 
Doorkeeper, presenting the career of Isaac Bassett and reproducing 
passages from his papers, and a brochure on the Appropriations 
Committee Room.
    The office will begin installing information panels for important 
Senate artworks, and standard labels for all fine art work will be 
developed.
    New internet exhibits will include sites on the Senate Chamber 
desks, Isaac Bassett, and the United States Senate Catalogue of Fine 
Art. The office also plans to begin publishing its historic engravings 
on the web, opening that entire collection to public view for the first 
time.
    Regarding the Senate Preservation Program, the office will expand 
its knowledge of architectural history through research and 
documentation. The office will move forward on historic structures 
reports for the Vice President's Room, Marble Room, and President's 
Room, and work with the AOC on an HSR for the Senate Vestibule and 
small Senate Rotunda. In the area of physical preservation, the office 
will continue project oversight and documentation, and will move into 
project development by identifying appropriate preservation treatments 
and sequential tasks for the Senate Reception Room and S-238. In 
conjunction with the AOC, the office will follow the existing AOC 
project development procedure to accomplish the preservation goals for 
these spaces.
               3. joint office of education and training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff both in 
Washington D.C. and the states. There are three branches within the 
department. The technical training branch is responsible for providing 
technical training support for approved software packages. This staff 
provides instructor-led classes; one-on-one coaching sessions; 
specialized vendor provided training, computer based training; and 
informal training and support services. The professional training 
branch offers courses for all Senate staff in areas including 
management and leadership development, human resources issues and staff 
benefits, legislative and staff information, new staff and intern 
information. The Health Promotion branch provides seminars, classes and 
screenings on health related and wellness issues. This branch also 
coordinates an annual Health Fair for all Senate employees and four 
blood drives each year.
Training Classes
    The Joint Office of Education and Training offered 694 classes in 
2003 with 6,916 Senate employees participating. The registration desk 
handled 15,390 requests for training and documentation.
    Of the above total, in the Technical Training area, 335 classes 
were held with a total attendance of 1,799 students. An additional 
1,126 staff received coaching on various software packages and other 
computer related issues. Training was provided to virtually the entire 
Senate community as the new Senate Mail Infrastructure was rolled out 
through the year.
    In the Professional Development area 359 classes were held with a 
total attendance of 5,117 students. Individual managers and supervisors 
were also encouraged to request customized training for their offices 
on areas of need.
    The Office of Education and Training is available to work with 
offices on issues related to team performance, communication or 
conflict resolution. During 2003, 40 requests for special training or 
team building were met. Professional development staff also traveled to 
State offices to conduct specialized training/team building during the 
year.
    In the Health Promotion area, 774 Senate staff participated in 
Health Promotion activities throughout the year. These activities 
included cancer screening, bone density screening and seminars on 
health related topics. Additionally 1,300 staff participated in the 
Annual Health Fair held in October.
    The Office of Education and Training also works with the Office of 
Security and Emergency Preparedness to provide security training for 
Senate staff. In 2003 the office coordinated 23 sessions of Escape Hood 
Training for 1,359 Senate staff. The office also worked with the Office 
of Security and Emergency Preparedness to mount a safety and security 
curriculum, comprised of numerous topics related to security and 
emergency preparedness.
State Training
    Since most of the classes offered are only practical for 
Washington, D.C. based staff, the Office of Education and Training 
continues to offer the ``State Training Fair'' which first began in 
March 2000. In 2003, three sessions of this program were offered to 
state staff. There were 134 state staff participants. This office also 
offered a State Directors Forum for the first time. This program was 
designed specifically for the senior leaders in the Senators' state 
offices. There were 42 participants. The office continues to offer 
``Virtual Classroom,'' which is an internet based training library of 
300+ courses. To date, 164 state office staff representing 59 Senators 
are using this training option.
                    4. chief counsel for employment
Background
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (GERA), which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), Senate offices became 
subject to the requirements, responsibilities and obligations of 11 
employment laws. The SCCE is charged with all legal defense of Senate 
offices in all employment law cases at both the administrative and 
court levels. Also, on a day-to-day basis, the office provides legal 
advice to Senate offices about their obligations under employment laws. 
Accordingly, each of the 180 offices of the Senate is an individual 
client of the SCCE, and each office maintains an attorney-client 
relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories: Litigation (Defending Senate Offices in Federal 
Court); Mediations to Resolve Lawsuits; Court-Ordered Alternative 
Dispute Resolutions; Preventive Legal Advice; Union Drives, 
Negotiations and Unfair Labor Practice Charges; OSHA/Americans With 
Disability Act (``ADA'') Compliance; Layoffs and Office Closings In 
Compliance With the Law; and Management Training Regarding Legal 
Responsibilities.
Litigation, Mediations, Alternative Dispute Resolutions
    The SCCE represents each of the 180 employing offices of the Senate 
in all court actions (including both trial and appellate courts), 
hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws. The SCCE handles cases filed in the District 
of Columbia and cases filed in any of the 50 states. The SCCE 
represents a defendant Senate office from the inception of a case 
through U.S. Supreme Court review. The office handled all work in 2003 
internally without the assistance of outside attorneys.
Union Drives, Negotiations And Unfair Labor Practice Charges
    In 2003, the SCCE handled one union drive. The Office did the 
following with respect to the union drive: trained managers and 
supervisors regarding their legal obligations during a union campaign, 
advised the client in selecting its representatives for the election, 
conducted training sessions for the employer representatives regarding 
improper conduct at elections, and conducted an investigation to 
determine whether ground rules exist to challenge the election results.
OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices in 
complying with the applicable OSHA and ADA regulations; representing 
them during Office of Compliance inspections; advising State offices on 
the preparation of the Office of Compliance's Home State OSHA/ADA 
Inspection Questionnaires; assisting offices in the preparation of 
Emergency Action Plans; and advising and representing Senate offices 
when a complaint of an OSHA violation has been filed with the Office of 
Compliance or when a citation has been issued. In 2003, the SCCE 
handled 5 OSHA complaint procedures.
Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws. In 2003, the SCCE 
gave 75 legal seminars to Senate offices. Among the topics covered 
were:
  --Preventing and Addressing Sexual Harassment in the Workplace;
  --The Congressional Accountability Act of 1995: What Managers Need to 
        Know About Their Legal Obligations;
  --Managers' Obligations Under the Family and Medical Leave Act;
  --The Legal Pitfalls of Hiring the Right Employee: Advertising, 
        Interviewing, Drug Testing and Background Checks;
  --Disciplining, Evaluating and Terminating an Employee Without 
        Violating Employment Laws;
  --Management's Obligations Under the Americans With Disabilities Act;
  --Equal Pay for Equal Work: Management's Obligations Under the Equal 
        Pay Act;
  --The Immigration Reform and Control Act of 1986 (IRCA): Steps Your 
        Office Must Take to Verify Employment Eligibility;
  --Enhancing Diversity and Avoiding Discrimination in the Workplace; 
        and
  --Workplace Violence.
Preventive Legal Advice
    At times, a Senate office will become aware that an employee is 
contemplating suing, and the office will request the SCCE's legal 
advice and/or that the SCCE negotiate with the employee's attorney 
before the employee files a lawsuit. The successful resolution of such 
matters substantially reduces an office's liability.
    Also, the SCCE advises and meets with Members, Chiefs of Staff, 
Administrative Directors, Office Managers, Staff Directors, Chief 
Clerks and General Counsels at their request. The purpose is to prevent 
litigation and to minimize liability in the event of litigation. For 
example, on a daily basis, the SCCE advises Senate offices on matters 
such as disciplining and terminating employees in compliance with the 
law, handling and investigating sexual harassment complaints, 
accommodating the disabled, determining wage law requirements, meeting 
the requirements of the Family and Medical Leave Act, and management's 
rights and obligations under union laws and OSHA.
                          5. senate gift shop
    Pursuant to 2 U.S.C. 121(d), the Senate Gift Shop was established 
in 1992 under administrative direction and supervision of the Secretary 
of the Senate. With each successive year since its establishment, the 
Senate Gift Shop has continued to provide outstanding products and 
services that maintain the integrity of the Senate as well as increase 
the public's awareness of the mission and history of the U.S. Senate. 
The Gift Shop provides services to Senators, staff and employees of the 
Senate, as well as constituents, and the many visitors to the U.S. 
Capitol complex. Products include a wide variety of souvenirs, 
collectibles, and fine gift items created exclusively for the U.S. 
Senate. Services include special ordering of personalized products and 
hard-to-find items, custom framing, gold embossing, engraving, and 
shipping. Additional special services include the distribution of 
educational materials to tourists and constituents visiting the Capitol 
Building and Senate Office Buildings.
Facilities
    For several years, the services offered by the Senate Gift Shop 
were over-the-counter sales to walk-in customers at a single location. 
Today, after more than ten years in operation, and as a result of 
extended services and continued growth, the Gift Shop now provides 
service from three different locations. Services from these locations 
include walk-in sales, telephone orders, fax orders, mail orders, and a 
variety of special order and catalog sales.
Sales Activity
    The Senate Gift Shop recorded sales of $1,516,594.88 for fiscal 
year 2003. Cost of goods sold during this same period were 
$1,114,899.59, accounting for a gross profit of $360,172.97. Records 
show total sales in fiscal year 2002 were $1,418,065.88. This 
represents an increase in sales of $98,529.00 from fiscal year 2002 to 
fiscal year 2003.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of on-hand inventory. As 
of October 1, 2003, the balance in the revolving fund was $1,109,717.22 
with on-hand inventory valued at $2,304,772.88.
    A General Accounting Office (GAO) audit of the gift shop's fiscal 
year 2002 sales transactions, requested by the Secretary, is in 
progress and will be completed this year.
Additional Activity
    One of the most important objectives for 2003 was replacing point-
of-sale and accounting software, Basic Four, which is more than 20 
years old and no longer meets the increasingly unique needs of the Gift 
Shop. (This old application was shared with the Stationery Room). A 
contractor was selected to perform the system installation including 
the required hardware for the new retail and financial management 
system. The contract is nearing completion and cut-over to the new 
system occurred in February 2004. The system is now in an acceptance 
stage to ensure that all aspects are functioning properly.
    The selected software package, Microsoft Retail Management Systems: 
Headquarters, Store Operations and Great Plains Financial, was 
purchased in late 2002. It is an off-the-shelf package that requires 
little modification to meet the special technical requirements of 
Senate Gift Shop operations. Currently, Gift Shop staff are creating 
the necessary databases that will serve as the foundation for the new 
retail system including inventory details, financial data and other 
information required for detailed reports. Contractors are now training 
Gift Shop staff on the new system and will continue to provide hardware 
and software support after the cut-over date.
    The installation of the required hardware--servers, computers, 
monitors, and point of sale terminals--and software, is mostly 
complete. The majority of hardware and software along with the support 
services necessary for full implementation of the new system were 
funded through fiscal year 2003 appropriations allocated to the 
Secretary of the Senate. A few additional items, i.e., application user 
fees, required funds which were appropriated in fiscal year 2004.
    It is important to note that the new system will not only meet the 
Gift Shop's current and near-future requirements, but it will also 
accommodate potential add-on features.
Accomplishments and New Products in 2003
            Official Congressional Holiday Ornaments
    In 2003 the Senate Gift Shop introduced the second ornament in the 
2002-2005 series, the third consecutive ``four-year ornament series.'' 
Each ornament features an architectural milestone of the Capitol 
building and is packaged with corresponding historical text taken from 
the book, History of the United States Capitol: A Chronicle of Design, 
Construction, and Politics by William C. Allen, architectural historian 
in the office of the Architect of the Capitol.
    Our 11th annual ornament, released in 2003, pictures a watercolor 
of the Capitol as it appeared in 1834 as depicted by New York architect 
Alexander Jackson Davis. In keeping with a Gift Shop tradition, the 
authentic colors of the original watercolor were reproduced onto a 
white porcelain stone and set with a brass frame finished in 24kt gold.
    Holiday sales of the 2003 ornament were very good with additional 
sales expected throughout 2004. Revenue from selling nearly 35,000 of 
these ornaments has generated more than $40,000 in scholarship funds 
for the Senate Child Care Center.
            Porcelain ``Legislation'' Box
    ``Legislation'' was the second in a series of four porcelain boxes 
that displays different images from the Constantino Brumidi fresco 
painted on the ceiling of the President's Room in the Senate Wing of 
the United States Capitol. The first box in the series, ``Liberty'' was 
released in 2002. Each of the final two porcelain boxes will display 
one of the two remaining allegorical figures, Executive and Religion, 
in Brumidi's painting. The boxes will be released in late 2004 and late 
2005, respectively.
            Capitol Visitor Center (CVC) Coin Products
    To better promote the CVC and to better showcase the CVC coins, the 
Gift Shop incorporated coins into a variety of unique gift items. While 
we have noticed an increase in coin sales due to the creation of these 
items, we do not anticipate any substantial reduction of inventory 
until the actual opening of the CVC. The items developed to date 
include:
  --CVC coins encased in Lucite paperweights, which have sold well 
        since their development last year.
  --A variety of ladies' and men's wristwatches and pocket watches with 
        CVC coins serving as the face (developed by the Gift Shop and a 
        vendor/manufacturer).
  --Introductions of additional items currently in development are 
        expected in 2004.
            Senate Seal Watches
    The ``official Senate watch'' is now provided by a different 
manufacturer. The new men's and ladies' watches have the same look and 
feel as the discontinued watches, with additional space on the 
backplate for personalized engravings. The first shipment of watches 
was received in December and is expected to be a popular gift item.
Projects and New Ideas for 2004
            United States Senate Catalogue of Fine Art
    The Gift Shop is working with the Senate Curator in order to secure 
copies of the new publication, United States Senate Catalogue of Fine 
Art.
            Capitol Complex Trees
    During the early construction stages of the CVC the Senate Gift 
Shop arranged for the recovery of the felled trees from the grounds of 
the Capitol complex. The recovered trees have been milled and kiln 
dried. The resulting 12,000 board feet of cut lumber are being 
temporarily stored in a warehousing facility.
    While the Gift Shop continues researching ideas for products that 
can be produced from the recovered trees, the general thought is to 
create presentation pieces for official use and a variety of 
collectors' items available for sale to the general public.
            108th Congressional Plate
    The series of Official Congressional Plates will continue this year 
with the design, development, and manufacture of the 108th 
Congressional Plate. As in previous years, the Gift Shop will rely on 
Tiffany & Co. to produce the plates.
    In addition we are creating a library of complementary designs and 
artwork from which designs for future Congressional plates could be 
chosen. This library will include mock-ups produced in conjunction with 
the selection for the artwork chosen for the 108th Congressional Plate.
                          6. historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The Office advises Senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The Office keeps extensive biographical, bibliographical, 
photographic, and archival information on the 1,775 former Senators. It 
edits for publication historically significant transcripts and minutes 
of selected Senate committees and party organizations, and conducts 
oral history interviews with key Senate staff. The photo historian 
maintains a collection of approximately 40,000 still pictures that 
includes photographs and illustrations of most former Senators, as well 
as news photographs, editorial cartoons, photographs of committees in 
session, and other images documenting Senate history. The Office 
develops and maintains all historical material on the Senate website.
Editorial Projects
    Executive Session Transcripts of the Permanent Subcommittee on 
Investigations, 1953-1954.--The Historical Office completed editing, 
annotating, and indexing 3,800 pages of previously unpublished 
executive-session hearing transcripts produced by the Senate Permanent 
Subcommittee on Investigations (PSI) under the chairmanship of Senator 
Joseph R. McCarthy (1953-1954). In May 2003, the PSI released the 
resulting five-volume work in both printed and electronic editions. The 
transcripts received extensive national media attention.
    The Senate Leader's Lecture Series.--From 1998 through 2002, the 
Senate Majority Leader hosted a series of lectures on Senate 
leadership. These talks, featuring former Senate presidents and party 
floor leaders, were held in the Capitol's historic Old Senate Chamber 
before an audience of current Senators and invited guests. The 
Historical Office provided production and publication support for the 
series, including a 188-page volume containing all nine lectures and 
separate remarks by President Pro Tempore Strom Thurmond. That book, 
entitled Leading the United States Senate, was published by the 
Government Printing Office in September 2003.
    The Documentary History of the United States Senate.--The 
Historical Office is conducting an ongoing documentary publication 
program to bring together in edited volumes fundamental source 
materials that will help explain the development of the Senate's 
constitutional powers and institutional prerogatives. Currently in the 
research and writing stage are volumes on Senate impeachment trials, 
the Senate's consideration of controversial treaties, and the evolution 
of the Senate's standing rules.
    Administrative History of the Senate.--During 2003, the assistant 
historian continued the research and writing of this historical account 
of the Senate's administrative evolution, taking advantage of newly 
discovered archival resources and improved search capabilities for 
contents of nineteenth century newspapers and periodicals. This study 
traces the development of the offices of the Secretary of the Senate 
and Sergeant at Arms, considers nineteenth and twentieth century reform 
efforts that resulted in reorganization and professionalization of 
Senate staff, and looks at how the Senate's administrative structure 
has grown and diversified over the past two centuries.
    Biographical Directory of the U.S. Congress, 1774-present.--In May 
2003, both Houses of Congress adopted H. Con. Res. 138, authorizing 
printing of the sixteenth edition of the Biographical Directory of the 
United States Congress, 1774-2005. The first edition of this 
indispensable reference source was published in 1859; the most recent 
edition appeared in 1989. Since 1989, the assistant historian has added 
many new biographical sketches, has expanded bibliography entries, and 
has revised and updated most of the database's 1,875 Senate entries. 
The assistant historian has updated the Congress-by-Congress listing of 
members through the 108th Congress, in preparation for the new print 
edition, and has completed the editing and proofing of existing 
information to allow for expanded search capabilities on the online 
version at http://bioguide.congress.gov.
    Capitol Visitor Center Exhibition Content Development.--The Senate 
historian assisted in preparing detailed plans for the exhibition 
gallery of the Capitol Visitor Center. Three staff historians 
contributed to exhibition scripts that set forth the chronological 
history of the Senate and describe the role of Congress in helping to 
realize the nation's basic aspirations.
Member Services
    Senate Historical Minutes.--At the request of the Senate Democratic 
Leader, the Senate historian prepared and delivered a ``Senate 
Historical Minute'' at thirty-one Senate Democratic Conference weekly 
meetings during the year. These four-hundred-word Minutes are designed 
to enlighten members about significant events and personalities 
associated with the Senate's institutional development, and with 
familiar objects and places within the Capitol. They subsequently 
appear each week in The Hill newspaper. The nearly 200 Minutes prepared 
since 1997 are available as a feature on the Senate website.
    Members' Office Records Management and Disposition Assistance.--The 
Senate archivist continued her program of assisting members' offices 
with planning for the preservation of their permanently valuable 
records, with special emphasis on archiving electronic information from 
computer systems and transferring valuable records to a home state 
repository. The archivist completed and the Senate published a 
comprehensive revision of Records Management Handbook for United States 
Senators and Their Archival Repositories together with a revised 
pamphlet for Senate staff entitled ``Senators' Papers: Management and 
Preservation Guidelines.'' The archivist assisted in the production of 
an ``Opening an Office Handbook'' and produced a brochure, ``New 
Senators Briefing: Your Historical Records.'' The archivist updated the 
archival sections of the handbook, ``Closing a Senate Office.''
    Committee Records Management and Disposition Assistance.--The 
Senate archivist provided each committee with staff briefings, record 
surveys, guidance in preservation of information in electronic systems, 
and instructions for the transfer of permanently valuable records to 
the National Archives' Center for Legislative Archives. 3,530 feet of 
records were transferred to the Archives. The archivist completed a 
review of records disposition guidelines for the offices under the 
Secretary's jurisdiction. The Office's archival staff continued to 
provide processing assistance to committees and administrative offices 
in need of basic help with noncurrent files.
    Association of Centers for the Study of Congress.--In May, the 
Historical Office joined with the National Archives' Center for 
Legislative Archives, and the Robert C. Byrd Center for Legislative 
Studies to conduct a conference designed to establish an association of 
university-based research centers devoted to the study of Congress. The 
Association of Centers for the Study of Congress will conduct its first 
meeting in May 2004. Among the centers involved are those associated 
with the public careers of former Senators Howard Baker, Bob Dole, 
Everett Dirksen, Margaret Chase Smith, George Aiken, Thomas Dodd, 
Wendell Ford, Hubert Humphrey, Richard Russell, John Stennis, and John 
Glenn.
Oral History Program
    The Historical Office conducts a series of oral history interviews, 
which provide personal recollections of various Senate careers. This 
year, oral history interviews were completed with J. Stanley Kimmitt, 
former Secretary of the Senate; C. Abbott Saffold, former Democratic 
Secretary; Jade West, former staff director of the Republican Policy 
Committee; Tom C. Korologos, former staff of Senator Wallace Bennett 
and White House congressional liaison; Arthur Rynearson, deputy Senate 
Legislative Counsel; Alphonso Lenhardt, former Senate Sergeant at Arms; 
and Martin Gold, procedural counsel to the Majority Leader.
Photographic Collections
    The photo historian continued to expand the Office's 40,000-item 
photographic collection, acquiring images of former Senators not 
previously represented in the collection and photographing historically 
significant Senate events, including hearings of Senate committees. 
Digital images of frequently used photographs were created to promote 
their use and safeguard the originals. Images are now being transmitted 
to patrons via e-mail or CD, and can be printed onto photographic paper 
in the Historical Office. The photo historian also continued to catalog 
photographic negatives into an image database in order to increase 
intellectual control over the Office's image collection. An exhibition 
of Capitol photographs (1900-1950) was developed for display on the 
Capitol's second floor.
Educational Outreach
    In coordination with the Senate Office of Education and Training, 
Historical Office staff provided seminars on the general history of the 
Senate, women Senators, and Senate floor leadership. Office staff also 
participated in seminars and briefings for specially scheduled groups.
    On April 18, 2003, the Washington Post published a highly 
complimentary feature-length article, ``Ensuring a Senate Inscribed in 
History,'' on the operations of the Historical Office.
                           7. human resources
    The Office of Human Resources (HR) was established in June 1995 as 
a result of the Congressional Accountability Act. The Office focuses on 
developing and implementing human resources policies, procedures, and 
programs for the Office of the Secretary of the Senate that not only 
fulfill the legal requirements of the workplace but which complement 
the organization's strategic goals and values. This includes recruiting 
and staffing; providing guidance and advice to managers; training; 
performance management; job analysis; compensation planning, design, 
and administration; leave administration; records management; employee 
handbooks and manuals; internal grievance procedures; employee 
relations and services; and organizational planning and development.
    The Human Resources Office also administers the Secretary's Public 
Transportation Subsidy program and the Summer Intern Program that 
offers college students the opportunity to gain valuable skills and 
experience in a variety of Senate support offices.
Classification and Compensation Review
    For the Secretary of the Senate's operation, the Office of Human 
Resources has conducted a complete classification and compensation 
study which includes, for the first time, a comprehensive collection of 
current job classifications and specifications for every position. 
Furthermore, the pay plan and bands reflect the accurate and equitable 
layout of all staff within the organization. Needs for the upkeep of 
the system are being drafted to afford the Secretary the opportunity to 
keep the system current.
Policies and Procedures
    HR will continue to update and revise the Employee Handbook of the 
Office of the Secretary. With nuances in employment law and other 
advances, policies need to be reviewed, revised and updated annually.
    In regard to potential violations of said procedures, the 
Secretary, through HR and the Senate Chief Counsel for Employment, has 
developed an effective method to coordinate inquiries.
Attraction and Retention of Staff
    HR is responsible for the ongoing task of advertising new vacancies 
or positions, screening applicants, interviewing candidates and 
assisting with all phases of the hiring process. The office works 
closely with the applicable department to ensure the process moves 
smoothly and expeditiously. HR presents to the Secretary the 
recommendations of department heads concerning payroll and hiring 
actions.
Training
    In conjunction with the Senate Chief Counsel for Employment, HR 
prepares training for department heads and staff. Some of the training 
topics include Sexual Harassment, Interviewing Skills, Conducting 
Background Checks, Providing Feedback to Employees and Goal Setting.
Orientation of New Staff
    Since first impressions make such a lasting impression, HR has 
developed a new consistent means of orienting new staff joining the 
Office of the Secretary. This new system allows for a seamless 
transition from the orientation of HR, policies, parking, and metro 
subsidy, to the particular department the staff member is joining and 
fosters a greater overall understanding of the Secretary's operation.
Interns and Javits Fellows
    HR coordinates both the Secretary's internship program and the 
Javits and Heinz Fellowship programs. The Javits program is due to 
terminate in September 2004. The Heinz Fellowship is also due to 
terminate at the end of this fiscal year. HR is aware that the Heinz 
Foundation is currently working to secure reauthorization for the 
program.
Employee Outreach, Feedback and Development
    HR acts as a liaison for staff of the Secretary in soliciting and 
receiving feedback, suggestions and insight in an effort to continually 
improve processes and procedures.
    A key to maintaining and improving performance standards, as well 
as ensuring completion of organizational objectives, is providing 
employee feedback. HR continues to work with the Executive Office and 
department heads to establish objectives that reflect the mission of 
the Senate and the Secretary's Office.
    HR is in the process of obtaining feedback on the current Employee 
Feedback and Development Program (EFDP) process. A new modified tool 
will be created to encompass the recommendations and efficiencies 
brought to light over the past two years.
    HR has initiated development of an Elder Care Fair that will be 
available for all Senate staff interested in learning more about local 
and nationwide services available to assist the elderly and those 
responsible for their care. HR is working closely with the Senate 
Office of Education and Training and the Employee Assistance Program to 
identify and contact agencies that may be of assistance to Senate 
staff.
Employee Self-Service (ESS)
    HR has implemented use of the Employee Self-Service system (ESS) 
which is a secure system enabling Secretary staff to review and update 
personnel information pertaining to addresses, phone numbers and 
emergency contact information. Employees are now able to review and 
correct information to their electronic personnel records kept by HR. 
Staff and managers can also access leave records and reports through 
this system. The ability to review and update this information is 
instrumental to maintaining accurate contact lists for emergencies or 
other contingencies.
New Leave Tracking System
    In the past, employees of the Secretary of the Senate had to 
maintain ``timesheets'' for each day of work throughout the year. This 
system was maintained by each employee and signed off on by the 
supervisor and/or department head. The accrual rates for both sick 
leave and annual leave, in conjunction with the manual attendance 
tracking, proved a tedious task for all. HR has created a new leave 
tracking system whereby attendance is only recorded by the exception, 
or absence. Leave slips have been created for staff to complete and 
submit prior to taking leave. The supervisor approves the request and 
forwards it to HR to be entered into the system. Staff will then have 
access to their leave balances which will be accrued and maintained by 
HR.
                         8. information systems
    The staff of the Department of Information Systems provide 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also work closely with the 
application and network development groups within the Sergeant at Arms 
(SAA), the Government Printing Office (GPO), and outside vendors on 
technical issues and joint projects. The Department provides computer 
related support for the all LAN-based servers within the Office of the 
Secretary of the Senate. Information Systems staff provide direct 
application support for all software installed workstations, evaluate 
new computer technologies, and implement next generation hardware and 
software solutions.
Mission Evaluation
    The primary mission of Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for all departments within the Office of Secretary of 
the Senate. Emphasis is placed on the creation and transfer of 
legislation to outside departments and agencies.
    As in fiscal year 2002, improved procedures were adopted to stretch 
support across all Secretary departments. With one exception, which 
should be completed in June, all offices have been updated to the 
Senate Mail Exchange Application as the principal e-mail application. 
Individual offices that previously maintained cc:Mail post offices, 
namely Public Records, the Stationery Room, and Page School, were 
combined into one central Secretary Microsoft Exchange server located 
at Postal Square.
    For security reasons, the Secretary of the Senate network is a 
closed local area network to all offices within the Senate. Information 
Systems staff continue to provide a common level of hardware and 
software integration for these networks, and for the shared resources 
of inter-departmental resources. Information System staff continue to 
actively participate in all new project designs and implementations 
within the Secretary of the Senate operations.
Improvements to the Secretary's LANs
    The Senate chose Windows NT as the standard network operating 
system in 1997. The Senate standard will shift to Microsoft Server 2000 
operating system software in fiscal year 2004.
    The continuing support strategy is to enhance existing hardware and 
software support provided by the Information Systems Department, and 
augment that support with assistance from the Sergeant at Arms whenever 
required. The Secretary's network supports approximately 300 staff, 
intern, and patron accounts in the Capitol, the Senate Hart, Russell, 
Dirksen buildings, and the Page School.
Fiscal Year 2003 Highlights
    Installed 3 LIS major production releases on all Legislative 
workstations and laptops. In conjunction with the SAA Office of 
Application Development, legislative software applications are updated 
and revised on a continual basis. One notable enhancement in fiscal 
year 2003 was the continuing design and development of the Senate 
Journal application.
    Replaced all Captioning Services workstations with improved 
hardware and software applications and installed Secretary-Judiciary 
workstation pilot hardware and software to support voice-to-text speech 
recognition applications.
    Renovated Gift Shop hardware and software workstations and servers 
to implement improved point-of-sales operation.
    Added Quantum Snap Server for existing Stationery server emergency 
data backup operation.
    Updated Official Reporter workstations to Windows 2000 operating 
systems and improved high speed printing operations.
    Installed new Library Oracle server and Web server on schedule in 
July 2003; Senate Library catalog database deployment for intranet 
operation is scheduled for 2004.
    Deployed enterprise-wide virus-patch installation process to 
automatically download Norton anti-virus definition files to Secretary 
workstations. No legislative workstations were affected by the August 
2003 outbreaks of the Blaster and Welchia viruses which distributed 
security vulnerabilities for servers and workstations.
    Deployed three major hardware COOP LIS operational upgrades. In May 
2003, all legislative department heads were provided a laptop with 
secure-id/VPN access to the Senate Network that mirrors their office 
desktop operation. In October, a second set of laptops was deployed 
off-site. In December a third mirrored set was installed at the 
Alternate Chamber facility. The setup and installation of the January 
2004 Alternate Chamber exercise utilized equipment from outside the 
perimeter of the exercise site.
    Installed and replaced original Secretary intranet development web 
server. This server will function as the primary data warehouse for the 
Office of Human Resources' People-Trak database. Networking routes have 
been established for all Secretary department access to this web 
server.
    The Historical Office completed the McCarthy publication project 
marking the 50th anniversary of these hearings. Digital scanning 
techniques implemented and adopted three years ago by our office 
continue to be utilized in all Secretary departments.
Fiscal Year 2004 Objectives
    Implementation of the SAA Active Directory Redesign project in 2004 
will present a rapid change in server-client hardware and software 
functionality for all Secretary offices. System requirements have been 
developed and forwarded to SAA to meet and provide continual 
application growth for all departments. This change in networking 
structure will allow Information System staff to migrate from a SINGLE-
LAN support group to an Enterprise-Level support organization--as 
extending the flexibility of available support to all departments is 
vital to the IT growth within the Office of the Secretary.
                     9. interparliamentary services
    The Office of Interparliamentary Services (IPS) has completed its 
22nd year of operation. IPS is responsible for administrative, 
financial, and protocol functions for all interparliamentary 
conferences in which the Senate participates by statute, for 
interparliamentary conferences in which the Senate participates on an 
ad hoc basis, and for special delegations authorized by the Majority 
and/or Minority Leaders. The office also provides appropriate 
assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are: NATO 
Parliamentary Assembly; Mexico-United States Interparliamentary Group; 
Canada-United States Interparliamentary Group; and British-American 
Interparliamentary Group.
    Two additional interparliamentary conferences were created in 2003 
which will meet for the first time this year. The new conferences are 
United States-Russia and United-States China Interparliamentary Group.
    In June, the 42th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group was held in Tennessee. In July, the British-
American Interparliamentary Group meeting was held in Virginia. 
Arrangements for both of these successful events were handled by the 
IPS staff.
    As in previous years, all foreign travel authorized by the 
Leadership is arranged by the IPS staff. In addition to delegation 
trips, IPS provided assistance to individual Senators and staff 
traveling overseas. Senators and staff authorized by committees for 
foreign travel continue to call upon this office for assistance with 
passports, visas, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assist staff members of Senators and committees in filling out the 
required reports.
    Interparliamentary Services maintains regular contact with the 
Office of the Chief of Protocol, Department of State, and with foreign 
embassy officials. Official foreign visitors are frequently received in 
this office and assistance is given to individuals as well as to groups 
by the IPS staff. The staff continues to work closely with other 
offices of the Secretary of the Senate and the Sergeant at Arms in 
arranging programs for foreign visitors. In addition, IPS is frequently 
consulted by individual Senators' offices on a broad range of protocol 
questions. Occasional questions come from state officials or the 
general public regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors under authority of Public Law 100-71 are 
maintained in the Office of Interparliamentary Services.
    Planning is underway for the 45nd Annual Meeting of the Canada-U.S. 
Interparliamentary Group to be held in the United States in 2004. 
Advance work, including site inspection, will be undertaken for the 
44nd annual Mexico-U.S. Interparliamentary Group meeting to be held in 
the United States in 2005. Preparations are also underway for the 
spring and fall sessions of the NATO Parliamentary Assembly.
                              10. library
    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The Library 
collection encompasses legislative documents beginning with the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; and an extensive book collection on American 
politics, history, and biography. Collection resources also include a 
wide array of online systems used to provide nonpartisan, confidential, 
timely, and accurate information services to the Senate.
Notable Achievements
    Information Services inquiries increased more than 14 percent over 
2002 totals.
    Significant progress made toward making online catalog available 
Senate-wide.
    Submitted proposal to Sergeant at Arms for off-site storage 
facility.
    XML-generated tables posted on Senate.gov, LIS, and Webster from a 
single file.
    Senate Floor Schedule on Senate.gov posted nightly by Library 
staff.
    Deaccessioned and transferred to the Federal Depository Program 
24,293 outdated, superseded, and surplus government documents.
Information Services
            Senate.gov and the Legislative Information System (LIS)
    The Senate Library's role in the production of www.senate.gov 
significantly expanded in 2003. The Information Services Team focused 
on increasing their knowledge and skills with the latest Internet 
technologies. Each librarian accepted additional responsibility to 
research, write, edit, and post time-sensitive information on the 
Senate's official public Internet site. Reference Librarians worked 
closely with the Webmaster to coordinate and plan the rapidly growing 
site.
    The Senate Library is dedicated to creating an Internet site that 
provides up-to-the-minute, well-organized information to dual 
audiences, both Senate offices and the general public. Presentation of 
timely information on Senate.gov, enhanced by Library-authored 
navigational guides, significantly improves the Senate's ability to 
disseminate information. The most popular Senate Library-authored pages 
on Senate.gov and LIS had 348,198 visitors in 2003.

      VISITORS TO SENATE LIBRARY--AUTHORED SENATE.GOV AND LIS PAGES
  
------------------------------------------------------------------------
Active Legislation on Senate.gov...........................       95,301
Reference on Senate.gov....................................      192,725
Virtual Reference Desk on Senate.gov.......................       41,301
Hot Bills List on LIS......................................       12,353
Appropriations Tables, Fiscal Year 1987-2004 on LIS........        6,518
                                                            ------------
      TOTAL................................................      348,198
------------------------------------------------------------------------

    Librarians are critical in the development of information 
architecture, which is the underlying organization system for an 
Internet site. Well-designed information architecture greatly improves 
the workflow of adding new information and also makes it easier to 
locate existing information. Examples are numerous, but they include 
Active Legislation and the Virtual Reference Desk. These pages provide 
valuable gateways to thousands of legislative documents, articles, 
biographies, statistical tables, and works of art categorized by key 
topics. The addition of the important ``teasers,'' help visitors 
navigate through more than 10,000 pages of information on Senate.gov.
    The Library continues to serve as the official LIS Help Desk for 
Senate staff and provides LIS training sessions in conjunction with the 
Office of Education and Training. Reference Librarians participated in 
15 LIS training events for Senate staff during 2003.
Patron Services and Document Delivery
    Inquiry statistics for phone, fax, e-mail, and walk-in visitors 
increased more than 14 percent in 2003 (46,234), surpassing the target 
of a 3 percent increase over 2002 totals (40,359). Visitors to Library-
produced pages on Senate.gov and LIS are factored into the inquiry 
statistics this year for the first time, having both the effect of more 
accurately reflecting and dramatically increasing the 2003 inquiry 
total (394,432).

                 INFORMATION SERVICES INQUIRY STATISTICS
 
------------------------------------------------------------------------
Phone, Fax, E-mail Requestors..............................       34,081
Walk-in Visitors...........................................       12,153
Visitors to Senate Library-Authored Senate.gov and LIS           348,198
 Pages.....................................................
                                                            ------------
      TOTAL................................................      394,432
------------------------------------------------------------------------

    Library activity is also reflected by the number of photocopies 
produced (156,891) and the number of pages printed (6,945) in the 
Micrographics Center. Technology that scans documents from the 
Library's extensive microform collection of congressional and executive 
materials, newspapers, and magazines has become a popular tool. It 
enables staff to post copies of historic documents on Senate.gov or e-
mail them directly to researchers. Use of these technologies decreased 
the number of information packages hand-delivered to Senate offices 
(4,078), loaned books and documents (1,664), and outgoing faxes 
(2,747).
Webster
    The librarians have forged a well-deserved reputation on Capitol 
Hill as authorities in the field of information service and are 
frequently asked for consultation. In 2003 administrators of the 
Sergeant at Arms' Senate Information Services (SIS) program relied upon 
the Senate Library to thoroughly review the online version of the 
Leadership Directories before purchasing a Senate-wide license. A 
second major project involving the reference librarians was their 
participation in a SIS project to identify a replacement for the 
outdated News Edge system on Webster. The Library also agreed to serve 
as the Search Help Desk to assist all Senate staff in the use of 
commercial research tools provided by SIS via the Front Page on 
Webster. Serving as the Search Help Desk requires that each member of 
the Information Services Team maintain expert search skills for 
LexisNexis, WestLaw, ProQuest, Leadership Directories, Congressional 
Quarterly, Bureau of National Affairs, National Journal, Federal 
Document Clearinghouse, Associated Press, and Reuters.
Client Relations
    The Library hosted 27 client relations staff events during 2003, 
including quarterly Services of the Senate Library Seminars, a State 
Fair, five District-State Seminars, monthly New Staff Seminars, and a 
reception for office managers and chief clerks. The Library also 
conducted two special seminars for the Senate Page School. New 
borrowing accounts established for 350 Senate staff during 2003 reflect 
the success of the Library's public relations program.
    The Senate Library is proud to have a reputation among information 
professionals and researchers. Tours and demonstrations during 2003 
brought 68 individuals from organizations including the annual 
Depository Library Conference, University of North Carolina, Federal 
Library and Information Center Committee, and the University of 
Maryland. Tours and research assistance was extended to foreign 
visitors from Brazil, Japan, Russia, Egypt, England, and Hong Kong.
    This is the sixth year that the Library hosted National Library 
Week activities. This year's book talk featured Senator Dale Bumpers 
who spoke about his autobiography, The Best Lawyer in a One-Lawyer 
Town: A Memoir. More than forty staff enjoyed his candid reminiscences 
of past and current political figures. The annual dessert reception 
brought an additional 115 Senate staff to the Library. These annual 
events are excellent public relations tools that are enjoyed by 
frequent Library users and by new Senate staff.
    Library staff produced three new display cases in the Russell 
Building corridor in 2003. The new displays included What Hath God 
Wrought: Communication Technology in the Senate. The display documents 
the use of television, radio, telephone, and telegraph in the Senate 
since Samuel F.B. Morse transmitted the first official telegraph 
message from the Capitol in 1844. A second display was the Signers of 
the Declaration of Independence. The display features a first-edition 
copy of Annual Register, or a View of the History, Politics, and 
Literature, for the Year 1776--significant because the first printing 
of the Declaration of Independence in a book is in this edition. The 
recently unveiled portrait and historic accomplishments of Senator 
Blanche Kelso Bruce, the second black Senator in history and the only 
former slave to serve in the United States Senate, was the third 
display for 2003.
Technical Services
            Acquisitions
    Two significant collections of historic congressional documents 
were added to the permanent collection in 2003. The Unpublished U.S. 
House Committee Hearings 1969-1972 and 1945-1968 Supplement, produced 
by the Congressional Information Service, is a microfiche collection of 
1,180 hearing transcripts that were previously only available at the 
National Archives. In addition, copies were made of legislative 
calendars for the Senate Committee on Rules and Administration and the 
Senate Committee on Veterans Affairs, dating from the mid-1930s, which 
had previously only been available in committee libraries.
    A book acquisitions committee has been established to implement a 
collection development policy in the Library. Members of the committee 
include the Acquisitions Librarian, several members of the Information 
Services team, and the Librarian. The committee meets monthly to review 
each potential acquisition for content, cost, scholarliness, and value 
to the permanent collection.
    The Library added 11,698 books, congressional and executive branch 
documents, and microforms to the permanent collection in 2003. New 
materials include 1,034 books, 7,188 congressional documents, and 3,476 
executive branch publications. Statistics for books and standing orders 
are reported in a single category as of 2003, which more accurately 
reflects the cataloging and processing workload.
            Cataloging
    Major progress was made in 2003 that will enable the Senate 
community to access the Library's online catalog via Webster. Two 
Windows 2000 catalog servers were received in August and the Oracle 
catalog database was transferred to the primary server on December 3, 
2003. The new technology significantly upgraded system administration 
by improving backup and remote management functions. Software and 
licenses have been ordered for the secondary server that will reside at 
the Senate Computer Center in Postal Square. The Library's online 
catalog provider, the Library Corporation (TLC) installed the secondary 
server in early January 2004. The secondary server will provide patron 
access to the online catalog, and will be available by the fourth 
quarter of 2004.
    The Library's catalog database was rebuilt and significant 
workstation upgrades were completed in early 2003. Improvements include 
automated temporary circulation record deletion; expanded printer 
support; integrated e-mail notification; catalog support of search 
history, new title searches, and results sorting; full authority record 
editing; multiple ISBN (International Standard Book Numbers) indexing; 
and the ability to mask collections from public display. Additional 
databases improvements made during 2003 are the correction of improper 
title truncation, and a rebuild of the keyword title index that 
provides greater flexibility in the modification and display of 
records.
    There are a total of 151,930 searchable bibliographic items in the 
Library's online catalog. The cataloging team added 7,524 new items to 
the catalog, and deleted 11,225 items. The item total represents 4,355 
new titles and 3,169 updates to existing collections. To maintain 
quality control standards, 50,367 maintenance transactions were 
completed during 2003. Those transactions include creating and editing 
authority records, editing existing records, barcoding new volumes, 
editing PURLs (Persistent Uniform Record Locators) for electronic 
resources, withdrawing records for discarded materials, and deleting 
temporary loan records.
    The multi-year project focusing on the cataloging of rare 
congressional materials continued during 2003. These nineteenth and 
early twentieth century Senate treaty documents, executive reports, and 
committee publications may be the only copies in existence. The large 
number of original cataloging records and subject headings required for 
this project led to Senate Library participation in the Library of 
Congress' National Authorities Cooperative Program (NACO). NACO 
establishes the official subject headings used in catalogs for the 
majority of the academic, public, and professional libraries in the 
United States. The Senate Library is one of 179 institutions, including 
the largest and most prestigious academic institutions in the country, 
that participates in NACO. The Library contributed 489 new subject 
headings related to congressional committees, subcommittees, 
nominations, and treaties during 2003.
            Government Documents Collection
    This is the third year of the Library's review of documents 
received through the Government Printing Office's (GPO) Federal 
Depository Library Program (FDLP). The review team includes staff from 
all Library departments and the goal is to deaccession outdated, 
superseded, and surplus government documents. In 2003, 24,293 items 
were withdrawn from the collection. Items withdrawn from the Senate 
Library collection are offered to FDLP libraries throughout the United 
States. 20,818 (88 percent) of those have been accepted by other 
institutions.
    The review team also deselected 293 publication series from FDLP in 
2003. Documents selected to remain in the collection will be cataloged 
according to the Library of Congress classification system, replacing 
of Superintendent of Documents system. The cataloging team reclassified 
179 titles in 2003, and looks forward to completely integrating 
classification of the primary book and government document collections.
    Access to core government documents formerly received through FDLP 
has not been compromised by these cancellations. Increased availability 
to these materials through agency and department Internet sites allows 
libraries to print information on-demand. The reduction of GPO-issued 
items in tangible formats is evident by the 180 percent decrease in 
government documents received in 2003. The positive impacts of this 
technological advance include increased physical space, reduced staff 
time processing materials, and the Library's online catalog serving as 
a gateway to government-wide information.
            Collection Maintenance and Preservation
    On April 17, 2003, a water leak was discovered that caused 
significant damage to several hundred books in SR-B14. The damaged 
books were immediately moved to alternate sites to be dried. Sheet 
plastic from the Library's disaster kits was used to protect adjacent 
areas from additional damage. Judging from the extent of the wicking, 
the leak probably began several days earlier. The Superintendent's 
Office replaced a section of pipe, but the original source of the leak 
was never determined. Several dozen volumes were purchased to replace 
the unsalvageable items. Installation of water detection alarms and 
containment trays by the AOC is anticipated in fiscal year 2005.
            Warehouse
    Library staff met with SAA staff and their consultants concerning 
the Library's off-site storage requirements. The initial June 23, 2003 
meeting set the framework for a draft warehouse plan that met the 
Library's needs. The Library's proposal for a new facility calls for 
added security, increased shelving, and improved environmental 
conditions. In anticipation of a move from the existing warehouse, 
Library staff and summer interns packed 14,000 books. Volumes 
determined to be in poor condition were set aside for cleaning and 
repair by the Office of Conservation and Preservation. Several excess 
collections were transferred to the Regional Depository Library at the 
University of Maryland.
Administrative
            Budget
    The seventh year of budget reviews delivered minimal reductions 
totaling $1,285. This is the lowest amount since the annual reviews 
began in fiscal year 1997. During that time, the reviews have 
eliminated duplicate copies, titles available through online services, 
and materials not meeting the Senate's current needs. This has resulted 
in $59,930.34 in cancellations, which have been critical in offsetting 
annual cost increases for core materials. The collection and 
acquisitions program now better meet the information demands of today's 
Senate. The goal is to provide the highest level of service using the 
latest technologies and best resources in the most cost-effective way.
            Professional Staff Development
    During 2003, Library staff participated in 142 training sessions, 
workshops, and professional development seminars. New Library staff 
have a particularly active training schedule and veteran staff are 
required to maintain and upgrade skill levels. In addition to classes 
on news and legal databases, technical training sessions included 
Microsoft Excel, CQ Online, CQ Votes, Homesite, Wilson Web Bio, Dialog, 
Data Harmony, XML, Newswire, Powerpoint, and Writing for the Web. 
Technical Services staff attended several skill enhancement classes 
including MARC content designation, taxonomy, and OCLC authorities. 
Research classes included courses on legislation, law, treaties, 
copyrights, and the CRS Advanced Legislative Process Institute. Other 
staff activities included tours to the National Archives, Pentagon 
library, Senate Recording Studio, Senate Legal Counsel, Senate 
Judiciary Committee library, the United Nations library, Computers in 
Libraries conference, and the annual Special Libraries Association 
conference.
            Interns
    Summer interns completed several key projects. These included 
boxing 11,500 volumes of the Congressional Serial Set and copying 
historic Senate committee calendars for the permanent collection. The 
interns also identified House hearings and committee prints missing 
from the Library collection. Copies of missing titles were received 
from the committees.
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    The Secretary's quarterly newsletter was established in October 
1997 and has been produced by Senate Library staff since May 2000. With 
a distribution to approximately 1,000 readers, Unum serves as an 
historic record of accomplishments, events, and personnel in the Office 
of the Secretary of the Senate. The Summer 2003 issue of Unum was the 
first full-color issue.
Major Library Goals for 2004
    Provide Senate-wide access to the Library's catalog via Webster.
    Implement navigation and organization design improvements on 
Senate.gov.
    Prepare updates to Senate Votes on Cloture Motions (Senate Print 
99-95) and ANecrology of United States Senators.

                                                2003 ACQUISITIONS
----------------------------------------------------------------------------------------------------------------
                                     Books           Government          Congressional Publications
                              -------------------     Documents    -------------------------------------
                                                 ------------------                              Repts/   Total
                               Ordered  Received   Paper    Fiche   Hearings   Prints   Bylaw     Docs
----------------------------------------------------------------------------------------------------------------
January......................       23        57      310       77       301       23       41      202    1,011
February.....................       23        48      242       56       261       23       23      133      786
March........................       25        61      169       35       233       37       37      200      772
                              ----------------------------------------------------------------------------------
      1st Qtr................       71       166      721      168       795       83      101      535    2,569
                              ==================================================================================
April........................       67       110      182      145       333       37       39      274    1,120
May..........................       40       135      165       71       248       32       43      284      978
June.........................       22        82      163      115       313       21       60      277    1,031
                              ----------------------------------------------------------------------------------
      2nd Qtr................      129       327      510      331       894       90      142      835    3,129
                              ==================================================================================
July.........................       32        78      227       71       191       15       58      525    1,165
August.......................       20        62      150       89       318       16       60      270      965
September....................        3        57      248       88       178       14       52      349      986
                              ----------------------------------------------------------------------------------
      3rd Qtr................       55       197      625      248       687       45      170    1,144    3,116
                              ==================================================================================
October......................       41        74      244       82       296       17       48      263    1,024
November.....................       33       177      139       52       225       14       64       99      770
December.....................       26        93      245      111       274       17       71      279    1,090
                              ----------------------------------------------------------------------------------
      4th Qtr................      100       344      628      245       795       48      183      641    2,884
                              ==================================================================================
      2003 Total.............      355     1,034    2,484      992     3,171      266      596    3,155   11,698
      2002 Total.............      263       628    2,287    1,083     3,094      152      576    1,977    9,797
                              ==================================================================================
Percent Change...............    34.98     64.65     8.61    -8.40      2.49    75.00     3.47    59.59    19.40
----------------------------------------------------------------------------------------------------------------


                                                 2003 CATALOGING
----------------------------------------------------------------------------------------------------------------
                                                              New Titles Cataloged
                                    LIS   ------------------------------------------------------------
                                  Hearing                Government       Congressional Publications     Total
                                  Numbers                 Documents     ------------------------------   Titles
                                   Added     Books  --------------------                       Docs/   Cataloged
                                                       Paper     Fiche   Hearings   Prints     Pubs
----------------------------------------------------------------------------------------------------------------
January........................        21        25        14         4       261        10        29        343
February.......................        30        30        14        10       222        14        16        306
March..........................        38        32        16         4       272        21         2        347
                                --------------------------------------------------------------------------------
      1st Qtr..................        89        87        44        18       755        45        47        996
                                ================================================================================
April..........................  ........        46        21        10       144         4        49        274
May............................        33        30        21  ........       138        54  ........        243
June...........................         3        66        12        18        88        92        15        291
                                --------------------------------------------------------------------------------
      2nd Qtr..................        36       142        54        28       370       150        64        808
                                ================================================================================
July...........................         2        45        20         2       548        32        40        687
August.........................        39        37        10         1       105        42        13        208
September......................  ........        58        13        31       375       113        55        645
                                --------------------------------------------------------------------------------
      3rd Qtr..................        41       140        43        34     1,028       187       108      1,540
                                ================================================================================
October........................         5        70         6  ........       305        63        33        477
November.......................  ........        78         9  ........       101        43        16        247
December.......................        50       101         3         1       154         2        26        287
                                --------------------------------------------------------------------------------
      4th Qtr..................        55       249        18         1       560       108        75      1,011
                                ================================================================================
      2003 Total...............       221       618       159        81     2,713       490       294      4,355
      2002 Total...............        99       430       488       183     2,873       123       461      4,558
                                ================================================================================
Percent Change.................    123.23     43.72    -67.42    -55.74     -5.57    298.37    -36.23      -4.45
----------------------------------------------------------------------------------------------------------------


                                             2003 DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                      Micrographics  Photocopies
                                                 Volumes     Materials      Faxes      Center Pages     Pages
                                                  Loaned     Delivered                   Printed       Printed
----------------------------------------------------------------------------------------------------------------
January......................................          141          404          202           637        11,718
February.....................................          102          219          200           560         9,989
March........................................          146          274          300           651         9,648
                                              ------------------------------------------------------------------
      1st Qtr................................          389          897          702         1,848        31,355
                                              ==================================================================
April........................................          167          403          300           286        14,293
May..........................................          162          507          223           323        15,204
June.........................................          190          522          309         1,774        20,349
                                              ------------------------------------------------------------------
      2nd Qtr................................          519        1,432          832         2,383        49,846
                                              ==================================================================
July.........................................          136          423          260           921        20,551
August.......................................          119          206          169           232         9,376
September....................................          130          334          199           276        12,484
                                              ------------------------------------------------------------------
      3rd Qtr................................          385          963          628         1,429        42,411
                                              ==================================================================
October......................................          137          293          254           144        15,767
November.....................................          115          250          209           781        10,408
December.....................................          119          243          122           360         7,104
                                              ------------------------------------------------------------------
      4th Qtr................................          371          786          585         1,285        33,279
                                              ==================================================================
      2003 Total.............................        1,664        4,078        2,747         6,945       156,891
      2002 Total.............................        1,952        4,467        7,148         4,421       132,903
                                              ==================================================================
Percent Change...............................       -14.75        -8.71       -61.57         57.09         18.05
----------------------------------------------------------------------------------------------------------------

                         11. senate page school
    The United States Senate Page School provides a smooth transition 
from and to the students' home schools, and offers those students a 
sound program, both academically and experientially, during their stay 
in the Nation's Capital, balancing a unique work situation with the 
Senate's demanding schedule.
Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues until December 31, 2008.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 6, 2003, and January 23, 
2004, the last day of school for each semester.
    Orientation and course scheduling for the Spring 2003 and Fall 2003 
pages were successfully completed. Needs of incoming students 
determined the semester schedules.
    Extended educational experiences were provided to pages. Twenty 
field trips, four guest speakers, opportunities to compete in writing 
contests, to play musical instruments and vocalize, and to continue 
foreign language study with the aid of tutors of four languages were 
all afforded pages. Sixteen field trips to educational sites were 
provided for summer pages as an extension of the page experience. 
National tests were administered for qualification in scholarship 
programs as well.
    Effective and efficient communication and coordination among 
Sergeant at Arms, Secretary of the Senate, Party Secretaries, Page 
Program, and Page School continues and policies of the program have 
been reviewed.
    The community service project embraced by pages and staff in 2002 
continues. Items for gift packages were collected, assembled, and 
shipped to military personnel in Afghanistan, Kuwait, Iraq, and the USO 
in Frankfurt, Germany (where distribution of the boxes to troops 
enroute to war zones take place). Pages included letters of support to 
the troops participating in Operation Enduring Freedom.
    The evacuation and COOP plans have been reviewed and updated. Pages 
and staff continue to practice evacuating to primary and secondary 
sites. Staff, tutors and pages participated in escape hood training.
    Staff were retrained in CPR and certified in First Aid and AED use.
    Updated materials/equipment were purchased. These included a DVD 
player, calculus textbooks and support software, English and history 
textbooks, chemistry and physics probeware kits, textbooks with support 
software and site license, and teacher resource material.
Summary of Goals
    For the coming year, the goals of the administration and staff of 
the Senate Page School include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, German, and Latin.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance.
  --Staff development options will include attendance at a ``Learning 
        and the Brain'' conference, seminars conducted by Education and 
        Training, and subject matter conferences conducted by national 
        organizations.
  --Facility re-design to maximize space will be completed.
  --Upgrading science laboratory equipment will continue allowing micro 
        labs and reducing quantities of supplies used.
  --Review of technology applications for classroom use will be 
        completed.
  --Continuation of the community service project.
                   12. printing and document services
    The Office of Printing and Document Services (OPDS) serves as 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, U.S. Code as it relates to Senate documents, hearings, 
committee prints and other official publications. The office assists 
the Senate by coordinating, scheduling, delivering and preparing Senate 
legislation, hearings, documents, committee prints and miscellaneous 
publications for printing, and provides printed copies of all 
legislation and public laws to the Senate and the public. In addition, 
the office assigns publication numbers to all hearings, committee 
prints, documents and other publications; orders all blank paper, 
envelopes and letterhead for the Senate; and prepares page counts of 
all Senate hearings in order to compensate commercial reporting 
companies for the preparation of hearings.
    During fiscal year 2003, the OPDS prepared 5,334 printing and 
binding requisitions authorizing GPO to print and bind the Senate's 
work, exclusive of legislation and the Congressional Record. Since the 
requisitioning done by the OPDS is central to the Senate's printing, 
the office is uniquely suited to perform invoice and bid reviewing 
responsibilities for Senate printing. As a result of this office's cost 
accounting duties, OPDS is able to review and assure accurate GPO 
invoicing as well as play an active role in helping to provide the best 
possible bidding scenario for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates job scheduling, proof handling and job tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. The OPDS also 
coordinates a number of publications for other Senate offices, 
including the Curator, Historian, Disbursing, Legislative Clerk, Senate 
Library as well as the U.S. Botanic Garden, U.S. Capitol Police and 
Architect of the Capitol. Last year's major printing projects included 
the Report of the Secretary of the Senate, an expanded Leader's Lecture 
Series book, as well as a 500 page four-color case bound book the 
``U.S. Senate Catalogue of Fine Art.'' Current major projects for the 
office include a new full color version of the ``History of the U.S. 
Botanic Garden 1861-1991.''
Hearing Billing Verification
    Billing verifications are how reporting companies request payment 
from a Senate committee for transcription services.
    During 2003, OPDS provided commercial reporting companies and 
corresponding Senate committees a total of 975 billing verifications of 
Senate hearings and business meetings. This translated to an average of 
51.3 hearings/meetings per committee, a 2.6 percent increase over 2002 
and also represented over 70,000 transcribed pages at a total billing 
cost of over $460,000.
    OPDS utilizes a program developed in conjunction with the Sergeant 
at Arms Computer Division that (a) provides more billing accuracy and 
greater information gathering capacity and (b) adheres to the 
guidelines established by the Senate Committee on Rules and 
Administration for commercial reporting companies to bill the Senate 
for transcription services. During 2003, the office increased the 
efficiency and accuracy of the system by sending files and billing 
verifications electronically between committees and reporting 
companies. Department staff continue training to apply today's 
expanding digital technology to improve performance and services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                                       PERCENT
                                                                  2001         2002         2003     CHANGE 2003/
                                                                                                         2002
----------------------------------------------------------------------------------------------------------------
Billing Verifications.......................................        1,004          952          975          2.4
Average per Committee.......................................           48           50         51.3          2.6
Total Transcribed Pages.....................................       72,799       71,558       70,532         -1.5
Average Pages/Committee.....................................        3,467        3,766        3,712         -1.5
Transcribed Pages Cost......................................     $479,921     $471,807     $461,807         -2.2
Average Cost/Committee......................................      $22,853      $24,832      $24,288         -2.2
----------------------------------------------------------------------------------------------------------------

    Additionally, the Service Center within OPDS is staffed by 
experienced GPO detailees who provide Senate committees and the 
Secretary of the Senate's Office with complete publishing services for 
hearings, committee prints, and the preparation of the Congressional 
Record. These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
because committees have been able to decrease or eliminate additional 
overtime costs associated with the preparation of hearings.
Document Services Distribution, Inventory and On Demand Publication
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands.

                                     DOCUMENT SERVICES--CONGRESSIONAL RECORD
----------------------------------------------------------------------------------------------------------------
                                                                       2001            2002            2003
----------------------------------------------------------------------------------------------------------------
Total Pages Printed.............................................          25,051          29,690          33,094
    For the Senate..............................................          14,084          14,489          16,835
    For the House...............................................          10,967          15,201          16,259
Total Copies Printed and Distributed............................       1,300,000       1,268,603       1,199,402
    To the Senate...............................................         318,572         439,953         307,917
    To the House................................................         459,477         301,383         441,735
    To the Executive Branch and the Public......................         492,915         532,813         449,750
Total Production Costs..........................................     $15,428,530     $13,488,381     $20,143,538
    Senate Costs................................................      $7,452,933      $6,339,539      $9,886,805
    House Costs.................................................      $7,333,134      $6,609,307      $9,563,592
    Other Costs.................................................        $642,462        $539,535        $693,141
Per Copy Cost...................................................          $12.14          $12.14          $16.79
----------------------------------------------------------------------------------------------------------------

    In 2003, a total of 33,094 pages were printed in the Congressional 
Record. Of this total, 16,835 pages were printed for the Senate, and 
16,259 pages were printed for the House of Representatives. These page 
counts are comprised of the Proceedings of the Senate and the House of 
Representatives, Extension of Remarks, Digest and miscellaneous pages. 
This is 3,404 pages more than were produced in 2002, an increase of 
11.4 percent. A total of approximately 1.2 million copies of the 
Congressional Record was printed and distributed in 2003. The Senate 
received 307,917 copies, the House 441,735, with the remaining 449,750 
delivered to the Executive Branch agencies and the public at large.
    OPDS continually tracks demand for all classifications of 
Congressional legislation. Twice a year the office adjusts the number 
of documents ordered by classification. The goal is to adjust numbers 
ordered in each classification to closely match demand and thereby 
reduce waste. In recent years with the advancement of document 
availability online, the OPDS has taken a more aggressive approach to 
reducing waste of less requested legislation. The office supplements 
depleted legislation where needed by producing additional copies in the 
DocuTech Service Center which is staffed by experienced GPO detailees 
that provide Member offices and Senate committees with on-demand 
printing and binding of bills and reports. In 2003, the DocuTech Center 
produced 803 tasks for a total of 971,077 printed pages, a production 
increase of 22 percent over 2002.
    The primary responsibility of the Documents Services Section is to 
provide services to the Senate. However, the responsibility and this 
office's dedication and assistance to the general public, the press, 
and other government agencies is virtually indistinguishable from the 
services provided to the Senate. Requests for material are received at 
the walk-in counter, through the mail, by fax, phone, and online. 
Recorded messages, fax, and e-mail operate around the clock and are 
processed as they are received, as are mail requests. The office 
stresses prompt, courteous and accurate answers to the various public 
and Senate requests.

                                          SUMMARY OF ANNUAL STATISTICS
----------------------------------------------------------------------------------------------------------------
        CALENDAR YEAR          CONGRESS/SESSION    PUBLIC MAIL     FAX REQUEST       E-MAIL      COUNTER REQUEST
----------------------------------------------------------------------------------------------------------------
2.00020e+15..................  106/2nd.........           4,066           3,129             112  9.51869e+19
                               107/1st.........           3,449           2,093             621
                               107/2nd.........           3,637           1,866             662
                               108/1st.........           1,469           2,596             735
----------------------------------------------------------------------------------------------------------------

Online Ordering
    The past year brought significant changes in providing new services 
and improving existing ones. For example, OPDS has continually sought 
to improve the efficiency and utility of the Secretary of the Senate's 
homepage. Beginning in late 2000, Senate offices, by way of a link to 
the Webster, could order legislative documents online. Via the same 
link, it is also possible to confirm arrival of printed copies of the 
most sought after legislative documents. The site is updated several 
times daily and each time new documents arrive from GPO in the Document 
Room. In 2003 that process was expanded to provide the capability of 
online ordering of blank paper. This is but one model of OPDS 
continuing to seek new ways to use technology to assist Members and 
staff with added services and enhancements.
                           13. public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; and the Senate Code of Official 
Conduct: Rule 34, Public Financial Disclosure; Rule 35, Senate Gift 
Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, Political 
Fund Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October 2002, through September 2003, the Public 
Records office staff assisted more than 2,000 individuals seeking 
information from reports filed with the office. This figure does not 
include assistance provided by telephone, and assistance given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995. A total of 95,314 photocopies were sold in the 
period. In addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.
Fiscal Year 2003 Accomplishments
    The office developed a manual detailing the policies and procedures 
of the Public Records revolving fund for the purpose of producing a 
financial statement. At the Secretary's request, GAO also performed an 
audit of the revolving fund which revealed no discrepancies. Public 
Records also completed a transition to the next generation of scanning 
technology by replacing old hardware, and updating software.
Plans for Fiscal Year 2004
    The Public Records office is revising and improving the lobbying 
pages on senate.gov based upon recommendations of an independent survey 
of North American disclosure web sites.
Automation Activities
    During fiscal year 2003, the Senate Office of Public Records 
automated the Gift Rule filings and the Mass Mailing registrations. In 
the event of an emergency, these filing registrations are easily 
accessible off site. The office also started a project to automate the 
foreign travel reports required by the Mutual Security Act of 1954.
Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly reports. 
Filings totaled 4,238 documents containing 232,442 pages.
Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2003, 6,112 registrants represented 15,317 
clients and employed 24,872 individuals who met the statutory 
definition of ``lobbyist.'' The total number of lobbying registrations 
and reports was 40,877.
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2003. The reports were available to the public by June 13, 2003. Copies 
were provided to the Select Committee on Ethics and the appropriate 
State officials. A total of 2,545 reports and amendments was filed 
containing 14,481 pages. There were 316 requests to review or receive 
copies of the documents.
Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records received over 1,233 reports 
during fiscal year 2003.
Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 487.
                          14. senate security
    The Office of Senate Security (OSS) is responsible for the 
administration of classified information programs in Senate offices and 
committees. In addition, OSS serves as the Senate's liaison to the 
Executive Branch in matters relating to the security of classified 
information in the Senate.
Personnel Security
    Five hundred fifty Senate employees held one or more security 
clearances at the end of 2003. This number does not include clearances 
for employees of the Architect of the Capitol or clearances for 
Congressional Fellows assigned to Senate offices, which are also 
processed by OSS.
    In the past year, OSS processed 2,418 personnel security actions, a 
31.9 percent increase from 2002. One hundred twenty investigations for 
new security clearances were initiated last year, and 87 security 
clearances were transferred from other agencies. Senate regulations, as 
well as some Executive Branch regulations, require that individuals 
granted Top Secret security clearances be reinvestigated at least every 
five years. Staff holding Secret security clearances are reinvestigated 
every ten years. During the past year, reinvestigations were initiated 
on 58 Senate employees. OSS processed 71 routine terminations of 
security clearances during the reporting period and transmitted 322 
outgoing visit requests. The remainder of the personnel security 
actions consisted of updating access authorizations and compartments. 
The length of time required for the Department of Defense (DOD) and the 
Federal Bureau of Investigation (FBI) to process Senate staff for 
security clearances has increased by 66.7 percent relative to 2002.
Security Awareness
    OSS conducted or hosted 79 security briefings for Senate staff. 
Topics included information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings. This represents an 
increase of 1.3 percent from 2002.
Document Control
    OSS received or generated 2,668 classified documents consisting of 
79,931 pages during calendar year 2003. This is an increase of 10.3 
percent in the number of documents received or generated in 2002. 
Additionally, 60,873 pages from 3,263 classified documents no longer 
required for the conduct of official Senate business were destroyed. 
This represents a 0.6 percent increase in destruction. OSS transferred 
754 documents consisting of 30,149 pages to Senate offices or external 
agencies. These figures do not include classified documents received 
directly by the Appropriations Committee, Armed Services Committee, 
Foreign Relations Committee, and Select Committee on Intelligence, in 
accordance with agreements between OSS and those Committees. Overall, 
Senate Security completed 6,685 document transactions and handled over 
170,953 pages of classified material in 2003, an increase of 5.5 
percent.
    Secure storage of classified material in the OSS vault was provided 
for 106 Senators, committees, and support offices. This arrangement 
minimizes the number of storage areas throughout the Capitol and Senate 
office buildings, thereby affording greater security for classified 
material.
Secure Meeting Facilities
    OSS secure conference facilities were utilized on 1,375 occasions 
during 2003. In July, the smallest OSS conference room was converted to 
a computer and storage room. This was necessitated by changes in office 
space and loss of computer connections previously supplied by the House 
Permanent Select Committee on Intelligence, both due to the Capitol 
Visitor Center (CVC) construction. This has somewhat limited the number 
of people who could be allowed to read or use classified computer 
systems when other rooms were in use. Even with the loss of this room, 
use of OSS conference facilities increased 77 percent over 2002 levels. 
Eight hundred thirty-eight meetings, briefings, or hearings were 
conducted in OSS' three conference rooms. Of those, forty were ``All 
Senators'' briefings. OSS also provided secure telephones, secure 
computers, secure facsimile machine, and secure areas for reading and 
production of classified material on 537 occasions in 2003 to Senators 
and staff.
                          15. stationery room
    The Senate Stationery Room's principal functions are to sell 
stationery items for use by Senate offices and other authorized 
legislative organizations, including:
  --selecting a variety of stationery items to meet the needs of the 
        Senate environment on a day-to-day basis and maintain a 
        sufficient inventory of these items;.
  --purchasing supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules;
  --maintaining individual official stationery expense accounts for 
        Senators, Committees, and Officers of the Senate;
  --rendering monthly expense statements;
  --insuring receipt of reimbursements for all purchases by the client 
        base via direct payments or through the certification process;
  --making payments to all vendors of record for supplies and services 
        in a timely manner and certifying receipt of all supplies and 
        services; and
  --providing delivery of all purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                           Fiscal Year      Fiscal Year
                                               2003            2002
                                           Statistical      Statistical
                                            Operations      Operations
------------------------------------------------------------------------
Gross Sales............................      $4,843,716       $4,628,342
Sales Transactions.....................          61,140           61,479
Purchase Orders Issued.................           7,545            6,218
Vouchers Processed.....................           8,689            7,376
Metro Fare Media Sold..................          52,279           41,558
    $20.00 Media.......................          46,260           36,943
    $10.00 Media.......................           3,023            1,978
    $5.00 Media........................           2,996            2,637
------------------------------------------------------------------------

Operational Growth
    As indicated in the above statistics, the Stationery Room operation 
continues its progressive growth pattern with an increase in gross 
sales of $213,000 over fiscal year 2002.
    It should be noted that current staffing level of twelve employees 
for the operation remain at the same level as fiscal year 1974 when 
sales were approximately $944,000.
Fiscal Year 2003 Activities
    During the first quarter of the fiscal year, the Stationery Room 
assisted ten Senator-elect offices. In addition, the Stationery room 
assisted the new Majority Leader and his staff with their transition.
    Members of Stationery Room staff were tasked as part of a Senate-
wide working group to assist the Sergeant at Arms (SAA) in the 
development of an ``Emergency Go Bag.'' The finalized bag should 
support each office in an emergency with a variety of supplies as 
recommended by the Department of Homeland Security, Federal Emergency 
Management Agency and the American Red Cross. Offices will be able to 
purchase additional ``Go Bags'' on a Special Order basis through the 
Stationery Room.
    The Stationery Room made initial inquiries regarding a state-of-
the-art Retail Point-of-Sale system and back-office accounting system 
during April 2003. A professional consultant was subsequently hired to 
draft a requirements document, which will be finalized this spring. 
Baseline estimates for application software are between $131,500 and 
$133,000. This price structure does not include add-ons that will be 
needed for automated flag ordering/tracking; an internal e-commerce 
website for automated office product ordering capabilities; or other 
custom system software modifications.
    Working together, the Stationery Room and the Committee on Rules 
and Administration began a review of the applicable Rules and 
Regulations for the Mass Subsidy Program. On November 3, 2003, a 
provision was added to the regulations to authorize the purchase of 
media one week in advance of the month in which the media is to be 
used. The Stationery Room was also tasked to provide a means in which 
offices could order transit media electronically via e-mail. This 
project is currently in beta testing with thirteen offices as a pilot 
group.
    As part of the Secretary's efforts to ensure financial 
responsibility, the General Accounting Office began an audit of the 
Stationery Room's operation. The final report may be issued in the 
summer of 2004.
    To fulfill emergency preparation needs, Stationery Room personnel 
devised a mechanism--scanning--for data storage and retention of all 
critical documents for the operation. Fiscal year 2003 records are 
nearing completion of scanning. Once records have been scanned, that 
information is available locally and paper copies are removed to a 
National Archive facility storage and final disposition. This project 
has been a joint effort by the Stationery Room, Historical Office and 
Sergeant at Arms.
    In an effort to establish an effective communication link with the 
SAA IT product line, a process was devised to notify the Stationery 
Room of new IT equipment being introduced into the Senate. Notification 
now allows the Stationery Room to be proactive in supporting office 
equipment.
    Stationery Room staff regularly meets with Administrative Office 
Managers to more effectively understand their needs and requirements. 
In addition, the office is currently looking at creating (i) a Product 
Review Committee to ensure the office carries the products it needs and 
(ii) a working group regarding necessary emergency supplies in case 
Continuity of Operations Plans are implemented.
    The Stationery Room is part of a Flag Process working group being 
guided by the Office of the Sergeant at Arms. The mission of this 
working group is to streamline the flag procurement process for 
constituents with a focus on timely processing and delivery. This is an 
on-going project and is currently in its early stages.
                             16. webmaster
    The Webmaster is responsible for the three web sites that fall 
under the purview of the Secretary of the Senate: the Senate Web site, 
www.senate.gov (except individual Senator and Committee pages); the 
Secretary web site on the Senate intranet, Webster; and an intranet 
site currently under construction for Secretary staff only.
    The Senate Web site (www.senate.gov) was completely redesigned and 
the new site was launched in the fall of 2002. At that time the 
Documentum Web Content Management System was implemented which allows 
content providers to create and post information to the web site 
without knowing HTML, the format language of the web.
    Development work on the Documentum content management system 
continued throughout 2003 as content providers identified changes that, 
when implemented, would make their work easier. Adjustments were made 
to the application that allows the curator to update the web site 
directly from their database. This application has been working 
effectively for almost a year.
    An XML application was built for the Senate Library to allow them 
to update the Active Legislation information one time and then 
disseminate the information in different formats, such as publishing in 
HTML to two separate web sites and creating a PDF version for printing. 
The Active Legislation web page on www.senate.gov is consistently in 
the top 10 most visited content items on the main site, drawing more 
than 12,000 visitors a month.
    Throughout 2003, senate.gov content providers became more cohesive 
as a group. Monthly meetings were held where new ideas were shared. 
Collaboration increased throughout the year and the posting of feature 
articles in the major areas of the site were coordinated in terms of 
timing and subject matter. The editing and creation of content 
continued at a steady pace incorporating feedback received from staff 
and the public.
    In 2003 the web site averaged over 115,000 visitors a day. 
Reviewing statistics on web page usage help the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. The main Senate homepage and 
the home pages of the six subject areas (buckets) receive the most 
visits as people navigate around the site. Within the buckets we find 
that visitors are drawn to the following content items in order of 
popularity: 1. Roll Call Votes; 2. Active Legislation List; 3. Senate 
Leadership Page; 4. Senate Organization Chart; 5. Committee Hearing 
Schedule; 6. Session Schedule for 2003; 7. Virtual Tour of the Capitol; 
8. Bill and Resolutions; 9. Calendars and Schedules; 10. Nominations; 
11. Individual State Pages; 12. Historical Office Page; 13. 
Congressional Record; 14. Virtual Reference Desk; and 15. 
Appropriations Bills.
    E-mail traffic to the webmaster has shown a dramatic decrease in 
questions about where to find information on the web site. The new web 
site navigation structure makes finding information much easier. In 
previous years the webmaster received on average 15 messages a day 
asking for the location of some specific information on the site. In 
2003 that number dropped to less than 5 requests a day.
    A major effort in 2003 was the installation, configuration, and 
testing of the Verity Search Engine for senate.gov. Based on the 
initial round of tests, changes were made to the search engine 
configuration resulting in greatly improved relevance ranking of search 
results. Testing is now focusing on how to improve the search results 
by adding or editing metadata associated with the content items. More 
relevant and standardized keywords, and better descriptions and titles 
will improve the relevance ranking and display of the search results. 
Secretary staff assisted SAA staff in conducting briefings for Senate 
Systems Administrators on how to use the search feature on their own 
sites. Systems Administrators were encouraged to review how their data 
displays in search results prior to final implementation of the search 
feature for the public.
    A continuing problem encountered in 2003 was that some web pages 
were not always available when the public tried to access them. 
Specifically, the problem was with pages that accessed a database using 
Cold Fusion to populate the page with information. SAA staff spent a 
tremendous amount of time and attention trying to solve this stability 
problem, including calling in Macromedia engineers to work onsite. In 
addition to making changes to the Cold Fusion settings, it became 
obvious that architectural changes were required which would affect the 
way Senate offices used databases to publish information to senate.gov. 
These changes are being made and the stability of the Cold Fusion pages 
on senate.gov has improved dramatically.
    Training on the Documentum system continued in 2003. The Webmaster 
took online courses in WebPublisher Administration, DQL (the Documentum 
Query Language), and XML as implemented in Documentum, as well as 
attending seminars on Authoring in XML, XML and Content Management, and 
Search Engine Development. The Webmaster represented the Office of the 
Secretary at meetings of the LegBranch Multimedia Group and Executive 
Branch meetings on improving Citizen Participation through E-Government 
Initiatives.
    In the fall of 2003 a Web Developer was hired to assist the 
Webmaster, and the Office of Web Technology was enhanced within the 
Office of the Secretary, an acknowledgment of the growth in workload 
and responsibility in disseminating information and providing services 
to the public, and internally to the Senate, via websites.
              legislative information system (lis) project
    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.
Background: LIS
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information.
    Following the implementation of the Legislative Information System 
(LIS) in January 2000, and the transfer of operations and maintenance 
of the LIS to the Office of the Sergeant at Arms (SAA) in March 2000, 
the LIS Project Office shifted its focus to procuring system 
development services in support of an LIS Augmentation Project (LISAP). 
The LISAP is focused on the data standard component to provide a 
Senate-wide implementation and transition to XML for the authoring and 
exchange of legislative documents.
    A database of documents in XML format and an improved exchange 
process will result in quicker and better access to legislative 
information and will provide documents that can be more easily shared, 
re-used, and re-purposed. Parts of one XML document can be re-used in 
another XML document because the document structure is similar and the 
format of the data (XML) is standard. As more and more documents are 
created in the XML format, the necessity for re-keying or converting 
from one format to another (HTML to WordPerfect or XyWrite locator to 
Word or Word to WordPerfect, etc.) will disappear.
    The LISAP incremental development approach has helped the LIS 
Project Office build user acceptance, manage costs and adjust quickly 
when needed. The initial focus for the LISAP is to develop an XML 
authoring system for the Office of the Senate Legislative Counsel (SLC) 
and the Office of the Enrolling Clerk for bills, resolutions and 
amendments. Collaboration of Secretary of the Senate and Sergeant at 
Arms staff, augmented with strong contractor support, provides a great 
team effort and great progress has been made in the past year.
LISAP: 2003
    During 2003 Senate staff continued to develop the Legislative 
Editing in XML Application (LEXA) focusing on the Office of the Senate 
Legislative Counsel and the production of bills, resolutions and 
amendments in XML. LEXA features many automated functions that provide 
a more efficient and consistent document authoring process. The SLC has 
worked very closely with the LEXA development team to strengthen and 
refine the application and provide a list of future enhancements. At 
this time LEXA can be used to create introduced and reported bills and 
resolutions and most amendments. Creation of conference reports and 
compilations will be completed in the coming months.
    In late 2003, a contractor developed a two-day training course on 
LEXA that was held three times between January 6 and January 15 for the 
39 attorneys and staff assistants in the SLC. It takes several months 
for a drafter to learn to use XyWrite and the locator formatting codes. 
Following the LEXA training, SLC staff immediately began producing 
bills and resolutions using LEXA, and the first XML draft to become a 
bill was introduced on January 22, 2004. The SLC will work gradually 
toward creating all legislative documents in LEXA and will use XyWrite 
only when necessary.
    The document management system (DMS) for the SLC was also completed 
in 2003. The DMS is integrated with LEXA and will be implemented in 
2004 once the SLC has completed the transition from XyWrite to LEXA. 
The DMS will provide the ability for the SLC to track and manage all 
work requests, legislative drafts, and internal office documents 
prepared in a variety of formats including XML, Word, WordPerfect, e-
mail, and PDF. The DMS will also provide search and retrieval, delivery 
of documents to clients, and exchange of documents with the Senate 
Enrolling Clerk, the GPO, the House Office of the Legislative Counsel, 
and the Senate Appropriations Committee. The expansion of a DMS 
approach into other Senate offices will facilitate greater 
accessibility to legislative documents.
    With the implementation of LEXA and the DMS for the SLC, support 
becomes an important issue. The 2004 Legislative Branch Appropriations 
Act directed the GPO to provide support for LEXA much as they have for 
XyWrite for many years. With help from the LEXA development team, the 
GPO is working toward achieving that goal. As LEXA becomes more widely 
used in the SLC and other offices drafting legislation, the support 
load will increase. The Systems Development Services group of the 
Office of the Sergeant at Arms provides support and maintenance for the 
LIS/DMS, and that group will also support the DMS for the SLC. The 
training contractor is also developing a comprehensive printed and 
online reference manual for LEXA and the DMS and will also produce 
computer-based training for new hires.
    Also in 2003, a contractor completed work on converting bills, 
resolutions, and SLC drafts from the 106th and 107th Congresses to an 
XML format for use in LEXA. In early 2004, the contractor converted the 
documents from the first session of the 108th Congress. The conversion 
software has been incorporated into LEXA providing the ability to 
convert a locator-coded document to an XML document. The contractor 
also developed software (also in LEXA) to convert an XML document back 
to locator codes for printing through the Government Printing Office's 
Microcomp software. This conversion will also be used to supply 
locator-coded versions of documents to those offices and organizations 
still working in XyWrite.
    The conversion contractor also began work on converting the 
compilations of current law to XML format for use by the SLC and the 
House Legislative Counsel in drafting bills and amendments. This 
contractor has also developed an XML component to assist in the 
creation of tables and columnar data in legislation that will be used 
by the Senate, House, GPO, and Library of Congress. This component 
provides assistance and a visual display to the drafter during the 
creation of a table. The XML tagging in the table provides a readable 
display in the editor and on the Web and accurately prints the table 
through Microcomp--all without manual intervention to change the 
underlying tagging or data.
LISAP: 2004
    The LEXA development team will continue to work with the SLC to 
refine and enhance LEXA including developing software to create and 
print conference reports and to edit and update the compilation 
documents created and maintained by the House and Senate Legislative 
Counsels. LEXA, as developed for the SLC, will establish a framework on 
which to build applications for other offices producing other types of 
legislative documents. The team will next address the specific needs of 
the Office of the Enrolling Clerk. Additional functionality to produce 
engrossed bills and amendments and enrolled bills will be added to 
LEXA, and the office will receive training and the LEXA reference 
manual.
    The SLC's DMS will be implemented in 2004. Prior to implementation, 
transition training will be developed for the office and the reference 
manual will be expanded to include information on the use of the DMS. 
The DMS will be integrated with LEXA and will provide a powerful 
tracking, management, and delivery tool. Technology-based training 
(TBT) will also be prepared for the SLC that will combine training on 
LEXA and the DMS for new attorneys and staff assistants in the SLC. The 
TBT, coupled with the standards-based LEXA and DMS applications, will 
shorten the time needed for new hires to learn the drafting technology. 
The SLC will be able to focus on teaching the legislative drafting 
process and new hires will no longer have to spend months training on 
entering printing codes using out-dated DOS-based technology.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and re-verified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary DTDs have been designed for these documents, and 
applications could be built to construct XML document components by 
extracting and tagging the LIS/DMS data. These applications would 
provide a faster, more consistent assembly of these documents and would 
enhance the ability to index and search their contents. The LIS Project 
Office will coordinate with the Systems Development Services Branch of 
the Office of the Sergeant at Arms to begin design and development of 
XML applications and interfaces for the LIS/DMS and legislative 
documents. As more and more legislative data and documents are provided 
in XML formats that use common elements across all document types, the 
Library of Congress will be able to expand the LIS Retrieval System to 
provide more content-specific searches.

       ACQUISITION OF ARTIFACTS THAT ONCE BELONGED TO THE SENATE

    Senator Campbell. What particularly interests me, as you 
mentioned, as well as Senator Stevens, and that is the 
acquisition of former artifacts that belong to the Senate. Is 
it my understanding that you can get these on permanent loan or 
buy them, but that things cannot be donated to the Senate? Is 
that true or not?
    Ms. Reynolds. I am going to defer, as I did last year, to 
our Senate curator on that, and ask her to educate us a little 
bit on----
    Senator Campbell. If she would come up to the table, and 
identify herself for the record, please.
    Ms. Reynolds. Diane Skvarla, our Senate curator.
    Ms. Skvarla. The question I understand was whether items 
could be donated to the Senate. They actually can be donated to 
the Senate and we continue to get items donated to the Senate; 
several every year. As Emily pointed out, we hope with the 
Preservation Fund and new knowledge that we will get more of 
those in the future.
    Senator Campbell. Of the things that are donated, I suppose 
some have real historic value; and who knows, maybe some do 
not. Does this advisory board that you mentioned, are they ones 
that determine what to accept and what not to accept?
    Ms. Skvarla. They will assist us. Yes. We normally get a 
piece, and find out the history of it, of why it might be 
important. For example, a couple of years ago, we got as a gift 
a snuff box once owned by Isaac Bassett, who was the assistant 
doorkeeper here in the Senate. The snuff box was actually a 
gift to Bassett from the Senators themselves in the 19th 
century.

                       CURATORIAL ADVISORY BOARD

    The curatorial advisory board will assist us. They will 
also note, if it is a fine piece of silver, we might ask the 
curatorial board for their advice. So yes, it very much will 
help us in determining the appropriateness of that gift to the 
Senate.
    Senator Campbell. How many people are on that board?
    Ms. Skvarla. We are having 11.
    Senator Campbell. Eleven. Emily did mention some of the 
acquisitions that have been made. Those will eventually all be 
in the Visitor Center, like Vice President Curtis' chair. Is 
that the long-range goal that--that's where they will be?
    Ms. Skvarla. We are still in the process of that exhibit 
design and development. That will be an issue that obviously 
will be presented to leadership and the Capitol Preservation 
Commission, as time goes forward.

                            SENATE WEB SITE

    Senator Campbell. Thank you. Did I hear you properly when 
you said we are getting 150,000 hits per day on the web site?
    Ms. Reynolds. Right. It's 115,000.
    Senator Campbell. 115,000 per day. Are most of those 
students or do you have any way of knowing?
    Ms. Reynolds. I am not certain that we have a way of 
knowing. That would be an interesting figure to track. I can 
tell you, though, just some anecdotal evidence that came in 
recently that was fun for us to see, and that is, a university 
instructor in Indiana was nice enough to send us his core 
syllabus on public law in the United States Senate. He had 
encouraged his students to use Senate.gov, and had developed 
his syllabus around some of the material on Senate.gov.
    If there is a way to track those statistics or to conduct 
some sort of a survey of our users, let me get with our 
webmaster on that. I will be happy to get back to you. That is 
a good question.
    Senator Campbell. I thought it might be students. I know 
when my own son was in college a few years ago, he was using 
different web sites, the Library of Congress, and a number of 
opportunities back here to write a lot of his college papers.
    Ms. Reynolds. Right. Exactly.
    Senator Campbell. It is a wealth of information.
    Ms. Reynolds. The other thing, if I might just add one more 
note on the web site usage, is we were averaging about 15 
requests a day for assistance in navigating the site. Our very 
skilled webmaster now, in rearranging the site and making it 
more user-friendly, we are now getting to an average of just 
about five requests a day for assistance in navigating the 
site.
    So, this is another area where your committee has been 
generous to us in helping us expand the site, some added 
enhancements. You will see some additional enhancements even 
this year.

                             RICIN INCIDENT

    Senator Campbell. Okay. We will move on to a couple of 
other things. How did the February's ricin incident impact your 
operation?
    Ms. Reynolds. Our office was not most immediately impacted. 
But there were a variety of ways in which we responded. The 
first is, Senator Frist asked the Sergeant-at-Arms and I to set 
up a leadership coordination center, which actually ended up 
being physically housed in my office for that week. It was very 
helpful for all of us because our staff and the Sergeant-at-
Arm's staff were working in conjunction with each other on that 
response.
    In addition, as I mentioned, we exercised part of our COOP 
plan with the stationery operation, also part of our COOP plan 
with public records, and we maintained--they were long days, 
but in the evenings then, we would flip over the operation to 
the Sergeant-at-Arms emergency operation center for any 
questions that came in during late evening hours through 
individual offices. But most especially, having that leadership 
coordination center, so that we could work hand-in-glove 
together to respond, was very helpful.
    Senator Campbell. So, you did not feel that you were out of 
the loop on anything that you couldn't keep up----
    Ms. Reynolds. No, sir.

                         CAPITOL VISITOR CENTER

    Senator Campbell. Okay. And then the last question on the 
Visitor Center. I look at it almost every day once or twice. 
We're certainly picking up progress on that. I wish it were 
faster, very frankly. But what is your assessment of the status 
of that? Do you think we are going to have some challenge that 
we cannot confront?
    Ms. Reynolds. That is a good question. I certainly do not 
want to steal Mr. Hantman's thunder, since he is----
    Senator Campbell. I am going to ask him the same question.
    Ms. Reynolds [continuing]. Our day-to-day person out there. 
My role in this has been, and I will tell you, I have been 
amazed in the course of my time in the job, even though I 
certainly am not the Architect of the Capitol, anything close 
to an engineer or a construction person, or an architect 
myself, I have been amazed at the time that the leadership 
staff and staff from the Capitol Preservation Commission spent 
on this, in conjunction with the Architect's Office. Again, it 
is a very collaborative effort.
    Clearly, we have had some challenges, be it weather-
related, obviously, in the construction of this or even some 
construction challenges. I know Alan will address all of that.
    The project is making enormous progress, as you said. I 
reflected that, Mr. Chairman, 1 year ago, at this time, when 
you and I talked about those trucks coming up the hill every 
day but coming up to load up dirt, they were excavating and 
removing that dirt each and every day.
    It is incredible progress in 1 year when you think you can 
now actually look out there and see that there is a top going 
on. It gives us all a sense, and particularly for those of us, 
or laymen, like myself, who do not understand construction 
necessarily. But it comes alive all of a sudden, and you begin 
to see all of those drawings, and diagrams, and everything we 
talked about during the previous year begin to unfold.
    There is no doubt that within the course of the next couple 
of years, whether it is weather-related issues or other 
challenges, that the architect will presumably continue to face 
those challenges; but face them well, as they have. We all make 
those adjustments together.
    That is why it is very important, I dare say, that there is 
a weekly meeting that I help to facilitate, along with my 
colleague on the House side, the Clerk of the House, so that we 
come together in a bicameral, bipartisan way to look at any 
issues on the Architect's plate, to address how they impact our 
community, both on the Senate and the House side, and hopefully 
afford solutions together.

                       CVC OPERATIONAL DECISIONS

    In addition to that, we are also at a time, and it is a 
particularly exciting time, as we reference the exhibit design 
coming up for the Capitol Visitor Center, where we can begin to 
turn our focus to the operational side of the Capitol Visitor 
Center. That is when you know there is light at the end of the 
tunnel, that it is an exciting place to be.
    Clearly, while we are not making strict operational 
decisions, we are having very good dialogue, and hopefully 
setting some parameters that we can take back to the leadership 
and the Capitol Preservation Commission. In adding over 500,000 
square feet to the Capitol itself with this Visitor Center, 
there are enormous operational issues. But we all keep in mind 
the three primary goals, the very reason this center is being 
constructed in the first place, and that is to enhance our 
security, to improve our visitor amenities, and just as we talk 
about on our public web site, to provide greater visitor 
education opportunities for those who come here to learn about 
this Capitol and this Congress.
    Senator Campbell. Thank you.
    Ms. Reynolds. Thank you.
    Senator Campbell. Senator Durbin, did you have questions of 
Ms. Reynolds?

                      SENATE STUDENT LOAN PROGRAM

    Senator Durbin. Very briefly. You have recently conducted a 
survey on student loan programs?
    Ms. Reynolds. Yes.
    Senator Durbin. This is an issue that I initiated several 
years ago and found that no one wanted to administer it. We 
basically decided to let 1,000 flowers bloom and see what 
happened, with some basic guidelines. I have lived in fear ever 
since that, not only some wonderful things but some not so 
wonderful things, may have occurred under the name of student 
loan incentives for recruitment and retention. What have you 
found in your survey?
    Ms. Reynolds. Our survey, which we conducted last summer, 
and we had roughly 58 offices that responded, and I will tell 
you a quick summary, obviously. Those offices that responded, 
and all 58 participate in the program, the feedback was very 
positive about the program.
    As you know, and I was not here at the time; but as you 
know, the administration of the program was given to us but not 
with really a strict set, if you will, of rules and 
regulations. Of course, then each office was able to create 
their own rules and regulations, if you will.
    I will balance with what we found in that survey with 
regard to the offices and the administration of the program, is 
that some offices, Senator Durbin, will actually set parameters 
of service before an individual qualifies for the student loan 
repayment program. Others have an open enrollment period. So, 
you are not necessarily, as a new hire, automatically entitled 
to the program. But everyone does have a little bit of a 
different variation on that theme.
    One of the questions we asked the offices in that survey 
is, would it be helpful to you if there was some additional 
guidance. I think about two-thirds of those in the survey said, 
leave it as it is. We like making our own determination.
    That having been said, I do think--and, again, most of this 
is anecdotal evidence, because as you know, the program is now 
only about 2 years old, but the anecdotal evidence is still 
overwhelmingly positive, in terms of offices who have strong 
candidates, and particularly, young lawyers, strong candidates, 
who very much wanted a job on the Hill, but because of the size 
of their student loans, salary was obviously a real issue. In 
more than one instance, offices cited that having the 
availability of that program enabled them to attract very top-
flight candidates.
    The retention piece of it, again, because the program is 
not very mature, and it still somewhat remains to be seen, we 
can continue to go back, obviously, and pull those statistics 
for you all. I did notice because I know this was one concern 
this year at this hearing, that it does not appear as if, from 
last year to this year, we dropped--we had a fairly high number 
of those who terminated before their year was up, that they 
were required of service. It looks like from last year to this 
year, that number dropped by about one-third or better. So from 
a retention standpoint, you could extract that--that is 
obviously a positive going forward.
    But we will continue to monitor that program and provide 
you with feedback. But again, from the office's standpoint, the 
ability to make their own determination and to use it as a tool 
to attract and retain, was very positive.
    Senator Durbin. Well, we give considerable latitude to 
members of the Senate and other offices, within certain 
guidelines, to decide salaries, and promotions, and work 
assignments. I like that part of the flexibility of it, because 
I think each office tries to create its own office atmosphere.
    I am going to ask, and I have asked the General Accounting 
Office to take a look at this, and see if they have any 
recommendations, whether we should be more specific in terms of 
guidelines to avoid some things that we did not anticipate. But 
thank you for your work on this.
    Ms. Reynolds. Thank you very much.
    Senator Durbin. Thank you for your testimony today. Thanks, 
Mr. Chairman.
    Senator Campbell. Thank you. This will be the last hearing 
that you appear while I am still here. I just wanted to, for 
the record, tell you how much I have enjoyed working with you, 
your professionalism, and your friendship, too. When I go back 
out West to find different kinds of mountains to climb, I will 
be thinking of you here.
    Ms. Reynolds. Keep thinking of us. We appreciate it. Thank 
you, sir.
                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN H. HANTMAN, ARCHITECT OF THE CAPITOL
ACCOMPANIED BY:
        DICK McSEVENEY, CHIEF OPERATING OFFICER
        AMITA POOLE, CHIEF OF STAFF
        GARY GLOVINSKY, CHIEF FINANCIAL OFFICER
        HECTOR SUAREZ, CHIEF ADMINISTRATIVE OFFICER
        BOB HIXON, PROJECT EXECUTIVE FOR THE CAPITOL VISITOR CENTER

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Now, we will hear from Mr. Hantman.
    If you would just come up here, and go ahead, and proceed. 
Your complete testimony will be included in the record, Mr. 
Hantman. I think you can abbreviate your verbal presentation as 
you would like.
    Mr. Hantman. Thank you, Mr. Chairman, Senator Durbin. Thank 
you for this opportunity to testify here today. I would just 
like to introduce a few people who are joining me here today. 
Our Chief Operating Officer, Dick McSeveney; our Chief of 
Staff, Amita Poole; our CFO, Gary Glovinsky; Chief 
Administrative Officer, Hector Suarez; Bob Hixon, our Project 
Executive for the CVC; and several other key people who have 
supported me in preparing for this hearing and throughout the 
year.
    What I would like to do, Mr. Chairman, as you indicated, is 
just have a few words in terms of an oral review here.
    Senator Campbell. Your complete testimony will be in the 
record. Just go ahead and summarize as you please.

                    FISCAL YEAR 2005 BUDGET SUMMARY

    Mr. Hantman. As we prepared this budget request, we worked 
very closely with our clients to ensure that we were addressing 
their needs and those of the Capitol complex in planning for 
necessary projects and programs.
    This budget request for fiscal year 2005 directly relates 
to my responsibilities for facilities management, project 
delivery, and the stewardship of the Capitol complex. Over the 
past few years, as directed by the Congress, additional 
buildings have been added to the AOC's responsibilities. This 
includes the new Alternate Computer Facility, the Fairchild 
Building, the National Audio-Visual Conservation Center, the 
book depositories at Fort Meade, and, of course, the Capitol 
Visitor Center.
    All told, this amounts to an additional 1.5 million square 
feet of buildings and another 91 acres or so under the AOC's 
custodial care. That brings us to some 15 million square feet 
of building space, Mr. Chairman.
    We are requesting $585 million for fiscal year 2005 to 
support the maintenance, the care, and operations of all the 
buildings and grounds of the Capitol complex. This includes a 
number of projects to support and enhance life safety and 
security which, as you know, Mr. Chairman, are my top priority. 
It also reflects a number of major projects valued at $177 
million that have been requested by our clients, including the 
Library of Congress and the U.S. Capitol Police. You alluded to 
that in your opening statement.
    This 2005 request represents a 41 percent increase over the 
enacted amount for fiscal year 2004. However, if our client 
projects were counted separately from our basic AOC budget, the 
fiscal year 2005 request would be less than my fiscal year 2004 
budget.
    On another note, Mr. Chairman, I am pleased to report that 
the AOC has once again cut its total injury/illness rate. We 
reduced fiscal year 2002's rate by more than 5 percent, for an 
annual rate of 7.9 percent in fiscal year 2003. Since fiscal 
year 2000, we have reduced the injury/illness rate by a total 
of 56 percent and we still continue to improve. Our goal 
basically is to get it down as close to zero as is humanly 
possible. We thank you for your support in this.
    Many life safety and security improvements have been 
implemented or are ongoing in the Senate office buildings. For 
example, all Dirksen building entrances have been upgraded to 
meet ADA requirements. Mechanical and electrical updates have 
been or are being completed on all Senate building elevators.
    We also continue to upgrade or install new sprinkler 
systems, smoke detection systems, and are making egress 
improvements in buildings across the Capitol complex.
    In this calendar year, Mr. Chairman, one of our highest 
priorities is preparing for the inauguration. We have bid out 
the construction of the inaugural stands, which we will be 
awarding shortly; and we are in various stages of design, 
specification, and bidding for other requirements, such as the 
sound system, ramps, and chairs for the swearing-in ceremony.

                         CAPITOL VISITOR CENTER

    Another major undertaking will be the planned start-up of 
building systems for the Capitol Visitor Center. At the 
direction of the Capitol Preservation Commission, I have 
requested as an interim measure, funding for facility 
operations and maintenance until it is decided how and by whom 
the CVC will be operated and maintained. Ms. Reynolds referred 
a little bit to that process that is going on right now.
    Construction on the CVC has been progressing at a strong 
pace, as crews are increasingly working under the roof deck, 
which now covers the entire western half of the project area. 
It might be helpful, Mr. Chairman, to just take a look at a 
photo showing the progress we made last August on the Visitor 
Center, and a photo that was taken just 2 weeks ago.
    On the left, of course, you see that the excavation was 
well underway. The foundation walls were being put in just last 
August, since last summer, completed to what we see basically 2 
weeks ago. The deck, again, is fully in place with respect to 
the area between the major skylights and the east front of the 
Capitol.
    All of that area will be part of the plaza that is 
necessary to support the inaugural activities. We will have a 
completed roof deck. We will have it covered by granite pavers, 
from the House steps to the Senate steps; and in May we expect 
to see stone masons start to lay granite pavers beginning on 
the north side, near the Senate steps. Some 200,000 pavers will 
be laid.
    Over the past year, the AOC has undergone significant 
change. We have added key people. We have reaffirmed our 
commitment to providing high-quality service to Congress and 
the American people with the implementation of a new strategic 
plan. I am dedicated to providing a safe, secure, and 
productive environment for all who work at and visit the 
Capitol complex each year, as well as for all AOC employees.
    We have completed tens of thousands of work orders to our 
clients' satisfaction--about 48,000 work orders just in the 
Senate buildings this year. We have achieved many of our goals 
due to the hard work and dedication of the AOC employees. I am 
very privileged and honored to lead such a professional team.

                           PREPARED STATEMENT

    This committee's support in helping us achieve these goals 
is greatly appreciated. Once again, I thank you for this 
opportunity to testify today. I will be happy to answer any 
questions you might have.
    Senator Campbell. Thank you.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Mr. Chairman, members of the Subcommittee, I thank you for this 
opportunity to testify before you today. The Office of the Architect of 
the Capitol (AOC) has been undergoing tremendous change over the past 
year as we have finalized and begun implementing our five-year 
Strategic Plan. Our Strategic Plan is the blueprint that we are now 
following to help us carry out our responsibilities to preserve and 
enhance the United States Capitol and the other facilities located 
across the Capitol complex as well as guide us as we provide high-
quality service to Congress and the American people.
    Our Strategic Plan is linked to our Performance Plan which outlines 
specific actions and milestones we will use to achieve our goals. We 
also have established a reporting protocol that is tracking the 
Agency's strategic initiatives, the General Accounting Office's 
recommendations, and the Chief Operating Officer's Action Plan items on 
a monthly basis. In addition, we have identified a number of measures 
to monitor and evaluate the success of our work efforts over the next 
year.
    Last July, we added a Chief Operating Officer to the team. Richard 
McSeveney is responsible for much of the AOC's day-to-day operations 
including programs and initiatives associated with strategic planning, 
performance management, worker safety, customer satisfaction, and 
service quality. He has submitted his Action Plan to Congress that 
outlines how we are implementing change and moving the AOC to the next 
level of client service excellence.
    As we prepared this budget request, we worked closely with all of 
our clients to ensure that we were addressing their needs and those of 
the Capitol complex in planning for numerous projects and programs. 
This budget request for fiscal year 2005 will allow me to meet my 
responsibilities for facilities management, project delivery, and the 
stewardship of the Capitol complex. But just as importantly this budget 
responds to the needs of our customers, the requirements for improved 
fire and life safety, security, and future obligations.
    Over the past few years, per the direction of Congress, additional 
facilities and projects have been added to the AOC's responsibilities. 
A short list of facilities includes the Alternate Computer Facility, 
the Fairchild Building, the National Audio Visual Conservation Center 
in Culpeper, Virginia, and of course, the Capitol Visitor Center. All 
told, this amounts to an additional 1.5 million square feet and 91 
acres under the AOC's custodial care. Our budget has been structured 
and increased to support the new requirements and responsibilities this 
Agency has for these new facilities.
    Over the past several weeks, we have worked with the respective 
committee staffs and our clients to address possible budget 
resolutions. We re-examined priorities and studied how holding our 
budget to fiscal year 2004 funding levels would impact our day-to-day 
work as well as major projects. We have met the challenge of building a 
budget request that balances both fiscal responsibility and my office's 
mission to preserve, maintain, and enhance the national treasures and 
properties entrusted to us. I want to thank the Subcommittee for its 
generous support over the years without which we could not have 
completed many critical projects, continued to provide exemplary 
service, and assured continuity of operations at the Capitol, in the 
Senate Office Buildings and throughout the Capitol complex.
    We are requesting $479.3 million (not including items specific to 
the House) for fiscal year 2005 to support the maintenance, care, and 
operations of the buildings and grounds of the Capitol complex. This 
includes a number of projects to support and enhance life safety and 
security--my top priority. It also reflects a number of major projects, 
valued at more than $136 million that have been requested by our 
clients including the Library of Congress (LOC) and the U.S. Capitol 
Police (USCP).
    The most significant requests are $59.2 million for the 
construction of the Library's Copyright Deposit Facility; $39.5 million 
for the construction of the third and fourth increments of the 
Library's collection storage modules at Fort Meade; $18.4 million to 
accommodate office and storage space at the Fairchild and GPO buildings 
for the Capitol Police; and another $18.4 million for a USCP firing 
range and off-site delivery facility.
    This is a $138.7 million or 41 percent increase over the enacted 
amount of $340.5 million for fiscal year 2004. This does not reflect 
the $12 million transfer of fiscal year 2003 appropriations into the 
AOC budget for fiscal year 2004 for the Capitol Visitor Center.
    If these specific client requests were not counted in the AOC 
budget request, budget growth for fiscal year 2005 for my Agency would 
actually show a negative growth from fiscal year 2004.
    Other key items in my budget request include $20.1 million for 
sprinkler and smoke detector upgrades in the Library of Congress 
buildings; $3.7 million for the Hart modular furniture replacement 
program; $1.3 million to renovate Senate Office restrooms; $4.5 million 
to implement Phase III of the U.S. Capitol Master Plan; $14.5 million 
for the preparation of the opening of the Capitol Visitor Center; $5.1 
million for the restoration of Bartholdi Park and Fountain; $1.5 
million to design the upgrade of the Capitol complex cable television 
system; $955,000 for wayfinding signage, renovation and restoration of 
street lights and other decorative items on the Capitol grounds, and 
$1,065,000 for installation and operations of emergency defibrillators 
across the Capitol complex.
                          project descriptions
Copyright Deposit Facility--$59.2 million
    This new, centralized, 180,200 square foot facility would house all 
existing and projected copyright collections in a secure, specialized 
environment for the Library of Congress. The Copyright Office of the 
Library of Congress is required by law to retain all the post-1977 
unpublished deposit materials for the full term of the copyright 
protection and published deposits for the longest period considered 
practicable and desirable by the Register of Copyrights. The design 
work has been completed on this two-story building and, if funded, 
construction will begin in 2005. If the facility is not built, the 
storage of existing and future copyright collections will continue to 
be housed in decentralized, privately leased records facilities with 
questionable abilities to provide for the future growth of deposits and 
records. In addition, the collections will continue to be at risk due 
to the inability of existing mechanical systems to provide for the 
specialized requirements regarding temperature and humidity.
Fort Meade Book Storage Modules 3 and 4--$39.5 million
    This project for the Library of Congress entails the construction 
of two buildings to alleviate a shortage of collection storage capacity 
at the Jefferson, Adams, and Madison buildings on Capitol Hill. The 
third and fourth storage modules are designed to maintain environmental 
conditions of 50 degrees Fahrenheit and relative humidity of 30 
percent. Scheduled to be constructed in late 2004 and 2005, the 
buildings will have two loading docks, a quarantine room, and a vacuum 
equipment room, as well as mechanical and electrical rooms to 
accommodate the necessary equipment. If construction of these modules 
is delayed, the Library's ability to accept new materials into its 
collection will be compromised.
U.S. Capitol Police Support (USCP)--$30.9 million
    The AOC has recently signed a 10-year lease to occupy a little more 
than four floors of the Fairchild Building located at 499 South Capitol 
Street, S.W., that will accommodate the interim office space needs of 
the U.S. Capitol Police. Funds have been requested for the annual lease 
and to cover the costs to fit out the available space. This includes 
fixtures, furnishings, equipment, telecommunications, and information 
technology infrastructure.
    In addition, the AOC is nearing agreement with the Government 
Printing Office to utilize some space for the Capitol Police logistical 
and storage functions, such as property management and warehousing. 
Relocating the USCP to these spaces will free existing space occupied 
by the USCP for Congressional use.
Capitol Visitor Center Start-up Support--$14.5 million
    In preparation for the opening of the Capitol Visitor Center (CVC), 
$6.3 million is requested to procure equipment and supplies, contract 
for custodial services, and support, operate, and maintain the 
structural, architectural, and utilities infrastructures.
    An additional $8.2 million is being requested to cover the 
transitional stand-up costs for the operations, administration, and 
management supporting guide services, visitor services, food services, 
and gift shop services for the CVC.
    In addition, the AOC is requesting 35 Full Time Equivalents (FTEs) 
in preparation for the opening of the CVC. Eighteen FTEs are being 
requested in the Capitol Building appropriation for facility 
maintenance; 16 FTEs in the CVC appropriation for project and 
operations support necessary for an orderly startup (tour guide 
services, restaurant management and gift shops); and one FTE to support 
the Office of the Attending Physician.
                            employee safety
    For the third consecutive year, the AOC has cut its injury/illness 
rate. According to year-end figures from the Occupational Safety and 
Health Administration, we reduced fiscal year 2002's rate of 8.35 by 
more than five percent for an annual rate of 7.91 in fiscal year 2003. 
Since fiscal year 2000, we have reduced the total injury/illness rate 
by 56 percent. These achievements would not have been possible without 
the efforts of all AOC employees. In January, we conducted an Agency-
wide survey asking employees about their perceptions, opinions, and 
attitudes about safety. The response rate to the survey was 62 percent 
when typically these surveys receive a 30 percent response rate.
    When asked if they agree with the statement, ``Workplace safety is 
very important to AOC,'' 90.8 percent of AOC employees agreed with the 
statement. Nearly ninety-four percent of employees stated that they 
``think about the safety of my customers and the public,'' and 96.2 
percent said they ``think about their own safety on the job.'' Over the 
past several years, our workforce has made a commitment to work in a 
safe and healthy environment. This commitment has lead to consistent 
and notable reductions in our injury/illness rate.
    However, any single injury is one too many. I am committed to 
providing a safe environment on Capitol Hill. I set high expectations 
and communicate them to my Superintendents and employees. I perform 
unannounced visits to worksites to observe and discuss safety and 
ensure that personal protective equipment is available and worn. Mr. 
Chairman, I have requested $64.7 million in project funding to support 
life/safety and security projects. It includes upgrading or installing 
new sprinkler systems and smoke detection systems; upgrading elevators; 
renovating restrooms to comply with ADA requirements; installing 
defibrillators across the Capitol campus; and making egress 
improvements.
                  senate office building improvements
    Many life/safety and security improvements have been implemented or 
are ongoing in the Senate Office Buildings. For example, all Dirksen 
Office Building entrances have been upgraded to meet ADA requirements, 
and all mechanical, electrical, and cab refurbishing upgrades to the 
elevators in the Russell Building have been completed. All mechanical 
and electrical updates are completed on the Dirksen Building elevators, 
and the cab upgrades are scheduled to be completed this fall. The Hart 
Building elevators modernization will begin in May and the completion 
date for this project is spring of 2005.
    In the area of client services, Senate offices now have a new way 
to submit and track work requests, learn about on-going projects, order 
furniture, or request assistance from the Senate Superintendent's 
Office. The tool is a new intranet site: http://Senate.AOC.gov. This 
site is the first AOC client-specific web site focused on customer 
service. In addition, building alerts are regularly posted on the site 
and updated to provide information about projects such as elevator or 
restroom upgrades.
    Our new Senate site was rolled out during a demonstration for 
Senate staff in December and we have been providing training classes 
for office managers. Senate staff members have also been providing us 
with suggestions on how to add value to the site and we are making 
adjustments to better meet their needs. The site will continue to grow 
and evolve in the upcoming months, for example, a client feedback form 
was recently added. Similar sites for the House and Capitol 
Superintendent's Offices will be online soon.
    The AOC continues to make significant improvements in the Senate 
Office Recycling Program. Contamination rates have plummeted from a 
high of 75 percent in fiscal year 2000 to zero for the first quarter of 
fiscal year 2004. We attribute this tremendous progress to three 
things: we simplified the program, we have initiated coordination 
efforts with the Senate Sergeant at Arms and Senate staff to further 
educate them about the program, and we have modified our own work 
practices and operations to ensure efficient and effective collection 
and separation of recyclable materials. We have also increased the 
types of recyclable materials we collect to include items such as toner 
cartridges and rechargeable batteries. Ninety-three office suites, 
eight committee suites and a number of other Senate offices are 
actively participating in the recycling program.
                            capitol building
    In fiscal year 2005, one of our highest priorities concerning the 
Capitol Building will be the preparations for the Presidential 
Inauguration. We have been updating plans from the last inauguration 
and have begun planning the construction of Inaugural stands and 
identifying other requirements, such as a sound system, ramps, 
crossovers, and chairs for the swearing-in ceremony. We are also 
working closely with the U.S. Capitol Police on security issues.
    Mr. Chairman, I am pleased to report that as of February 17, 2004, 
the Capitol Dome was re-opened for special Member-led tours. As you 
know, tours were suspended following the terrorist attacks on September 
11, 2001. Since that time, my office completed a number of safety 
upgrades in the Dome that included installing exit signs, bump guards, 
fire alarms, an evacuation system, improved handrails, and new stair 
treads. We also improved the tour route lighting and emergency 
lighting. I would like to note, however, that the scheduling and 
conducting of these tours now falls under the responsibility of the 
Capitol Guide Service.
    We have completed a number of other projects throughout the Capitol 
over the past year including installing numerous additional life and 
fire safety devices throughout the building; continuing to restore and 
conserve frescos, historical artwork, chandeliers, and the Brumidi 
murals; and upgrading 24 of 28 elevators. The remaining four are 
scheduled to be completed between fiscal year 2004 and fiscal year 
2006.
    Mr. Chairman, a popular service we provide for the American public 
is the opportunity to purchase, through Members' offices, flags flown 
over the U.S. Capitol. Last fall, my office discovered that several web 
sites existed that were reselling flags flown over the Capitol at a 
much higher cost than if the consumer had requested one through their 
Member's office. We sent out notices to all Congressional offices to 
alert Members to this practice and have been developing a web site that 
would provide information on flags flown over the Capitol and directing 
consumers to contact their respective Senators or Representatives. I am 
pleased to report that as a result of our actions, many of these web 
sites have ceased reselling flags or have changed their web sites to 
clarify their business practices.
    As I mentioned earlier, another major undertaking will be the 
start-up of the Capitol Visitor Center facility. At the direction of 
the Capitol Preservation Commission (CPC), I have requested funding 
under the Capitol Building fiscal year 2005 appropriation, as an 
interim measure to fund facility operations and maintenance until it is 
decided how and by whom the CVC will be operated and maintained.
                      capitol visitor center (cvc)
    Construction on the CVC has been progressing at a strong pace, 
especially over the last several months as crews are increasingly 
working under cover below portions of the roof deck which now covers 
the entire western half of the project area. Sequence 1 and Sequence 2 
contractors have been jointly working to coordinate and fully integrate 
their schedules to ensure that the project proceeds in the most 
efficient manner possible. Additionally, we have augmented our 
management team to facilitate the efficient sequencing and execution of 
the more than 3,000 project line items that need to be accomplished.
    Over the next year, Members will witness the completion of the 
western half of the plaza at a level sufficient to support inaugural 
activities. That entails the ability of the plaza deck to accommodate a 
Presidential motorcade and, if necessary, the landing of a helicopter 
on the deck. Specifically, the portion of the plaza supported by the 
steel framing will have a completed roof deck covered by granite pavers 
from the House Steps to the Senate Steps. In May, Members can expect to 
see stone masons on the plaza laying granite pavers on the East Front 
Plaza deck beginning on the north side of the deck near the Senate 
Steps. A plan describing the plaza finishes and the accessible areas of 
the CVC site for the Inauguration has been presented to the CPC and 
Rules Committee staff. Other landscape elements will be in place and 
some portions of the hardscape elements, including the retaining walls 
around the House and Senate grassy oval areas, will be partially in 
place. At the same time, all the interior facilities will continue to 
be worked on and ultimately commissioned and turned over so those 
operating the facility will have time to adapt to the facility and 
establish operating procedures before the CVC opens to the public.
    The current estimated completion date for the CVC is spring 2006. 
After a long and thorough review of project activities and the line-
item schedules of both Sequence 1 and 2 contractors by my office, our 
construction manager, and the General Accounting Office, we have 
determined this more accurate opening time frame.
    The overall base project budget stands at $351.5 million. This 
amount includes the $265 million appropriated for the core CVC space 
and the shell for House and Senate expansion space; $38.5 million for 
additional security enhancements funded after September 11, 2001; and 
$48 million to accommodate higher than expected bids, additional 
changes in scope and design due to unforeseen site conditions and 
weather impacts, and the management and construction costs associated 
with the scope and design changes, as well as contingency funds. 
Additionally, $70 million has been appropriated for the build-out of 
the House and Senate expansion spaces.
    As construction continues, we continue to plan the exhibits that 
will be featured inside the CVC and work with representatives of the 
Capitol Preservation Commission to determine how services such as food 
service, gift shops, guide services, and first aid to our visitors will 
be provided. Because our 16,500 square foot gallery will be the only 
one in the country dedicated to the history and accomplishments of the 
Congress and the growth of the Capitol, it will feature a number of 
interesting and educational exhibits. It will include a 10-foot tall 
touchable model of the Dome with cutaway interior; a curving marble 
wall inset with state-of-the-art document cases featuring historic 
documents from the Library of Congress and the National Archives 
chronicling legislative achievements; a set of six alcoves covering the 
history of the House, the Senate, and Capitol Square; virtual House and 
Senate theaters allowing historical programs and live access to floor 
proceedings; a ``Behind the Scenes'' area covering everything from 
subways to grounds-keeping; a photo exhibit featuring the Capitol as a 
national stage for important ceremonies; and an interactive area where 
visitors can access touch screen programs about ``Your Congress/Your 
Capitol.''
    Mr. Chairman, I know that we all eagerly await the opening of this 
unique, historic, and very necessary visitor center that will offer 
free and open access to all people in a safe and secure environment so 
that they may witness and learn about the workings of democracy and the 
legislative process.
                            project delivery
    As the example of the CVC illustrates, in recent years the number 
and complexity of our projects has greatly increased. Therefore, the 
AOC has worked to develop core and technical competencies for its 
project managers and contracting officers. Specifically, we have 
established a competency framework and training assessment for both AOC 
contracting officers in line with the Defense Acquisition Workforce 
Improvement Act (DAWIA) and AOC project managers in the engineering and 
architectural series that mirrors the Project Management Institute Body 
of Knowledge.
    We are also working more closely with our clients to design and 
control the scope of our projects to assure high quality drawings and 
specifications, to minimize changes during construction, and to deliver 
quality projects on time and on budget. All current projects have been 
prioritized and the more critical projects have been assigned to the 
Project Management Division. Appropriate levels of support are being 
provided to these project managers to assure that they have the 
resources necessary to move these high priority projects forward.
    The Capitol Complex Master Plan that is under development will help 
facilitate consistent management and oversight of all our projects and 
assist us in setting priorities. Its key objectives are to document 
existing conditions; provide context for site selection and site 
development within and near the Capitol Grounds; address cross-
jurisdictional questions of historic preservation, sustainability, 
infrastructure renewal, permanent security measures, visitor management 
strategies, traffic and parking issues, and landscaping; and identify 
facility needs and future building trends, and coordinate planning 
efforts with local, regional, and Federal development plans.
    The existing master plan is nearly 25 years old and does not 
address present-day issues such as increased security, new and 
advancing technologies, and future needs. As you know, since September 
11, the AOC has undertaken substantial new projects to adjust to a 
demand for heightened security. Chief among these projects is perimeter 
security which has seen significant progress.
  --Capitol Square.--All work on the Senate side of Capitol Square is 
        complete except the outer perimeter work along Constitution 
        Avenue, N.W., and the work which is currently impacted by the 
        Capitol Visitor Center project. The portion near 1st Street and 
        Constitution Avenue, N.W., which is part of the Capitol 
        Complex's outer perimeter, is also ongoing. The north entry 
        will be constructed following the completion of the tunnel work 
        on the CVC. The work along the Northeast Drive and 1st Street, 
        N.E., will be completed following the completion of the CVC 
        itself. The portion of the outer perimeter near 1st Street and 
        Constitution Avenue, N.W., will be completed as part of the 
        later phases of the Senate Office Building Perimeter Security 
        program.
      The work on the House side of Capitol Square is largely complete 
        with the major exception of the work which is currently 
        impacted by the CVC project and the portion near 1st Street and 
        Independence Avenue, S.W., which is part of the Capitol Complex 
        outer perimeter.
  --Senate Office Buildings.--A contract has recently been awarded for 
        the perimeter security work along Constitution Avenue between 
        Delaware Avenue and 2nd Street, N.E. This work is currently 
        planned to be completed in November 2004. The remainder of the 
        perimeter security around the Senate Office Buildings will be 
        completed in phases over the next two years.
  --House Office Buildings.--The work along Independence Avenue in the 
        front of the House Office Buildings is largely complete with 
        full completion anticipated this spring. The remainder of the 
        perimeter security around the House Office Buildings will be 
        completed in phases over the next two years.
    Another project underway that will address the current and future 
needs of the Capitol Complex is the expansion of the West Refrigeration 
Plant at the Capitol Power Plant. This project replaces the aging and 
outmoded East Plant refrigeration machines and provides for additional 
heating and cooling requirements. The project is approximately 25 
percent complete and, when finished, will enable the Capitol Power 
Plant to reliably meet cooling requirements through 2025 and will 
significantly increase overall plant efficiency, thereby lowering 
annual energy consumption.
                             human capital
    Because the AOC is a service-based organization, our workforce is 
our most valuable asset. We continue to look at new and innovative 
approaches to better attract and retain highly qualified employees so 
that we continue to be in a position to meet the needs of all our 
clients.
    We have hosted in-service Federal Employees Health Benefits Days to 
assist employees with any problems they may have or to answer questions 
about various health plans. We plan to host sessions twice a year. We 
have also developed a new Leadership Development Program that we plan 
to roll out soon. It expands the existing framework to address all 
leadership levels of AOC to develop the skills needed to achieve 
competencies that are considered to be government-wide standards. In 
addition, we have invested in employee training and provide other 
incentives, such as transit subsidies.
    This past year we established a new Office of Workforce Planning 
and Management (WFPM) as approved in our fiscal year 2003 full time 
equivalent appropriations request. This office is responsible for 
position management, organizational analysis, and succession planning. 
WFPM staff has conducted an Administrative Study in which they 
evaluated the need of administrative positions, the duplication of 
positions, and whether AOC's positions and functions align with the AOC 
Strategic Plan.
    In September 2003, the AOC launched AVUE, a Digital Services 
Recruitment and Staffing Module that lists all AOC vacancy 
announcements and allows job applicants to apply online. In addition, 
all position descriptions are developed in AVUE. Its implementation has 
significantly reduced the time it takes to generate and issue a 
referral list of qualified candidates to managers, thereby reducing the 
time to fill vacant positions.
    With the assistance of the Office of Information Resources 
Management, kiosk computer stations were established in every 
jurisdiction so AOC employees can have access to computers to develop 
their employment profiles, view vacancies, and apply for AOC vacancies 
at any time. In conjunction, we opened an AOC Employment Center. The 
center is open every Tuesday and Thursday and by appointment. AOC Human 
Resources staff members are available to assist employees in developing 
their employment profiles and providing instruction to apply for 
positions online.
                         information technology
    Our budget request for the Office of Information Resources 
Management (OIRM) has increased as a result of our efforts to 
centralize all information technology (IT) functions under OIRM. In the 
past, individual jurisdictions controlled some portions of IT funds.
    In addition to bringing AVUE online, OIRM successfully managed a 
number of projects this past year including: developed and published 
the AOC's Enterprise Architecture; completed the foundation for the 
upgrade to AOC's network, AOCNET; completed the infrastructure build-
out at the Alternate Computer Facility (ACF); implemented the Financial 
Management System fixed assets module on schedule which provides the 
AOC with automated records of its fixed assets and enables the 
Accounting Division to record automated depreciation entries in the 
general ledger (proper accounting of fixed assets is required to 
receive an unqualified audit opinion); developed and launched the 
Senate's web site; and completed the AOCNET Fiber-optic Ring Project.
                           senate restaurants
    Another area in which we provide client service is in the Senate 
Restaurants. We have been making strides in reducing economic 
dependency over the past few years through cost reductions and the 
marketing of our services.
    Our management has taken a number of steps to help resolve some 
issues regarding its billing procedures including: sending out bills to 
collect unpaid balances; implementing a detailed code system to explain 
charges and verifying who authorized such charges; and billing on a 
more regular cycle.
    The Senate Restaurants offer services designed to provide Senate 
Offices with new menu options when planning small, in-office functions 
that are less expensive than fully catered events. Senate staffers can 
log on to our expanded web site and check out the daily specials in 
each restaurant and look for special events. The site is registering 
more than 5,000 hits per month.
    This year we upgraded our cash registers in both the North Servery 
and Senate Chef to accept credit cards. Shortly we hope to institute a 
discount debit card for use in the North Servery as well.
    Finally, I am especially pleased to inform you that for the sixth 
straight year, independent auditors have found no reportable conditions 
or material weaknesses in financial controls.
                               conclusion
    The Office of the Architect of the Capitol has been serving 
Congress since 1793 and continues to provide client services through 
hurricanes, ice storms, anthrax, and ricin incidents.
    Over the past year, we have undergone significant change and have 
reaffirmed our commitment to providing high-quality service to Congress 
and the American people. Our request for funds is in direct response to 
our customers' requests for important projects and programs. In 
addition, we continue to strive to achieve the level of safety, 
security, preservation, and cleanliness, expected across the Capitol 
Complex.
    I am dedicated to providing a safe, secure, and productive 
environment for all who work at the AOC and for those who work and 
visit the Capitol Complex each year. We have completed thousands of 
work orders, have met our clients' expectations, and have achieved our 
goals due to the hard work and dedication of all our AOC employees. I 
am very privileged and honored to lead such a professional team.
    The Subcommittee's support in helping us achieve these goals is 
greatly appreciated. Once again, thank you for this opportunity to 
testify today. I'd be happy to answer any questions you might have.

                            CVC LANDSCAPING

    Senator Campbell. Once the pavers are on the plaza, is 
there going to be an automobile parking lot, or is that going 
to be a garden look?
    Mr. Hantman. Certainly, from the perspective of the front 
yard to the Capitol, Mr. Chairman, my recommendation would 
certainly be that parking would be extremely limited to those 
people who really need to bring cars up onto the east plaza. 
But that is clearly an administrative decision for the----
    Senator Campbell. Are we going to replant the grass and 
some of the trees that were there?
    Mr. Hantman. Absolutely. Absolutely. We will, in fact, have 
more trees----
    Senator Campbell. There will be enough soil, on top of the 
roof of that, to be able to hold trees?
    Mr. Hantman. The areas that have been directly adjacent to 
the Capitol, say, between the central rotunda steps and the 
Senate steps, between the central rotunda steps and the House 
steps, those panels will be there. We will be having grass, 
just as Mr. Olmstead originally planned it. The concept was not 
to have heavy trees or gaudy planting that would detract from 
the building itself at those locations.
    So, those will be replaced. We will have adequate room for 
growing the grass that we need in those panels, as well as on 
the eggs. The House and the Senate eggs will be replanted. 
Trees, the alle of trees leading down East Capitol Street will 
be fully replaced with trees that are in line with the original 
design of Mr. Olmstead.
    Senator Campbell. And you feel confident that the surface 
is going to be done before the 2005 inaugural activities?
    Mr. Hantman. We will have that surface ready for--if there 
is a motorcade for the President, if the helicopter, the 
Presidential helicopter has to land, it will be in place, the 
troops need to pass in review, that will be all ready for that.

                  FISCAL YEAR 2005 FUNDING REDUCTIONS

    Senator Campbell. We have big problem with money this year, 
as you know. AOC has requested a 41 percent increase. That is 
large and it may be very well needed, but it will be tough to 
accommodate. I have asked everyone who has come before our 
committee, what happens if we cannot fund that request? Have 
you prioritized what is the most important thing that we need 
to be aware of if we need to trim some money from your request?
    Mr. Hantman. Well, within my agency, Mr. Chairman, I have 
really reviewed both operations and the capital improvement 
requirements that were requested by the superintendents of each 
of our jurisdictions; a separate jurisdiction for the Senate 
office buildings, the House, the Capitol, Library of Congress. 
And we balanced their priorities for fire, life safety, 
security, and operational requirements, against the fiscal 
realities; to ensure that we could fulfill our responsibilities 
without significant budget increases.
    In addition to refining the AOC needs for maintenance 
operations and funding for capital projects, we also worked 
very closely with our clients to ensure that we were addressing 
their needs as part of the requirements of the overall Capitol 
complex.
    I recently requested that the Library of Congress and the 
Capitol Police review and formally reconfirm their needs and 
requests, and they have done so. I have letters for the record 
submitted on March 23, from Dr. Billington, and April 5, from 
Chief Gainer, which really talk to their projects and the need 
for those very important projects.
    [The information follows:]

                                 The Librarian of Congress,
                                    Washington, DC, March 23, 2004.
The Honorable Alan M. Hantman, FAIA,
The Architect of the Capitol,
Washington, DC.
    Dear Alan: In response to your March 10 letter, I am writing to 
reaffirm the Library's mission-critical need for the following projects 
in the Architect of the Capitol (AOC) fiscal year 2005 budget.
Fort Meade Modules 3 and 4: $39,500,000
    There has already been a delay of more than five years in obtaining 
this desperately needed space.
    Failing to fund Modules 3 and 4 in fiscal year 2005 would adversely 
affect library materials.
  --The special format collections that are scheduled to fill Modules 3 
        and 4 and the four specially designed cold vaults total 
        approximately 26.2 million items, and include: 500,000 reels of 
        microfilm masters, many of which are in imminent danger of 
        deterioration that will render them unusable unless they are 
        transferred to cold storage; 10 million manuscripts; 340,000 
        maps; 750,000 print and photographic negatives; and 500,000 
        boxes of special collections from the collections of Prints and 
        Photographs, Music, Law, Rare Book and Special Collections, 
        Folklife and rare bound volumes from Serials and Government 
        Publications.
    Many of these materials are stored in conditions that do not meet 
preservation standards. Others are stored in better environmental 
conditions, such as Iron Mountain, but are not readily retrievable for 
processing or consultation by researchers, seriously hampering core 
Library activities.
Copyright Deposit Facility: $59,200,000
    A delay in funding would: add more time of storing copyright 
deposits in unsuitable conditions, further advancing the deterioration 
of these deposits; and continue the risk of public criticism that 
copyright deposits are not being preserved to meet the requirements of 
the law.
    We are currently storing more than 135,000 cubic feet of copyright 
deposits.
    Copyright's capacity requirements will grow, particularly with the 
1999 Copyright term extension, which means the Office will have to 
store unpublished deposits for an additional 20 years.
Collections Security (Secure Storage Rooms): $860,000
    In compliance with the Library's congressionally approved 
Collections Security Plan, funding is needed for the construction of 12 
secure storage vaults within the Library's three Capitol Hill buildings 
to house all ``platinum'' and ``gold'' collections.
    Current funding allowed the construction of five vaults; fiscal 
year 2005 funding will support an additional three vaults, with the 
remaining four vaults built in fiscal year 2006.
    A delay in the construction of the vaults could result in a life 
expectancy of about 20 percent of what it would be if the collections 
were stored under proper environmental conditions.
Cafeteria Equipment: $210,000 (Price Correction from Memo)
    The continued maintenance problems of current cafeteria equipment 
(dishwashing machine) add service cost through staff downtime and 
additional use of paper products.
    If not funded, the condition of the equipment will continue to 
deteriorate, consuming additional AOC maintenance labor hours needed 
elsewhere.
    With machinery not fully operational, it creates a safety hazard 
with operators and health concerns with Library staff and patrons.
Study--Book Conveyor Integration/Upgrade: $400,000
    Without this funding to study the alternatives for correcting 
numerous deficiencies with the existing book conveyor systems, service 
levels will continue to decrease. This may ultimately lead to a 
complete failure of the book conveyor systems.
    The decreased service levels will impact the Library's ability to 
efficiently deliver materials to its staff and other customers, and 
severely impact staff resources by eventually forcing the manual 
delivery of books and research materials.
    Funding is not required for the Madison Loading Dock Expansion 
($125,000), and should be deleted from the fiscal year 2005 budget 
request.
    If you have any questions regarding the Library's fiscal year 2005 
AOC budget requirements, please contact Budget Officer Kathryn Murphy 
on 707-5186.
    The Library appreciates the AOC's continued support with its 
buildings and grounds requirements.
            Sincerely,
                                       James H. Billington,
                                         The Librarian of Congress.
                                 ______
                                 
                      United States Capitol Police,
                                       Office of the Chief,
                                     Washington, DC, April 5, 2004.
The Honorable Alan M. Hantman, FAIA,
Architect of the Capitol, SB-15, The U.S. Capitol, Washington, D.C.
    Dear Mr. Hantman: This is in response to your letter of March 10, 
2004, requesting that we validate the inclusion, and provide a 
statement as to the effect on our operations of deferring the three 
USCP facility projects contained in your fiscal year 2005 budget.
Firing Range Design and Construction $12,000,000
    The original partnership with the Federal Law Enforcement Training 
Center (FLETC) on the new training facility in Cheltenham, Maryland 
included 26 agencies. With the creation of Department of Homeland 
Security and subsequent merger with Treasury/FLETC, the facility now 
serves 70 plus agencies but the size of the range has not grown 
proportionally. We continue to work with FLETC regarding issues on 
availability of the facilities as well as funding requirements. We have 
also been working with the Appropriations Committees regarding the 
resolution of the issues. However, the issues remain unresolved. If the 
scheduling requirements for all USCP firearms training and re-
certification can be accommodated by the FLETC, the USCP will not 
require the facility requested by the AOC. However if the facility 
availability issues are not worked out to our satisfaction, the 
construction of a new firing range is critical to the operations of the 
USCP.
Fairchild and GPO Build-Out $12,500,000
    It is our understanding that the AOC only has funding for fit-out 
of one of the four plus floors leased on behalf of the USCP in the 
Fairchild building. Without the $12.5 million, renovations necessary to 
occupy the remaining three floors could not be made. Without occupying 
this space, the USCP cannot relieve exiting overcrowded conditions and 
provide for current growth of personnel and equipment. We therefore 
request that this item remain in your budget.
Off-Site Delivery $6,400,000
    The current off-site delivery facility at P Street S.E. is in 
dilapidated condition. It no longer sufficiently meets the operational 
needs of the Congressional community nor does it address the growing 
security requirements of the Congress. A new facility is critical to 
the operations of the Congress. Given the current real estate market, 
we need to be ready to immediately respond when an acceptable site is 
identified. Therefore, we request that you continue to support this 
funding in fiscal year 2005.
    Thank you for requesting our input in these facility related issues 
that so critically impact our operations. If you have any operational 
questions please do not hesitate to contact Captain Morris, on 224-
4161.
            Very Respectfully,
                                        Terrance W. Gainer,
                                                   Chief of Police.

                    FISCAL YEAR 2004 SPENDING LEVELS

    Mr. Hantman. Our goal, Mr. Chairman, would be to maintain a 
steady state of operations at the same level as fiscal year 
2004, providing essential services, as expected, levels of 
safety and security throughout the Capitol complex. Our new 
capital projects requested by our clients, which are valid and 
important needs, would have to be deferred, if we, in fact, 
were left at the fiscal year 2004 level.
    Senator Campbell. Okay. I interpret that to mean they are 
all high priorities?
    Mr. Hantman. All of them, sir.
    Senator Campbell. I understand that you have unobligated 
funds from last year and prior years. Can we reprogram any of 
those unobligated funds to projects planned for fiscal year 
2005?
    Mr. Hantman. We do have a large balance of unobligated 
funds, as you mentioned. This includes a number of long-term 
projects, some of them being built in phases, some of them 
allocated towards the Power Plant, towards the CVC. But there 
are several parts of that unobligated balance that could be 
reprogrammed and reused, assuming that they would be 
replenished in future years.
    For instance, there is some $63 million to purchase the 
Alternate Computer Facility. If we wanted to continue renting 
for a period of time, that might be a possibility. There is $16 
million in unobligated funds for the National Audio-Visual 
Conservation Center. That is the Government's share of the 
funding that is being provided by the Packard Foundation. If 
that were replenished in a timely way to give that money 
towards that project, that might potentially be used.
    We do have other large unobligated balances for security, 
and for the Cheltenham training facility, all of these issues. 
But there would be things we certainly could talk to for 
possible reprogramming, if, in fact, they were replenished in a 
timely way.
    Senator Campbell. We have given you an awful lot of work to 
do. Should we consider perhaps a 1-year moratorium in on any 
new projects?
    Mr. Hantman. Mr. Chairman, we have effectively, in our 
budget preparation timeframe, pretty well scrubbed--we 
essentially incorporated a moratorium within the AOC for our 
basic projects, already. When our superintendents came to us 
with their requests, we basically said we are going to have--
and I think you referred to it in your comments--about an 18 
percent increase in cost of living, in life-safety projects, 
and the cost of utilities. We have absorbed that within our 
total budget amounts.
    By doing that, by absorbing that 18 percent, we essentially 
already cut back on capital projects that we were trying to 
achieve within our fiscal year 2004 levels. So, we have started 
doing that already, sir. But as you have indicated, we 
certainly do have a very significant workload, and we are 
trying to work through that.

                          CAPITOL POWER PLANT

    Senator Campbell. Okay. Thank you. You also mentioned the 
Capitol Power Plant. Eighty-two million dollars has been 
provided in the last several years for that. What is the status 
of the project? I did not remember hearing if it is on time or 
on budget.
    Mr. Hantman. We are definitely on budget. That project is 
proceeding well. There have been delays. The delays are the 
same issues that we faced on the Visitor Center: weather-
related delays, utility-related delays; about 120 days, to 
account for that.
    But one of the things that we are doing, because the east 
plant--the east refrigeration plant is in such poor shape right 
now and that is, of course, why you have granted us the ability 
to expand the west refrigeration plant and upgrade it, is we 
are taking two 3,000-ton chiller units and putting them 
temporarily in the east refrigeration plant; so that we can, in 
fact, make sure that we meet all the requirements for heating 
and cooling at the Capitol.
    Those two refrigeration units will be moved into the west 
plant as we move ahead. So, the fact that we are behind 
schedule should not impact the operation and supply of 
utilities to the facilities themselves; and if we want to buy 
back some of that lost time, it would be fairly expensive. So, 
we think that the solution of having these temporary machines 
put into the existing east plant, moving them over is the more 
financially appropriate way to proceed.
    Senator Campbell. Okay. Thank you. Senator Durbin, I will 
yield to you for some questions.

                   CAPITOL VISITOR CENTER MANAGEMENT

    Senator Durbin. Thank you very much, Mr. Hantman. We thank 
you and your staff for being here today, and I want to 
particularly thank Matt Evans, the landscape architect, for his 
cooperation and work with our staff on the Rain Garden project, 
which we talked about last year. They are giving me good 
reports and I thank all of you for your work in that regard.
    I would like to make a statement for the record that there 
have been some suggestions that the Capitol Visitor Center 
needs a new bureaucracy, that we need to create a new office to 
manage the Capitol Visitor Center. I think that is a very bad 
idea. I think the Capitol Visitor Center should be administered 
by your office. There may be a particular element that requires 
someone on your staff to be assigned to that. But to make that 
a separate operation, as someone suggested, I just think adds 
another layer of bureaucracy and confusion that is expensive 
and unnecessary.

                             WORKER SAFETY

    I would like to ask you about a few things that have been 
recurring topics. One was worker safety. Several years ago, the 
reports were not too good in terms of workers' compensation and 
injuries on the job. We brought in some people to give some 
advice on that. What is the status today?
    Mr. Hantman. Senator Durbin, I think with your impetus and 
the help with this committee, we have really addressed that 
tremendously. As you probably recall, we essentially had the 
worst safety record in the Government at that point, something 
like 17.3 percent injury rate per year. We have cut that down 
tremendously with a very active life-safety program going on; 
and every year, we continue to make more progress on that.
    As of now, again, since the year 2000, we have cut down 56 
percent in terms of the injury rates. We are down to 7.9 
percent, which puts us approximately in the middle of Federal 
governmental agencies. Again, given the fact that we are 
largely a blue-collar, shop-oriented organization, that is 
saying an awful lot compared to some of the white-collar 
oriented groups. But I share your concerns. I continue to make 
this a very high priority and make sure that all of our people 
have the right protective gear, and that they have training.
    We are about to initiate a new program, in fact, where we 
have all of our supervisors and front-line people with new 
buttons that they have to put on and wear in the field every 
day to assure that they recognize that safety is one of our 
highest priorities, and that they talk to their people about it 
on a day-to-day basis. So it is very active, a lot of good 
movement, and we still have a ways to go.

                           RECYCLING PROGRAM

    Senator Durbin. On the recycling program, it is my 
understanding that there were 90 offices that were involved in 
the recycling program.
    What are we doing to encourage offices to enroll in the 
recycling program?
    Mr. Hantman. We have a dedicated team, Senator, that goes, 
essentially, to visit every committee as well as every Member's 
office. As you know, this is a voluntary program. We do 
encourage it. We encourage it also by making it as simple as 
possible to recycle.
    One of the recommendations from the outside consultants, 
that we had brought in on this, was the fact that we combine 
the mixed paper and the high-grade paper together so that we do 
not have two separate bins at the desk for people to use. It 
makes it easier for them. Hopefully, the education process we 
are using, that says please do not drop your lunch into the 
recycling bins, because that gives us essentially bales and 
bales of material that cannot be recycled and effectively used.
    We have essentially cut back almost to a zero percent 
rejection by our vendors, because the amount of garbage that 
has gone into these bales has been cut down to such a great 
extent. So, we are making an awful lot of progress on that. 
Again, your support has been critical to that.

                           PROJECT TIMELINES

    Senator Durbin. I did a little research--or my staff did, 
about how long it takes to do things. I asked them, how long 
did it take to build the Dirksen building. It turns out it was 
3 years and 9 months. How long did it take to build the Hart 
Senate Office Building? It turns out it was 6 years and 8 
months, 80 months compared to 45 months. The reason I asked 
that was because I have been watching the progress on the north 
end of the Dirksen building restroom remodeling. I can remember 
the exact day that the remodeling started. It was Halloween. So 
some 6 months ago, we started remodeling the bathroom.
    I remembered what happened on the south end. It seemed like 
1 year. Was it?
    Mr. Hantman. I would have to check on the timeframe, 
Senator.
    Senator Durbin. Who monitors that, to make certain that 
things are actually being done each day, and that they are on 
schedule.
    Mr. Hantman. Our superintendent of the Senate office 
buildings and his staff monitor those projects internally. I 
will check immediately on what the issues are on that specific 
area.
    Senator Durbin. Could I suggest that the Architect put up a 
sign where they announce that the restroom was closed, 
construction began October 31, 2003, as kind of an incentive to 
maybe complete it? Now, I have had kitchen remodeling and 
things, and I know that it goes on, and on, and on; but it just 
seems like an extraordinarily long time to remodel a bathroom. 
Six months. I know that they are doing it several floors at a 
time but, if you could look into that, I would appreciate that 
very much.
    Mr. Hantman. I absolutely will.
    [The information follows:]

                      Dirksen Bathroom Remodeling

    Question. Why is it taking so long to remodel the bathrooms 
at the North end of the Dirksen building? Is it possible to 
place a sign depicting when work commenced as an incentive for 
completion?
    Answer. The Dirksen Bathroom Renovation is proceeding on 
schedule and on budget. The duration of this project is a 
function of many constraints, specifically, hazardous materials 
abatement, constrained working environment and restricted work 
hours. Hazardous materials abatement requires the construction 
of containment areas to ensure environmental and OSHA 
compliance while limiting specific trades progress. The 
physical size of the space restricts the amount of manpower 
which can safely work at any one time thus extending the 
critical path of the project. Finally while working in an 
occupied building a significant number of activities are 
limited to night work to minimize disruption to the clients.
    As of April 19, 2004, the Senate Superintendents Office 
replaced the existing signs with signs that included the 
project start date and completion date.

                   SENATOR OFFICE BUILDING ENTRANCES

    Senator Durbin. Let me ask you about the entrance ways. You 
made reference to them. There are times when employees come to 
work or there are large groups of visitors, when people are 
standing outside, waiting to get in to go through security, 
sometimes in bad weather. Are there any design changes that you 
are considering to accommodate that possibility, where people 
might be out in the rain, or the snow, or cold weather, or 
heat, that are visiting our buildings?
    Mr. Hantman. We do have a plan at the Russell Senate Office 
Building on Delaware Avenue, just to the north of the major 
steps entering that building. We have a project in place to 
build a larger vestibule outside the face of that building, 
where people can be screened outside of the structural 
framework of the building itself, so if an incident does occur, 
it will be less damaging to the building itself.
    This will facilitate the ability of people in a very tight 
entrance to be able to come in and back up a bit. That would be 
the major entrance for ADA, as well as a security perspective.
    Senator Durbin. And that is for the other buildings, Hart, 
Dirksen?
    Mr. Hantman. The first--this was the first pilot project. 
We wanted to do this first. We were looking at the possibility 
of doing Dirksen on the D Street side, as well as taking a 
look--Hart already has the canopy out on the Second Street 
side. But Dirksen would be the next.

                          CVC COST TO COMPLETE

    Senator Durbin. With regard to the Capitol Visitor Center, 
do you believe the current estimated cost of completion, $351.3 
million, is accurate?
    Mr. Hantman. These are the dollars that we have had come 
up. As you know, the original project budget was $265 million. 
We had $38 million added, after the 9/11 timeframe, and some 
$48 million added to the project as the result of the General 
Accounting Office's analysis of the project to complete.
    We believe that--we are working very diligently towards 
making sure that we can work within these budget guidelines. We 
are at a very delicate point in the project, Senator, which 
says that our second major contractor, which is Manhattan 
Corporation, is just about to come on-site. The integration of 
the 3,000 elements that have to be integrated between our 
first-phase contractor and our second-phase contractor are 
still being worked out in terms of their overall scheduling.
    If we can get them together most effectively, and that is 
one of the reasons we brought on Bob Hixon as our executive on 
the project. People in the field need to coordinate this most 
effectively. It is a very tight budget and we are working very 
effectively towards trying to mitigate any claims and issues 
that the contractors may have, and we will have a better handle 
on that in the next several months.

                         CVC PROJECT MANAGEMENT

    Senator Durbin. When did you decide you needed a new person 
to manage the CVC project?
    Mr. Hantman. There were a series of issues, Senator. One of 
the issues certainly was the fact that because of the weather-
related delays, and the other site surprises that our sequence 
one contractor had, it became evident that we were going to 
have to have our sequence two contractor work side by side with 
them, as opposed to turning over the work at one point in time 
for the second firm to start.
    When it became very clear that the integration of all of 
this work in the field would become even more critical, we 
recognized that further field support would be necessary. In 
fact, we asked Gilbane to bring on people who were less 
administrative but more field-oriented, so that we could 
coordinate the work.

                         RESTAURANT OPERATIONS

    Senator Durbin. Are you under any timetable or plan to 
privatize any of the restaurants in the Capitol complex?
    Mr. Hantman. We have no plan to do that.
    [The information follows:]

                           Senate Restaurants

    In reference to my statement regarding privatization of the 
Senate restaurants I would like to clarify my response. My 
original response of ``no'' is correct, although ongoing 
deliberations with the Capitol Preservation Commission about 
dining facility operations in the Capitol Visitor Center has 
raised the issue of privatization. In fact, the consultants 
reviewing the proposed operations for the CVC have recommended 
privatization of the dining facilities to the Capitol 
Preservation Commission. In the context of a new contract for 
food service operations there have also been discussions of 
including options for potential inclusion of both the existing 
Senate and House Restaurants. If this decision is made in the 
future, I anticipate that it would include provisions for 
current restaurant employees.

                              RETAIL SALES

    Senator Durbin. Can you tell me if there has been any idea 
of starting a retail sales operation at the Botanic Garden?
    Mr. Hantman. We have been looking for some kind of 
authority to do that from the Joint Committee on the Library. 
As you know, the Botanic Garden, for purposes of security, was 
made part of the Capitol grounds, for the first time in the 
last year or so. We think that having a sales facility in the 
Botanic Garden makes an awful lot of sense. We do not have the 
authority to accept funds, to augment our income through such 
facilities but we would like to have that, pretty much as the 
Library of Congress has.
    Senator Durbin. I understand that there may be some gift 
shops in the Capitol Visitor Center. Is that correct?
    Mr. Hantman. There will be gift shops. In fact, the 
committee that Ms. Reynolds referred to before, the Capitol 
Preservation Commission, is looking at how that will be 
operated, who will operate the gift shop, what kind of 
organizational structure, that you referred to, would be put in 
place to manage it. That has not been settled yet.

                              CVC EXHIBITS

    Senator Durbin. One of the other things that I have talked 
to a number of Members about, and there seems to be interest 
in, is perhaps in the Capitol Visitor Center, creating a new 
opportunity for the States to honor some person. Statuary Hall, 
with the two statues from most States, generally date to heroes 
and heroines of a long time ago. There are some notable 
exceptions to what I just said. But in my State's case, it goes 
back to quite a few years. I was wondering if we could work 
with you to try to set up the situation where it might not 
involve a statue or plaque, where States could, again, at their 
own expense, honor a more contemporary person from each State 
in that new Capitol Visitor Center.
    Mr. Hantman. I would be more than happy to work on that 
with you, Senator, and your staff. One of the things we have 
been looking at, by the way, is, as you are aware, there is a 
great hall, a major space in the Capitol Visitor Center. We 
have been talking at the Capitol Preservation Commission 
meetings about the possibility of moving some existing statues 
from the Capitol Building into the Visitor Center, to give it a 
sense of scale, a sense of tradition, to tie it into the 
Capitol Building itself.
    As you are aware, for the first time in the history of the 
Capitol, one of the States recalled a statue of one of their 
people. This was Kansas. They recalled Governor Glick and put 
in a statue of General Eisenhower, which now stands in our 
Capitol Rotunda. We have been getting several other suggestions 
from states and indications that they want to recall statues, 
and bring in Amelia Earhart, or other people, from their States 
that might, in fact, give us a better sense of the diversity 
and history that our country has.
    So, we do have room in the Capitol Visitor Center for 
statues; and clearly, some of them are not very well displayed 
in the Capitol Building at this point in time. They are kind of 
tucked into corners and not paid the kind of respect that 
they----
    Senator Durbin. Well, there is some talk in Illinois about 
Michael Jordan, but I do not know if that would be the honoree.
    I will just wait and see. I will let somebody else make 
that decision.

                             CAPITOL FENCE

    The last thing I would like to weigh in on is the great 
fence around the Capitol, like the Great Wall of China. Can you 
tell me where you stand on the great fence proposal?
    Mr. Hantman. Well, clearly, I sat here, Senator, last week, 
along with the Capitol Police Board and Chief Gainer on that. I 
think that both of you gentlemen spoke eloquently to the need 
to balance security and openness. It is not an easy question.
    The Capitol Police Board has certainly given the freedom, 
and the police should be taking the freedom, to bring 
recommendations and concerns to the police board and take a 
look at all the options that are on the table. That is, in 
effect, what the Chief was doing.
    There has been no formal movement on that. It has been an 
issue that has been on the table, as you know, for a generation 
at this point in time. So, we continue to look at all the 
alternatives that the Chief presents to us and try to determine 
what needs to be recommended to the Congress. But no official 
movement has been made on that.
    Senator Durbin. My concern is then, and I share the 
feelings of the chairman, that I just do not think that this 
ought to be something that we push forward unless we are shown 
that it is absolutely the only alternative. But it seems like 
the belt-and-suspenders approach, having put in all these 
bollards to deal with traffic, and then to establish a 
perimeter fence, and keep traffic away from the bollards. I am 
not quite sure what the thinking is there. But I will keep an 
open mind, because we want everyone to be safe in the Capitol 
complex; but from an aesthetic viewpoint, I think it would be a 
disaster.
    Thank you for your testimony.

                            SENATE RECYCLING

    Mr. Hantman. My staff just slipped me a note, sir, and it 
indicates that the Senate Appropriations Committee does 
recycle. I will be happy to provide you with additional 
information on that.
    [The information follows:]

                               Recycling

    Question. Does the Senate Appropriations Committee 
participate in the recycling program?
    Answer. The Appropriations Committee was provided with 
recycling bins, instruction and training to implement the new 
combined paper recycling program on March 12, 2004 and they are 
currently participating in the program.

                           CLOSING STATEMENT

    Senator Campbell. Mr. Hantman, I have several other 
questions I am going to submit in writing, if you would get the 
answers back to the committee. I have one that is not really an 
important question but just to settle it in my own mind, if you 
would. You talked about the fire alarms in your testimony, new 
fire alarms being put in the building some years ago. I have 
been in the same office for the last 12 years, over in the 
beautiful older building, the Russell. I love it over there. I 
never wanted to move from there, in fact. I have one of those 
old offices that has a fireplace, and there have been logs in 
that fireplace for 12 years, and I have been dying to light 
them up. Do those things work?
    Mr. Hantman. There is always a balance, Mr. Chairman, 
between the need for fire security and in fact, as you are 
probably aware, there have been an awful lot of requests in the 
Capitol Building itself for activating fireplaces, which 
sometimes have had ducts run through them, or wiring run 
through them over the past number of years. We kind of look at 
that as a one-on-one type of situation. Clearly fireplaces, 
especially when you have alarm systems in the building, are not 
wonderful.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. No, not a good thing. Okay. I guess I 
will have to leave the Senate then never having been able to 
use that fireplace. But I will have to live with that.
    [The following questions were not asked at the hearing, but 
were submitted to the Architect for response subsequent to the 
hearing:]
         Questions Submitted by Senator Ben Nighthorse Campbell
                         capitol visitor center
    Question. What is the status of the Capitol Visitor Center?
    Answer. Overall, Sequence 1 is approximately 60 percent complete 
and Sequence 2 is underway--with 10 percent of the value of their 
fabrication work underway--largely of stone.
    Significant progress has been made throughout the CVC site. 
Specifically, the roof deck now covers the entire western half of the 
project area and most of it has been waterproofed. Crews have begun 
placing the topping slab on the north side of the site and we will 
begin setting granite pavers on the deck in May.
    Our project team continues to integrate the schedules of Sequence 1 
and Sequence 2 contractors and we are reconciling a number of issues. 
Gilbane has added resources in the areas of management, change 
resolution, scope-gap identification and engineering support. As a 
result of these partnering efforts, we have seen tangible progress and 
results.
    Most importantly, we are on track to meet the requirements to 
support the inauguration in January 2005 and to complete and open the 
Visitor Center in spring 2006. The overall base project budget stands 
at $351.3 million. This amount includes the $265 million appropriated 
for the core CVC space and the shell for House and Senate expansion 
space; $38.5 million for additional security enhancements funded after 
September 11, 2001; and $47.8 million to accommodate higher than 
expected bids, additional changes in scope and design due to unforeseen 
site conditions and weather impacts, and the management and 
construction costs associated with the scope and design changes, as 
well as contingency funds. Additionally, $70 million has been 
appropriated for the build-out of the House and Senate expansion 
spaces. An issue we are currently working through is the significant 
increase in steel prices which might impact portions of the work that 
have not yet been procured.
    Question. What are the most significant problems you have 
experienced in this project to date?
    Answer. Any project that requires a massive excavation has the 
potential to encounter unforeseen conditions, and our project, has been 
no exception. During our preconstruction effort, before actual site 
excavation began, we encountered many difficulties during our utility 
relocation effort. Every utility line running through our project 
footprint had to be relocated and, more often than not, the drawings 
that were available to us, some dating back to the early 1900s, were 
inaccurate and unreliable. The utility relocation effort took months 
longer than expected.
    Another significant problem arose after the events of September 11, 
which prompted a full project design review. While the general layout 
of the facility did not change, we were required to provide for more 
robust mechanical systems, which in turn, required some structural 
changes. Increased on-site security also made delivery of materials 
more challenging.
    Most problematic was that at the height of our excavation process 
in January 2003, we endured the second wettest year on record for this 
region. It is very difficult to move heavy equipment in the mud, it is 
difficult to excavate, and the material becomes undesirable as backfill 
at other project sites. Further, crews cannot erect steel in the rain 
and they cannot weld, so structural work was also hampered. On top of 
the persistent wet weather, we lost several days due to heavy snowfall 
and several more days preparing, and then restoring the site, after 
Hurricane Isabel.
    Finally, we also experienced unforeseen conditions during the main 
excavation of the site. One example is the discovery of an old well 
approximately 40 feet below the original House wing, directly in the 
path of our perimeter wall. To clear the path for our perimeter wall, 
the large stones around the well had to be crushed and removed and a 
stable base for our perimeter wall had to be established. In short, 
what should have taken one week to place three perimeter wall panels in 
that location took close to eight weeks.
    Question. What are the biggest challenges ahead of you?
    Answer. Our most significant challenge is coordination between the 
Sequence 1 and Sequence 2 contractors. There remain more than 3,000 
project line items to be accomplished between the two contractors and 
these activities need to be closely coordinated and sequenced so that 
work can be accomplished efficiently and expeditiously.
    Also, there is still a potential for unforeseen site conditions 
related to excavation of the Library of Congress tunnel and our main 
utility tunnel down East Capitol Street, which could result in schedule 
delays. Other unknowns related to changes in scope, changes in the 
security environment (such as those that occurred after September 11), 
severe weather conditions, or other external factors could present 
further challenges.
    Question. Are you confident you will be able to complete the 
project within the funds appropriated to date?
    Answer. The CVC budget is very tight, but barring any significant 
unexpected site conditions, scope changes, or other unknown issues, we 
will continue to work diligently to stay within the available funding. 
Once the Sequence 2 contractor begins working on the site, this will be 
much easier to gauge. Until now, most Sequence 2 work has been 
preparatory in nature as the contractor waits for space to be turned 
over by the Sequence 1 contractor.
    Question. The western half of the plaza is to be sufficiently 
complete to support 2005 inaugural activities. Are you confident you 
will meet this critical milestone?
    Answer. Yes. The western half of the plaza from the large skylights 
to the face of the Capitol, from the House Steps to the Senate Steps, 
will have a completed roof deck covered by granite pavers. This portion 
of the plaza will be able to accommodate pedestrian and vehicular 
traffic, including the presidential motorcade, and if necessary, 
support the landing of Marine One. Presently, we are placing the top 
slab on the plaza on the north side of the roof deck and we expect to 
see stone masons placing the first of 200,000 granite paving stones in 
May.
    Since last year, the CVC project team has had discussions with 
Capitol Preservation Commission staff and senior staff of the Senate 
Rule Committee regarding the requirements and expectations for the 
January 2005 Inauguration ceremony.
    Question. You have recently changed the management team of the CVC. 
Can you explain how the new team will change the way the project is 
managed?
    Answer. I would characterize the recent personnel changes, in 
particular, the additions of Messrs. Bob Hixon and Gary Lee from GSA to 
the AOC, as well as the addition of a new construction manager by 
Gilbane, not so much as a change in management approach, but more as a 
strengthening of the management team with greater ``in-the-field'' 
experience, made necessary by the intensive coordination efforts that 
are required to closely integrate the Sequence 1 and Sequence 2 
activity schedules.
    Bob Hixon has provided knowledgeable advice and assistance to me 
informally for several years while GSA has been actively working with 
the AOC on the procurement side of the CVC project. As Director of the 
Center for Construction and Project Management at GSA, Mr. Hixon has 
been responsible for GSA's Construction Excellence Program, bringing 
the highest possible standards of construction management to a 
portfolio of more than 160 projects worth more than $5 billion. Mr. 
Hixon joined the AOC effective March 7, 2004, and has assumed 
responsibility for the project. He has begun conducting an in-progress 
review of the construction management of the CVC, including 
recommending changes and best practices to be followed in the 
construction management area involving both the Sequence 1 and 2 
contracts.
    Question. You have requested 51 CVC-related staff in your budget 
request. Are all of these staff really needed in fiscal year 2005 if 
the facility will not open until 2006? Will any of the 16 FTE 
authorized for the current year be utilized?
    Answer. Many options related to the startup of the operations of 
the CVC are still being considered. These numbers are based on the best 
information available provided by the J.M. Zell Company, the operations 
startup contractor, working with the Capitol Preservation Commission. 
Once the decision regarding how and by whom the CVC will be operated, 
some refinements may be appropriate. The Capitol Preservation 
Commission requested that, in the interim, we submit this request in 
our budget.
    Ten of eleven currently authorized FTEs are working on project 
management and other directly related tasks for the CVC and one 
position is currently vacant. The remaining 5 FTEs are not being 
utilized in the current year. We have requested that the funding to 
support these FTEs be reprogrammed to fund other activities within the 
project.
                        capital improvement plan
    Question. Several years ago this Committee directed AOC to develop 
a master plan for the Capitol complex as the existing master plan is 
nearly 25 years old. What is the status of the master plan? What is 
your Capital Improvement Plan and how does it relate to the Master 
Plan? What are the most significant construction requirements we can 
expect will emerge from this planning process? Do you have any estimate 
of how much funding might be required for maintenance and repair 
projects over the next 5 years?
    Answer. In the fiscal year 2004 budget, $4.2 million was 
appropriated for the development of the Capitol Complex Master Plan. We 
have narrowed the list of prospective architectural engineering firms 
to four, and have conducted extensive interviews with these firms. A 
final selection is expected to be made in May, after which we will 
undertake a negotiation with that firm. Contract award and project 
kick-off are scheduled for July. The draft Master Plan will be ready 
for review by the Committees in 2006.
    The Capitol Complex Master Plan provides the umbrella provisions 
and guidance under which all project planning and land use will occur 
over the next 20 years, and therefore is a critical prerequisite to a 
fully functional Capital Improvements Plan (CIP). The Master Plan will 
identify major capital projects that are needed whereas our ongoing 
Condition Assessments focus exclusively on projects needed to maintain 
our existing facilities and include smaller projects falling below the 
Line Item Construction Program (LICP) threshold (currently $250,000). 
Together, they will be the basis for our future CIPs.
    The CIP describes how the Master Plan can be implemented through a 
series of achievable planning and programming steps. It presents an 
achievable Capital Plan by identifying the projects necessary to 
satisfy the goals and objectives of the Master Plan. The CIP implements 
the Master Plan in that all known and valid projects are evaluated 
against established criteria in the following five categories: Safety, 
[Physical] Security, Preservation, Impact on Mission, and Economics 
(Cost payback, savings). The inclusion of projects in future CIPs will 
be based on a more detailed development and analysis of projects' 
requirements, identification of prerequisites, development of 
appropriate sequencing, and establishment of priorities. This will be a 
principal basis for assignment of projects to a specific fiscal year 
LICP. As the Master Plan and the condition assessment are completed, 
subsequent CIPs are likely to reflect some changes in project 
identification.
    We are still in the process of developing our CIP. Until such time 
as our condition assessment and Capitol Complex Master Plan are 
completed, we will not be able to give the Committee a total list of 
projects nor a cost associated with these projects. However, based on 
the current draft CIP, the Dome restoration project, additional 
elevator modernization, the Fairchild and GPO build-out, high voltage 
switchgear, logistics warehouse facility, campus-wide roof repairs, and 
the Library's storage modules at Fort Meade and the Copyright Deposit 
Facility are among the list of significant construction projects for 
the next five years.
                         condition assessments
    Question. AOC planned to award building condition assessment (BCAs) 
contracts to assess the House and Senate Office buildings and the 
Capitol in 2003. Since these BCAs are an integral part of the Capitol 
Hill master plan (expected to be issued in April 2006), what is the 
current status of these BCA efforts?
    Answer. The Building Condition Assessment (BCA) contract for the 
Capitol, House and Senate Office Buildings was awarded on February 26, 
2004. BCAs are planned for other jurisdictions as well. The AOC will 
begin receiving information from the current BCAs in July 2004--in time 
to potentially include projects in the fiscal year 2006 LICP, if an 
urgent undertaking is needed. If not urgent, identified projects will 
be included in subsequent fiscal year LICPs, as appropriate. Completion 
of the BCAs for the House and Senate is scheduled for September 2004. 
Upon review, BCA information will be available to the Congress soon 
thereafter. The timing of the BCAs is such that they will appropriately 
feed into the Capitol Complex Master Plan.
                           project management
    Question. One of the major areas cited by the General Accounting 
Office as needing improvement within the AOC in its 2003 management 
review was project management. How is project management being handled 
differently today in an effort to deliver projects on time and within 
budget?
    Answer. Project management has instituted significant positive 
changes in the last year. These changes include: strengthening and 
modifying the perimeter security project team to increase its 
effectiveness; establishing project priorities; developing a simplified 
project summary reporting method that continues to be refined to assure 
it provides required information in a concise manner; conducting a 
workload analysis; holding staff meetings and monthly Planning, 
Coordination and Scheduling (PS&C) meetings to discuss relevant project 
issues and encourage teamwork. In addition, there has been an increased 
emphasis on use of established procedures, such as best practices. The 
roles of the Contractor Officer Technical Representative (COTR) and 
their interaction with project managers have been clarified, and there 
is greater cooperation between the Procurement, Architecture, 
Engineering and Construction Divisions due to increased management 
oversight. We have determined core competencies for project managers 
and we have developed contract modification management procedures.
                            customer service
    Question. AOC has identified improving customer service as an 
important goal. What strategies are being developed to become more 
responsive to customer complaints and improve building conditions and 
cleanliness?
    Answer. The Senate Superintendent's Office is implementing a number 
of initiatives to proactively address customer complaints and improve 
customer service. In the past year, we have initiated meetings with all 
Senate office managers and Committee chief clerks to provide 
information on the services provided by the Superintendents Office, 
project status, and points of contact for programs such as ergonomics 
and ADA issues, as well as personally address and resolve specific 
issues with clients. This effort has proved successful as the Senate 
Superintendents Office realized an 11 percent increase in pro-activity 
as seen in the annual Buildings Services Customer Satisfaction Survey.
    In addition, we have initiated our Annual Business Planning effort 
with a focus on client service, performance management, and bench 
marking. Through execution of the business plan our responsiveness 
rating increased 8 percent. While these initiatives have been 
productive, we continue to strive to improve our responsiveness to 
clients' needs. Current initiatives include the implementation of the 
Senate Superintendent's web site which provides a direct link to the 
Superintendent's Office, instant feedback on work order status, an on-
line furniture catalog, building information alerts, and project status 
updates. Client surveys will be generated automatically and sent to 
clients upon completion of a work order to obtain instant feedback 
regarding quality and timeliness of service. This survey data will be 
analyzed and action plans developed to address common themes and bridge 
gaps in service.
    With regard to building cleanliness, the annual Buildings Services 
Customer Satisfaction Survey indicated a 13 percent increase in 
satisfaction with the cleanliness of Member suites. This is a direct 
result of the implementation of the quality assurance program which 
requires custodial staff to follow comprehensive cleaning checklists, 
integrates management quality inspections, and establishes clear lines 
of accountability. This year the program has been expanded to include 
the public restrooms and integrated into a performance based contract 
for cleaning and policing of public areas and restrooms. We also have 
intensified our focus on daily inspections of public areas and 
restrooms. Through this inspection process we quickly assign the 
resources necessary to address building ``hot spots.'' The Senate 
Superintendent's Office is currently analyzing the floor care program 
and researching best practices and modern equipment to provide world 
class maintenance for the various floor surfaces in the Senate Office 
Buildings.
    With regard to building conditions, the recent award of the 
Facility Conditions Assessment contract will provide a comprehensive 
assessment of the condition of buildings structures and systems, a 10-
year prioritized plan to address deficiencies, and a complete inventory 
and bar coding of systems to complete our current Preventative 
Maintenance initiative. Use of this information will ensure the 
strategic care of the facilities and world class preventative 
maintenance resulting in improved building conditions and performance.
    Concurrent with our improvement initiatives, we are promoting a 
culture of customer service within our workforce through the use of 
implementation tools, best practices, accountability, and employee 
recognition.
                        management improvements
    Question. In order to improve management of the agency, the fiscal 
year 2003 legislative branch bill language was included establishing a 
Chief Operating Officer position, and requiring the development of a 
strategic plan. Now that AOC's strategic plan has been finalized by the 
agency's Chief Operating Officer and he has submitted an action plan as 
mandated, what changes can we expect to see in AOC's management 
approach and priorities? What milestones have been established to help 
the COO and AOC track progress in the development of its strategic 
management and accountability framework?
    Answer. The AOC is following the actions identified and published 
in its Annual Performance Plan and the COO Action Plan as the 
foundation for its organizational business priorities. Specific 
milestones are published as a part of the Annual Performance Plan and 
the COO Action Plan.
    The Strategic Plan is linked to more detailed, functional planning 
through the AOC Performance Plan. The Performance Plan outlines the 
specific actions and milestones planned to achieve our goals. In order 
to track progress implementing AOC's strategic initiatives, the COO has 
instituted a monthly management reporting requirement. To ensure that 
the Strategic Plan is a living document, the Senior Leadership Team 
uses the monthly reports to continually assess the Agency's strategic 
priorities and make adjustments as needed. The Architect, COO, and the 
Senior Leadership Team hosted its first quarterly management review of 
AOC's newly-published Strategic and Performance plans with the Agency's 
Management Council.
    Question. Performance measures are also important to help an agency 
manage its progress in achieving its goals, what is the status of the 
development of AOC's specific performance measures and how are they 
being used to manage the agency? Some areas that AOC designated in its 
strategic plan as performance measures to be developed are: client 
satisfaction, employee satisfaction, on-time projects, on-budget 
projects, project quality, facility maintenance, asset preservation, 
employee safety, clean audit, recycling, budget execution.
    Answer. While many of the jurisdictions track measures that are 
specific to their daily work, AOC does not currently have an Agency-
wide approach to collecting and analyzing this data as it relates to 
the Strategic Plan. Over the course of the year, AOC will be developing 
a process for cascading the high-level measures identified in the 
Strategic Plan down and across the organization. Once that work is 
completed, AOC will develop a systematic approach to tracking results 
using the measures.
    Since 2002, the AOC has conducted an annual Building Services 
Customer Satisfaction Survey among occupants of the Capitol, the House 
and Senate Office buildings, and the Library of Congress buildings. 
Last year occupants of the U.S. Capitol Police Headquarters were also 
invited to participate. This year the scope will be expanded to include 
Supreme Court building occupants. Respondents are asked to indicate 
their satisfaction level regarding 61 areas that cover services 
provided by the AOC that range from the effectiveness of the Office of 
the Superintendent to the maintenance of sidewalks. Questionnaires are 
tailored to each jurisdiction so customers are asked only about 
services relevant to them. AOC jurisdictions integrate customer input 
in the annual business plans and use survey results to draw specific 
action plans. For 2004, the survey period is June 1-20.
    Jurisdictions have been implementing a web-based on-going customer 
satisfaction survey to assess customers' satisfaction with the on-
demand work order process, from task request to work completion. This 
effort is now being implemented in the House and Senate jurisdictions. 
Other jurisdictions will follow as they establish websites.
    The AOC is assessing the satisfaction of its internal customers 
with provided services through focused surveys. The Architecture, 
Engineering, and Project Management Divisions and the Safety, Fire, and 
Environmental Programs Office have surveyed their internal customers, 
and are taking actions based on the results. The Human Resources 
Management Division will issue its survey next summer. Other AOC 
organizations will join this effort in a coordinated manner to ensure 
that action plans are drawn to respond to internal customers' input. We 
also will be conducting an AOC-wide employee focus group survey later 
this year.
    Question. In his action plan, the Chief Operating Officer (COO) 
states that he has established a Senior Leadership Team to help lead 
AOC's transformation and he also envisions a flatter organizational 
structure to facilitate decision making in a more timely manner. What 
have been the results of this new structure?
    Answer. A new organizational structure was proposed for Committee 
review as part of our fiscal year 2005 budget submission. We have been 
piloting the new structure and find it has streamlined decision making 
and more clearly delineates Senior Leadership lines of authority and 
responsibility. Unless directed otherwise, with the approval of the 
fiscal year 2005 budget, we will implement an organizational structure 
that will assist us in clarifying lines of supervision and 
communication throughout the AOC.
    Question. One of the Architect's and COO's priorities is improving 
communication with employees and stakeholders. What efforts are being 
made to communicate agency progress and project status with 
stakeholders? What is being done to obtain input from employees? How 
will this information be used to help better manage the agency?
    Answer. The Architect and the COO have been holding periodic 
meetings with stakeholders and have been meeting with employees as part 
of their daily business meetings or at special functions within the 
jurisdictions. We also have a number of employee workgroups and 
committees that provide program and operational information and input 
to Agency management. In addition, we are planning to complete an AOC 
employee survey later this year. The input from these sources assists 
management in the evaluation of Agency policies, programs, priorities 
and overall business operations. Employees also make valuable 
suggestions for changes/improvements in business processes and delivery 
of services.
    The AOC recognizes that communication is a powerful tool to affect 
change, educate, and empower employees by helping to deploy AOC's 
strategic goals throughout the organization.
    To effectively reach our audiences and develop the Agency's 
message, we have crafted a Communications Plan to establish regular 
processes, forums, and mechanisms for employee communication, which are 
aligned with efforts to obtain and respond to employee feedback and 
other outreach efforts to external audiences.
    Through the publication of the employee newsletter, ``Shop Talk'', 
and distribution of the electronic newsletter, ``AOC This Week'', and 
postings on the AOC Intranet site, messages are frequently communicated 
with employees regarding project status, program and policies changes, 
and safety messages.
    AOC uses a variety of creative vehicles to communicate internally 
since our employees work different shifts in many buildings across the 
Capitol complex, and not everyone has ready access to electronic tools 
such as e-mail and voicemail.
    Part of the communication loop is to receive feedback from 
employees. We are doing so by the use of surveys, town meetings, and 
focus groups regarding specific areas. For example, in January we 
conducted an Agency-wide survey asking employees about their 
perceptions, opinions, and attitudes about safety. The response rate to 
the survey was 62 percent when typically these surveys receive a 30 
percent response rate.
    This input is used to develop and enhance our safety communications 
efforts, identify deficiencies in training, and establish programs to 
reward employees for jobs well done.
    Externally, the AOC is stepping up efforts to communicate with 
Members of Congress, their staffs, community leaders, and visitors 
through a variety of vehicles. The strategy for communicating with 
these audiences involves the use of personal mailings; reports; 
briefings; testimony; press releases; stakeholder surveys, and 
meetings. In addition, a quarterly newsletter from the Architect to 
Members of Congress reporting on major projects has been developed.
    Methods for communicating with other external audiences such as the 
visiting public; dignitaries; Capitol Hill community; Federal 
government agencies; architects and engineers; historians; vendors; and 
the media include: postings/stories on the AOC Internet site--
www.AOC.gov; public meetings; press releases; media interviews; news 
stories; speeches; Capitol seminars; targeted mailings; scholarly 
articles; trade shows; and small meetings.
    Question. Please describe the significant accomplishments to date 
completed as a result of AOC's three financial management action plans. 
What is the status of AOC's first financial statement audit? How is AOC 
leveraging the financial statement preparation and audit processes to 
improve financial control and accountability?
    Answer. We made significant strides in meeting each of our 
strategic financial management objectives. For example, we established 
an Audit Committee; we produced our first financial statements and 
initiated a Congressionally-mandated financial statement audit; and we 
compiled values for all Capitol Hill real property. We also completed 
our first external reporting via FACTS I and FACTS II; developed 
written accounting policies and procedures; improved our major 
consumable inventory process and measurement techniques; and 
streamlined critical accounting functions.
    According to John Webster, CFO of the Library of Congress (LOC) and 
an AOC Audit Committee member, the AOC accomplished in two years 
achievements that took the LOC seven years to accomplish.
    In 2003, we accomplished the following:
  --Drafted and implemented the Audit Committee charter and recruited 
        highly-qualified and respected independent Audit Committee 
        members.
  --Within two years of establishing an integrated trial balance, we 
        produced full sets of comparative, OMB-compliant, financial 
        statements and instituted year-end procedures to record all 
        adjustments and accruals and closed within 10 days of the end 
        of fiscal year 2003.
  --Wrote the Statement of Work and performed all necessary 
        administrative functions to award a five-year audit contract of 
        our first financial statement audit of AOC balance sheets.
  --Researched and resolved issue regarding ownership of Capitol Hill 
        real property and directed massive effort to properly identify, 
        classify, and value all AOC land, buildings, software, 
        construction work-in-progress, and personal property.
  --Implemented fixed asset module by converting all manual property 
        records into electronic asset tracking records and reconciling 
        to manual data and developed written policies and procedures 
        for capitalization of assets and construction work-in-progress.
  --Produced comprehensive written accounting policies and procedures 
        for the first time and devised new accounting procedures to 
        accommodate MIPR imputed funding and various reimbursable 
        projects in accordance with appropriations law.
  --Managed a major effort to resolve long-outstanding Fund Balance 
        with Treasury issues. The un-reconciled balance is now zero. We 
        also installed new processes for accurately measuring and 
        reporting liabilities on the AOC balance sheet never previously 
        considered.
  --Completed 18 months of negotiations with OMB and Treasury regarding 
        proper accounting treatment for the Thurgood Marshall Federal 
        Judiciary Building and also obtained Auditor concurrence of the 
        transactions and valuation.
  --Communicated regularly with GAO, GSA, OMB, and Treasury staff to 
        improve AOC processes at every level.
  --Improved the accuracy rate of the AOC inventory from the 2002 rate 
        of 54 percent to 83 percent for 2003. This represents a one 
        year improvement of more than 50 percent.
  --During fiscal year 2003, no complaints were received, either 
        internally or externally, and on average we processed and paid 
        more than 1,000 invoices totaling more than $25 million per 
        month, accurately and on time, in support of the AOC's mission.
  --Took decisive action to correct deficiencies in credit card 
        processing and controls.
  --Issued AOC Funds Control Administration Order which establishes 
        procedures to improve internal controls and integrated program 
        planning, budgeting, and financial control processes. It places 
        control of financial resources at appropriate management level 
        and provides for documented Delegation of Authority down 
        through the management chain to operating officials.
  --Produced internal fiscal guidance for budget execution establishing 
        obligation goals.
  --Developed Agency tracking procedures for bill and report directives 
        which establishes responsibility and monitoring, sets timelines 
        for completion, and provides for quarterly status updates.
  --Hired Business Financial Analysts (BFAs) in several jurisdictions 
        to provide hands-on financial direction and guidance in the 
        field, as well as acting as a liaison between the AOC Budget 
        Office and the jurisdiction.
    The AOC is undergoing its first financial audit. We expect to 
conclude the audit by June 30 and receive the auditor's opinion in 
July. This performance tracks with the experience of other agencies 
undergoing their first audit. The accomplishments listed are examples 
of how we leveraged the financial statement preparation and audit 
process to improve financial control and accountability.
    Question. GAO's January 2004 status report on AOC's implementation 
of management review recommendations states that the hiring of the 
first group of financial managers in AOC's various operating 
jurisdictions is underway. What benefits have resulted from these 
increases in staffing?
    Answer. Business Financial Analysts (BFAs) have been hired to 
provide day-to-day financial procedures, support, and advice for 
programs, projects, and activities at the jurisdictional level while 
supporting the Jurisdiction Account Holder's financial objectives. Some 
of the readily identifiable benefits that have resulted and that are in 
process include:
  --Produced a Zero Based Budget Review of Facilities Maintenance and 
        personnel for the Senate and House Office Buildings that was 
        included as a supplement to the fiscal year 2005 Budget 
        Submission to Congress.
  --Working directly with the jurisdiction to develop and streamline 
        procedures using best business practices to meet Agency 
        obligation goals.
  --Provides guidance and advice on fiscal policy, procedures, and 
        regulations to all levels of staff within the jurisdiction.
  --Establishing a method to accurately track and monitor FTEs 
        including Construction Management project labor at the 
        jurisdiction level.
  --Forecasting material and equipment expenditures against current 
        budget amounts.
  --Closing out completed projects funded in prior years and preparing 
        documents to move any remaining available funding.
  --Streamlining day-to-day procurement procedures at the jurisdiction 
        level.
  --Tracking and documenting final invoices in order to monitor 
        unliquidated obligations and deobligate funds that are no 
        longer valid to enable execution of the funding for other 
        purposes within the program as appropriate and within 
        reprogramming guidelines.
  --Provides financial guidance to field personnel entering financial 
        documents in the Financial Management System (FMS).
  --Developed a process in the jurisdiction to track funding 
        reallotments within program groups or activities.
  --Designing a program to track reimbursable collections and spending 
        at the Capitol Power Plant.
  --Comparing historical spending data to current spending to identify 
        trends.
    Question. In its January 2004 status report, GAO indicates that the 
use of interim dates by AOC for monitoring progress on individual 
financial management action items would be beneficial because many 
completion dates are not scheduled until fiscal years 2006 and 2007. 
Has AOC begun to use interim dates for monitoring progress? If so, 
please provide examples.
    Answer. The financial management actions items have been updated to 
incorporate additional interim action items. The current CFO action 
items with status are provided for the record.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               information technology project management
    Question. AOC had identified a software package that would produce 
a unified schedule and show staff resources that would allow it to 
better manage its projects. Has AOC obtained such a capability? If so 
how is it working?
    Answer. This software package has been received from the supplier 
and the workstation components have been loaded on 2 personal 
computers. The preparation of the work ``templates'' is currently being 
developed to tie the software to AOC processes for projects. The vendor 
representatives are scheduled to configure the server portion of the 
software along with assisting us in refining use practices/definitions.
                             worker safety
    Question. Efforts to improve worker safety and create a world class 
occupational health and safety program will require full involvement 
and cooperation from jurisdictions--what steps has AOC taken to solicit 
buy-in from the jurisdictions and to hold jurisdictions accountable for 
their responsibilities in helping to transform AOC's occupational 
health and safety program? Besides injuries and illness rates, what 
other key measures are you using to assess your overall performance in 
moving towards a culture of safety at the AOC?
    Answer. The AOC has involved key jurisdiction personnel in 
developing safety policy requirements, identifying resource 
requirements, and establishing goals and planning documents. In 
addition, ad-hoc working groups comprised of central office safety 
staff and jurisdiction staff have been utilized to examine specific 
issues and develop recommended solutions.
    For each safety policy, a jurisdiction is assigned to serve as 
lead. As a policy is developed, central safety staff and the safety 
specialist from the lead jurisdiction provide input into the policy's 
requirements. The draft policy is then distributed to various central 
and jurisdictional personnel for review; this includes safety 
professionals, management, Jurisdiction Occupational Safety & Health 
Committee (JOSH) representatives, and union representatives. Each 
comment submitted is addressed and documented, with the final draft 
submitted to Senior Policy Committee for review and approval.
    The AOC has also drafted an Occupational Safety & Health Program 
Plan (OSHPP) to guide the Agency through the policy implementation 
process and undertake other safety-related initiatives. The initial 
goals and objectives were developed during a Senior Leadership Safety 
Workshop facilitated by DuPont Safety Resources. This was used as the 
framework for drafting the OSHPP. Further development of the OSHPP 
included a review and input process similar to the one followed for 
policy development.
    Ad-hoc working groups and steering teams have been used to focus on 
specific issues and provide recommendations to management. Some of the 
issues these groups have addressed include: assessing workload impacts 
of implementing and maintaining safety policies, reviewing safety 
training requirements, and developing a safety communications plan.
    Accountability for the jurisdictions begins with a clear 
delineation of responsibilities in each of the safety policies and the 
OSHPP. Software--such as the Facility Management Assistant (FMA) used 
to track safety inspection findings, and the Incident Analysis Module 
(IAM) used to investigate injuries--provides the AOC with tools to 
monitor progress on improving safety and providing feedback on 
performance. For individual employees, the AOC's Performance 
Communication and Evaluation System includes safety as one of the four 
performance evaluation criteria for non-supervisory employees, and as 
one of five criteria for supervisors and managers. In a similar manner, 
performance requirements for exempt personnel are addressed by the 
AOC's Performance Review Plan, which includes safety as one of five 
performance evaluation criteria.
    While injury and illness statistics have served as a key indicator 
of safety performance for the AOC--with our rate dropping from 17.90 in 
fiscal year 2000 to 7.91 in fiscal year 2003--it is not the only 
measurement used. The OSHPP establishes a number of performance 
milestones against which success is measured.
                         information technology
    Question. AOC has developed version 1 of its existing and target 
enterprise architectures and a transition plan to move the agency to 
the target. What steps is AOC taking to ensure that proposed systems 
and systems under development will be aligned with the agency's 
architecture?
    Answer. The AOC/OIRM Business Systems Modernization Office (BSMO) 
has established procedures to ensure that new IT proposals are aligned 
with the AOC's Enterprise Architecture (EA). All proposals for new 
technologies are presented in a business case format to BSMO for review 
and approval. No project can be initiated or funded without approval.
    For projects under development, BSMO periodically reviews them in 
the capacity of the Project Management Board to ensure they remain in 
alignment with the architecture as well as meet project milestones.
    BSMO operates under the guidelines of our Information Technology 
investment management process of which alignment with the EA is a 
critical piece.
    Annual reviews of the architecture are scheduled and releases of 
the baseline EA, target EA and sequencing plan follow such reviews. 
This is another way in which BSMO reviews systems in development and in 
operation and assesses their continued alignment with the AOC's target 
EA.
    Question. AOC contracted for a new information technology system 
life-cycle methodology, due for delivery on January 31, 2004, and 
planned a two-month pilot to refine the methodology for implementation 
as an agency-wide standard by March 31, 2004. Was the methodology 
delivered, and did AOC conduct the planned pilot? Has the methodology 
been implemented as an agency standard, and how many projects are now 
being managed using the new methodology?
    Answer. Systems Development Life Cycle (SDLC) guidelines and 
procedures were delivered on schedule on January 31, 2004. The 
methodology is aligned with the Capability Maturity Model Integrated 
(CMMI) as recommended by GAO in their latest audit findings. The SDLC 
guidelines address configuration management, risk management, 
requirements management, acquisition management, test management, and 
quality assurance throughout the life cycle of a project from inception 
to implementation.
    A pilot was conducted from February 1 to March 31, 2004, with 
projects for facilities management systems, web-based systems, hardware 
acquisitions, and information technology (IT) support systems. The 
guidelines were revised based on lessons learned during this pilot.
    The methodology was implemented on April 1, 2004, and the 
guidelines are now available Agency-wide on the AOC intranet. Quality 
Assurance oversight procedures are being implemented to ensure that 
projects are managed in accordance with these established guidelines. 
These procedures will include audits to determine if proper procedures 
are being used and supporting documentation is present, as well as 
document review, management systems review, systems monitoring, data 
analysis, and participation in the deployment of new and modified 
systems.
    Quality Assurance oversight procedures will determine the number of 
systems that are being managed using the new methodology. At this 
point, few projects other than the 10 that were piloted are currently 
using the methodology due to the brief time it has been available. This 
number is expected to increase over time to include all major projects 
within AOC as the methodology becomes institutionalized.
    Question. AOC's plans include revising its comprehensive 
information technology security plan by June 2004 and then implementing 
the plan's elements. Currently, AOC plans to contract for an 
independent security audit of AOC systems by September 30, 2004. In the 
interim, what steps has AOC taken or does it plan to take to ensure the 
security of the agency's systems is not being compromised?
    Answer. AOC's mission critical systems have already undergone two 
significant Information Technology Security audits. The first 
assessment was performed by a vendor contracted by AOC. They provided a 
``pre-audit'' review to identify conditions within the AOC's 
information systems that would have resulted in findings during future 
compliancy audits. Forty-four findings resulted in the vendor's 
assessment. The vendor's findings were codified and incorporated into a 
risk mitigation plan.
    The second assessment was a financial audit, performed by a vendor 
contracted by the AOC Inspector General. The financial auditors 
reviewed AOC's current security posture to include people, processes, 
and technology, as well as the previous 44 findings. The financial 
audit resulted in 20 additional findings.
    OIRM developed a risk mitigation plan to address the 64 findings 
and any future findings. The 64 findings were incorporated into the 
Chief Information Security Officer's Plans of Action and Milestone 
schedule. The status of the Plans of Action and Milestone schedule is 
monitored by the OIRM Director. On a monthly basis, the Chief 
Information Security Officer and the OIRM Director report on the status 
to the Deputy Chief of Staff and the AOC Inspector General. To date, 93 
percent of the 44 findings from the first assessment have been 
mitigated. Of the 20 findings that resulted from the financial audit, 
50 percent have been mitigated. The Inspector General is seeking 
contractor support to independently verify and validate the work 
already performed to mitigate the 64 findings.
    The AOC is in the process of selecting a vendor for the purpose of 
performing a risk assessment on the applications currently in 
production. Where the previous risk assessments concentrated on IT 
infrastructure, policies, and processes, this third assessment will 
focus on mission critical and mission essential applications and 
databases. Any findings that result from the next round of assessments 
will be incorporated into the Chief Information Security Officer's 
Plans of Action and Milestone program and the mitigation of the 
findings will be tracked accordingly.
    The net effect of the financial audit and the two risk assessments 
will place the AOC in a better position for the upcoming external audit 
in September 2004. It also ensures that the security of the Agency's 
systems are not compromised in the interim. We have a plan in place to 
identify risk and to effectively mitigate those risks in a determined 
and positive direction.

                         CONCLUSION OF HEARINGS

    Senator Campbell. Thank you for your testimony. I 
appreciate your being here.
    Mr. Hantman. Thank you.
    Senator Campbell. With that, the hearing is recessed.
    [Whereupon, at 11:55 a.m., Thursday, April 8, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]












       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Billington, Hon. James H., The Librarian of Congress, Library of 
  Congress.......................................................    47
    Prepared Statement of........................................    51

Campbell, Senator Ben Nighthorse, U.S. Senator From Colorado:
    Opening Statements of......................1, 47, 81, 113, 135, 207
    Questions Submitted by........................28, 36, 109, 128, 226
Campbell, Laura, Associate Librarian for Strategic Initiatives, 
  Library of Congress............................................    47
Cylke, Frank Kurt, Director, National Library Services for the 
  Blind and Physically Handicapped, Library of Congress..........    47
Czerwinski, Stanley J., Controller, General Accounting Office....     1

Dey, Chris, Chief Financial Officer, Office of the Sergeant at 
  Arms and Doorkeeper, U.S. Senate...............................    81
Dodaro, Gene L., Chief Operating Officer, General Accounting 
  Office.........................................................     1
Durbin, Senator Richard J., U.S. Senator From Illinois:
    Prepared Statements of...................................18, 48, 82
    Questions Submitted by......................................76, 130
    Statement....................................................    82

Gainer, Terrance W., Chief, U.S. Capitol Police, Capitol Police 
  Board..........................................................   113
    Prepared Statement of........................................   118
    Statement of.................................................   115
Glovinsky, Gary, Chief Financial Officer, Architect of the 
  Capitol........................................................   207

Hantman, Hon. Alan M., Architect of the Capitol, and Member, 
  Capitol Police Board.........................................113, 207
    Prepared Statement of........................................   209
Harper, Sallyanne, Chief Administrative Officer, General 
  Accounting Office..............................................     1
Hixon, Bob, Project Executive for the Capitol Visitor Center, 
  Architect of the Capitol.......................................   207
Holtz-Eakin, Douglas, Director, Congressional Budget Office......    41
    Prepared Statement of........................................    42

James, Bruce R., Public Printer, Government Printing Office......    31
    Prepared Statement of........................................    32
    Summary Statement of.........................................    31
Jenkins, Jo Ann C., Chief of Staff, Office of the Librarian, 
  Library of Congress............................................    47
Jones, Mary Suit, Assistant Secretary, Office of the Secretary, 
  U.S. Senate....................................................   135

Kennedy, Keith, Deputy Sergeant at Arms, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate............................    81

Levering, Mary, Acting Director, Integrated Support Services, 
  Library of Congress............................................    47
Livingood, W. Wilson, Chairman, Capitol Police Board.............   113
    Prepared Statement of........................................   114
    Statement of.................................................   113
Lopez, Kenneth E., Director of Security, Library of Congress.....    47

Marcum, Deanna, Associate Librarian for Library Services, Library 
  of Congress....................................................    47
McSeveney, Dick, Chief Operating Officer, Architect of the 
  Capitol........................................................   207
Medina, Rubens, Law Librarian, Library of Congress...............    47
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress............................................    47
    Prepared Statement of........................................    60
Murphy, Kathryn B., Budget Officer, Office of the Chief Financial 
  Officer, Library of Congress...................................    47

Nichols, Marc, Inspector General, Government Printing Office.....    31

Peters, Marybeth, Register of Copyrights, Library of Congress....    47
    Prepared Statement of........................................    63
Pickle, Hon. William H., Sergeant at Arms, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate, and Board Member, Capitol 
  Police Board..................................................81, 113
    Prepared Statement of........................................    85
    Summary Statement of.........................................    83
Poole, Amita, Chief of Staff, Architect of the Capitol...........   207

Reynolds, Hon. Emily J., Secretary of the Senate, Office of the 
  Secretary, U.S. Senate.........................................   135
    Opening Statement of.........................................   136
    Prepared Statement of........................................   140
Robinson, Elizabeth, Deputy Director, Congressional Budget Office    41

Scott, Donald L., Deputy Librarian of Congress, Library of 
  Congress.......................................................    47
Shedd, Steve, Chief Financial Officer, Government Printing Office    31
Skvarla, Diane, Curator, Office of the Secretary, U.S. Senate....   135
Stevens, Senator Ted, U.S. Senator From Alaska, Statement of.....    48
Suarez, Hector, Chief Administrative Officer, Architect of the 
  Capitol........................................................   207

Turri, Bill, Deputy Public Printer and Chief Operating Officer, 
  Government Printing Office.....................................    31

Walker, David M., Comptroller General, General Accounting Office.     1
    Opening Remarks of...........................................     2
    Prepared Statement of........................................     3
Webster, John D., Chief Financial Officer, Library of Congress...    47
Wineman, Tim, Financial Clerk, Office of the Secretary, U.S. 
  Senate.........................................................   135












                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page
Additional Committee Questions...................................   226
Capital Improvement Plan.........................................   228
Capitol:
    Building.....................................................   212
    Fence........................................................   225
    Power Plant..................................................   220
    Visitor Center (CVC)..................................208, 212, 226
        Cost to Complete.........................................   223
        Exhibits.................................................   224
        Landscaping..............................................   216
        Management...............................................   220
        Project Management.......................................   223
Condition Assessments............................................   229
Customer Service.................................................   229
Dirksen Bathroom Remodeling......................................   222
Employee Safety..................................................   211
Fiscal Year 2004 Spending Levels.................................   219
Fiscal Year 2005:
    Budget Summary...............................................   207
    Funding Reductions...........................................   216
Human Capital....................................................   214
Information Technology.........................................215, 239
    Project Management...........................................   239
Management Improvements..........................................   230
Project:
    Delivery.....................................................   213
    Descriptions.................................................   210
    Management...................................................   229
    Timelines....................................................   221
Recycling........................................................   225
    Program......................................................   221
Restaurant Operations............................................   223
Retail Sales.....................................................   224
Senate:
    Office Building Improvements.................................   211
    Recycling....................................................   225
    Restaurants................................................215, 224
Senator Office Building Entrances................................   222
Worker Safety..................................................220, 239

                          CAPITOL POLICE BOARD

Additional Committee Questions...................................   128
Budget Freeze....................................................   122
Escape Hood Replacement..........................................   125
Fairchild Building Lease.........................................   123
Fence............................................................   126
Firing Range.....................................................   123
Hiring of Fiscal Year 2004 New Civilian Employees................   123
LOC Police Merger................................................   124
    Meeting......................................................   113
Mounted Horse Unit...............................................   124
Overtime Hours...................................................   122
Recruiting Officers..............................................   127
Security Fence...................................................   121
Staffing Justification...........................................   122
Sworn Personnel Requested........................................   127
Training Hours...................................................   124

                      CONGRESSIONAL BUDGET OFFICE

Increased Productivity...........................................    44
Overview of CBO's Request........................................    41
Program Changes..................................................    44
Retention of Employees...........................................    44
Staffing in Difficult Areas......................................    43

                       GENERAL ACCOUNTING OFFICE

Additional Committee Questions...................................    28
Appendix I: Serving the Congress--GAO's Strategic Plan Framework.    15
Appendix II: GAO Accomplishments That Helped Change Laws, Improve 
  Services, or Promote Sound Management..........................    15
Effect of Funding Freeze.........................................    21
Federal Deficit..................................................    25
Fiscal Year 2003 Performance and Results.........................     4
GAO:
    Fiscal Year 2005 Request to Support the Congress.............    13
    Human Capital Flexibilities..................................    20
    Travel Patterns..............................................    21
Maximizing GAO's Effectiveness, Responsiveness, and Value........    11
Pay-for-Performance..............................................    19
Rating Performance...............................................    19
Return on Investment.............................................    27
Source of Pay-for-Performance....................................    24
Strategic Human Capital Management...............................    19
Student Loan Repayments..........................................    27
Tax Forgiveness of Student Loans.................................    28
Technology Assessment............................................    23
Training GAO Employees...........................................    20

                       GOVERNMENT PRINTING OFFICE

Additional Committee Questions...................................    36
Business-like Operations.........................................    35
Investment Request...............................................    35

                          LIBRARY OF CONGRESS

Acquisition and Preservation of Library Materials................    50
Additional Committee Questions...................................    76
Aging Workforce..................................................    70
Collaboration With the Archives..................................    71
Construction Impact on Security..................................    77
Copyright:
    Deposit Facility.............................................    74
    Office.......................................................    55
Cost Containment Efforts.........................................    61
CRS:
    One-Time Financial Adjustment................................    80
    Science and Technology Capacities............................    78
    Staff Capacity...............................................54, 71
Digital Talking Book Machine.....................................    55
Embassy Construction--Budgetary Impact...........................    75
Fiscal Year 2003:
    Accomplishments..............................................    53
    Highlights in CRS Legislative Support........................    61
Fiscal Year 2005:
    Budget Request...............................................62, 65
    Offsetting Collections Authority Request.....................    67
Flexible:
    Hiring Tools.................................................    50
    Workforce....................................................    71
Fort Meade Projects..............................................    50
Funding Priorities and Challenges................................    69
GAO Review of Open World Leadership Program......................    68
Human Capital....................................................    77
Infrastructure Support...........................................    57
Introduction of the Associate Librarian for Library Services.....    49
Leased Space.....................................................    73
Legislative Initiatives..........................................    58
Library Buildings and Grounds....................................    58
    Budget Request...............................................    73
Mass Deacidification.............................................    55
Meeting Congressional Requirements...............................    63
Meeting Uncontrollable Inflationary Increases for Essential 
  Research Materials.............................................    63
National Audiovisual Conservation Center (NAVCC).................    53
National Film Preservation Program...............................    51
NAVCC--Culpeper..................................................    50
    Donation.....................................................    72
Open World Leadership Program....................................68, 78
Opening Statement of the Librarian...............................    49
Police:
    Force........................................................    77
    Merger.......................................................    50
Preservation of:
    CRS Research Capacity........................................    62
    The Collections..............................................    75
Retail Sales.....................................................    76
Review of Copyright Office Work and Accomplishments..............    64
Security.........................................................    55
Sustaining the Collections.......................................    54
The Library of Congress Today....................................    52
21st Century Library.............................................    52
Veterans History Project.........................................    55

                              U.S. SENATE

                        Office of the Secretary

Acquisition of Artifacts That Once Belonged to the Senate........   200
Administrative Offices...........................................   170
Capitol Visitor Center.........................................142, 202
    Operational Decisions........................................   203
Continuity of Operations and Emergency Preparedness Planning.....   142
COOP and COG Planning............................................   138
Curatorial Advisory Board........................................   201
Curtis Chair.....................................................   138
Financial Management Information System..........................   136
Financial Operations: Disbursing Office..........................   152
Implementing Mandated Systems....................................   141
Legislative:
    Information System...........................................   137
    Offices......................................................   143
Maintaining and Improving Current and Historic Legislative, 
  Financial and Administrative Services..........................   143
Portrait of Margaret Chase smith.................................   138
Presenting the Fiscal Year 2005 Budget Request...................   140
Ricin Incident...................................................   201
Senate:
    Historical Office............................................   138
    Library......................................................   138
    Preservation Fund and Curatorial Advisory Board..............   137
    Student Loan Program.........................................   203
    Web Site.....................................................   201
Succession Planning and Cross-training...........................   139

             Office of the Sergeant at Arms and Doorkeeper

A Comprehensive Approach to Security and Preparedness............    86
Additional Committee Questions...................................   109
Effect of Budgetary Freeze.......................................   102
Effects of Irradiation...........................................   104
GAO Computer Security Review.....................................   106
Information Technology...........................................    90
Judiciary Committee Probe........................................   104
Library of Congress Security.....................................   108
New Mail Handling Protocols......................................   104
New Telephone System.............................................   103
Operational Support..............................................    94
Security for Capitol Visitor Center..............................   108
Senate Computing Technology......................................   107
Staffing Levels..................................................   103
Status of Warehouse..............................................   102

                                   - 

</pre></body></html>
